No. 20In the

Supreme Court of the United States
KOBE,
Petitioner,
v.
BEVERLY BUSCEMI, EMMA FORKNER, KATHI LACY,
THOMAS WARING, JACOB CHOREY AND JUDY JOHNSON,
Respondents.

On Petition for Writ of Certiorari to the United States
Court of A ppeals for the Fourth Circuit

PETITION FOR A WRIT OF CERTIORARI

Patricia L. Harrison
Counsel of Record
Patricia L. Harrison, Attorney at Law
47 Rosemond Road
Cleveland, SC 29635
(864) 836-3572
pharrison@loganharrisonlaw.com
Counsel for Petitioner

301025

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED FOR REVIEW
Question 1. There is a split among the circuits regarding the interpretation and
enforcement of of 42 U.S.C. 1396a(a)(8) of the Medicaid Act, which requires that “all
individuals wishing to make application for medical assistance under the plan shall have
opportunity to do so, and that such assistance shall be furnished with reasonable promptness to
all eligible individuals.” In Olmstead v. L. C. by Zimring, 527 U.S. 581 (1999), this Court ruled
that the Americans with Disabilities Act requires public entities to provide services in the least
restrictive setting, and CMS regulations issued in 2014 at 42 C.F.R. 441.301 require states to
provide services in the setting chosen by the Medicaid participant.
Was summary judgment improperly granted to Respondents, who have for many years
refused to provide Kobe services in the least restrictive setting, in violation of the
reasonable promptness mandate at 42 U.S.C.S. § 1396a(a)(8) and the integration mandate
of the Americans with Disabilities Act at 28 CFR pt. 35, where Kobe requested those
services in both the original and amended complaints filed in 2011, in his motions for
summary judgment filed in 2012 and 2014 and at every annual support plan meeting?
Question 2. There is a split among the circuits as to whether 42 U.S.C. 1985(3), which
provides relief to persons injured by a civil conspiracy, is enforceable by persons who have
disabilities. The Fourth Circuit erroneously determined that Kobe suffered no injury from the
alleged conspiracy. This Court should rule upon the question of whether persons who have
intellectual or related disabilities who live in congregate settings constitute a protected class.
Does the record contain material facts showing that Kobe has suffered discrimination and
injury resulting from the Respondents’ longstanding civil conspiracy involving the
fraudulent diversion of state and federal Medicaid dollars that were appropriated by the
state and federal governments to the Respondent agencies for the purpose of providing
services in the least restrictive setting, where Petitioner has presented evidence of money
laundering, the submission of false claims to the federal government and spending
Medicaid funds for other unauthorized purposes in violation of 42 U.S.C. 1396n(c)(2)?
Are persons who have intellectual or related disabilities who live in congregate settings
entitled to protection from civil conspiracies under 42 U.S.C. 1985?

ii

PARTIES TO THE PROCEEDING
Kobe was the plaintiff-appellant in the proceedings below.
The South Carolina Department of Health and Human Services (SCDHHS) and its
director, Joshua Baker; the South Carolina Department of Disabilities and Special Needs
(SCDDSN) and its former director, Beverly Buscemi; the Richland Lexington Disabilities and
Special Needs Board (RichLex) and its former director, Mary Leitner; the Babcock Center; and
its former director Judy Johnson were defendants-appellees in the proceedings below in Counts
One, Two, Three and Four (the Americans with Disabilities Act and the Rehabilitation Act and
Section 1983). Respondent Buscemi has been succeeded by Mary Poole as Director of
SCDDSN, Mary Leitner has been succeeded by Stacy Johnson as Director of RichLex and Judy
Johnson has been succeeded by Thoyd Warren as Director of Babcock Center.
Beverly Buscemi, Emma Forkner, Kathi Lacy, Thomas Waring, Jacob Chorey and Judy
Johnson were individual defendants-appellees in the proceedings below in Count Five (Civil
Conspiracy).

iii
DIRECTLY RELATED PROCEEDINGS
Kobe v. Buscemi, 821 Fed. Appx. 180 (4th Cir. July 13, 2020). Affirmed without oral argument,
Diaz, Thacker and Traxler, Case Number 18-2505.
Kobe v. McMaster, 2018 U.S. Dist. LEXIS 215708 (D.S.C., December 19, 2018).
Reconsideration denied, Margaret B. Seymour, Case Number 3:11-cv-00146.
Kobe v. McMaster, 2018 U.S. Dist. LEXIS 55500 (D.S.C., Mar. 30, 2018). Summary Judgment
granted to Defendants, Margaret B. Seymour, Case Number 3:11-cv-01146.
Kobe v. McMaster, 137 S. Ct. 2270, 198 L. Ed. 2d 705, 85 U.S.L.W. 3587, 2017 WL 1365709
(June 19, 2017). Certiorari denied.
Kobe v. Haley, 666 Fed. Appx. 281, 2016 U.S. App. LEXIS 22283 (4th Cir. S.C., Dec. 15,
2016). Case No. 15-1419, Affirmed in part, reversed in part and remanded, Per Curium, Diaz,
Thacker and Traxler.
Kobe v. Haley, 2013 WL 4056335 (D.S.C. August 12, 2013). Rehearing denied, Margaret B.
Seymour, Case No. 3:11-cv-01146.
Kobe v. Haley, 2012 WL 3269221 (D.S.C., August 10, 2012). Summary Judgment granted to
Defendants, Margaret B. Seymour, Case No. 3:11-cv-01146.
Kobe v. Buscemi, 2020 U.S. App. LEXIS 25276 (4th Cir., August 10, 2020) (Per Curium,
rehearing denied, without oral argument by Diaz, Thacker and Traxler, Case Number 18-2505).

iv
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED FOR REVIEW ................................................................................i
PARTIES TO THE PROCEEDING ........................................................................................... ii
DIRECTLY RELATED PROCEEDINGS................................................................................. iii
TABLE OF CONTENTS ...........................................................................................................iv
TABLE OF AUTHORITIES ....................................................................................................... v
TABLE OF APPENDICES ........................................................................................................xi
OPINIONS BELOW ................................................................................................................... 1
JURISDICTION ......................................................................................................................... 1
RELEVANT CONSTITUTIONAL AND STATUTORY PROVISIONS .................................... 2
STATEMENT OF THE CASE ................................................................................................... 2
A.

Introduction ......................................................................................................... 2

B.

The Facts ............................................................................................................. 2

REASONS FOR GRANTING THE PETITION ........................................................................ 18
A.

B.

There is a Persistent Conflict in the Circuits ....................................................... 18
(1)

Reasonable Promptness Claims .............................................................. 18

(2)

Civil Conspiracy Claims ......................................................................... 25

The Fourth Circuit’s Decision is Factually Wrong and the Lower Court
Applied the Wrong Standard in Granting Summary Judgment ............................ 35

CONCLUSION ......................................................................................................................... 40

v
TABLE OF AUTHORITIES
Page(s)
Cases
Abrams v. 11 Cornwell Co.,
695 F.2d 34 (2d Cir. 1982) ............................................................................................ 26, 31, 32
Adickes v. S. H. Kress & Co.,
398 U.S. 144 (1970) .................................................................................................................. 39
Babcock Ctr., Inc. v. United States,
2013 WL 1857688 (S.C.D.C. 2013) ............................................................................................ 4
Ball v. Rodgers,
492 F.3d 1094 (9th Cir. 2007) ................................................................................................... 23
Bartell v. Lohiser,
215 F.3d 550 (6th Cir. 2000) ............................................................................................... 30, 31
Bertrand v. Maram,
495 F.3d 452 (7th Cir. 2007) ..................................................................................................... 22
Blessing v. Freestone,
520 U.S. 329 (1997) ...................................................................................................... 18, 19, 21
Boulet v. Cellucci,
107 F. Supp. 2d 61 (D. Mass. 2000) .......................................................................................... 24
Bowen v. Rubin,
2002 U.S. Dist. LEXIS 25283 (E.D.N.Y. 2002)......................................................................... 28
Bryson v. Shumway,
308 F.3d 79 (1st Cir. 2002) ................................................................................................. 18, 22
Cain v. Archdiocese of Kansas City, Kansas,
508 F. Supp. 1021 (D. Kan.)...................................................................................................... 32
D’Amato v. Wisconsin Gas Co.,
760 F.2d 1474 (7th Cir. 1985) ....................................................................................... 27, 28, 31
Davis v. Carroll,
805 Fed. Appx. 958, 964 (11th Cir. 2020) ................................................................................. 24
Doe ex rel. Doe v. Chiles,
136 F.3d 709 (11th Cir. 1998) ........................................................................................ 22, 23-24
Doe v. DHHS,
398 S.C. 62 (2011) .................................................................................................................... 10

vi
Doe v. Kidd I,
501 F.3d 348 (4th Cir. 2007), cert. denied, 128 S. Ct. 1483 (2008). .................................... passim
Doe v. Kidd II,
419 F. Appx. 411 (4th Cir. 2011)............................................................................................... 20
Doe v. Kidd III,
656 F.Appx. 643 (4th 2016) ................................................................................................ 10, 21
Fitzpatrick v. Town of Falmouth,
321 F. Supp. 2d 119 (D. Me. 2004) ............................................................................... 26, 32, 33
Freyre v. Hillsborough Co. Sheriff’s Office,
2014 U.S. Dist. LEXIS 66348 (M.D. Fla. 2014) ........................................................................ 33
Freyre v. Hillsborough County Sheriff's Office,
2014 WL 6885913 (M.D. Fla. 2014) ......................................................................................... 25
Frontiero v. Richardson,
411 U.S. 677 (1973) ............................................................................................................ 27, 28
Fry v. Napoleon Cmty. Sch.,
137 S. Ct. 743 (2017) ................................................................................................................ 10
Griffin v. Breckenridge,
403 U.S. 88 (1971) .............................................................................................................. 26, 27
Guggenberger v. Minnesota,
198 F. Supp. 3d 973 (D. Minn. 2016) ........................................................................................ 23
Hawkins v. HHS,
665 F.3d 25 (1st Cir. 2012) ....................................................................................................... 18
Henson v. City of Gadsden,
2014 U.S. Dist. LEXIS 87477, 2014 WL 2972938 (N.D. Ala. 2014) ............................. 25, 33, 34
Kobe v. Buscemi,
2020 U.S. App. LEXIS 25276 (4th Cir., August 10, 2020) .................................................... 1, 17
Kobe v. Buscemi,
821 F. Appx. 180 (4th Cir. July 13, 2020) ................................................................. 1, 17, 39, 40
Kobe v. Haley,
2012 U.S. Dist. LEXIS 112425 (D.S.C., Aug. 10, 2012) ........................................................... 16
Kobe v. Haley,
2012 WL 3269221 (D.S.C., August 10, 2012) .............................................................................1
Kobe v. Haley,
2013 U.S. Dist. LEXIS 113193 (D.S.C., Aug. 12, 2013) ........................................................... 16

vii
Kobe v. Haley,
2013 WL 4056335 (D.S.C. August 12, 2013) ..............................................................................1
Kobe v. Haley,
2014 U.S. Dist. LEXIS 139172 (D.S.C. 2014) ........................................................................... 35
Kobe v. Haley,
2015 U.S. Dist. LEXIS 198274 (D.S.C. 2015) ........................................................................... 36
Kobe v. Haley,
666 F. Appx. 281, 2016 U.S. App. LEXIS 22283 (4th Cir. S.C., Dec. 15, 2016) .............. 1, 14, 17
Kobe v. McMaster,
137 S. Ct. 2270, 198 L. Ed. 2d 705 (2017) (June 19, 2017) ................................................... 1, 17
Kobe v. McMaster,
2018 U.S. Dist. LEXIS 215708 (D.S.C., December 19, 2018) ..................................................... 1
Kobe v. McMaster,
2018 U.S. Dist. LEXIS 55500 (D.S.C., Mar. 30, 2018) ................................................................ 1
Kuerbitz v. Meisner,
2018 U.S. App. LEXIS 19007 (6th Cir. 2018) ........................................................................... 31
Lake v. Arnold I,
112 F.3d 682 (3d Cir. 1997) ................................................................................................ 29, 30
Larson ex rel. Larson v. Miller,
76 F.3d 1446 (8th Cir. 1996) ..................................................................................................... 32
Larson v. Miller,
55 F.3d 1343 (8th Cir. 1995) ............................................................................................... 31, 32
Legacy Cmty. Health Servs. v. Smith,
881 F.3d 358 (5th Cir. 2018) ..................................................................................................... 21
Lyles v. City of Riviera Beach,
166 F.3d 1332 (11th Cir. 1999) ................................................................................................. 35
Mandy R. ex rel. Mr. and Mrs. R. v. Owens,
464 F.3d 1139 (10th Cir. 2006) ................................................................................................. 23
Murphy v. Harpstead,
421 F. Supp. 3d 695 (D.Minn. 2019) ......................................................................................... 23
Nasello v. Eagleson,
977 F.3d 599 (7th Cir. 2020) ..................................................................................................... 22
New York v. 11 Cornwell, Co.,
508 F. Supp. 273 (E.D.N.Y. 1982) ............................................................................................ 26

viii
Okla. Chapter of the Am. Acad. of Pediatrics v. Fogarty,
472 F.3d 1208 (10th Cir. 2007) ................................................................................................. 23
Olmstead v. L.C. ex rel. Zimring,
527 U.S. 581 (1999) .............................................................................................................. 4, 40
Pashby v. Delia,
709 F.3d 307 (4th Cir. 2013) ..................................................................................................... 16
Romano v. Greenstein,
721 F.3d 373 (5th Cir. 2013) ............................................................................................... 21, 22
Rosie D. v. Romney,
410 F. Supp. 2d 18 (D. Mass. 2006) .......................................................................................... 24
Rosy D. v. Baker,
958 F.3d 51 (1st Cir. 2020) ....................................................................................................... 18
Sabree v. Richman,
367 F.3d 180 (3d Cir. 2004) .......................................................................................... 19, 22, 24
Salazar v. District of Columbia,
729 F. Supp. 2d 257 (D.C. Cir. 2010) ........................................................................................ 24
Salazar v. District of Columbia,
954 F. Supp. 278 (D.C.D.C. 1996) ............................................................................................ 24
Shakhnes v. Berlin,
689 F.3d 244 (2d Cir. 2012) ...................................................................................................... 18
Stogsdill v. DHHS,
410 S.C. 273 (S.C. Ct. App. 2007) ............................................................................ 4, 10, 16, 21
T.H. v. Dudek,
Case No. 0:12-cv-60460-CIV-ZLOCH ...................................................................................... 24
Thurman v. Med. Transp. Mgmt.,
___ F.3d ___, 2020 WL 7351089 (5th Cir. December 15, 2020) ................................................ 21
Trautz v. Weisman,
819 F. Supp. 282 (S.D.N.Y. 1993)...................................................................................... passim
Unan v. Lyon,
853 F.3d. 279 (6th Cir. 2020) .................................................................................................... 22
Waskul v. Washenaw Cty. Cmty. Mental Health,
979 F.3d 426 (6th Cir. 2020) ............................................................................................... 21, 22
Wilbourne v. Forsyth Cty. Sch. Dist.,
306 F. Appx. 473 (11th Cir. 2009)............................................................................................. 33

ix
Wilhelm v. Continental Title Co.,
720 F.2d 1173 (10th Cir. 1983), cert. denied, 465 U.S. 1103 (1984). ................................... 27, 32
Wilson v. Gordan,
822 F.3d 934 (6th Cir. 2016) ..................................................................................................... 31
Statutes and Other Authorities
U.S. Const., Amend. XIV ............................................................................................................2
28 U.S.C. § 1254(1) .................................................................................................................... 1
29 U.S.C. § 794....................................................................................................................... 2, 8
29 U.S.C. § 794a ......................................................................................................................... 2
42 U.S.C. § 12101 ................................................................................................................. 2. 34
42 U.S.C. § 12101(a)(7) ............................................................................................................ 30
42 U.S.C. § 12101(b)(4) ............................................................................................................ 28
42 U.S.C. § 12102 ....................................................................................................................... 2
42 U.S.C. § 12131 ....................................................................................................................... 2
42 U.S.C. § 12132 ................................................................................................................. 2, 28
42 U.S.C. § 12133 ....................................................................................................................... 2
42 U.S.C. § 12134 ....................................................................................................................... 2
42 U.S.C. § 12182 ..................................................................................................................... 28
42 U.S.C. § 1396(a)(a)(8) .......................................................................................................... 16
42 U.S.C. § 1396a(a) ................................................................................................................... 2
42 U.S.C. § 1396a(a)(3) ............................................................................................ 9, 10, 16, 23
42 U.S.C. § 1396a(a)(8) ..................................................................................................... passim
42 U.S.C. § 1396a(a)(10) .......................................................................................................... 23
42 U.S.C. § 1396a(a)(23) .......................................................................................................... 23
42 U.S.C. § 1396a(a)(43) .......................................................................................................... 24
42 U.S.C. § 1396d(a)(15) .......................................................................................................... 23
42 U.S.C. § 1396n(c)................................................................................................................... 2
42 U.S.C. § 1396n(c)(2)(c) ........................................................................................................ 23
42 U.S.C. § 1396n(d)(2)(c)........................................................................................................ 23

x
42 U.S.C. § 1983 ................................................................................................................ passim
42 U.S.C. § 1985 ............................................................................................................... 2, 9, 34
42 U.S.C. § 1985(3) ........................................................................................................... passim
28 C.F.R. § 35.130 ................................................................................................................ 2, 13
28 C.F.R. § 35.130(d)............................................................................................................ 4, 11
42 C.F.R. § 244(f) ....................................................................................................................... 9
42 C.F.R. § 431.10 ...................................................................................................................... 2
42 C.F.R. § 431.205 .................................................................................................................... 2
42 C.F.R. § 431.232 .................................................................................................................. 19
42 C.F.R. § 431.233 .................................................................................................................. 19
42 C.F.R. § 431.244 .................................................................................................................... 2
42 C.F.R. § 431.244(b).............................................................................................................. 19
42 C.F.R. § 431.244(d).............................................................................................................. 19
42 C.F.R. § 431.244(f) ........................................................................................................ 16, 18
42 C.F.R. § 431.245 .................................................................................................................. 19
42 C.F.R. § 435.911 ............................................................................................................ 19, 20
42 C.F.R. § 435.912(c)(3) ......................................................................................................... 22
42 C.F.R. § 435.930 .................................................................................................................. 19
42 C.F.R. § 435.930(a) .............................................................................................................. 19
42 C.F.R. § 440.169 ................................................................................................................ 2, 3
42 C.F.R. § 441.18 .................................................................................................................. 2, 3
42 C.F.R. § 441.301 .................................................................................................................... 2
42 C.F.R. § 441.301(c)(2)(i) ...................................................................................................... 15
42 C.F.R. § 441.301(c)(4) ......................................................................................................... 20
Fed. R. Civ. P. 56(a).................................................................................................................. 39
Ken Gormley, Private Conspiracies and the Constitution: A Modern Version of 42 U.S.C.
Section 1985(3), 64 Tex. L. Rev. 527 (1985) ............................................................................. 29
SMM § 2903.2(A)..................................................................................................................... 19

xi
TABLE OF APPENDICES
APPENDIX A
Kobe v. Buscemi, 821 Fed. Appx. 180 (4th Cir. July 13, 2020)
(Affirmed without oral argument, Diaz, Thacker and Traxler, Case Number 18-2505).
APPENDIX B
Kobe v. McMaster, 2018 U.S. Dist. LEXIS 215708 (D.S.C.,
December 19, 2018) (Reconsideration denied, Margaret B. Seymour, Case Number
3:11-cv-00146).
APPENDIX C
Kobe v. McMaster, 2018 U.S. Dist. LEXIS 55500 (D.S.C., Mar.
30, 2018) (Summary Judgment Granted to Defendants, Margaret B. Seymour, Case
Number 3:11-cv-01146).
APPENDIX D
Kobe v. McMaster, 137 S. Ct. 2270, 198 L. Ed. 2d 705, 85
U.S.L.W. 3587, 2017 WL 1365709 (June 19, 2017) (Certiorari denied).
APPENDIX E
Kobe v. Haley, 666 Fed. Appx. 281, 2016 U.S. App. LEXIS
22283 (4th Cir. S.C., Dec. 15, 2016) (Case No. 15-1419, Per Curium, Diaz, Thacker
and Traxler).
APPENDIX F
Kobe v. Haley, 2013 WL 4056335 (D.S.C. August 12, 2013)
(Rehearing denied, Margaret B. Seymour, Case No. 3:11-cv-01146).
APPENDIX G
Kobe v. Haley, 2012 WL 3269221 (D.S.C., August 10, 2012)
(Summary Judgment Granted to Defendants, Margaret B. Seymour, Case No.
3:11-cv-01146).
APPENDIX H
Kobe v. Buscemi, 2020 U.S. App. LEXIS 25276 (4th Cir.,
August 10, 2020) (Per Curium, rehearing denied, without oral argument by Diaz,
Thacker and Traxler, Case Number 18-2505).
APPENDIX I

Relevant Constitutional, Statutory and Regulatory Provisions

1
OPINIONS BELOW
The opinions of the court of appeals issued in Kobe II are not published, but are
available at Kobe v. Buscemi, 821 Fed. Appx. 180 (4th Cir. July 13, 2020) (Appendix
A), rehearing denied by Kobe v. Buscemi, 2020 U.S. App. LEXIS 25276 (4th Cir.,
August 10, 2020) (Appendix H). The orders of the district court reviewed by the
Fourth Circuit in Kobe II are available at Kobe v. McMaster, 2018 U.S. Dist. LEXIS
55500 (D.S.C., Mar. 30, 2018) (Appendix C) and reconsideration denied by Kobe v.
McMaster, 2018 U.S. Dist. LEXIS 215708 (D.S.C., December 19, 2018) (Appendix
B). The opinion of the court of appeals in Kobe I, Case Number 15-1419, is not
published, but is available at Kobe v. Haley, 666 Fed. Appx. 281, 2016 U.S. App.
LEXIS 22283 (4th Cir. S.C., Dec. 15, 2016) (Appendix E).
The opinion of this Court denying the Petition for writ of certiorari to the
United States Court of Appeals for the Fourth Circuit in Kobe I is available at Kobe v.
McMaster, 137 S. Ct. 2270 (June 19, 2017) (Appendix D). The opinions of the
district court reviewed by the Fourth Circuit in Kobe I are available at Kobe v. Haley,
2012 WL 3269221 (D.S.C., August 10, 2012) (Appendix G) and Kobe v. Haley, 2013
WL 4056335 (D.S.C. August 12, 2013) (Appendix F).
JURISDICTION
The court of appeals issued its opinon on July 13, 2020 and denied rehearing en
banc on August 10, 2020. Appendices A and H. This petition is filed within 150 days
of the latter date, pursuant to this Court’s Covid Order dated March 19, 2020. This
Court has jurisdiction pursuant to 28 U.S.C. § 1254(1).

2
RELEVANT CONSTITUTIONAL AND STATUTORY PROVISIONS
Relevant provisions of the Fourteenth Amendment of the United States
Constitution, the Rehabilitation Act at 29 U.S.C. § 794 and 29 U.S.C. § 794a, the
Medicaid Act, 42 U.S.C. 1396a(a) and 42 U.S.C. 1396n( c), the Civil Rights Act at 42
U.S.C.§ 1983 and 42 U.S.C. 1985(3), the Americans with Disabilities Act at 42
U.S.C. § 12101, 42 U.S.C. § 12102, 42 U.S.C. § 12131- 42 U.S.C. § 12134 and the
applicable implementing regulations at 28 C.F.R. § 35.130 (ADA), 42 C.F.R. §
431.10 , 42 C.F.R. § 431.205-42 C.F.R. § 431.244, 42 C.F.R. § 440.169, 42 C.F.R. §
441.18 and 42 C.F.R. § 441.301 (Medicaid Act) are reprinted in Appx. I.
STATEMENT OF THE CASE
A. Introduction
This case involves the interpretation and enforcement of the reasonable
promptness mandate of the Medicaid Act at 42 U.S.C. 1396a(a)(8) and Section 1985 of
the Civil Rights Act (Civil Conspiracy). Petitioner brought this case in 2011 under 42
U.S.C. 1983 to enforce the reasonable promptness mandate of the Medicaid Act,
seeking the timely provision of equipment and placement in a less restrictive setting
and enforcement of his Fourteenth Amendment due process rights. Kobe also alleged
an ongoing civil conspiracy wherein Respondents have diverted state funds and federal
Medicaid funds that have been allocated for the purpose of providing services to
qualified disabled persons in the least restrictive setting, instead spending those funds
for unauthorized purposes in violation of federal laws.
B. The Facts
Kobe is an adult who was born with severe cerebral palsy. He filed this lawsuit

3
in 2011, seeking, among other benefits placement in an apartment setting. Since birth,
Kobe has been unable to walk or to use his legs or hands, which must be strapped to
his wheelchair due to spasticity. Kobe is intelligent, although he cannot speak so that
others can understand him. Because Kobe was misdiagnosed by the schools as having
“mental retardation,” he was denied the opportunity to learn to read as a child.
When Kobe’s family home went into foreclosure, the state removed him at
age twenty-two, separating Kobe from his then toddler siblings. The state placed Kobe
in a “CTH II,” a group home operated by the Babcock Center, with house-mates who
have intellectual or other related disabilities, where he was subjected to abuse and
neglect. For decades, despite having intellectual capacity, Kobe has been treated as if
he is cognitively impaired.
Kobe receives services through the ID/RD Medicaid waiver program
(Intellectual Disabilities/Related Disabilities program, formerly called the “Mental
Retardation/Related Disabilities” program) operated by the South Carolina Department
of Disabilities and Special Needs (DDSN) under contract with the South Carolina
Department of Health and Human Services (DHHS), which is the agency responsible
for administration of all Medicaid programs. DDSN contracts with local DSN Boards,
such as the Richland/Lexington Disabilities and Special Needs Board (RichLex) to
provide case management services, as described in 42 C.F.R. 440.169 and 42 C.F.R.
441.18. Waiver participants are required to go through their DDSN-approved case
manager to access waiver services. See Affidavit at ECF 441-1 at 4874-4875. Kobe’s
case managers have all been employees of RichLex.

4
ID/RD waiver residential services are provided in a variety of settings
including, in order of restrictiveness (less to more restrictive): a waiver participant’s
own home, as in Stogsdill v. DHHS, 410 S.C. 273, 282 (S.C.Ct.App. 2007), a
Supervised Living Program ("SLP"), which is an apartment setting; a Community
Training Home I ("CTH I"), which is a foster home; or in a more restrictive
Community Training Home II ("CTH II"), a group home with up to three other persons
who have disabilities. Doe v. Kidd I, 501 F.3d 348, 351(4th Cir. 2007). In Olmstead v.
L.C. ex rel Zimring, 527 U.S. 581, 599-602 (1999), this Court held that treatment for
disabilities must be provided in the most integrated, least restrictive setting possible.
See also 28 C.F.R. § 35.130(d) (2013) ("A public entity shall administer services,
programs, and activities in the most integrated setting appropriate to the needs of
qualified individuals with disabilities.").
The Babcock Center is a private, nonprofit organization, which serves people
with mental retardation and related disabilities that is “mostly funded by grants from
the South Carolina Department of Disabilities and Special Needs ("SCDDSN").”
Babcock Ctr., Inc. v. United States, 2013 WL 1857688 (S.C.D.C. 2013). Hope Bridge
is a private provider of adult day health care services (ADHC) which are also funded
by Medicaid. When this lawsuit was filed, DDSN paid a capitated rate to Babcock
Center for Kobe’s ID/RD waiver services. Babcock Center was allowed to spend
Kobe’s allocated funds on his services - or not. Under the funding system in place
when this lawsuit was filed, Babcock Center could use funds received for waiver
participants for any purpose. Hope Bridge and other providers were required to provide

5
waiver services, then bill their competitor, Babcock Center, for those services.
Kobe’s only respite from this unconstitutional confinement at the Babcock
Center group home was to attend Hope Bridge, where he was taught to read as an adult
and the staff advocated for him. A Hope Bridge employee signed an affidavit stating
that when she visited Kobe at the Babcock Center group home: “staff was in your face
and followed me around with a camera and did not seem to want me to be comfortable
visiting him.” ECF 240-23, J.A. 3122.
Kobe was evaluated for a speech device in 2002 (ECF 155-3), 2008 (ECF
155-11), 2010 (JA 1064) and twice again, in 2011 (ECF 155-7, ECF 155-14), but the
device was never provided. Payment for the device would have been “bundled” into
payments for “residential habilitation” and come out of the capitated “band payment”
DDSN paid to Babcock Center. ECF 158-3 at J.A. 1447-1448 and 184-1 at J.A. 1660.
In August, 2010, a Hope Bridge employee reported to the South Carolina State
Law Enforcement Division (SLED) that Kobe had been left in bed at his Babcock
Center group home all weekend and that “he is often left in feces for long periods of
time.” ECF JA1625. The State Ombudsman investigator issued a report on October 22,
2010, reporting that it could not be determined how long Kobe had been left on the
gurney in the bathroom at his Babcock Center group home, but that Kobe needed to
have an assistive communications device (ADC) to prevent recurrance. 2010. ECF
181-3, JA1622. Kobe’s treating physician referred him for a speech evaluation on
December 7, 2010 (ECF 155-16) and a physician’s order was written for an evaluation
for a speech device on January 13, 2011. ECF 155-16. A physician signed a certificate

6
of medical necessity on May 23, 2011. ECF 155-15. These requests were made to
DDSN through Kobe’s case manager, but, still he did not receive the needed device. 42
C.F.R. 440.169 and 441.18.
After the Hope Bridge employee made this report of neglect to SLED, DDSN
Deputy Director, Kathi Lacy and DDSN employee Jacob Chorey, together with Judy
Johnson, who was the Director of Babcock Center, attempted to terminate the ADHC
services of Kobe and dozens of other Medicaid participants who attended Hope Bridge,
a program that competed with Babcock Center’s sheltered workshop programs. On
December 31, 2010, Lacy sent an email to case managers of Hope Bridge attendees,
complaining that “precious Medicaid dollars” were being expended on ADHC services
at Hope Bridge and on specialized medical equipment and assitive technology items
“that were extraordinarily excessive” after the Ombudsman reported the conditions at
Babcock Center and identified Kobe’s need for a speech device. 1 ECF155-34,
J.A.1315.

1

In January, 2010, DHHS and DDSN imposed drastic reductions on less restrictive services provided

in DDSN Medicaid waiver participants’ homes, claiming those reductions were necessary due to the
state having a tremendous budget crisis. Respondents have not challenged Petitioner’s evidence that
when DHHS and DDSN reduced acess to home-based services, the average annual per capita cost of the
ID/RD waiver program actually increased from $37,526 to $51,869, thereby increasing the total cost of
the program by more than $50 million. ECF 250-1 and 250-2. Respondents have also not presented
evidence to contradict Kobe’s claim that the State Comptroller reported that $225,945,013 in DHHS
state funds were allowed to “lapse” during FY 2010, thereby losing the then 80% federal match on those
funds. ECF 250-6 at 5 of 9. During this time, DDSN distributed millions of dollars of unauthorized

7
In April, 2011, Kobe’s case manager at RichLex sent form notices to Hope
Bridge terminating the ADHC services of Kobe and dozens of other participants,
without contacting the treating physicians who had ordered those services or sending a
notice of termination to Kobe. ECF 188-1, J.A. 1847-1848. To prevent Respondents
from terminating Kobe’s Hope Bridge services, he was forced to file an administrative
appeal with DDSN Director Buscemi within ten days of the notice being sent to Hope
Bridge. In that appeal, Kobe complained not only of the improper notice and
termination of Hope Bridge (ADHC) services. He also complained in the administraive
appeal of the failure to provide a speech device, speech services, physical and
occupational therapy, adult companion services and the failure to inform him of other
feasible alternatives under the Medicaid waiver program. ECF 237-13, J.A. 1981-1982.
Original Complaint at ECF 1. Kobe, together with two other waiver
participants whose Hope Bridge services had been terminated filed this lawsuit in
federal court on May 11, 2011. ECF 1. In the original complaint, in addition to
challenging the attempted termination of ADHC services, Kobe clearly and
unambiguously requested other services and equipment, specifically requesting
placement in a less restrictive apartment setting. The original complaint informed the
agencies that Kobe “would like to move from the group home where he lives into an
apartment, but the January 1, 2011 reductions in MR/RD Medicaid waiver services and
the method Defendants use to fund less restrictive placements prohibit him from
“loans” and funds to purchase real estate to Babcock Center and forgave millions of dollars of debt owed
by Babcock Center to DDSN, without authoriztion from the DDSN governing board. ECF 81-1.

8
moving to an apartment.” at ¶107. He specifically requested “services in a supervised
apartment setting...” at ¶108.
In Count One (Violation of 28 C.F.R. § 35.130 et. seq.), Kobe informed
Respondents of violations of the ADA by denying his requests for an
communications device and his choice to move to a less restrictive setting” on page 54
at ¶21. Kobe informed Respondents in May, 2011 that “Defendants have failed to
make reasonable modifications to the programs operated by SCDDSN which are
necessary for Plaintiffs to receive services in the least restrictive setting” in ¶22 of that
complaint.
Count Two alleged that in violation of the Rehabilitation Act (29 U.S.C. § 794 et. seq.):
“Defendants have failed to make reasonable modifications to home and community based waiver
programs to allow Plaintiffs and Class Members to receive ADHC services and other home and
community based waiver services so that they can successfully live in the least restrictive setting
appropriate to their needs” at ¶40. (Emphasis added.) In ¶43, Kobe alleged:
Defendants have also utilized criteria and methods of administration that subject
Plaintiffs to discrimination on the basis of disability including risk of unnecessary
institutionalization by 1. failing to assess properly the services and supports that would
enable Plaintiffs to live in the least restrictive setting 2. failing to ensure that Plaintiffs
have access to Medicaid-covered services that will meet their needs in the community
and 3. compelling health care providers to reduce or eliminate recommended ADHC
services thereby violating Section 504 and its implementing regulations. (Emphasis
added.)
The original complaint also alleged that: “Defendants have violated Section 504 by failing to
provide Kobe with an ACD and services in an apartment setting” at ¶46.
Kobe alleged in Count Three (Violation of Section 1983) of the original complaint, that
“Defendants have recklessly and callously refused to provide Kobe with an ACD and have

9
refused to provide him with the supports he would need to live in a less restrictive setting” at
¶56. He also alleged that the directors of DHHS, DDSN and Babcock Center “have violated
Kobe’s civil rights which are enforceable under 42 U.S.C. 1983 because they have failed to
provide him with an augmentative communications device (ACD) and residential services in a
less restrictive and more integrated setting with reasonable promptness.”
In Count Five (Civil Conspiracy, 42 U.S.C. §1985), Kobe alleged that the individual
defendants acted in a conspiracy to deprive Plaintiffs of “services which constitute a property
right in order to deprive them of constitutionally protected rights and priviledges” at ¶101. He
alleged that the purpose of the conspiracy was to deny plaintiffs ADHC “and other waiver
services they are entitled to receive in furtherance of the monopoly maintained by the Babcock
Center, SCDDSN and its local DSN Boards”at ¶102. The original complaint alleged that through
this conspiracy Defendants “proximately caused injury to Plaintiffs by denying services which
they need to live in the least restrictive setting in the community” at ¶107. Kobe claimed that
Defendants had “acted in concert to deprive Plaintiffs of benefits which they are entitled to
receive under the reasonable promptness (42 U.S.C. 1396a(a)(8)) and other provisions of the
Medicaid Act.
Kobe alledged that while these proceedings were being litigated in the federal court,
Respondents failed to act with reasonable promptness in his administrative appeal, as required
by § 1396a(a)(3), § 1396a(a)(8) and 42 C.F.R. § 244(f). His administrativeappeal filed on June 8,
2011was not ruled upon by the DHHS hearing officer until August, 2012. ECF 237-13 and
237-12, J.A. 1977. The fair hearing process in South Carolina is burdensome and lengthy. It
requires Medicaid waiver participants to request reconsideration from the director of DDSN,
then to file an appeal requesting a fair hearing from a DHHS hearing officer. Before seeking

10
state judicial review, the Medicaid participant must sludge through yet a third executive branch
agency, the South Carolina Administrative Law Court, which is not a court in the judicial
system. This process even reaching the state judicial system takes years.2
In Stogsdill v. DHHS, 410 S.C. 273 (S.C.Ct. Appeals 2014), the first judicial decision in
the administrative proceeding came only after five years of litigation, then the state appeals court
remanded his case back to the agency for an assessment of his needs, requiring Stogsdill to
initiate a third administrative appeal. In Doe v. DHHS, the plaintiff filed an administrative appeal
in 2005, which was not resolved in the state system until 2013, after the South Carolina Supreme
Court remanded her case in 2011. 398 S.C. 62 (2011). Doe’s administrative appeal was
remanded three times and the district court’s rulings were remanded three times. Doe v. Kidd III,
656 F.Appx. 643 (4th Cir. 2016). These cases and others document that the agencies persistently
disregard the reasonable promptness mandates of both §§ 1396a(a)(3) and 1396a(a)(8).
Amended Federal Complaint. In Kobe’s amended federal complaint filed on October
18, 2011, he again put the Respondents on notice of his request for placement in an apartment
setting. ECF 65. He complained that more than ninety days had passed since he requested and
was evaluated for a speech device and “the delay in providing the medically necessary
recommended device is unreasonable.” Id. at ¶26. Kobe clearly informed the Defendants and the
district court that he “would like to move from the group home where he lives into an apartment
in a less restrictive setting, but the ...method Defendants use to fund less restrictive placements
prohibit him from moving to an apartment.” Id. at ¶38. He complained that he was sequestered at

2

As determined in Doe v. Kidd I, supra, exhaustion of administrative remedies is not required in an action brought

under § 1983, nor is exhaustion required in ADA Title II cases. Fry v. Napoleon Cmty. Sch., 137 S. Ct. 743 (2017).

11
his group home for weeks when staff dropped him in his wheelchair, causing damage to the
wheelchair, injury to his head and psychological trauma.
Kobe described, in specific detail, in the amended complaint kickbacks and a pattern of
racketeering activity wherein hundreds of millions of dollars intended to provide services in the
least restrictive setting were being diverted by Defendants for unauthorized purposes, including,
but not limited to purchasing and increasing attendance at large, profitable sheltered workshops
where wiaver participants were isolated and segregated from non-disabled persons. ECF 65 at ¶¶
120-128, 143-148, 152-205, 243-255, 366-370.
In the amended complaint, Kobe alleged that waiver participants had been forced into
“inappropriate placements where their health and safety will be endangered at greater costs to
taxpayers of the State.” Id. at ¶ 275. He complained of the Defendants’ “failure to offer Plaintiffs
and Class Members services, including but not limited to ADHC services, to allow Plaintiffs to
live in integrated home and community-based settings” and that constituted “unlawful
discrimination in violation of Title II or the ADA and its implementing regulations at 28 C.F.R.
§ 35.130(d).” Id. at ¶281.
Kobe also specifically alleged that Defendants had violated the ADA by failing to make
reasonable modifications to their programs and “by denying Kobe’s requests for an ACD and his
choice to move to a less restrictive setting...” Id. at ¶ 280-281. Kobe repeated allegations in
Count Two (Rehabilitation Act) that Defendants failed to provide services in the least restrictive
setting, specifically complaining that “Defendants have violated Section 504 by failing to
provide Kobe with an ACD and services in an apartment setting...and other cost effective home
and community based services that allow participants to live in the least restrictive setting. Id. at
¶ 306.

12
In Counts Three and Four, Kobe alleged violations enforceable through §1983 of the
Medicaid Act, including the reasonable promptness provision at § 1396a(a)(8). At ¶ 318 Kobe
alleged that Defendants have “refused to provide Kobe with the supports he would need to live
in a less restrictive setting. Kobe alleged that Defendants denied services, “including but not
limited to ADHC services, which they are entitled to receive to enable them to live in the least
restrictive setting.” Id. at ¶ 327. The amended complaint alleges that Defendants failed to
inform waiver participants of “other feasible Medicaid services which they are entitled to receive
with reasonable promptness as is required by the Medicaid Act and its regulations. Id. at ¶ 333.
Kobe also alleged that Defendants violated his civil rights by failing to protect him from abuse
and neglect and failing “to provide him with an augmentative communications device (ACD)
and residential services in a less restrictive and more integrated setting with reasonable
promptness.” Id. at ¶ 338.
In Count Five, Kobe alleged that Defendants deprived them of “ADHC services and
other waiver services they are entitled to receive” through the illegal diversion of funds and that
“Defendants have proximately caused injury to Plaintiffs by denying services which they need to
live in the least restrictive setting in the community.”
On November 11, 2011, DHHS refused to process Kobe’s request for a speech device on
the grounds that was an adult “not involved in educational endeavors.” ECF 155-1, J.A. 896.
But, since 2009, Kobe had been requesting adult education services to improve his reading skills
that had not been provided. ECF 251-3, J.A. 3100 at ¶ 6.
On January 25, 2012, Kobe’s counsel informed DHHS counsel that “what it would take
for DHHS to settle this case now is for DHHS to agree to fund [Kobe’s] placement in SLP we
are developing for [name redacted] and another consumer, promptly [and] payng the cost of his

13
assistive communications device...” ECF 155-24, J.A. 1028. Kobe’s Support Plan, approved by
DDSN in April of 2012, included an eye-gaze communications device and a new wheelchair to
replace the malfunctioning wheelchair, which kept Kobe confined to bed for weeks when it was
not working. ECF 251-3, J.A. 1873.
Order in State Administrative Appeal. On August 9, 2012, more than a year after
Kobe filed this lawsuit and the administrative appeal, the DHHS hearing officer finally issued an
order concluding that Kobe and his co-plaintiffs were entitled to continue to receivve ADHC
services, and his administrative appeal was dismissed. ECF 237-12, JA1977. As a result of this
administrative appeal, DHHS was required to change the eligibility criteria for attending adult
day health care programs.3 ECF 237-9, J.A. 1964.
2012 Summary Judgment Motions. The parties filed cross motions for summary
judgment. Kobe’s summary judgment motion filed on December 28, 2012, specifically sought
placement in a less restrictive setting, either in his own home or an apartment setting, a
wheelchair and a speech device. ECF 155, JA867. He sought summary judgment in the district
court on his claims for violation of the reasonable promptness mandate and the integration
mandate of the ADA. 28 C.F.R. § 35.130.
In response to Respondents’ motions to dismiss and later, motions for summary
judgment, Kobe provided evidence in support of his conspiracy claim, documenting the misuse

3

Two weeks after Kobe’s administrative appeal was dismissed, DHHS denied Kobe’s request for a speech device.

Because of the delays in providing a fair hearing and obtaining judicial review in the fair hearing process, Kobe
elected to seek relief in the federal court litigation for claims of delays in providing equipment and placement in a
less restrictive setting.

14
of funds that had been paid to DDSN to provide services in the least restrictive setting. For
example, out of $10.5 million in state dollars paid to DDSN to provide services to children with
autism, the agency spent less than $700,000 actually providing those services, thereby losing
the federal match (then 70%) on the funds that were used for unauthorized purposes. Kobe
presented evidence of other state and federal funds being diverted for improper purposes. ECF
81-6 and ECF 81-7 at J.A. 523-524.
Kobe provided an affidavit signed by DDSN’s former internal auditor (ECF 158-18),
financial audits of Babcock Center indicative of kickbacks, and audits conducted by the South
Carolina Legislative Audit Council and the United States Department of Health and Human
Services Office of Inspector General reporting a total lack of accountability for funds provided
for services. He also provided affidavits, reports and audits documenting systemic abuse, neglect
and explotation of clients in DDSN programs. ECF 251-13 through 251-16, ECF 81-1 to 81-7.
In an attempt to moot Kobe’s claim that a speech device had not been provided,
Respondents arranged for a communications device to be “loaned” to Kobe some time in the
summer of 2013. Kobe v. Haley, 666 at 292. Kobe was not provided a speech device of his own
until just before the hearing on cross summary judgment motions on September 23, 2014.
2013 Support Plan. On October 1, 2013, DDSN approved Kobe’s support plan which
included the need for services to be provided in an apartment setting. That plan notified DDSN,
which approved the plan, that Kobe “wants to live in an apartment setting.” ECF 118-2 at J.A.
1877. It was the responsibility of the case manager to transmit the proposed plan to DDSN for
approval. That plan unambiguously identifies the need for “supports in place to be able to live in
an apartment setting” and that Kobe still had not been provided with a speech device or a
wheelchair. JA1877.

15
CMS “Final Rule.” On January 16, 2014, CMS, the federal Medicaid Agency
designated by Congress to administer all Medicaid programs issued regulations, referred to as
the “Final Rule” which clearly require states to provide Medicaid services in the setting chosen
by the participant. 79 Federal Register 2947, 42 C.F.R. 441.301(c)(2)(i).
Second Summary Judgment Motions. Kobe filed a second motion for summary
judgment on January 22, 2014, again providing the district court with evidence of kickbacks and
massive unauthorized diversions of funds, and systemic abuse and neglect in Babcock Center
programs. ECF 250. Kobe requested summary judgment on his claims for violation of the
reasonable promptness mandate, because the device provided was a “loaner,” he still had not
been provided with a wheelchair and he again notified the agencies of his entitlement to
residential services be provided in a less restrictive SLP setting (supervised apartment). ECF
250, at 28 of 34.
In a strange response to Kobe’s second summary judgment motion, DDSN District
Director John King, signed a sworn affidavit dated February 21, 2014, claiming that he had
searched DDSN’s records and that “no request for SLP services including an apartment had been
made to DDSN on behalf of Kobe.” ECF 264-1, J.A. 3591-3592. Thus, DDSN argued that
summary judgment should be granted to Respondents, because - nearly three years after this
lawsuit was filed - DDSN did not even know about Kobe’s request and the agency had not yet
“reached any conclusion either affirmative or negative about the possibility of an SLP placement
for Kobe.” ECF 264-1, JA3592.
King’s affidavit was clearly contradicted not only by Kobe’s original and amended
complaints that were served upon DDSN officials, placing Respondents on notice of Kobe’s
request for placement in a less restrictive setting, but also by Kobe’s DDSN approved 2013

16
Support Plan, the motions for summary judgment Kobe filed in 2012 and, again, in 2014 seeking
placement in an apartment setting, affidavits of Kobe and others documenting his requests for
placement in an apartment setting, and the communications of Kobe’s counsel with
Respondents’ counsel seeking such placement.
I

The widespread nature of the delays Kobe experienced in the administrative proceedings
were also documented in Stogsdill v. DHHS, in an administrative appeal that waiver participant
had filed in 2009. See Affidavit at ECF 441-1. On September, 10, 2014, the South Carolina
Court of Appeals ruled in that case that the caps DHHS had imposed on home-based services
violated the Americans with Disabilities Act. 410 S.C. 273 (S.C.Ct.App. 2014). In that case, the
state court adopted the Fourth Circuit’s ruling in Pashby v. Delia, holding that:
"budgetary concerns do not alone sustain a fundamental alteration defense. . . . We join
the Third, Ninth, and Tenth Circuits in holding that, although budgetary concerns are
relevant to the fundamental alteration calculus, financial constraints alone cannot sustain
a fundamental alteration defense."
709 F.3d 307, 323-24 (4th Cir. 2013). But, in Stogsdill, the South Carolina Court of Appeals
ruled that all 42 U.S.C. 1396a(a)(3) required was for the agency to provide a hearing, without
consideration of the reasonable promptness mandate of 42 U.S.C. 1396(a)(a)(8) or 42 C.F.R.
431.244(f). Seven years after Stogsdill filed his administrative appeal, the state court finally
declined to rule on his reasonable promptness claim. Stogsdill, 410 at fn. 6.
Kobe’s settled his state law claims against the Babcock Center and the district court
granted Respondents’ motions for summary judgment on all remaining claims. Kobe v. Haley,
2013 U.S. Dist. LEXIS 113193 (D.S.C., Aug. 12, 2013) and 2012 U.S. Dist. LEXIS 112425
(D.S.C., Aug. 10, 2012).
Kobe I Appeal. Kobe filed an appeal in the Fourth Circuit, which dismissed legislative

17
defendants, but reversed as to Kobe’s ADA and Rehabilitation Act claims against the Governor,
and the remaining claims in counts one through seven against the other agencies and officials
named as individual defendants. Kobe v. Haley, 666 F. Appx. 281 (4th Cir. 2016).
In that interlocutory order, the Fourth Circuit did not rule upon Kobe’s claim that
residential services had not been provided.4 Instead, in a footnote, the Fourth Circuit stated:
fn. 21 Appellants offer no challenge to the district court's ruling that their claim that
Kobe is entitled to be provided with an SLP is unripe. Nor do they challenge the ruling that
Appellants' claim demanding payment for the speech pathologist who evaluated Kobe and
provided him with speech services fell outside the scope of their complaint. We therefore do not
address those issues.
666 F.Appx. 281, fn. 21 (4th Cir. 2016).
On remand, the district court again granted summary judgment to all Defendants, except
the claims against the Governor, which were scheduled for trial. Kobe v. McMaster, J.A.49
(S.C.D.C. 2018). Prior to trial, Kobe settled his monetary damages claims against Governor
McMaster on July 2, 2018.
Kobe II Appeal. Kobe filed his second appeal to the Fourth Circuit July 31, 2018, and
oral arguments were scheduled, but later cancelled due to Covid. The Fourth Circuit
subsequently affirmed the decision of the district court without oral arguments. Kobe v.
Buscemi, 821 Fed. Appx. 180 (4th Cir. July 13, 2020). The Fourth Circuit denied Kobe’s
motion for en banc hearing in Kobe v. Buscemi, 2020 U.S. App. LEXIS 25276 (4th Cir., August
10, 2020).

4

This Court denied Kobe’s petition requesting certiorari in Kobe v. McMaster,137 S. Ct. 2270, 198 L. Ed. 2d 705

(2017).

18
E. Reasons for Granting the Petition
A. There is a Persistent Conflict in the Circuits
(1) Reasonable Promptness Claims
This Court should grant a writ of certiorari because there is a significant split among the
federal circuits regarding the interpretation and enforceablility of the Medicaid Act’s “reasonable
promptness mandate” at § 1396a(a)(8), as described below.
First Circuit. Applying this Court’s Blessing v. Freestone analysis set forth in 520 U.S.
329, 340 (1997), the First Circuit ruled in 2002 in Bryson v. Shumway that § 1396a(a)(8)
establishes a private right of action to enforce the reasonable promptness provision through a
lawsuit brought under § 1983. 308 F.3d 79, 89 (1st Cir. 2002). In Hawkins v. HHS, 665 F.3d 25,
34 (1st Cir. 2012), the First Circuit held that “reasonable promptness should be measured from
the time that services are requested...” and that “timeliness cannot be measured when services
are never measured or performed.”
More recently, the First Circuit held in Rosy D. v. Baker, 958 F.3d 51 (1st Cir. 2020) that
“The regulations and case law related to the Reasonable Promptness Provision do not provide a
clear answer to the question of what constitutes a violation of reasponable promptness.”
Second Circuit. In Shakhnes v. Berlin, 689 F.3d 244, 254 (2d Cir. 2012) the Second
Circuit recognized a private right of action to enforce §1396a(a)(8), but held that the 90 day
requirement in 42 C.F.R. 431.244(f) only applies to the timeliness requirement for the issuance
of a final administrative decision, not the provision of services. That court noted that “deference
is owed” to the State Medicaid Manual (SMM) published by CMS (ECF 411-9), and that a
remand “is not a substitute for definitive and final administrative action.” Shakhnes, 689 at 259.

19
See SMM § 2903.2(A). The Second Circuit acknowledged, however, that agencies must
5

“furnish Medicaid promptly to beneficiaries without any delay caused by the agency’s
administrative procedures.” 42 C.F.R. 435.930(a).
Third Circuit. Applying the Blessing test, the Third Circuit recognized a right of action
to enforce § 1396a(a)(8) under § 1983 in Sabree v. Richman, 367 F.3d 180, 189 (3d Cir. 2004).
Fourth Circuit. In 2007, the Fourth Circuit established a private right of action to
enforce 42 U.S.C. 1396a(a)(8) through § 1983 in Doe v. Kidd I, ruling that actual services (not
just a final decision) must be provided with reasonable promptness:
Section 1396a(a)(8) of the Act requires that state "medical assistance . . . be furnished
with reasonable promptness to all eligible individuals." Federal regulations direct state
agencies to determine an applicant's eligibility for Medicaid within ninety days of the
date of application and to "[f]urnish Medicaid promptly to recipients without any delay
caused by the agency's administrative procedures." 42 C.F.R. §§ 435.911, 435.930
(2002).
501 F.3d 348 354 (4th Cir. 2007). The Fourth Circuit held that neither the agencies’ attempt to
moot Doe’s federal lawsuit by terminating her eligibility nor the provision of residential services
in a group home successfully mooted Doe’s case and that DDSN and DHHS were obligated
under the Medicaid Act and its regulations to provide Doe with the needed services in the least
restrictive environment. Id. at 359. That court held that the “ongoing failure” of the agencies to
provide services in a less restrictive setting “is the same as a failure to provide any services.” Id.
at 417. Further, the Fourth Circuit noted that Congress did not establish a remedial scheme in the
Medicaid Act sufficient to foreclose enforcement under § 1983. Applying this Court’s Blessing
5

SMM 2903.2(A) provides:
2903.2 Hearing Decision And Notification to Claimant (42 CFR 431.232, 233, 244(b)and(d) and
431.245).-A.
General.--A conclusive decision in the name of the State agency shall be made by the
hearing authority...Remanding the case to the local unit for further consideration is not a substitute for
"definitive and final administrative action."

20
analysis, the Fourth Circuit ruled that:
First, the provision is expressly intended to benefit "all" individuals eligible for Medicaid
assistance, a group that, the parties do not dispute, includes Doe. See § 1396a(a)(8).
Second, the provision is not so "vague and amorphous" that the judiciary cannot
competently enforce it: the provision is clear that the standard for informing applicants of
their eligibility for Medicaid services is "reasonable promptness" and the relevant federal
and state regulations and manuals define reasonable promptness as forty-five days or
ninety days, depending on the applicant. See, e.g., 42 C.F.R. § 435.911; South Carolina
Medicaid Manual, cited at J.A. 242; United States Department of Health & Human
Services Center for Medicaid and State Operations, Olmstead Update No: 4, at J.A. 290.
Third, the provision uses mandatory rather than precatory terms: it states that plans
"must" provide for assistance that "shall" be delivered with reasonable promptness. See §
1396a(a)(8).

Id. at 356.
In Doe v. Kidd II, 419 Fed. Appx. 411, 415-416 (4th Cir. 2011), just two months before
Kobe filed this lawsuit, the Fourth Circuit reaffirmed that the Medicaid Act’s provisions are
“clear” that "[a] State plan for medical assistance must — provide that all individuals wishing to
make application for medical assistance under the plans shall have opportunity to do so, and
such assistance shall be furnished with reasonable promptness to all eligible individuals.”
This Court should note that a finding in Doe v. Kidd II, i.e. that the state statute giving
the Director of DDSN the authority to determine the setting in which services are provided, was
superceded in January, 2014 by CMS regulations at 42 C.F.R. 441.301(c)(4). DHHS
acknwledged in its waiver application submitted in 2017 that this federal regulation supercedes
the state statute and that now the setting must be “selected by the individual among options
including non-disability settings... ECF 412 at J.A. 4366 and 4368.
Despite this ruling, DDSN and DHHS continued to withhold residential habilitation
services that court had ordered the agencies to provide in 2011, until 2013 - for two and a half
years after the Fourth Circuit reversed the district court and granted Doe’s motion for summary

21
judgment. Doe v. Kidd III, 656 Fed. Appx. 643, 650 (4th Cir. 2016). (“In fact, the district court
determined that the defendants did not comply with this Court's order - or the Medicaid Act until August 2013, a full two and a half years after Doe II was decided.”).
In Stogsdill v. DHHS, 410 S.C. 273, fn. 6 (S.C.Ct.App. 2014), the South Carolina Court
of Appeals declined to rule on the plaintiff’s § 1396a(a)(8) reasonable promptness claims - more
than five years after Stogsdill attempted to enforce that provision in his administrative appeals.
That state court ruled that so long as a hearing is provided, Medicaid participants have no
remedy for due process violations in state proceedings, regardless of how many years the state
takes to issue an administrative decision, declining to consider § 1396a(a)(8).
Fifth Circuit. In Romano v. Greenstein, 721 F.3d 373, 377-79 (5th Cir. 2013), the Fifth
Circuit found § 1396a(a)(8) to be enforceable under § 1983. That opinion was noted in Legacy
Cmty. Health Servs. v. Smith, 881 F.3d 358 (5th Cir. 2018).
Then, in a polar opposite decision to Romano, in Thurman v. Med. Transp. Mgmt., ___
F.3d ___, 2020 WL 7351089*9 (5th Cir. December 15, 2020), the Fifth Circuit more recently
held that § 1396a(a)(8) does not “even come close to establishing the ‘unambiguously conferred
right’ necessary ‘to support a cause of action brought under § 1983.’”
Sixth Circuit. In Waskul v. Washenaw Cty. Cmty. Mental Health, 979 F.3d 426 (6th Cir.
2020), the Sixth Circuit recently held that the district court erred in dismissing plaintiffs’ claims
under § 1396a(a)(8) because that statute provided for a private right of action where Congress
did not foreclose relief or provide a comprehensive remedial scheme, and the Blessing factors
pointed in favor of finding an enforceable right:
Courts can easily determine whether individuals have been given the opportunity to
apply for medical assistance by looking to the face of a state's Medicaid plan, records
supplied by agencies and recipients, and witness testimony. And the regulations make

22
clear that the standard for "reasonable promptness" is within at least forty-five or ninety
days, depending on the basis for an individual's application. See 42 C.F.R. §
435.912(c)(3); see also Romano, 721 F.3d at 378-79; Doe v. Kidd, 501 F.3d 348, 356
(4th Cir. 2007); Doe ex rel. Doe v. Chiles, 136 F.3d 709, 716-17 (11th Cir. 1998).
The Sixth Circuit held that exhaustion of administrative remedies is not required. Id.
In Unan v. Lyon, 853 F.3d. 279, 284, 294 (6th Cir. 2020), that circuit found a private right
of action, reversing the district court’s grant of summary judgment on the § 1396a(a)(8) claims.
Seventh Circuit. In Nasello v. Eagleson, 977 F.3d 599, 602 (7th Cir. 2020), the Seventh
Circuit recognized that other courts of appeals have held that § 1396a(a)(8) can be enforced in
private suits, citing Romano v. Greenstein, 721 F.3d 373, 377-79 (5th Cir. 2013); Doe v. Kidd,
501 F.3d 348, 355-57 (4th Cir. 2007); Sabree v. Richman, 367 F.3d 180, 189-93 (3d Cir. 2004);
Bryson v. Shumway, 308 F.3d 79, 88-89 (1st Cir. 2002); Doe v. Chiles, 136 F.3d 709, 715-19
(11th Cir. 1998). But, that court noted that in Bertrand v. Maram, 495 F.3d 452 (7th Cir. 2007),
the Seventh Circuit expressed “skepticism about this line of decisions, which is hard to reconcile
with the Supreme Court's post-Wilder doctrine—and multiple decisions since 2007 (such as
Armstrong and Astra USA) make it even harder to imply a private right of action.” Id. In
Bertrand, to avoid creating a conflict among the circuits, the Seventh Circuit “assumed for the
sake of argument that such a private right exists and resolved the case for defendants on the
merits.” The Nesallo court took the same path again in 2020 “without suggesting that we would
follow the other circuits if push came to shove.”6 977 F.3d 602.
6

In Waskul v. Washtenaw Cty. Cmty. Mental Health, 979 F.3d 426, fn. 11 (Sixth Circuit 2020), a majority of the

panel criticized Nasello’s suggestion that § 1396a(a)(8) does not imply a private right of action, finding that “its
reasoning is inconsistent with our caselaw and that of our sister circuits' and [that it] appears to rule out a private
right of action even in subsections of the Medicaid Act that the dissent agrees create a private right of action .

23
Eighth Circuit. The Eighth Circuit has not clearly ruled on the issue of whether §
1396a(a)(8) is enforceable by Medicaid recipients under § 1983. However, the district court
adopted its analysis and holding in Guggenberger v. Minnesota, 198 F. Supp. 3d 973, 1006-07,
1022 (D. Minn. 2016), and continued to find that both §§ 1396a(a)(8) and 1396a(a)(3) are
privately enforceable. Murphy v. Harpstead, 421 F. Supp. 3d 695 (D.Minn. 2019) As the court
noted in Guggenberger, "[t]he enforceability of a particular Medicaid Act must be independently
assessed by the Court; the fact that one provision fails to establish a private cause of action does
not govern the enforceability of a separate and distinct provision." 198 F. Supp. 3d at 1006.
Ninth Circuit. The Ninth Circuit does not appear to have ruled directly on the question
of whether § 1396a(a)(8) creates a private right of action enforceable under §1983. In Ball v.
Rodgers, 492 F.3d 1094, 1109 (9th Cir. 2007) in deciding whether 1396a(a)(23) creates a private
right of action, the Ninth Circuit noted that “like the language of §§ 1396a(a)(8), 1396a(a)(10),
1396a(a)(23), and 1396d(a)(15), the language of §§ 1396n(c)(2)(C) and (d)(2)(C) satisfies the
‘rights-creating’ standard set forth in Gonzaga, and thus clears the first hurdle of the Blessing
framework.” But, the district court below had dismissed the plaintiffs claims brought §
1396a(a)(8) and the Medicaid beneficiaries never appealed that decision, so the Ninth Circuit
declined to rule upon that question.
Tenth Circuit. In Okla. Chapter of the Am. Acad. of Pediatrics v. Fogarty, 472 F.3d
1208, 1212, fn. 1 (10th Cir. 2007), as in Mandy R. ex rel. Mr. and Mrs. R. v. Owens, 464 F.3d
1139, 1143 (10th Cir. 2006), the Tenth Circuit assued, without deciding that § 1983 gives the
plaintiffs a right of action to enforce the reasonable promptness mandate.
Eleventh Circuit. The Eleventh Circuit held that § 1396a(a)(8) is enforceable by
Medicaid recipients under § 1983 in Doe ex rel. Doe v. Chiles, 136 F.3d 709, 714 (11th Cir.

24
1998). The existence of a private right of action to enforce § 1396a(a)(8) was reinforced recently
in Davis v. Carroll, where that circuit recognized: “To be sure, we have identified "a federal
right to reasonably prompt provision of assistance under section 1396a(a)(8) of the Medicaid
Act." 805 Fed. Appx. 958, 964 (11th Cir. 2020).
It is notable that the United States Department of Justice filed a statement of interest in
the district court in the Florida district court in 2012 in T.H. v. Dudek, where DOJ argued:
Plaintiffs have also stated a valid claim for violation of the “reasonable promptness”
provision of the Medicaid Act, which requires that Medicaid-eligible individuals receive
medical assistance with reasonable promptness. See 42 U.S.C. § 1396a(a)(8).
Defendants argue that a “reasonable promptness” claim is available only where there has
been an outright denial of all services or extended delay in the provision of medically
necessary services. (Defs.’ Mot. at 16). State Medicaid programs must, however,
provide all medically necessary services with reasonable promptness. Boulet v.
Cellucci, 107 F. Supp. 2d 61, 79 (D. Mass. 2000) (holding that medical assistance must
correspond to the individual’s needs and the requirement of reasonable promptness is
“not satisfied by other services the plaintiffs are receiving or might be offered”). The
provision of some services does not relieve Defendants of their duty to provide all
medically necessary services with reasonable promptness. See id.; Rosie D. v. Romney,
410 F. Supp. 2d 18, 27-28 (D. Mass. 2006) (finding that a violation of the requirement of
reasonable promptness may occur where plaintiffs are denied access to services that
correspond with their needs).
Case No. 0:12-cv-60460-CIV-ZLOCH, Statement of Interest of DOJ dated June 28, 2012.
D.C. Circuit. In determining that § 1396a(a)(43) “unambiguously confers rights which
plaintiffs can enforce,” in Salazar v. District of Columbia, 729 F. Supp. 2d 257, 267 (D.C.Cir.
2010), the D.C. Circuit noted that “Courts have found that surrounding provisions both do
support a private right of action,” citing Sabree, 367 F.3d at 182. Previously, in Salazar v.
District of Columbia, 954 F. Supp. 278, 334 (D.C.D.C. 1996), the district court held that the
District of Columbia violated the reasonable promptness provision of the Medicaid Act, and that
violation was enforceable under 42 U.S.C. § 1983.
§ 1983 Conclusion. This Court should grant the petition for writ of certiorari because

25
there is a clear split among the circuits as to the enforceability and interpretation of §1396a(a)(8)
and resolution is necessary to establish uniform enforcement of the federal Medicaid program.
Enforcement is needed to prevent the states from denying, delaying or simply dragging their
feet, as Respondents have done in this case, and failing to respond promptly to participant’s
requests for services in less-profitable non-congregate settings, allowing the state to maintain the
status quo and to keep their beds full. These violations have allowed the Respondents to
perpetually deny needed services based solely on costs and have forced waiver participants into
unsafe congregate residential programs and sheltered workshops. ECF 250-14.
The failure to enforce this provision has resulted in South Carolina treating Medicaid
funds as “free money” without a corresponding obligation to provide services in compliance
with the Medicaid Act and the integration mandate of the ADA. Enforcement of this section is
fiscally sound. The Court should grant certiorari and give affected entities and the Department of
Justice the opportunity to weigh in on this important issue.
(2) Civil Conspiracy Claims
This Court has also not ruled upon the issue of whether disabled persons constitute a
class entitled to the protection of 42 U.S.C. § 1985(3) and there is a spit among the circuits. As
noted by the district court in Freyre v. Hillsborough County Sheriff's Office, 2014 WL
6885913*13 (M.D. Fla. 2014): "Circuit courts that have ruled on the question are split, with the
Second, Third, and Eighth Circuits holding they are, and the Sixth, Seventh, and Tenth Circuits
holding they are not." Id.) In Henson v. City of Gadsden, 2014 U.S. Dist. LEXIS 87477, at *8,
2014 WL 2972938 (N.D. Ala. 2014), the court refrained from a “rush to judgment” on the issue.
First Circuit. The First Circuit has not ruled upon the issue , however, the district court
in Maine followed the reasoning of the circuits which have found persons who have disabilities

26
to be protected under § 1985(3). In Fitzpatrick v. Town of Falmouth, the district court found that
a home-schooled child diagnosed with Asperger’s Syndrome who was denied permission to play
on the playground during the school day could proceed with his federal conspiracy claim. 321 F.
Supp. 2d 119 (D.Me. 2004).
Second Circuit. In Abrams v. 11 Cornwell Co., 695 F.2d 34 (2d Cir. 1982), the Second
Circuit affirmed the lower court’s ruling that “mentally retarded” persons constitute a class for
purposes of Section 1985(3). New York v. 11 Cornwell, Co., 508 F.Supp. 273 (E.D.N.Y. 1982).
As the Second Circuit pointed out, flexibility in interpreting section 1985(3) has been
demonstrated in a number of contexts, and since Griffin v. Breckenridge, 403 U.S. 88, 91 (1971),
courts have been generous in applying § 1985(3) to nonracial classifications, even though some
of the classifications would not receive strict scrutiny under the equal protection clause. Abrams
v. 11 Cornwell Company, 695 F.2d at 42 (collecting cases). The court noted that discrimination
against persons who are “mentally retarded” - “people who usually through no fault of their own,
but who, from a variety of causes ranging from the congenital to the viral or traumatic cannot
help their condition -- is invidious.”
Eleven years later, in Trautz v. Weisman, the district court for the Eastern District of New
York noted that there are no precise parameters defining the boundaries of "class" within the
meaning of section 1985(3): "The best that can be said of § 1985(3) jurisprudence thus far is that
it has been marred by fits and starts, plagued by inconsistencies, and left in flux by the Supreme
Court." 819 F. Supp. 282, 291 (S.D. N.Y. 1993). The Trautz court found that:
The history of discrimination against individuals with disabilities, while less noted than
racial or sex discrimination, is no less a story of a group that has traditionally suffered not
only physical barriers but the badge of inferiority emplaced by a society that often shuns
their presence.

27
Trautz, 819 F. Supp. at 294-95. The Trautz court ruled that “Section § 1985(3) clearly provides a
remedy for conspiracies to deprive persons of their rights under the United States Constitution”
and that the Supreme Court’s ruling in Griffin v. Breckenridge, 403 U.S. 88, 102-03(1971) “left
open the possibility that § 1985(3) emcompasses more than simply racial animus.” Thus,
protection under § 1985(3) was extended to the "’discrete and insular’ minorities who receive
special protection under the equal protection clause because of inherent personal characteristics.”
Trautz, 819 F.Supp. at 292. Like Kobe, the Trautz plaintiffs alleged that the defendants “targeted
them in their scheme at least in part because of their disability status.”
The Trautz court considered and analyzed the cases that explicitly held that disabled
individuals do not constitute a "class" under § 1985(3). In D'Amato v. Wisconsin Gas Co., 760
F.2d 1474, 1486-87 (7th Cir. 1985), the Seventh Circuit ruled that the “legislative history of
Section 1985(3) does not suggest a concern for the handicapped,"Wilhelm v. Continental Title
Co., 720 F.2d 1173, 1176-77 (10th Cir. 1983), cert. denied, 465 U.S. 1103 (1984). Having
considered decisions of other courts, the Trautz court concluded that disability “remains an
inherent personal characteristic,” and that the “fact that an individual may ‘overcome’ a
disability, if able, only underscores the fact that a disability by its very nature is an immutable
obstacle often created only by an accident of birth, not unlike race, gender, or national origin,
which cannot be erased, but must be surmounted.” Trautz, 819 F.Supp. at 292.
Trautz also took into consideration Frontiero v. Richardson, 411 U.S. 677, 682 (1973),
where the Supreme Court ruled that classifications based on gender are inherently invidious:
...sex, like race or national origin, is an immutable characteristic determined solely by the
accident of birth, the imposition of special disabilities upon the members of a particular
sex because of their sex would seem to violate "the basic concept of our system that legal
burdens should bear some relationship to individual responsibility."

28
Id. at 686. The court distinguished the cases of discrimination against disabled persons who live
in a group home from cases “arising in the work setting where disability is sometimes related to
a person's ability to perform a given task.” Id.
To the extent that cases such as D'Amato rely upon conclusions that people with
disabilities are not a class historically discriminated against, the Trautz court found them
“undercut by the ADA, and history” because:
One of Congress' avowed purposes was to "invoke the sweep of congressional authority,
including the power to enforce the fourteenth amendment and to regulate commerce, in
order to address the major areas of discrimination faced day-to-day by people with
disabilities." 42 U.S.C. § 12101(b)(4). HN25 Title II prohibits public entities, see 42
U.S.C. § 12132, and public accommodations, see 42 U.S.C. § 12182, from discriminating
against persons by reason of their disabilities.
Because the finding that disabled persons constitute a class covered under Section 1985(3) “does
not clearly run afoul of the statute's express language or its present parameters,” its application is
not limited to cases of racial discrimination. It. That court refused to “graft such a limitation onto
it, truncating its sweep, when comparable Reconstruction civil rights legislation such as the
equal protection clause of the fourteenth amendment have no such boundaries.” Id.
The Trautz court declared that to read the ADA and § 1985(3) “in a consistent,
harmonious fashion,” it must conclude that individuals with disabilities qualify as a protected
class under § 1985(3). Like Kobe, the plaintiffs in Trautz were “ill equipped to thwart” the
defendants’ fraudulent schemes “or were “hesitant to complain about their living conditions and
treatment.” In denying the defendant’s motion to dismiss, the court held that “a class of
individuals with disabilities may be protected by § 1985(3).” Trautz, 819 F.Supp 2d at 293.
In Bowen v. Rubin, the New York district court found that persons living in group homes
are entitled to protection under § 1985(3). 2002 U.S. Dist. LEXIS 25283 (E.D.N.Y. 2002). The

29
court found that the "aimed at" requirement of § 1985(3) “does not require an allegation that the
defendants knew their conduct violated a particular requirement of law, that is, that they had
specific intent to violate the law, but only that the defendants' "purpose" be invidious
discrimination against the plaintiffs and that the violation of the predicate right not be merely
incidental to the purpose of the defendants.” Id. A plaintiff need not prove hatred or malicious
motivation to be protected under § 1985(3), but may demonstrate animus “based upon
paternalistic concerns for the class discriminated against.” Id. As in Kobe, the defendants ther
had targeted disabled persons living in a group home by very reason of their disability. Id.
Third Circuit. The leading case in the Third Circuit on this issue is Lake v. Arnold,
where that circuit ruled that a woman with intellectual disabilities represented a “cognizable
class entitled to protection” under § 1985(3) for conspiracy where she was deprived of her right
to procreate because she was “mentally retarded.” Lake v. Arnold I, 112 F.3d 682 (3d Cir.
1997). The Third Circuit ruled in that case that “the scope of section 1985(3) is not fixed as of
any given point in time, but must be subject to reinterpretation as times and circumstances
require.” That court explained that: "equality . . . is a frail, tenuous and changing notion, which
does not sit still . . . [but] moves in unpredictable waves with the shifting tides of history." Ken
Gormley, Private Conspiracies and the Constitution: A Modern Version of 42 U.S.C. Section
1985(3), 64 Tex. L. Rev. 527, 550 (1985). In order "[t]o ensure that private conspirators do not
strip other citizens of the equal protection of the laws, we must be particularly concerned with
those discrete and insular minorities who have traditionally borne the brunt of prejudice in our
society." Id. at 575.
The court examined the language and intent of § 1985(3), in light of “recent recognition
of current and historic prejudice directed toward the handicapped,” and determined that

30
“[d]iscrimination based on handicap, including mental handicap, like that based on gender, often
rests on immutable characteristics which have no relationship to ability.” The court declared
such discrimination to be “invidious and ...[that] the reach of section 1985(3) is sufficiently
elastic that the scope of its protection may be extended.” In reaching that conclusion, the court
was influenced by Congress’ statement in enacting the Americans With Disabilities Act
declaring that:
Individuals with disabilities are a discrete and insular minority who have been faced with
restrictions and limitations, subjected to a history of purposeful unequal treatment, and
relegated to a position of political powerlessness in our society, based on characteristics
that are beyond the control of such individuals and resulting from stereotypic
assumptions not truly indicative of the individual ability of such individuals to participate
in, and contribute to, society.
Id. at 688, citing 42 U.S.C. § 12101(a)(7). Thus, the history of discrimination against persons
who have disabilities, “while less noted than racial or sex discrimination, is no less a story of a
group that has traditionally suffered not only physical barriers but the badge of inferiority
emplaced by a society that often shuns their presence.” Id., citing Trautz, 819 F. Supp. at 294-95.
Discrimination against persons Kobe, who bear no responsibility for their disability is
“incompatible with our ideals of equality.” Id. The Third Circuit was convinced that “whatever
the outer boundaries of the concept,” an animus directed against them includes the elements of a
'class-based invidiously discriminatory' motivation” that entitles disabled persons to protection
under 42 U.S.C. 1985(3). Id. at 688.
Fifth Circuit. The Fifth Circuit does not appear to have ruled on the issue of whether
persons who have disabilities are protected under §1985(3).
Sixth Circuit. The Sixth Circuit split from other circuits in Bartell v. Lohiser, a case
involving the parental rights of a person who had intellectual disabilities. 215 F.3d 550, 559 (6th

31
Cir. 2000). The Six Circuit held that § 1985(3) "does not cover claims based on disability-based
discrimination or animus.” Id. This ruling was affirmed in 2018 in Kuerbitz v. Meisner, 2018
U.S. App. LEXIS 19007 (6th Cir. 2018), without further analysis of Bartell.
But, in Wilson v. Gordan, Medicaid applicants alleged that delays in processing their
applications violated 42 U.S.C.S. § 1396a(a)(8), and the Sixth Circuit held that the case was not
mooted when the applicants obtained relief because the "inherently transitory" exception to
mootness applied. 822 F.3d 934 (6th Cir. 2016). The Sixth Circuit held that plaintiffs were
likely to succeed on the merits.
Seventh Circuit. In D’Amato v. Wisconsin, an employee, whose job required him to go
into high places, was diagnosed is acrophobia and he brought an action alleging wrongful
discharge and violation of § 1985(3). 760 F.2d 1474 (7th Cir. 1985). The Seventh Circuit found
no right to enforce § 1985(3) because handicaps are “a condition that may be overcome,
depending on the individual and on the handicap” and “the severity with which a handicap
affects a person varies from individual to individual.”7 Id.
Eighth Circuit. In Larson v. Miller, a young girl with disabilities was allegedly sexually
assaulted by a driver of a school bus and the jury returned both compensatory and punitive
damages. 55 F.3d 1343 (8th Cir. 1995). The Eighth Circuit initially adopted a broad view of §
1985(3)'s animus requirement, finding that the required animus included women and the
disabled. The panel held that “§ 1985(3)'s reach extends beyond racial animus," and that "the
statute's legislative history . . . reveals a broader congressional intent to extend § 1985(3)'s sweep

7

The Second Circuit in People by Abrams v. 11 Cornwell Co., 695 F.2d 34, 42-43 (2d Cir. 1982), considered and

rejected D’Amato’s holdings as unconvincing, and the court in Trautz v. Weisman case agreed. 819 F.Supp at 293.

32
to diverse classifications beyond race . . . ," id. at 1351-52. Subsequently, sitting en banc, the
Eighth Circuit granted rehearing and vacated that panel's decision, without reaching the issue of
the scope of animus contemplated in § 1985(3). See generally Larson ex rel. Larson v. Miller, 76
F.3d 1446 (8th Cir. 1996). Instead, the en banc panel found that the evidence in the case was
insufficient to support the jury's verdicts.
Ninth Circuit. The Ninth Circuit does not appear to have ruled on the issue of whether
persons who are disabled are entitled to protection under § 1985(3).
Tenth Circuit. In Cain v. Kansas City,” the Kansas district court declined to enlarge the
ambit of § 1985(3) cases to include a conspiracy allegedly motivated by disability
discrimination. That court held instead that because "(t)he circuit court cases which have
recognized under § 1985, classes which are not racially based, [they] have stayed close to the
areas protected by the First Amendment." Id. The Second Circuit criticized this case, finding that
the analysis was “scant,” and determined it to be “unconvincing” and that it did not foreclose the
issue. Abrams v. 11 Cornwell Co., 695 F.2d 34 (2d Cir. 1982).
Two years later, in 1983, in Wilhelm v. Continental Title Co., 720 F.2d 1173(10th Cir.
1983), the Tenth Circuit again concluded that a class of "handicapped persons" was not in the
contemplation of Congress in 1871, so that those persons with disabilities could not be included
as a class in what is now § 1985(3). Id., citing Cain v. Archdiocese of Kansas City, Kansas, 508
F. Supp. 1021 (D. Kan.).8
8

Wilhelm was criticized by the Maine district court in Fitzpatrick v. Town of Falmouth, 321 F. Supp. 2d 119, 124

(D.C.Me. 2004). In Trautz v. Weisman, the district court rejected Wilhelm as having “no relevance to the present
case which is unrelated to the employment setting.” 819 F.Supp. at 293. That court held that “a class of disabled
individuals may fall within § 1985(3)'s protective ambit does not clearly run afoul of the statute's express language

33
Eleventh Circuit. The Eleventh Circuit does not appear to have determined whether
persons with disabilities may be protected under § 1985(3), however in Lyles v. City of Riviera
Beach, 166 F.3d 1332 (11th Cir. 1999), that court held that the “animus” requirement is not
limited to “maliciously motivated, as opposed to assertedly benign (though objectively
invidious), discrimination against women.”
In Freyre v. Hillsborough Co. Sheriff’s Office, 2014 U.S. Dist. LEXIS 66348, fn. 10
(M.D.Fla. 2014), the court ruled that “the question of whether the class of physically
handicapped individuals is sufficiently suspect to support a § 1985(3) claim ... need not be
reached.” That same year, in Henson v. City of Gadsden, 2014 U.S. Dist. LEXIS
87477(M.D.Ala. 2014), the plaintiff alleged that he was not hired “on account of his Type I
diabetic condition” and that his equal protection rights were protected under 42 U.S.C. §
1985(3). Henson acknowledged that:
The United States Court of Appeals for the Eleventh Circuit has not specifically
addressed whether the protected class of disability is covered for the purposes of 42
U.S.C. § 1985(3). The Second and Eighth Circuits have extended 42 U.S.C. § 1985(3)'s
protection to disability discrimination; however Plaintiff acknowledges a circuit split
exists in that Seventh and Tenth Circuits have not provided such coverage. See
Fitzpatrick v. City of Falmouth, 321 F. Supp. 2d 119, 124 (D. Me. 2004). The Eleventh
Circuit has only grazed the issue of disability discrimination in light of 42 U.S.C. §
1985(3) in Wilbourne v. Forsyth Cty. Sch. Dist., 306 Fed. Appx. 473, 477-78 (11th Cir.
2009), wherein the claim was dismissed on grounds not related to the issue of coverage.
The district court determined in that case that “there is no reason ...to "rush to judgment" or to
attempt to predict what the Eleventh Circuit will ultimately decide about the merits of a
or its present parameters.” Id. Because the statute's language did not “expressly limit its application to cases of racial
discrimination,” that district court refused to “graft such a limitation onto it, truncating its sweep, when comparable
Reconstruction civil rights legislation such as the equal protection clause of the fourteenth amendment have no such
boundaries.” Id. at 294.

34
disability conspiracy claim, especially when that court may expressly address the issue in a
published opinion during the pendency of this case.” Id.
§ 1985 Summary. The Court should grant certiorari, because there is a split in the
circuits on the issue of whether persons who have disabilities are protected against civil
conspiracies under § 1985(3). The scope of the protected class is also an issue of tremendous
public importance to the most vulnerable citizens of the United States. Kobe does not ask the
Court to determine that every person who has a disability is entitled to relief under § 1985. Kobe
proposes a narrower class of persons with intellectual or related disabilities living in congregate
facilities. The record clearly demonstrates continued pervasive discrimination against persons
who have intellectual or related disabilities, as recognized by Congress’ extensive findings and
purpose set forth in 42 U.S.C. § 12101 passing the ADA. The Director of Protection &
Advocacy for South Carolinians with Disabilities, Inc. introduced that organization’s report on
the conditions of DDSN congregate facilities as follows:
This report includes one homicide two deaths from choking physical injuries with
excruciating pain and other shocking examples of abuse and neglect. The injured
individuals include people who are non-verbal and unable to tell their own stories. This
report sets out some of the stories from a sample population. Based on the cases we have
reviewed we believe that procedures for preventing and investigating the abuse and
neglect of individuals with disabilities are totally inadequate. The States out of sight out
of mind inadequate response must end now.

J.A. 2489. The affidavit of a former Commissioner of DDSN, Deborah McPherson, signed in
2017, likewise describes systemic abuse, neglect and exploitation in congregate facilities
operated by DDSN, some resulting in deaths. ECF 441-2 at 4885-4886.
Recent Congressional Reports demonstrate that these problems are not unique to South
Carolina. In December, 2020, Senators Grassley and Wyden released reports of investigations of

35
abuse and neglect in Medicaid-funded residential services to adults with intellectual and
developmental disabilities (I/DD) in their states.9 The Court should order briefing, giving
affected organizations and the United States Department of Justice the opportunity to weigh in
on this question of tremendous public importance.
B.

The Fourth Circuit’s Decision is Factually Wrong and the Fourth Circuit Applied
the Wrong Standard in Granting Summary Judgment.

The Fourth Circuit erred in holding that Kobe failed to address the grounds upon which
the district court dismissed his case in his opening brief in Kobe I and failed to correct the
erroneous summary judgment standard applied by the district court. In Kobe v. Haley, 2014 U.S.
Dist. LEXIS 139172 (D.S.C. 2014), the district court did not mention Kobe in the section
discussing ripeness, which addressed and dismissed only Mark’s claims. Instead, the court
dismissed Kobe’s claim for placement in an SLP on the erroneous grounds that he failed to raise
that claim until filing his motion for summary judgment:
As to Kobe's remaining contentions, i.e., his desire to be placed in an SLP and his
demand for immediate payment to Ron Kuebler, these claims were not raised until
Plaintiffs' motion for partial summary judgment and thus are not properly before the
court. Kobe may raise these claims in a separate complaint, should he desire to do so.
Id. That ruling was clearly erroneous, as his requests had been made persistently since 2011, as
documented in Kobe’s original and amended complaint. ECF 1 and ECF 65. Kobe called this
error to the court’s attention in his motion to reconsider at ECF 309:
9

Iowa’s report is contained at

https://www.finance.senate.gov/imo/media/doc/2020-12-03%20FINAL%20Investigative%20Report%20(REM%20I
owa).pdf and Washington’s at
https://www.finance.senate.gov/imo/media/doc/120220%20Life%20at%20Cypress%20House%20-%20An%20Exa
mination%20of%20Care%20Provided%20by%20MENTOR%20Oregon.pdf.

36
In ¶ 280 of Count One Kobe unambiguously complained that Defendants had violated
the ADA by denying Kobes request for an ACD and his choice to move to a less
restrictive setting.
In ¶ 281 Plaintiffs complained that Defendants failed to make reasonable modifications
in their programs which are necessary for Plaintiffs to receive services in the least
restrictive setting.
Kobe reminded the district court that he had specifically alleged in Count Two “the violations
that resulted from Defendants’ failure to provide a speech device and services in an apartment
setting.” ECF 309 at 8 and 9 of 21.
Instead of reviewing Kobe’s amended complaint, which clearly set forth his requests for
placement in an apartment placement, the district court issued Kobe v. Haley, 2015 U.S. Dist.
LEXIS 198274 (D.S.C. 2015), dismissing Kobe’s claims on the different grounds, finding that
he did not request such placement until December, 2013. That order states that “According to
Plaintiffs, Kobe made a request of the Richland/Lexington Disabilities and Special Needs Board
to live in an apartment setting in or around December 2013.” That finding was clearly erroneous.
The filing at ECF 279-8 that the district court relied upon in reaching that conclusion
contained 34 pages of emails, 26 of which were sent to DHHS counsel in 2011 regarding Kobe’s
need for a speech device and wheelchair. The last eight pages of ECF 279-8 contained emails
between Kobe’s counsel, his DDSN case manager, Lynn Lugo, counsel for RichLex and counsel
for DHHS sent in 2013. In those emails at J.A. 3797-3804, counsel and the case manager
discussed the status of Kobe’s request for placement in an apartment setting. But, that 2013
status follow-up was certainly not the first request Kobe made for SLP placement.
DDSN Regional Director, John King, had provided a sworn statement signed on
February 14, 2014 claiming that he had searched all of DDSN records and that “there is no
evidence regarding if or when the request was forwarded to the Department of Disabilities and

37
Special Needs (DDSN), or whether DDSN has rendered an unfavorable administrative decision
or failed to respond to Kobe's request.” ECF 264-1. King’s affidavit is clearly contradicted, not
only by Kobe’s complaint and amended complaint that were served upon DDSN, but also by
Kobe’s Support Plan that DDSN approved on October 1, 2013, which identified Kobe’s desire
and need for placement in an apartment setting at ECF 279-6, page 18 of 28. It is notable that
this plan was printed on the DDSN computer system on October 21, 2013, as evidenced by the
footer. Kobe’s support plan should have been the first place King looked when searching
DDSN’s records for Kobe’s requests for services.
The district court applied the wrong summary judgment standard, viewing the evidence
in a light most favorable to Respondents and believing the affidavit DDSN Regional Director,
John King, instead of viewing the evidence in a light most favorable to Kobe, as required by the
Fourth Circuit standard set forth in Doe v. Kidd, 501 F.3d 348, 352, (4th Cir. 2007). That ruling
required the court to view the facts in a light most favorable to the Plaintiff as the non-moving
party and drawing all reasonable inferences in Kobe’s favor.10
Kobe addressed these errors in his opening brief in the Fourth Circuit (Doc. 66-1) in
Kobe I at page 51, where he argued:
The lower court ruled that Defendants still have not ruled upon Kobe’s request to receive
services in a less restrictive setting, a SLP II. Kobe first requested placement in a less
restrictive setting in 2011...This issue is quite simple. 42 U.S.C. 1396a(a)(8) means something.
Page 25 of the opening brief in Kobe I also addresses the district court’s error: “At every annual plan
meeting, Kobe has informed his service coordinator that he does not choose to live in a congregate setting
10

This district judge should have been familiar with the obligation set forth in § 1396a(a)(8), because the Fourth

Circuit three times reversed her rulings in Doe v. Kidd, the case that established that Medicaid participants have the
right to enforce that statute under § 1983.

38
and that he wants to move to an apartment.” At page 52 of that brief, Kobe referred to the reasonable
promptness ruling in Doe v. Kidd II, Case No. 10-1191 (4th Cir. March 24, 2011), where the Fourth
Circuit ruled that these same Defendants had “abdicated their responsibility to furnish Doe with the
necessary services in the least restrictive environment...” Id. In Kobe’s Fourth Circuit brief he argued:
Treating professionals who have worked with Kobe have opined that he is capable of living in an
independent apartment with appropriate supports provided.

Kobe explained that his provider had “prepared a budget for services to be provided in an SLP
(Supervised Living Program), where Kobe would be integrated with non-disabled persons. The
cost of this budget is less than DDSN has paid for other waiver participants served by DDSN.”
JA 1810. At page 57, Kobe discussed that the state has sufficient resources to provide the
care he needs in a less restrictive setting.
Kobe’s claim that “At every annual plan meeting, Kobe has informed his case manager
that he does not choose to live in a congregate setting and that he wants to move to an
apartment” also disputes King’s claim of ignorance of Kobe’s requests. On page 44 of Kobe’s
opening brief in Kobe I, he argued that:
Here, as in Doe, Plaintiffs have challenged Appellees' failure to provide them with
services promptly. Plaintiffs have also alleged other violations of the Medicaid Act, a
conspiracy and violation of RICO which the lower court failed to address on the merits of
Plaintiffs’ claims. Viewing the facts in the light most favorable to Kobe and Mark,
Appellees have not yet voluntarily ceased the conduct of failing to provide services with
reasonable promptness, failing to establish reasonable standards, failing to provide
services in the amount, duration and scope necessary to meet Plaintiffs needs in order to
remain in the least restrictive setting...Therefore, the issues presented in Plaintiffs’ claims
under Counts One through Seven continue to be live and the parties continue to have a
legally cognizable interest in the outcome.
66-1, page 25. Kobe again addressed the SLP issue on page 49 of his opening brief:
But, Kobe still has not been provided with residential services in the least restrictive
setting, nor has he been provided with speech services.
At pages 45-46 of his opening brief in Kobe I, Petitioner argued that Respondents had continued

39
“their practice of violating Plaintiffs’ due process rights and the reasonable promptness provision
of the Medicaid Act by failing to issue a final administrative decision on all issues appealed
within ninety days of the request for a fair hearing has ended and that they will, in the future
comply with the reasonable promptness requirements of the Medicaid Act. Doe v. Kidd I, 501
F.3d 308 (4th Cir. 2007), cert. denied 128 S.Ct. 1483 (2008).
He argued that Respondents “have failed to demonstrate that no material fact exists to
show that other provisions of the Medicaid Act, the ADA and Section 504 have not been
violated. (Reasonable standards and amount, duration and scope).
F.R.C.P. Rule 56(a) provides that “The court shall grant summary judgment if the
movant shows that there is no genuine dispute as to any material fact and the movant is entitled
to judgment as a matter of law.” Summary judgment was improper here, because Respondents
failed to carry their buden of showing the absence of any genuine issue of fact to counter the
extensive evidence showing that Respondents were on notice of Kobe’s repeated requests for
services and equipment, specifically including placement in an apartment setting, and that those
services were not provided with reasonable promptness. Adickes v. S. H. Kress & Co., 398 U.S.
144 (1970).
The Fourth Circuit was required to review the district court's summary judgment ruling
de novo, viewing the facts in the light most favorable to Kobe as the nonmoving party and
drawing all reasonable inferences in his favor, which it failed to do. The Fourth Circuit also
found that:
The record shows that DDSN has denied Kobe's post-litigation requests for an apartment
placement because of concerns that his extensive needs could not be met in that setting.
821 F.Appx. 183-184. But, this finding is contradicted by the record and Respondents failed to

40
provide an evaluation by a single person who examined or knew Kobe and it is contradicted by
sworn affidavits of treatment professionals who had treated Kobe for years and testified that he
was capable of living in an apartment setting with appropriate supports. ECF 251-3 to 251-6 at
J.A. 3122-3128.
A Hope Bridge caregiver testified in her affidavit that “If Kobe was provided the
supports he needs, he could live more independently in an apartment setting, where he could be
integrated into the community instead of being segregated with only disabled persons.” Id. at
3123. The house supervisor at Kobe’s group home stated that “If [name redacted] had on-site
supports and assistance with getting in and out of bed, dressing and eating, he would be able to
live in an apartment” and that he “has the mental capacity to live more independently if he was
provided appropriate supports.” Id. at 3124.
In any event, the “waiver rule is one of prudence rather than jurisdiction,” as the Fourth
Circuit noted in Kobe v. Buscemi, 821 Fed. Appx. 180, 185 (4th Cir. 2020). Finally, it is evident
from the record that Kobe suffered prejudice as as result of being denied equipment he needed
and continues to need, as described in Kobe’s affidavit at ECF 457-2. This court ruled in
Olmstead that “unjustified isolation” constitutes discrimination under the integration mandate of
the ADA. The record here documents such discrimination prohibited by federal law and other
injuries.
CONCLUSION
This petition raises questions of tremendous public importance and there is an urgent
need to resolve the conflicts among the circuits to protect the rights of America’s most
vulnerable citizens and their families, as well as taxpayers who are paying for services the
intended beneficiaries are not receiving. For the reasons set forth in this petition, the Court
should grant certiorari and order full briefing on these questions.

41
Respectfully submitted,
PATRICIA L. HARRISON
Counsel of Record
PATRICIA L. HARRISON, ATTORNEY AT
LAW
47 Rosemond Road
Cleveland, SC 29635
(864) 836-3572
pharrison@loganharrisonlaw.com
Counsel for Petitioner

APPENDIX A

Kobe v. Buscemi
United States Court of Appeals for the Fourth Circuit
May 15, 2020, Submitted; July 13, 2020, Decided
No. 18-2505
Reporter
821 Fed. Appx. 180 *; 2020 U.S. App. LEXIS 21627 **

KOBE, Plaintiff - Appellant, MARK, JOHN, Plaintiffs, v. BEVERLY BUSCEMI, in her official capacity
as Director of the South Carolina Department of Disabilities and Special Needs; KATHI LACY, in her
capacities as employee of the South Carolina Department of Disabilities and Special Needs; THOMAS P.
WARING, in his capacity as employee of the South Carolina Department of Disabilities and Special
Needs; JACOB CHOREY, in his capacity as employee of the South Carolina Department of Disabilities
and Special Needs; MARY LEITNER, in her capacity as the Director of the Richland Lexington
Disabilities and Special Needs Board; JUDY JOHNSON, in her capacity as the Director of the Babcock
Center; THE BABCOCK CENTER; ANTHONY KECK, in his capacity as the former Director of the
South Carolina Department of Health and Human Services; EMMA FORKNER, in her capacity as the
former Director of the South Carolina Department of Health and Human Services; JOSHUA BAKER, in
his capacity as the Director of the South Carolina Department of Health and Human Services; EUGENE
A. LAURENT, former Interim Director of the South Carolina Department of Disabilities and Special
Needs; STANLEY BUTKUS, former Director of the South Carolina Department of Disabilities and
Special Needs; RICHARD HUNTRESS, in his capacity as Commissioner of the South Carolina
Department of Disabilities and Special Needs, Defendants — Appellees, and CYNTHIA MANN, Deputy
Administrator and Director of the Center for Medicaid, CHIP, and Survey & Certification, CMS; NIKKI
HALEY, in her official capacity as Governor and Chairman of the South Carolina Budget and Control
Board; ELEANOR KITZMAN, in her official capacity as the Executive Director of the State Budget and
Control Board; GLENN F. MCCONNELL, in his official capacity as the President Pro Tempore of the
South Carolina Senate; ROBERT W. HARRELL, JR., in his official capacity as the Speaker of the South
Carolina House of Representatives; DANIEL COOPER; CONVERSE CHELLIS, in his capacity as
former member of the South Carolina Budget and Control Board; MARK SANFORD, in his capacity as
former members of the South Carolina Budget and Control Board; HUGH LEATHERMAN, in his
capacity as members of the South Carolina Budget and Control Board; RICHARD ECKSTROM, in his
capacity as members of the South Carolina Budget and Control Board; CURTIS LOFTIS, as member of
the South Carolina Budget and Control Board; BRIAN WHITE, as member of the South Carolina Budget
and Control Board; HENRY MCMASTER, in his official capacity as Governor and Chairman of the
South Carolina Budget and Control Board; UNNAMED ACTORS ASSOCIATED WITH THE
BABCOCK CENTER, Defendants.

PATRICIA HARRISON

821 Fed. Appx. 180, *180; 2020 U.S. App. LEXIS 21627, **21627

Notice: PLEASE REFER TO FEDERAL RULES OF APPELLATE PROCEDURE RULE 32.1
GOVERNING THE CITATION TO UNPUBLISHED OPINIONS.

Subsequent History: Rehearing denied by, Rehearing denied by, En banc Kobe v. Buscemi, 2020 U.S.
App. LEXIS 25276 (4th Cir., Aug. 10, 2020)

Prior History: [**1] Appeal from the United States District Court for the District of South Carolina, at
Columbia. (3:11-cv-01146-MBS). Margaret B. Seymour, Senior District Judge.

Kobe v. McMaster, 2018 U.S. Dist. LEXIS 55500 (D.S.C., Mar. 30, 2018)

Disposition: AFFIRMED.

Counsel: Patricia Logan Harrison, Cleveland, South Carolina, for Appellant.
William H. Davidson, II, Kenneth P. Woodington, DAVIDSON, WREN & PLYLER, P.A., Columbia,
South Carolina, for Appellees Buscemi, Butkus, Chorey, Huntress, Lacy, Laurent, and Waring.
Damon C. Wlodarczyk, RILEY, POPE & LANEY, LLC, Columbia, South Carolina, for Appellees Keck,
Forkner, and Soura.
Patrick J. Frawley, DAVIS FRAWLEY, LLC, Lexington, South Carolina, for Appellee Leitner.
Joel W. Collins, Jr., Christian Stegmaier, Meghan Hazelwood Hall, COLLINS & LACY, P.C., Columbia,
South Carolina, for Appellees Babcock Center, Unnamed Actors Associated with the Babcock Center and
Johnson.

Judges: Before DIAZ and THACKER, Circuit Judges, and TRAXLER, Senior Circuit Judge.

Opinion
PATRICIA HARRISON Page 2 of 8

821 Fed. Appx. 180, *182; 2020 U.S. App. LEXIS 21627, **1

[*182] PER CURIAM:
This action was filed in 2011 by "Kobe," who used a pseudonym because he feared retaliation.1 Through a
series of orders, the district court eventually ruled against Kobe on all claims asserted against all
defendants. Kobe appealed, and this court affirmed in part, vacated in part, and remanded for [**2]
further proceedings. See Kobe v. Haley, 666 F. App'x 281 (4th Cir. 2016) ("Kobe I"). On remand, the
district court rejected all remaining claims except an official-capacity claim against the Governor under
the Americans with Disabilities Act. That claim was subsequently settled. Kobe again appeals. After
considering the briefs and the voluminous record, we find no reversible error and affirm.
I.
A.
This case involves questions about the provision of Medicaid services to people with intellectual and
related disabilities. Although many Medicaid benefits are available only to those in institutions, 42 U.S.C.
§ 1396n(c) establishes a Medicaid waiver program (the "Waiver Program") that permits states to provide
home- and community-based services to eligible persons with intellectual and related disabilities, so that
they may avoid institutionalization. See Kobe I, 666 F. App'x at 283-84. The benefits and services that
may be provided through the Waiver Program include equipment, assistive technology, and Adult Day
Health Care services ("ADHC"), which provide recipients "with medical or therapeutic care as well as
social and recreational events and meals." Id. at 284.
In South Carolina, the Department of Health and Human Services ("DHHS") is responsible for
administering Medicaid benefits and services. [**3] DHHS contracts with the South Carolina Department
of Disabilities and Special Needs ("DDSN") to operate the benefits and services for Medicaid recipients
with intellectual and related disabilities. DDSN in turn contracts with local Disabilities and Special Needs
Boards ("DSN Boards"), which contract with private entities to provide Medicaid services.
[*183] The Richland Lexington Disabilities and Special Needs Board ("Rich/Lex Board") is the DSN
Board responsible for benefits provided in South Carolina's Richland and Lexington Counties. A service
coordinator evaluates each recipient's condition and needs in order to develop a plan of care. "Service
coordinators may approve some services themselves, but as to other services, they only make a
recommendation to DDSN, which decides whether to approve them." Id.
Kobe, who was born with severe cerebral palsy, receives Waiver Program benefits through the Rich/Lex
Board. Kobe is intelligent but cannot speak in a manner intelligible to others. He cannot walk, so he uses a
wheelchair. Because of his spasticity, his arms and legs must be strapped to the wheelchair. Kobe was 29
years old when this action was filed. At that time, he lived in a community [**4] training home operated
by the Babcock Center and received ADHC services from the Hope Bridge Adult Day Care program.
Shortly thereafter, Kobe moved into a congregate group home operated by United Cerebral Palsy, a
private provider.

1 Two

other individuals, "Mark" and "John," were also plaintiffs when this action was filed. They have since been dismissed from the action,
and Kobe is the only remaining plaintiff.

PATRICIA HARRISON Page 3 of 8

821 Fed. Appx. 180, *183; 2020 U.S. App. LEXIS 21627, **4

Kobe began having problems with his wheelchair in 2008, when he lived at the Babcock Center-operated
community home. His plan of care in January 2008 called for a new wheelchair, but he did not receive it
until April 2009. The new wheelchair was damaged at least twice, and Kobe was forced to spend weeks in
bed during times that the wheelchair was not functional. Kobe also had difficulty in obtaining an
augmentative communications device ("ACD") that would permit him to communicate with his
caregivers. In 2009, DDNS announced changes in the services provided under the Waiver Program,
including the elimination of physical therapy, occupational therapy, and speech and language services. In
December 2010, Kobe's service coordinator re-assessed his eligibility for ADHC services and determined
that he no longer qualified for the services. Kobe appealed that decision to the DDSN Director; he
continued to receive ADHC benefits during the pendency of the appeal.
Kobe [**5] alleged in the complaint that the defendants were attempting to reduce ADHC services to
force ADHC recipients to instead attend Work Activity Centers ("WACs") operated by local DSN
Boards.2 According to Kobe, WACs are more restrictive and cannot always adequately support the
medical needs of its participants. Kobe alleged that the defendants misappropriated funds to support the
WAC program and financially benefitted from their operation. Kobe notes that participants in WAC
programs are paid less than minimum wage and that DDSN and local DSN Boards may spend the profits
generated by WACs without oversight.
This action was filed in May 2011. After the action was commenced, Kobe received an ACD that uses eye
movements to synthesize speech and was sufficient for his needs. Kobe's administrative appeal of the
denial of ADHC benefits was resolved in his favor, and the parties entered into a consent decree in 2012
stating that Kobe meets the criteria for ADHC services and that he would continue to receive such
services through his chosen provider. Kobe requested and received a new wheelchair in 2013. Also in
2013, Kobe's plan of care called for him to be placed in a private supervised living [**6] placement
("SLP") apartment, something Kobe had long requested. As of the time of briefing in this appeal, [*184]
Kobe remained in the group home. The record shows that DDSN has denied Kobe's post-litigation
requests for an apartment placement because of concerns that his extensive needs could not be met in that
setting.
B.
The amended complaint named as defendants the Governor of South Carolina; members and former
members of the South Carolina Budget and Control Board; the director and a former director of DHHS;
the director and former directors and officials of DDSN; the director of the Rich/Lex Board; and the
director and unnamed employees of the Babcock Center. The complaint asserted seven federal causes of
action, including claims under the Americans with Disabilities Act of 1990 ("ADA"), see 42 U.S.C. §§
12101 et seq.; section 504 of the Rehabilitation Act of 1973, see 29 U.S.C. § 794; and 42 U.S.C. § 1983.
Kobe also asserted state law claims for negligence, intentional infliction of emotional distress, and assault
and battery against the Babcock Center defendants based on the care he received during the time he lived
there.
In 2012, the district court dismissed all claims against the Budget and Control Board defendants. In 2014,
the district court granted [**7] summary judgment in favor of the defendants on all claims except Kobe's

2A

WAC is "[a] workshop having an identifiable program designed to provide therapeutic activities for workers with intellectual disability
whose physical or mental impairment is so severe as to interfere with normal productive capacity." S.C. Code Regs. 88-405(K).

PATRICIA HARRISON Page 4 of 8

821 Fed. Appx. 180, *184; 2020 U.S. App. LEXIS 21627, **7

state-law claims against the Babcock Center defendants.3 As is relevant to Kobe, the district court
concluded that any claims related to his need for a wheelchair and ACD and the possible discontinuation
of ADHC services were moot because the wheelchair and ACD had been provided during the course of
litigation and Kobe had never lost ADHC services. In a 2015 order denying the plaintiffs' motion to alter
or amend, the district court noted that Kobe's claims involving his need for placement in an SLP
apartment were not ripe.
On Kobe's appeal, we affirmed in part, vacated in part, and remanded for further proceedings. We
affirmed the dismissal of the claims against the Budget and Control Board defendants, but concluded that
the district court erred by dismissing on Eleventh Amendment grounds the ADA and Rehabilitation Act
claims asserted against the Governor. See Kobe I, 666 F. App'x at 304.
We agreed with the district court that all claims involving the ADHC claims were moot. See id. at 297.
However, we disagreed with the district court's conclusion that Kobe's claims regarding the delays in
providing the ACD and a functioning wheelchair were also moot. Given the history [**8] of delay in
providing those items to Kobe, we held that the "temporary satisfaction of [Kobe's] needs during the
pendency of this lawsuit" was not sufficient to carry the defendants' heavy burden of establishing
mootness. Id. at 298. And because the district court had not sufficiently explained its basis for dismissing
the claims, we vacated the district court's dismissal of the federal claims asserted in counts one through
seven of the amended complaint and remanded for further consideration of those counts as to the
remaining defendants. See id.
In the course of our opinion in Kobe I, we observed that the plaintiffs had abandoned their claims for
monetary damages during a summary judgment hearing held by the district court in 2014. See id. at 293
n.19. As to Kobe's claims involving placement in an SLP apartment, we explained that the plaintiffs "offer
no challenge to the district court's ruling that their claim that Kobe is entitled to be provided with [*185]
an SLP is unripe." Id. at 295 n.21. Because the plaintiffs did not challenge the ruling, we therefore did not
address it. See id.
On remand, the district court granted summary judgment in favor of the defendants on all claims except
the ADA official-capacity claim asserted [**9] against the Governor. (The claim against the Governor
was settled after the issuance of the district court's opinion.) This appeal followed.
II.
"A grant of summary judgment is proper when no genuine dispute of material fact exists for trial. In
making this determination, we view the evidence in the light most favorable to the non-moving party and
draw all reasonable inferences in that party's favor." Cybernet, LLC v. David, 954 F.3d 162, 168 (4th Cir.
2020) (citation omitted). Nonetheless, "permissible inferences must still be within the range of reasonable
probability, and it is the duty of the court to withdraw the case from the jury when the necessary inference
is so tenuous that it rests merely upon speculation and conjecture." Id. (internal quotation marks and
alteration omitted).
A.

3 Kobe's

state-law claims against the Babcock Center defendants were subsequently settled.

PATRICIA HARRISON Page 5 of 8

821 Fed. Appx. 180, *185; 2020 U.S. App. LEXIS 21627, **9

Before considering the district court's rejection of Kobe's claims, we pause to address the ripeness of
Kobe's claims regarding placement in an SLP apartment.
Much of Kobe's brief is devoted to the SLP placement issue, and he contends the district court erred by
finding the claims unripe. However, the district court made its ripeness ruling in the orders that were at
issue in Kobe I. Although Kobe appealed the district court's orders, he did not challenge the [**10]
determination that the SLP placement claims were not ripe, and we therefore did not address the issue. See
Kobe I, 666 F. App'x at 295 n.21. Contrary to Kobe's argument, we did not remand the ripeness question
to the district court for reconsideration. Instead, we left the issue as it had been resolved by the district
court, because the district court's resolution had not been challenged on appeal. See Doe v. Chao, 511
F.3d 461, 465 (4th Cir. 2007) (explaining that "any issue that could have been but was not raised on
appeal is waived and thus not remanded") (internal quotation marks omitted). Moreover, because Kobe
did not challenge the ripeness ruling in his first appeal, he cannot challenge it now. See Omni Outdoor
Advert., Inc. v. Columbia Outdoor Advert., Inc., 974 F.2d 502, 505 (4th Cir. 1992) ("It is elementary that
where an argument could have been raised on an initial appeal, it is inappropriate to consider that
argument on a second appeal following remand.") (internal quotation marks omitted).
Although this waiver rule is one of prudence rather than jurisdiction, there is no basis for departing from
the rule in this case. Given the manner in which this case has proceeded, we cannot fault the district court
for declining to expand the litigation to include an issue that arose two years after the filing of the
complaint. Kobe remains free, as he [**11] has been since the district court first announced its view that
the claims were not ripe, to file a separate complaint addressing the SLP apartment placement. But as to
the questions raised in this appeal, the SLP claims are not at issue, and Kobe cannot establish error by
complaining about the district court's approach to the SLP claims.
B.
We now turn to Kobe's challenges to the district court's grant of summary judgment to the defendants on
Counts One through Seven of the amended complaint.

[*186] (1)
In Count One, Kobe asserts that the defendants violated the ADA by denying ADHC services in order to
force recipients of Waiver Program benefits into the WACs operated by the defendants. Kobe alleges that
the medical needs of WAC participants cannot always be adequately addressed at the WAC and that
forcing ADHC recipients into WACs puts them at risk and violates the ADA's requirement that public
services be delivered in "the most integrated setting appropriate to the needs of qualified individuals with
disabilities." Olmstead v. L.C. ex rel. Zimring, 527 U.S. 581, 592, 119 S. Ct. 2176, 144 L. Ed. 2d 540
(1999) (internal quotation marks omitted). In Count Two, Kobe contends that the same actions violate the
similar requirement under section 504 of the Rehabilitation Act that services be provided [**12] "in the
most integrated setting appropriate. . . ." 28 C.F.R. § 41.51(d).
We find no error in the district court's grant of summary judgment in favor of the defendants on Kobe's
claims under the ADA and the Rehabilitation Act. Accepting as true Kobe's contentions about the actions
of the defendants in creating WACs and attempting to funnel ADHC recipients into the new WACs, we
nonetheless conclude that Kobe has failed to show that he has been affected by the alleged scheme. As we
explained in Kobe I, any claim that Kobe might have had based on his service coordinator's initial
PATRICIA HARRISON Page 6 of 8

821 Fed. Appx. 180, *186; 2020 U.S. App. LEXIS 21627, **12

decision that Kobe was not eligible for ADHC services was moot because he prevailed in the
administrative appeal and his ADHC services were never interrupted. Kobe I, 666 F. App'x at 296-97.
Thus, even if Kobe is right that forcing someone with his disability into a WAC would violate the ADA
and the Rehabilitation Act, he is still receiving ADHC services and has not been required to participate in
a WAC. Because Kobe has not established that he suffered an injury under either statute, the district court
properly granted summary judgment.
To the extent that Kobe contends his ADA and Rehabilitation Act claims were also premised on the delay
in providing an adequate [**13] ACD and in repairing his wheelchair, those claims were likewise
properly rejected. Although it took longer than it should have for Kobe to get the right ACD, and Kobe
had difficulties in the past getting his wheelchair repaired in a timely manner, during the course of his
litigation he received a new wheelchair and a proper ACD that was not merely "on loan" to him. Even
assuming that the past difficulties could support claims under the ADA or Rehabilitation Act, Kobe during
the summary-judgment hearing abandoned his damage claims against all of the defendants still involved
in this case, see Kobe I, 666 F. App'x at 293 n.19, and he does not seek any other form of relief as to those
specific claims.
To the extent that Kobe contends his ADA and Rehabilitation Act claims should not have been dismissed
because they encompass his efforts to be placed in an SLP apartment, we disagree for the reasons
discussed above. Those claims were not ripe when the action was commenced, and the district court
declined to permit litigation of the after-arising issue in this proceeding. Because Kobe has not shown that
he has suffered a presently redressable violation of his rights under the ADA or the Rehabilitation Act, the
district court [**14] properly granted summary judgment in favor of the defendants on those claims.
(2)
The above analysis also shows that the district court properly rejected the claims asserted by Kobe in
Counts Three and Four. See United States v. Swann, 149 F.3d 271, 277 [*187] (4th Cir. 1998) ("[W]e
may affirm the district court's judgment for any reason supported by the record, even if it is not the basis
that the district court used."). Those counts assert claims under 42 U.S.C. § 1983 that the defendants
violated Kobe's constitutional and statutory rights through the previously discussed scheme to divert funds
for ADHC services into inappropriate WACs. Because Kobe has not lost ADHC services or been required
to attend a WAC, the scheme, regardless of its wisdom or propriety, has not affected Kobe's constitutional
or statutory rights. To the extent the claims are based on the delay in obtaining an appropriate ACD or the
damage to Kobe's wheelchair, Kobe waived his damages claims and seeks no other remedy.
(3)
Count Five, a conspiracy claim under 42 U.S.C. § 1985(3), fares no better. Claims under section 1985(3)
are limited to private conspiracies predicated on "racial, or perhaps otherwise class-based, invidiously
discriminatory animus." Griffin v. Breckenridge, 403 U.S. 88, 102, 91 S. Ct. 1790, 29 L. Ed. 2d 338
(1971). A conspiracy claim under section 1985(3) requires the plaintiff to prove
(1) a conspiracy [**15] of two or more persons, (2) who are motivated by a specific class-based,
invidiously discriminatory animus to (3) deprive the plaintiff of the equal enjoyment of rights secured
by the law to all, (4) and which results in injury to the plaintiff as (5) a consequence of an overt act
committed by the defendants in connection with the conspiracy.

PATRICIA HARRISON Page 7 of 8

821 Fed. Appx. 180, *187; 2020 U.S. App. LEXIS 21627, **15

Simmons v. Poe, 47 F.3d 1370, 1376 (4th Cir. 1995). Like the others, Count Five focuses on the WAC
scheme and alleges that the defendants used millions of dollars intended to provide service under the
Waiver Program to buy real estate for WACs and conspired to deprive Kobe and others of ADHC services
in order to force them to participate in WACs.
Even if the disabled qualify as a class protected under the statute (and we express no opinion on that issue,
reserving its resolution for another day), Kobe's evidence is insufficient to show that the defendants
conspired to use the WAC scheme for the purpose of causing injury to the disabled. And as we have
explained, Kobe never lost his ADHC services, so he has not been injured by the alleged conspiracy. The
district court therefore properly rejected Kobe's claim.
(4)
In Count Six, Kobe alleges that the defendants' failure to comply with the requirements [**16] of the
Medicaid Act violated the Supremacy Clause, see U.S. Const., art. VI, cl. 2. Because "the Supremacy
Clause is not the source of any federal rights" and "does not create a cause of action," Armstrong v.
Exceptional Child Ctr., Inc., 575 U.S. 320, 324-25, 135 S. Ct. 1378, 191 L. Ed. 2d 471 (2015) (internal
quotation marks omitted), the district court properly rejected Count Six.
(5)
Count Seven is a civil RICO claim. See 18 U.S.C. §§ 1962, 1964(c). This claim again relies on the
defendants' ADHC and WAC-related actions, but also includes wide-ranging allegations of other
misconduct by individual defendants. As we have repeatedly explained, Kobe has not lost ADHC benefits
and has not been required to attend a WAC, and he has not shown that he was otherwise personally
injured by the conduct about which he complains. Kobe's RICO claim therefore fails. See Anza v. Ideal
Steel Supply Corp., 547 U.S. 451, 461, 126 S. Ct. 1991, 164 L. Ed. 2d 720 [*188] (2006) ("When a court
evaluates a RICO claim for proximate causation, the central question it must ask is whether the alleged
violation led directly to the plaintiff's injuries.").
III.
For the reasons outlined above, we find no reversible error and therefore affirm the district court's order
granting summary judgment to the defendants on all remaining claims.
AFFIRMED
End of Document

PATRICIA HARRISON Page 8 of 8

APPENDIX B

Kobe v. McMaster
United States District Court for the District of South Carolina, Columbia Division
December 19, 2018, Decided; December 19, 2018, Filed
C/A No. 3:11-1146-MBS
Reporter
2018 U.S. Dist. LEXIS 215708 *; 2018 WL 6695716

Kobe, Mark, Plaintiffs, vs. Henry McMaster, in his capacity as Governor1 of the State of South Carolina,
et al., Defendants.

Prior History: Kobe v. McMaster, 2018 U.S. Dist. LEXIS 55500 (D.S.C., Mar. 30, 2018)

Counsel: [*1] For Kobe, Plaintiff: Patricia L Harrison, LEAD ATTORNEY, Patricia Logan Harrison
Law Office, Columbia, SC.
For Judy Johnson, in her capacity as the Director of the Babcock Center, Unnamed Actors Associated
with the Babcock Center, Babcock Center, The, Defendants: Christian Stegmaier, Meghan Hazelwood
Hall, LEAD ATTORNEYS, Joel Wyman Collins, Jr, Collins and Lacy, Columbia, SC.
For Henry McMaster, in his official capacity as Governor and Chairman of the South Carolina Budget
and Control Board, Defendant: Vance J Bettis, LEAD ATTORNEY, Gignilliat Savitz and Bettis LLP,
Columbia, SC.

Judges: Margaret B. Seymour, Senior United States District Judge.

Opinion by: Margaret B. Seymour

Opinion
1 Governor

McMaster was substituted for former Governor Nikki Haley pursuant to Fed. R. Civ. P. 25(d) on July 25, 2017.

PATRICIA HARRISON

2018 U.S. Dist. LEXIS 215708, *1

ORDER AND OPINION

FACTS AND PROCEDURAL HISTORY
This case has an extensive history. Briefly, Plaintiffs Kobe, Mark, and John2 filed a complaint on May 11,
2011, and an amended complaint on October 18, 2011. Plaintiffs alleged the following causes of action:
Violation of the Americans With Disabilities Act (Count One); Violation of Section 504 of the
Rehabilitation Act (Count Two); Violation of 42 U.S.C. § 1983 (Count Three); Violation of 42 U.S.C. §§
1983 and 1988 (violation of civil rights) (Count Four); Violation of 42 U.S.C. § 1985(3) (conspiracy)
(Count Five); Violation of the Supremacy Clause (Count Six); and Violation [*2] of RICO (Count
Seven).3
Of relevance here, the matter came before the court on motions for summary judgment filed by
Defendants on January 6, 2014. Plaintiff also filed a motion for summary judgment on January 6, 2014,
which was amended on January 22, 2014. Plaintiff contended that the court should resolve the following
issues:
(1) Have the Defendants violated the reasonable standards provision of 42 U.S.C. § 1396a(a)(17) of
the Medicaid Act and the South Carolina Administrative Procedures Act by failing to establish and
utilize reasonable, ascertainable, non-arbitrary standards and procedures to determine eligibility for
and the extent of medical assistance provided to Plaintiffs?
(2) Have the Defendants violated the "reasonable promptness" requirement of the Medicaid Act by
failing to provide Kobe with the wheelchair and speech device his physician ordered and by failing to
provide residential services in the least restrictive setting within ninety days of those needs being
identified?
(3) Have the Defendants violated the integration mandate of the Americans with Disabilities Act by
failing to provide Kobe with a wheelchair, a speech device, speech therapy services and placement in
a supervised apartment with [*3] necessary support services?
ECF No. 25, 3.4
The court issued an order and opinion on September 30, 2014, concluding that Plaintiffs' claims should be
dismissed either as moot, not ripe, or because Plaintiffs lacked standing. ECF No. 296. Accordingly, the

2 Plaintiff

John was dismissed as a party on July 23, 2013. The court erroneously stated in its order filed September 30, 2014, that Plaintiff
Mark was dismissed as a party on July 23, 2013. ECF No. 296.
3 Plaintiff

Kobe also asserted state law claims against the Babcock Center, a private entity that provides services to persons with disabilities,
as follows: Injuries to Kobe Caused by Babcock Center, Judy Johnson and/or Agents and Employees of The Babcock Center Resulting From
Neglect, Deliberate Indifference, Assault and Battery and Intentional Infliction of Emotional Distress (Count Eight). Count Eight was
dismissed with prejudice on March 20, 2015.
4 Plaintiff

also asserted an issue regarding Kobe's compensable injuries. As noted above, this matter was resolved prior to trial.

PATRICIA HARRISON Page 2 of 12

2018 U.S. Dist. LEXIS 215708, *3

court granted Defendants' motions for summary judgment. Plaintiffs timely filed a notice of appeal. On
December 15, 2016, the Court of Appeals for Fourth Circuit affirmed in part, vacated in part, and
remanded the action. ECF No. 368. First, the Fourth Circuit affirmed the court's rulings as to Mark on
ripeness grounds. Id. at 33, n.21. Next, the Fourth Circuit affirmed the court's determination that the
eligibility to receive ADHC services is moot based on the consent orders entered with these Plaintiffs. Id.
at 37.
The Fourth Circuit determined, however, that there was a "pattern of allegedly unreasonable delays and
improper denials" with respect to Kobe's wheelchair and ACD entitlement. The Fourth Circuit found that
Defendants "have not met their 'heavy burden' of showing that after this litigation has concluded, Kobe
will not once again find himself without the equipment he needs and without any ability to obtain it
without significant delay." Id. at 39. Therefore, [*4] the Fourth Circuit vacated the court's order on
justiciability grounds, and remanded for further proceedings. Id. In addition, the Fourth Circuit vacated
the grant of summary judgment in favor of Defendants on Counts One through Seven and remanded for
further consideration of the viability of Plaintiffs' claims against each Defendant. Id. at 40.5
The matter again came before the court on Defendants' motions for summary judgment on remand, as well
as on cross-motion for summary judgment filed by Plaintiffs. On March 30, 2018, the court issued an
order granting Defendants' motions and denying Plaintiffs' cross-motion. Mark's claims having been
found moot by the Fourth Circuit, the court addressed only Kobe's claims.6 The court found, in relevant
part, as follows:
A. Amended Motion for Summary Judgment on Remand filed by Defendants Buscemi, Laurent,
Butkus, Huntress, Lacy, Waring, and Chorey (the "DDSN Defendants")
The DDSN Defendants observe that, as to them, Plaintiff has shown no need for prospective
injunctive relief and has abandoned any damages claims, such that these Defendants are entitled to
dismissal of the case against them in its entirety. As to the merits of Plaintiff's allegations, the [*5]
DDSN Defendants assert that Counts 1 (ADA) and 2 (Rehabilitation Act) essentially present the same
contention that Plaintiff was wrongfully denied ADHC services. As noted hereinabove, the Fourth
Circuit has determined this particular contention is moot because Plaintiff did not lose ADHC services
and, further, were successful on administrative appeal.
The DDSN Defendants assert that any non-ADA or non-Rehabilitation Act claims against these
Defendants in their official capacities are barred by the Eleventh Amendment. See Will v. Michigan
Dep't of State Police, 491 U.S. 58, 109 S. Ct. 2304, 105 L. Ed. 2d 45 (1989)). As to Plaintiff's § 1983
claims against the DDSN Defendants in their individual capacities (Counts 3, 4), these Defendants
argue that Plaintiff failed to show any specific factual allegations of wrongdoing attributable to any of
the named DDSN Defendants. Regarding Plaintiff's claim that he was denied a wheelchair and ACD,
the DDSN Defendants assert these claims are directed to the DHHS Defendants, Keck and Fortner.
Regarding Count 5, the DDSN Defendants asserts that Plaintiff's claims relate to a conspiracy to deny

5 The

Fourth Circuit also remanded an order dismissing Defendant Nikki Haley, in her capacity as Governor of South Carolina (currently,
Henry McMaster, in his capacity as Governor) on the basis of Eleventh Amendment immunity. That dispute was resolved and a stipulation of
dismissal filed on July 2, 2018. ECF No. 501.
6 Mark

was terminated as a Plaintiff on September 30, 2014.

PATRICIA HARRISON Page 3 of 12

2018 U.S. Dist. LEXIS 215708, *5

him ADHC services, and because such services were not denied, "obviously there could not have
been a conspiracy to effect such denial." ECF No. 399-1, 11.
Regarding Count 6, the [*6] DDSN Defendants note the dearth of factual allegations in the amended
complaint under this cause of action, which simply states:
376. Defendants have violated the following provisions of the Medicaid Act, in violation of the
Supremacy Clause of the United States Constitution: reasonable promptness (42 U.S.C. §
1396a(a)(8)); free choice (42 U.S.C. § 1396a(a)(23)); comparability (42 U.S.C. § 1396a(a)(10));
reasonable standards (42 U.S.C. § 1396a(a)(17)) and equal access (42 U.S.C. § 1396a(a)(30))
provisions of the Social Security Act.
ECF No. 65, 64.
The DDSN Defendants assert Plaintiff has set forth no facts showing harm to Plaintiff or specific acts
by these Defendants that resulted in violations of enumerated sections of the Medicaid Act and Social
Security Act.
Finally, regarding Count 7, the DDSN Defendants contend that Plaintiff has failed to allege (1) one of
the "predicate acts" set forth in 18 U.S.C. § 1961(1); (2) how, if at all, the purported activities of the
criminal enterprise affected interstate or foreign commerce; or (3) any evidence Plaintiff suffered a
business or property loss.
In his response in opposition, Plaintiff offers a lengthy recitation of factual allegations and appears to
address only the following causes of action as to DDSN: Count 5 (conspiracy to interfere with civil
rights); Count 6 (Supremacy Clause), and Count 7 (RICO). Plaintiff does not dispute the DDSN [*7]
Defendants' arguments regarding Counts 1, 2, 3, and 4. The court concludes Plaintiff has abandoned
these causes of action as to these Defendants.
Turning to Count 5 (conspiracy to deny civil rights), Plaintiff asserts the following in his response in
opposition to the DDSN Defendants' motion for summary judgment:
Plaintiffs have alleged that they have been deprived of services and needed equipment and due
process, liberty and equal protection rights. Kobe has demonstrated that he has suffered
discrimination and [been] injured thereby as a consequence of overt acts committed by the named
Defendants in connection with the conspiracy.
ECF No. 436, 34.
Plaintiff's argument is based on his contention that DHHS, DDSN, and other agencies have engaged
in wide-spread corruption, negligence, and criminal conduct over the past decade or more. In the
court's view, Plaintiff's allegations fail to demonstrate any of the DDSN Defendants' purported
mismanagement and falsification of information, if such conduct were to be proven, was motivated by
a specific class-based, invidiously discriminatory animus to deprive Plaintiff of his rights. In point of
fact, Plaintiff alleges that the "conspiratorial purpose [*8] was financial."
Regarding Count 6 (Supremacy Clause), Plaintiff states that the "future deterrence of violations is
critically important in this case, because Plaintiffs have life long disabilities and their needs will
increase as they age. Waiver participants simply cannot afford years of litigation each time they
require a wheelchair, a speech device or other medically necessary services." ECF No. 436, 31-32.
The Supremacy Clause is not the source of any federal rights, and does not create a cause of action.
PATRICIA HARRISON Page 4 of 12

2018 U.S. Dist. LEXIS 215708, *8

Armstrong v. Exceptional Child Center, Inc., 135 S. Ct. 1378, 1383, 191 L. Ed. 2d 471 (2015). It
instructs courts what to do when state and federal law clash, but is silent regarding who may enforce
federal laws in court, and in what circumstances they may do so. Id. Moreover, there is no suggestion
in the record by any party of a clash between state and federal law. The gravamen of Plaintiff's
complaint is that Defendants have, in varying respects, failed to comply with the mandates set forth in
the ADA, Rehabilitation Act, and Medicaid.
Finally, regarding Count 7 (RICO), Plaintiff asserts that he has provided "extensive documentation of
conduct of an enterprise (the diversion of funds to DDSN work activity centers) through a pattern of
racketeering activity." ECF No. 436, 35. Plaintiff asserts predicate [*9] acts to include "obtaining
insurance through false pretenses, including money laundering, mail and wire fraud and intimidation
of witnesses." Id. While it is true that Plaintiff has made allegations of corruption, his claims are
speculative in nature. The court discerns no facts tending to show an enterprise distinct from the
persons alleged to have violated 18 U.S.C. § 1962 (c). See Palmetto State Med. Ctr. v. Operation
Lifeline, 117 F.3d 142, 148 (4th Cir. 1997). Nor has Plaintiff proved that each DDSN Defendant
engaged in at least two acts of racketeering activity within a ten-year period, as required by 18 U.S.C.
§ 1961(5). For all these reasons, the DDSN's motion for summary judgment is granted.
....
C. Motion to Dismiss and for Summary Judgment filed by Defendant Leitner
Defendant Leitner asserts that she is entitled to summary judgment as to Plaintiff's claim against
under Count 3 (42 U.S.C. § 1983), the only count in which she is named. See ECF No. 65, ¶ 311.
Defendant Leitner notes that the only factual allegations in the amended complaint alleges that on
January 5, 2011, she, as Director of the Richland Lexington Disabilities Board, sent a letter to
Plaintiff alerting him that a review of ADHC services was forthcoming. Defendant Leitner states that,
as discussed above, Plaintiff was never denied ADHC services, [*10] and there are no other factual
allegations of wrongdoing with respect to her that she violated Plaintiff's constitutional rights.
Defendant Leitner also argues that she was not involved in the DHHS denials of Plaintiff's
applications for an ACD. According to Defendant Leitner, it was through the Richland Lexington
Disabilities Board that an ACD was borrowed for Plaintiff through the University of South Carolina
Assistive Technology Program in 2013, and also through the Richland Lexington Disabilities Board
that Plaintiff's case manager recently procured an ACD for Plaintiff's permanent use through the
South Carolina Vocational Rehabilitation Department. Defendant Leitner contends there is no genuine
issue of material fact but that she did not deprive Plaintiff of his constitutional or statutory rights.
In response, Plaintiff asserts, without competent evidence, that Defendant Leitner: (1) has failed to
explain why Plaintiff's requests to move to a less restrictive environment were not transmitted to
DDSN; (2) "made a conscious decision to inform Judy Johnson that [Plaintiff] intended to move from
the Babcock Center, when she was asked not to share that information until the placement [*11] had
been arranged. Then, she colluded with Johnson in an attempt to enlist [Plaintiff's] mother to prevent
him from moving from a group home where he had been abused and neglected"; (3) failed to timely
provide Plaintiff with written notices containing all of the information required by 42 C.F.R. §
431.210, likely because of "collusion with DDSN and DHHS Defendants to attempt to moot
[Plaintiff's] lawsuit (by obtaining a 'loaner' device)." ECF No. 435-36. Plaintiff's "unsubstantiated

PATRICIA HARRISON Page 5 of 12

2018 U.S. Dist. LEXIS 215708, *11

allegations and bald assertions" are not adequate to defeat summary judgment. See Evans v.
Technologies Applications & Serv. Co., 80 F.3d 954, 960 (4th Cir. 1996).
Defendant Leitner's motion for summary judgment is granted.
D. Motion for Summary Judgment filed by Defendants Keck and Forkner (the "DHHS Defendants")
Plaintiff alleges that the DHHS Defendants failed to provide Plaintiff with an ACD and wheelchair.
Plaintiff's allegations arise under the ADA and the Rehabilitation Act (Counts 1, 2), 42 U.S.C. § 1983
(Counts 3, 4), conspiracy (Count 5), and RICO (Count 6).
The DHHS Defendants first contend that Plaintiff cannot show he was excluded from possessing an
ACD on the basis of his disability. These Defendants contend that Plaintiff's request was reviewed
and it was determined that an ACD with pre-recorded messages, [*12] as opposed to the requested
ACD that synthesized speech, would provide him with adequate speech support. According to the
DHHS Defendants, Plaintiff chose to proceed in this court rather than the administrative appeal
process regarding the DHHS Defendants' decision. The DHHS Defendants argue that the evidence
shows only a difference of opinion as to the type of ACD that would be appropriate for his condition.
The DHHS Defendants further contend this issue is moot because the ACD Plaintiff desired now has
been approved and provided to him.
Regarding Plaintiff's wheelchair, the DHHS Defendants state that no request for a wheelchair was
made to DHHS to be approved or denied. These Defendants inform the court, however, that Plaintiff
submitted a request for a wheelchair on July 24, 2013, which was approved by DHHS on August 2,
2013. The wheelchair has been provided to Plaintiff. The DHHS Defendants assert that this issue also
is moot.
As to Plaintiff's § 1983, § 1985, and RICO causes of action, the DHHS Defendants assert that the
amended complaint is devoid of any factual allegations regarding actions or omissions by them aside
from conclusory statements of wrongdoing, and, further, that any claims revolved around [*13]
Plaintiff's contentions that Defendants attempted to deprive him of his right to participate in ADHC
services. These Defendants also assert that Plaintiff cannot maintain a cause of action under the
Supremacy Clause.
Plaintiff's specific response in opposition to the DHHS Defendants' motion for summary judgment is
that, if there were a difference of professional opinions regarding the type of ACD Plaintiff needed,
DHHS should have sent a notice containing all information required by 42 C.F.R. § 431.201 to
Plaintiff, and not just to the case manager and provider. Plaintiff fails to state how delivering a copy
of any notice to him personally creates an issue of fact that should be submitted to a jury. The DHHS
Defendants' motion for summary judgment is granted as to Counts 1 (ADA), 2 (Rehabilitation Act),
and Counts 3 and 4 (§ 1983).
Plaintiff includes the DHHS Defendants in his argument regarding the DDSN Defendants regarding
Counts 5 (conspiracy), Count 6 (Supremacy Clause), and Count 7 (RICO). For the reasons set forth
hereinabove in Section A, the DHHS Defendants' motion for summary judgment is granted as to
these claims.

PATRICIA HARRISON Page 6 of 12

2018 U.S. Dist. LEXIS 215708, *13

The court is mindful that the Fourth Circuit found "pattern of allegedly unreasonable delays and
improper denials" with [*14] respect to Plaintiff's wheelchair and ACD entitlement, and that the
DHHS Defendants need to show "that after this litigation has concluded, [Plaintiff] will not once
again find himself without the equipment he needs and without any ability to obtain it without
significant delay." The DDHS Defendants represented to the court that an ACD acceptable to Plaintiff
as well as a wheelchair have been provided to him on a permanent basis. Plaintiff contends that these
Defendants continue to ignore the requirements of 42 U.S.C. § 1396a(a)(8) and have not provided
him with services to be provided in a non-congregate setting; for speech services, including a swallow
study, and for a bed that will allow him to raise the elevation of his head to prevent aspiration.
According to the DDHS Defendants, these new claims lack factual basis in the record. Moreover,
according to the DDHS Defendants, Plaintiff's request for a hospital bed was submitted for
authorization on August 6, 2013, approved by these Defendants on August 12, 2013, and paid for by
Medicaid on August 23, 2013. The court declines to consider Plaintiff's newly asserted allegations.
E. Motion for summary judgment filed by Defendants Babcock Center and Judy Johnson [*15] (the
"Babcock Defendants")
The Babcock Defendants first argue that Plaintiff cannot establish the Babcock Defendants violated
the ADA (Count 1). The Babcock Defendants state that the only claims involving them revolve
around participation in the ADHC program, which issue is moot. Regarding the Rehabilitation Act
(Count 2), these Defendants contend that Plaintiff fails to assert any specific actions taken by
Johnson, in her individual capacity as she is named, to support his claim that Johnson personally
discriminated against him based on his disability.
Regarding Plaintiff's § 1983 causes of action (Counts 3, 4), the Babcock Defendants assert that the
Babcock Center is not a governmental entity acting under color of state law. In support of their
assertion, these Defendants attach to their motion for summary judgment a copy of their business
filing with the South Carolina Secretary of State. As to conspiracy to interfere with civil rights (Count
5), the Supremacy Clause (Count 6), and violations of RICO (Count 7), the Babcock Defendants
make generally the same arguments as the DDSN Defendants and the DHHS Defendants.
In his response in opposition, Plaintiff relies on his recitation of mismanagement and
investigation [*16] into the Babcock Center, and intimates that the Babcock Defendants possessed a
financial incentive to limit expenditures for assistive technology and equipment. The court finds that
Plaintiff's argument fails to establish discrimination on the basis of disability. Plaintiff also disputes
Defendants' contention that the Babcock Center is not a governmental entity. Although there exist
situations when a private organization may be treated as a public entity, see, e.g., Brentwood Academy
v. Tenn. Secondary Sch. Athletic Ass'n, 531 U.S. 288, 121 S. Ct. 924, 148 L. Ed. 2d 807 (2001),
Plaintiff does not engage in the analysis.
The DHHS Defendants' motion for summary judgment is granted as to Counts 1 (ADA), 2
(Rehabilitation Act), and Counts 3 and 4 (§ 1983).
Plaintiff includes the Babcock Defendants in his argument regarding the DDSN Defendants and
DHHS Defendants regarding Counts 5 (conspiracy), Count 6 (Supremacy Clause), and Count 7
(RICO). For the reasons set forth hereinabove in Sections A and D, the Babcock Defendants' motion
for summary judgment is granted as to these claims.
PATRICIA HARRISON Page 7 of 12

2018 U.S. Dist. LEXIS 215708, *16

....
F. Plaintiff's Motion for Partial Summary Judgment
Plaintiff asserts the following issues: (1) Defendants are in violation of the feasible alternatives,
comparability and reasonable promptness requirements of the Medicaid Act which are [*17]
enforceable under § 1983; (2) Defendants are in violation of the integration mandate of the Americans
with Disabilities Act.
To the extent Plaintiff raises arguments in tandem with her responses in opposition to Defendants'
various motions for summary judgment (excluding Defendant McMaster's motion to dismiss), his
motion for partial summary judgment is denied for the reasons set forth hereinabove.
To the extent Plaintiff raises new claims not asserted in the amended complaint, his motion for partial
summary judgment is denied without prejudice to allow him raise his allegations in a new action.
To the extent Plaintiff raises arguments barred by the mandate rule, his motion for partial summary
judgment is denied.
To the extent Plaintiff asserts damages claims against Defendants (excluding Defendant McMaster),
his motion for partial summary judgment is denied for the reasons set forth in the Fourth Circuit's
opinion.
To the extent Plaintiff seeks injunctive relief for events occurring after the filing of the amended
complaint, his motion for partial summary judgment is denied without prejudice to allow him to
seek injunctive relief in a new action.
Plaintiff does not dispute the DDSN Defendants' [*18] arguments regarding Counts 1, 2, 3, and 4.
The court concludes Plaintiff has abandoned these causes of action as to these Defendants.
ECF No. 475.
This matter now is before the court on Plaintiff's motion for reconsideration, which motion was filed on
April 27, 2018. See Fed. R. Civ. P. 59(e). The DDSN Defendants filed a memorandum in opposition on
May 10, 2018; Defendant Leitner filed a response in opposition on May 11, 2018, the DDHS Defendants
filed a response in opposition on May 11, 2018; and the Babcock Defendants filed a response in
opposition on June 1, 2018.7 Plaintiff filed an omnibus reply to Defendants' responses on June 15, 2018.

DISCUSSION
Although Rule 59 addresses grounds for new trials, some courts have reasoned that the concept of a new
trial under Rule 59 is broad enough to include a rehearing of any matter decided by the court without a
jury. 11 Wright & Miller, Federal Practice & Procedure § 2804. Notwithstanding the broad nature of Rule
59, motions for reconsideration are disfavored. They are not a matter of routine practice. Settino v. City of
Chicago, 642 F. Supp. 755, 759 (N.D. Ill. 1986). Several courts have observed that they are neither

7 The

Governor filed a response on May 11, 2018; however, as noted above, the Governor is no longer a party to this action.

PATRICIA HARRISON Page 8 of 12

2018 U.S. Dist. LEXIS 215708, *18

expressly cognizable under the Federal Rules of Civil Procedure nor authorized by the local rules of the
district court. See, e.g., Fisher v. Samuels, 691 F. Supp. 63, 74 (N.D. Ill. 1988).
Motions [*19] for reconsideration are inappropriate merely to introduce new legal theories or new
evidence that could have been adduced during the pendency of the prior motion. Keene Corp. v.
International Fidelity Ins. Co., 561 F. Supp. 656 (N.D. Ill.), aff'd, 736 F.2d 388 (7th Cir. 1982). The
Fourth Circuit recognizes only three limited grounds for a district court's grant of a motion under Rule
59(e): (1) to accommodate an intervening change in controlling law; (2) to account for new evidence not
available earlier; or (3) to correct a clear error of law or prevent manifest injustice. Hutchinson v. Staton,
994 F.2d 1076 (4th Cir. 1993). The Fourth Circuit has emphasized that counsel's mere disagreement with
the court's ruling does not warrant a Rule 59(e) motion. Id. (citing Atkins v. Marathon LeTourneau Co.,
130 F.R.D. 625, 626 (S.D. Miss. 1990)).
A. Private Attorneys General (ECF No. 493, 1)
Plaintiff contends that the court erred in failing to recognize that "Plaintiffs brought this action in their
important role as private attorneys general, not only for themselves, but also for others whose important
civil rights continue to be denied." ECF No. 83, 1. However, the Supreme Court has stated that "the
Medicaid Act implicitly precludes private enforcement of [42 U.S.C. 1396a)], and [parties] cannot . . .
circumvent Congress's exclusion of private enforcement." Armstrong v. Exceptional Child Center, Inc.,
135 S. Ct. 1378, 1385, 191 L. Ed. 2d 471 (2015) (citing Douglas v. Independent Living Center of Southern
Cal., Inc., 565 U.S. 606, 132 S. Ct. 1204, 1212-13, 182 L. Ed. 2d 101 (2012) (Roberts, C.J., dissenting)).
The Court noted that "the sole remedy Congress provided [*20] for a State's failure to comply with
Medicaid's requirements—for the State's 'breach' of the Spending Clause contract—is the withholding of
Medicaid funds by the Secretary of Health and Human Services." Id. (citing 42 U.S.C. § 1396c). The
Court explained that the "express provision of one method of enforcing a substantive rule suggests that
Congress intended to preclude others." Id. (citing Alexander v. Sandoval, 532 U.S. 275, 290, 121 S. Ct.
1511, 149 L. Ed. 2d 517 (2001)). Plaintiff's contention is without merit.
B. Claims for Non-Congregate Placement and Compliance (ECF No. 493, 3)
Plaintiff states that the court erred in determining Plaintiff's requests for noncongregate placement and
compliance with the ADA, the Rehabilitation Act, the Medicaid Act, and due process are "new." ECF No.
483, 3. Plaintiff states he has
consistently complained that Defendants have violated the integration mandate of the ADA and the
requirements of the Rehabilitation Act that require services to be provided in the least restrictive
setting. [He] presented extensive evidence in the form of affidavits, opinions from other cases, and
audits showing that Defendants have failed and continue to fail to comply with the reasonable
promptness (1396a(a)(8), reasonable standards (1396a(a)(17) [sic], feasible alternatives (42 U.S.C. §
1396n(c)(2)) and [*21] comparability (1396a(a)(10) mandates of the Medicaid Act.
Id.
Plaintiff contends that Defendants continually ignore the requirements of 42 C.F.R. § 431.200, et seq.
Section 431.200 provides:
This subpart—

PATRICIA HARRISON Page 9 of 12

2018 U.S. Dist. LEXIS 215708, *21

(a) Implements section 1902(a)(3) of the Act, which requires that a State plan provide an opportunity
for a fair hearing to any person whose claim for assistance is denied or not acted upon promptly;
(b) Prescribes procedures for an opportunity for a hearing if the State agency or non-emergency
transportation PAHP (as defined in § 438.9(a) of this chapter) takes action, as stated in this subpart, to
suspend, terminate, or reduce services, or of an adverse benefit determination by an MCO, PIHP or
PAHP under subpart F of part 438 of this chapter; and
(c) Implements sections 1919(f)(3) and 1919(e)(7)(F) of the Act by providing an appeals process for
any person who—
(1) Is subject to a proposed transfer or discharge from a nursing facility; or
(2) Is adversely affected by the pre-admission screening or the annual resident review that are
required by section 1919(e)(7) of the Act.
(d) Implements section 1943(b)(3) of the Act and section 1413 of the Affordable Care Act to permit
coordinated hearings and appeals among insurance affordability programs.
Plaintiff's arguments in this section seeks to challenge Defendants' alleged failure to comply [*22] with
the Medicaid Act. Plaintiff's contentions are without merit for the reasons stated in the previous section.
C. Abandonment of Claims (ECF No. 483, 4)
Plaintiff denies abandoning claims for violation of the ADA and the Rehabilitation Act. Plaintiff contends
that he has raised issues relating not only to the denial of service, but Defendants' failure to provide
services in a setting less restrictive than a CTH II. ECF No. 483, 6. However, the Fourth Circuit observed
that Plaintiff "offer[ed] no challenge to the district court's ruling that their claim that Kobe is entitled to be
provided with an SLP is unripe. Nor do they challenge the ruling that [Kobe's] claim demanding payment
for the speech pathologist who evaluated Kobe and provided him with speech services fell outside the
scope of their complaint." Kobe v. Haley, 666 F. A'ppx 281, 285, n.21 (4th Cir. 2016). Plaintiff's
arguments regarding denial of service and failure to provide services in a less restrictive setting are
outside the scope of the Fourth Circuit's remand.
Plaintiff contends the court also "erred in failing to address Plaintiff's § 1983 claims for violation of the
reasonable promptness, reasonable standards, comparability [*23] and feasible alternative mandates[.]"
ECF No. 483, 6. As the court previously noted, Plaintiff's § 1983 claims failed to show any specific
factual allegations of wrongdoing attributable to any Defendant. In his motion to alter or amend, Plaintiff
again argues, as he did on summary judgment prior to remand, that "Defendants reduced access to
services based on blatantly false claims of 'budget reductions' and audits provided by Plaintiffs show that,
while reducing services, DDSN and DHHS overbilled the federal government for insurance claims
(Medicaid) by tens of millions of dollars," and that Defendants engaged in wire fraud, defrauded the
government by filing false claims, and witness tampering. ECF No. 483, 7.
Regarding his conspiracy claim, Plaintiff realleges his assertion that Defendants conspired to "[keep] him
in a setting that is more restrictive than his entire treatment team has recommended." Id. at 8. As noted
hereinabove, any allegations by Plaintiff that he should be placed in a congregate setting are not ripe.
With respect to Plaintiff's ADA cause of action, the court previously noted that Plaintiff cannot show
disability discrimination. Plaintiff's own contention is that he cannot receive [*24] services requested
PATRICIA HARRISON Page 10 of 12

2018 U.S. Dist. LEXIS 215708, *24

because Defendants have surreptitiously diverted Medicaid funds without accountability. Plaintiff's
contentions are without merit.
D. Babcock Center (ECF No. 483, 10)
Plaintiff asserts that the court erred in dismissing claims against the Babcock Defendants on the grounds
that they did not act under color of state law. Plaintiff contends that the Babcock Defendants participated
in a money laundering scheme and that Defendant Johnson joined with other Defendants to attempt to
limit Plaintiff's access to assistive technology. However, as the court previously found, Plaintiff provided
no analysis in his omnibus response to summary judgment with respect to the factors set forth in
Brentwood Academy v. Tenn. Secondary Sch. Athletic Ass'n, 531 U.S. 288, 121 S. Ct. 924, 148 L. Ed. 2d
807 (2001), and other authorities. Plaintiff's contention is without merit.
E. Defendant Leitner (ECF No. 483, 11)
Plaintiff asserts the court erred in ruling that Defendant Leitner was sued only under Count Three. As the
court previously observed, the only factual allegation against Defendant Leitner is that on January 5,
2011, she, as Director of the Richland Lexington Disabilities Board, sent a letter to Plaintiff alerting him
that a review of ADHC services was forthcoming. As in his motion for summary [*25] judgment,
Plaintiff contends Leitner cooperated with other Defendants to limit services and force Plaintiff into
remaining in an unsafe institution.
The court previously held that Plaintiff's unsubstantiated allegations and bald assertions are not adequate
to defeat summary judgment. Plaintiff's contention is without merit.
F. RICO Claims (ECF No. 483, 11)
Plaintiff contends the court erred in failing to address his evidence that he contends "demonstrated
patterns of money laundering, diversion of insurance proceeds, intimidation of witnesses and other
violations described in Count Seven." ECF No. 483, 12. Plaintiff points the court to no competent
evidence in support of his RICO claims. Plaintiff's contention is without merit.

CONCLUSION
Plaintiff has failed to demonstrate an intervening change in controlling law, the existence of new evidence
not available earlier, or the need to correct a clear error of law or prevent manifest injustice. Plaintiff
merely expresses his disagreement with the court's ruling. Plaintiff's motion to alter or amend (ECF No.
483) is denied.
IT IS SO ORDERED.
/s/ Margaret B. Seymour
Senior United States District Judge
Columbia, South Carolina
December 19, 2018

PATRICIA HARRISON Page 11 of 12

2018 U.S. Dist. LEXIS 215708, *25

End of Document

PATRICIA HARRISON Page 12 of 12

APPENDIX C

Kobe v. McMaster
United States District Court for the District of South Carolina, Columbia Division
March 30, 2018, Decided; March 30, 2018, Filed
C/A No. 3:11-1146-MBS
Reporter
2018 U.S. Dist. LEXIS 55500 *

Kobe, Mark,1 Plaintiffs, vs. Henry McMaster, in his capacity as Governor2 of the State of South Carolina,
et al., Defendants.

Subsequent History: Motion denied by Kobe v. McMaster, 2018 U.S. Dist. LEXIS 215708 (D.S.C., Dec.
19, 2018)
Affirmed by Kobe v. Buscemi, 2020 U.S. App. LEXIS 21627 (4th Cir. S.C., July 13, 2020)

Prior History: Kobe v. Haley, 666 Fed. Appx. 281, 2016 U.S. App. LEXIS 22283 (4th Cir. S.C., Dec. 15,
2016)

Counsel: [*1] For Kobe, Plaintiff: Patricia L Harrison, LEAD ATTORNEY, Patricia Logan Harrison
Law Office, Columbia, SC.
For Judy Johnson, in her capacity as the Director of the Babcock Center, Unnamed Actors Associated
with the Babcock Center, Babcock Center, The, Defendants: Christian Stegmaier, Meghan Hazelwood
Hall, LEAD ATTORNEYS, Collins and Lacy, Columbia, SC; Joel Wyman Collins, Jr, Collins and Lacy,
Columbia, SC.
For Henry McMaster, in his official capacity as Governor and Chairman of the South Carolina Budget and
Control Board, Defendant: Vance J Bettis, LEAD ATTORNEY, Gignilliat Savitz and Bettis LLP,
Columbia, SC.

1 Plaintiff

Mark filed a motion to withdraw as a party to this action on July 19, 2013. The motion was granted on July 23, 2013.

2 Governor

McMaster was substituted for former Governor Nikki Haley pursuant to Fed. R. Civ. P. 25(d) on July 25, 2017.

PATRICIA HARRISON

2018 U.S. Dist. LEXIS 55500, *1

Judges: Margaret B. Seymour, Senior United States District Judge.

Opinion by: Margaret B. Seymour

Opinion

ORDER AND OPINION
Plaintiffs Kobe and Mark filed a complaint on May 11, 2011, and an amended complaint on October 18,
2011. Plaintiffs alleged the following causes of action: Violation of the Americans With Disabilities Act
(Count One); Violation of Section 504 of the Rehabilitation Act (Count Two); violation of 42 U.S.C. §
1983 (Count Three); Violation of 42 U.S.C. §§ 1983 and 1988 (violation of civil rights) (Count Four);
Violation of 42 U.S.C. § 1985(3) (conspiracy) (Count Five); Violation of the Supremacy Clause (Count
Six); and Violation of RICO (Count Seven).3 The case originally [*2] was assigned to the Honorable J.
Michelle Childs. It was reassigned to the Honorable Timothy M. Cain on October 18, 2011.
On August 10, 2012, the Honorable Timothy M. Cain dismissed Defendants Nikki Haley, in her official
capacity as Governor and Chairman of the South Carolina Budget and Control Board;4 Curtis Loftis and
Brian White, as members of the South Carolina Budget and Control Board; and Daniel Cooper and
Converse Chellis, in their capacities as former members of the South Carolina Budget and Control Board,
on the grounds of Eleventh Amendment immunity as to claims asserted against them in their official
capacities. He determined none of them had a special connection to the administration of the state's
Medicaid program such than an injunction against them would provide any redress. Judge Cain also found
that, to the extent Defendants Cooper and Chellis were sued in their individual capacities, these
Defendants had no authority to provide prospective injunctive relief. Judge Cain also determined that
Defendants Cooper and Chellis were entitled to legislative immunity. ECF No. 135. On August 12, 2013,
Judge Cain dismissed Defendants Hugh Leatherman and Richard Eckstrom, in their capacities as
members [*3] of the South Carolina Budget and Control Board, on the grounds of Eleventh Amendment
immunity and legislative immunity. ECF No. 217.
On July 7, 2014, the within action was reassigned to the undersigned. Remaining in the case were
Plaintiffs Kobe and Mark, as well as Defendants Anthony Keck, in his capacity as the Director of the
South Carolina Department of Health and Human Services; Emma Forkner, in her capacity as the former
Director of the South Carolina Department of Health and Human Services; Beverly Buscemi, in her
capacity as Director of the South Carolina Department of Disabilities and Special Needs; Eugene A.

3 Plaintiff

Kobe also asserted state law claims against the Babcock Center, a private entity that provides services to persons with disabilities,
as follows: Injuries to Kobe Caused by Babcock Center, Judy Johnson and/or Agents and Employees of The Babcock Center Resulting From
Neglect, Deliberate Indifference, Assault and Battery and Intentional Infliction of Emotional Distress (Count Eight). Count Eight was
dismissed with prejudice on March 20, 2015.
4 Reorganized

as the State Fiscal Accountability Authority.

PATRICIA HARRISON Page 2 of 34

2018 U.S. Dist. LEXIS 55500, *3

Laurent, former Interim Director of the South Carolina Department of Disabilities and Special Needs;
Stanley Butkus, former Director of the South Carolina Department of Disabilities and Special Needs;
Richard Huntress, in his capacity as Commissioner of the South Carolina Department of Disabilities and
Special Needs; Kathi Lacy, Thomas P. Waring and Jacob Chorey, in their capacities as employees of the
South Carolina Department of Disabilities and Special Needs; Mary Leitner, in her capacity as the
Director of the Richland Lexington Disabilities and Special Needs Board; the Babcock Center; [*4] Judy
Johnson, in her capacity as the Director of the Babcock Center; and other Unnamed Actors Associated
with the Babcock Center.5

FACTS AND PROCEDURAL HISTORY
At the time of filing the amended complaint, Kobe was 29 years old. Kobe is unable to walk or to speak
and has a history of convulsions. Kobe attends the Hope Bridge Adult Day Care program and receives
Adult Day Health Care (ADHC) services. In December 2010, the Richland-Lexington Disabilities and
Special Needs Board was directed by the South Carolina Department of Disabilities and Special Needs
(DDSN) to update eligibility of persons using ADHC services. Kobe was informed by the RichlandLexington Disabilities and Special Needs Board that he no longer was eligible for ADHC services. Kobe
appealed the termination of services to DDSN, and Defendant Beverly Buscemi, Director of DDSN,
determined on May 11, 2011, that Kobe should continue to receive ADHC services. Despite being
successful at the DDSN level, Kobe appealed the termination of services to the South Carolina
Department of Health and Human Services (DHHS). The issue was resolved by consent order dated
August 9, 2012. There was no lapse in ADHC services for Kobe during this [*5] time.
Kobe also alleged that he requested from DHHS an augmentative communications device (ACD) to aid
him in communicating. He received an ACD that was not as sophisticated as that prescribed by his
treating physician. Kobe further contended that his wheelchair was damaged when he was dropped by
employees of the Babcock Center while being loaded into a vehicle, and that the wheelchair was not
replaced promptly by DHHS.
Mark also receives ADHC services. Like Kobe, Mark was notified in 2011 that he no longer was eligible
for ADHC services. Mark appealed the termination to DDSN, which upheld the termination. However, the
issue also was resolved in Mark's favor at the DHHS level by consent order. Mark's ADHC services did
not lapse during this time period.
Mark lives with his sister. Mark contended that in 2010 DDSN reduced the number of respite hours to
which he is entitled. Mark asserted that he is at risk of institutionalization if his sister is not provided with
the support and services that he needs.
The matter came before the court on motions for summary judgment filed by Defendants on January 6,
2014. Plaintiffs also filed a motion for summary judgment on January 6, 2014, which was [*6] amended
on January 22, 2014. The court held a hearing on September 23, 2014. Plaintiffs contended that the court
should resolve the following issues:

5 Defendant

former Governor Mark Sanford, in his official capacity as former member of the South Carolina Budget and Control Board, was
never served. Accordingly, he was dismissed pursuant to Fed R. Civ. P. 4(m) on September 30, 2014.

PATRICIA HARRISON Page 3 of 34

2018 U.S. Dist. LEXIS 55500, *6

(1) Have the Defendants violated the reasonable standards provision of 42 U.S.C. § 1396a(a)(17) of
the Medicaid Act and the South Carolina Administrative Procedures Act by failing to establish and
utilize reasonable, ascertainable, non-arbitrary standards and procedures to determine eligibility for
and the extent of medical assistance provided to Plaintiffs?
Plaintiffs stated that the court should "issue a permanent injunction against Defendants denying medical
services ordered by Plaintiffs' treating physicians based on binding norms that have not been promulgated
as regulations. Plaintiffs requested that Defendants be required to give the deference ordered by the
United States Supreme Court to the orders of Plaintiffs' treating physicians. Plaintiffs request that
Defendants be prohibited from denying medically necessary services based on amendments made by the
agencies without promulgation of regulations."
(2) Have the Defendants violated the "reasonable promptness" requirement of the Medicaid Act by
failing to provide Kobe with the wheelchair and speech device [*7] his physician ordered and by
failing to provide residential services in the least restrictive setting within ninety days of those needs
being identified?
Plaintiffs stated that Kobe's physicians have ordered a wheelchair and speech device, but DHHS has failed
to provide this equipment with reasonable promptness. Plaintiffs requested the court order Defendants to
immediately provide Kobe with (1) a wheelchair to be provided within thirty days without further
administrative delays, and (2) a speech device ordered by his physician within thirty days and speech
services determined by his physician to be medically necessary, based on the evaluation by his licensed
speech and language pathologists.
(3) Have the Defendants violated the integration mandate of the Americans with Disabilities Act by
failing to provide Kobe with a wheelchair, a speech device, speech therapy services and placement in
a supervised apartment with necessary support services?
Plaintiffs stated: "Kobe requests that this Court issue a declaratory order finding that Defendants have
violated the ADA in the operation of their programs and enjoining them from continuing to violate the
ADA. He requests that DHHS be ordered [*8] to pay for the wheelchair and speech device ordered by his
physician to be funded by Defendants. He requests continued speech services to improve his ability to
communicate."
The court issued an order and opinion on September 30, 2014, concluding as follows:
A. Mootness
It is well settled that federal courts have no authority to "'give opinions upon moot questions or
abstract propositions, or to declare principles or rules of law which cannot affect the matter in issue in
the case before it.'" Int'l Coal. for Religious Freedom v. Maryland, 3 F. App'x 46, 48-49 (4th Cir.
2001) (quoting Church of Scientology of Cal. v. United States, 506 U.S. 9, 12, 113 S. Ct. 447, 121 L.
Ed. 2d 313 (1992)). This is so even though such case presented a justiciable controversy at an earlier
point in time and an intervening event rendered the controversy moot. Id. (citing Calderon v. Moore,
518 U.S. 149, 150, 116 S. Ct. 2066, 135 L. Ed. 2d 453 (1996)).
In this case, Plaintiffs were informed in 2010 that they no longer qualified for ADHC assistance.
However, their ADHC services were never interrupted, and they both prevailed during the

PATRICIA HARRISON Page 4 of 34

2018 U.S. Dist. LEXIS 55500, *8

administrative appeals process. Further, it appears that Kobe has received a new wheelchair. The
court finds these claims to be moot.
B. Ripeness
The ripeness doctrine aims to "'prevent the courts, through avoidance of premature adjudication, from
entangling themselves in abstract disagreements over administrative policies.'" Pashby v. Delia, 709
F.3d 307, 317 (4th Cir. 2013) (quoting Abbott Labs. v. Gardner, 387 U.S. 136, 148, 87 S. Ct. 1507, 18
L. Ed. 2d 681 (1967), abrogated [*9] on other grounds by Califano v. Sanders, 430 U.S. 99, 97 S. Ct.
980, 51 L. Ed. 2d 192 (1977)). A claim should be dismissed as unripe if the plaintiff has not yet
suffered injury and any future impact "'remains wholly speculative.'" Doe v. Virginia Dep't of State
Police, 713 F.3d 745, 758 (4th Cir. 2013) (quoting Gasner v. Bd. of Supervisors, 103 F.3d 351, 361
(4th Cir. 1996)). In determining ripeness, a court must "'balance the fitness of the issues for judicial
decision with the hardship to the parties of withholding court consideration. A case is fit for judicial
decision when the issues are purely legal and when the action in controversy is final and not
dependent on future uncertainties.'" Id. (quoting Miller v. Brown, 462 F.3d 312, 319 (4th Cir. 2006)).
Mark's contention that the reduction in his respite hours could lead to the loss of care by his sister is
too remote and speculative to be ripe for federal judicial review. See Charter Fed. Sav. Bank v. Office
of Thrift Supervision, 976 F.2d 203, 208-09 (4th Cir. 1992) ("'[I]n the context of an administrative
case, there must be 'an administrative decision [that] has been formalized and its effects felt in a
concrete way by the challenging parties.'")(quoting Pac. Gas & Elec. v. Energy Res. Comm'n, 461
U.S. 190, 200, 103 S. Ct. 1713, 75 L. Ed. 2d 752 (1983)).
C. Standing to Invoke Injunctive Relief
To satisfy Article III's case-or-controversy standing requirements, a plaintiff must show (1) he has
suffered an "injury in fact" that is (a) concrete and particularized and (b) actual or imminent, not
conjectural or hypothetical; (2) the injury is fairly traceable to the challenged [*10] action of the
defendant; and (3) it is likely, as opposed to merely speculative, that the injury will be redressed by a
favorable decision. Friends of the Earth, Inc. v. Laidlaw Envtl. Servs. (TOC), Inc., 528 U.S. 167, 180,
120 S. Ct. 693, 145 L. Ed. 2d 610 (4th Cir. 2000) (citing Lujan v. Defenders of Wildlife, 504 U.S. 555,
560-61, 112 S. Ct. 2130, 119 L. Ed. 2d 351 (1992)). The standing question is whether the plaintiff has
"'alleged such a personal stake in the outcome of the controversy' as to warrant his invocation of
federal-court jurisdiction and to justify exercise of the court's remedial powers on his behalf." Warth
v. Seldin, 422 U.S. 490, 498-99, 95 S. Ct. 2197, 45 L. Ed. 2d 343 (1975) (quoting Baker v. Carr, 369
U.S. 186, 204, 82 S. Ct. 691, 7 L. Ed. 2d 663 (1962)). Further, "when the asserted harm is a
'generalized grievance' shared in substantially equal measure by all or a large class of citizens, that
harm alone normally does not warrant exercise of jurisdiction." Id. at 499 (citing cases). In addition,
"even when the plaintiff has alleged injury sufficient to meet the 'case or controversy' requirement, . . .
the plaintiff generally must assert his own legal rights and interests, and cannot rest his claim to relief
on the legal rights or interests of third parties." Id. (citing cases). "Without such limitations—closely
related to Art[icle] III concerns but essentially matters of judicial self-governance—the courts would
be called upon to decide abstract questions of wide public significance even though other
governmental institutions may be more [*11] competent to address the questions and even though
PATRICIA HARRISON Page 5 of 34

2018 U.S. Dist. LEXIS 55500, *11

judicial intervention may be unnecessary to protect individual rights." Id. at 500 (citing Schlesinger v.
Reservists Comm. to Stop the War, 418 U.S. 208, 222, 94 S. Ct. 2925, 41 L. Ed. 2d 706 (1974) ("'The
desire to obtain sweeping relief cannot be accepted as a substitute for compliance with the general
rule that the complainant must present facts sufficient to show that his individual need requires the
remedy for which he asks.'") (quoting McCabe v. Atchison, T. & S. F. R. Co., 235 U.S. 151, 164, 35 S.
Ct. 69, 59 L. Ed. 169 (1914)).
As can readily be discerned from the allegations set forth hereinabove, and further as argued in the
hearing, Plaintiffs allege systemic failures within the DHHS and DDSN systems and ask the court to
intervene in the administration and operation of these agencies of the State of South Carolina. In
particular, Plaintiffs seek to have the court oversee DHHS's promulgation of regulations that Plaintiffs
contend would force compliance with federal Medicaid law. While Plaintiffs' allegations of wholesale
mismanagement and, indeed, criminal conduct within DHHS, DDSN, and the Babcock Center are
sobering,"[i]t is an established principle . . . that to entitle a private individual to invoke the judicial
power to determine the validity of executive or legislative action he must show that he has sustained
or is immediately [*12] in danger of sustaining a direct injury as a result of that action." Lujan, 504
U.S. at 574-76. Plaintiffs show no cognizable particularized injury. Plaintiffs lack standing to seek
injunctive relief on behalf of others regarding the allegations of mishandling of funds and exploitation
set forth in the amended complaint.
ECF No. 296.
Plaintiffs timely filed a notice of appeal. On December 15, 2016, the Court of Appeals for the Fourth
Circuit affirmed in part, vacated in part, and remanded the action. ECF No. 368. First, the Fourth Circuit
affirmed the court's rulings as to Mark on ripeness grounds. Id. at 33, n.21. Next, the Fourth Circuit
affirmed the court's determination that the eligibility to receive ADHC services is moot based on the
consent orders entered into with these Plaintiffs. Id. at 37.
The Fourth Circuit determined, however, that there was a "pattern of allegedly unreasonable delays and
improper denials" with respect to Kobe's wheelchair and ACD entitlement. The Fourth Circuit found that
Defendants "have not met their 'heavy burden' of showing that after this litigation has concluded, Kobe
will not once again find himself without the equipment he needs and without any ability to obtain it
without significant delay." Id. at 39 [*13] . Therefore, the Fourth Circuit vacated the court's order on
justiciability grounds, and remanded for further proceedings. Id. In addition, the Fourth Circuit
determined that, since the case continues to present justiciable issues, it would vacate the grant of
summary judgment against Plaintiffs on Counts One through Seven and remand for further consideration
of the viability of each of Plaintiffs' claims against each Defendant. Id. at 40.
Finally, the Fourth Circuit turned to Judge Cain's order dismissing Defendant Haley on the basis of
Eleventh Amendment immunity.6 The Fourth Circuit found that Judge Cain properly ruled Defendant
Haley lacked the special relation to the administration of the South Carolina's Medicaid program such that
no effective prospective relief would be available as against her. However, the Fourth Circuit found that
Plaintiffs had not specifically waived their claim against Defendant Haley for damages. As a result, the

6 The

Fourth Circuit observed that Plaintiffs had not appealed the dismissal of Defendants Loftis, White, and Sanford. The Fourth Circuit also
noted that Plaintiffs offered no specific challenge to the dismissal of Leatherman, Eckstrom, Chellis, and Cooper regarding prospective relief,
and that Plaintiffs abandoned any claims for damages as to these Defendants. Accordingly, the orders granting these Defendants' motions to
dismiss remain in effect. ECF No. 368, 40, 43 & 55.

PATRICIA HARRISON Page 6 of 34

2018 U.S. Dist. LEXIS 55500, *13

Fourth Circuit vacated the dismissal of Count One as against Defendant Haley. The Fourth Circuit noted
that no party had addressed the application of United States v. Georgia, 546 U.S. 151, 126 S. Ct. 877, 163
L. Ed. 2d 650 (2006), with respect to whether Congress validly abrogated South Carolina's Eleventh
Amendment immunity as to claims arising out of Title II of the ADA. The test under Georgia instructs the
lower courts to:
[D]etermine . . . on a claim-by-claim basis, (1) which aspects of the State's alleged conduct violated
Title II; (2) to what extent such misconduct also violated the Fourteenth Amendment; and (3) insofar
as such misconduct violated Title II but did not violate the Fourteenth Amendment, [*14] whether
Congress's purported abrogation of sovereign immunity as to that class of conduct is nevertheless
valid.
546 U.S. at 159.
Thus, the Fourth Circuit held that dismissing Counts One and Two against Defendant Haley on Eleventh
Amendment grounds was premature. ECF No. 368, 50.
***
This matter now is before the court on the following motions:
1. Motion for summary judgment on remand filed by Defendants Buscemi, Butkus, Chorey, Huntress,
Lacy, Laurent, and Waring on April 28, 2017, and amended on August 8, 2017. Plaintiff Kobe filed
responses in opposition on September 14, 2017 and September 17, 2017, and amended October 3,
2017, to which these Defendants filed a reply on October 17, 2017.
2. Motion to dismiss filed by Defendant McMaster (formerly Haley) on May 1, 2017, and amended
on July 21, 2017. Plaintiff Kobe filed responses in opposition on September 14, 2017 and September
17, 2017, and amended October 3, 2017, to which Defendant McMaster filed a reply on August 16,
2017.
3. Motion for summary judgment filed by Defendant Leitner on August 11, 2017. Plaintiff Kobe filed
responses in opposition on September 14, 2017 and September 17, 2017, and amended October 3,
2017, to which Defendant Leitner filed a reply on October [*15] 27, 2017.
4. Motion for summary judgment filed by Defendants Forkner and Keck on August 11, 2017. Plaintiff
Kobe filed responses in opposition on September 14, 2017 and September 17, 2017, and amended
October 3, 2017, to which Defendants Forkner and Keck filed a reply on October 17, 2017.
5. Third motion for summary judgment filed by Defendants Babcock Center and Johnson on August
11, 2017. Plaintiff Kobe filed responses in opposition on September 14, 2017 and September 17,
2017, and amended October 3, 2017, to which these Defendants filed a reply on October 27, 2017.
6. Motion for summary judgment filed by Kobe on August 21, 2017, to which Defendant McMaster
filed a response in opposition on September 8, 2017; Defendants Forkner and Keck on September 13,
2017, Defendants Buscemi, Butkus, Chorey, Huntress, Lacy, Laurent, and Waring on September 14,
2017; Defendants the Babock Center and Johnson on September 14, 2017; and Defendant Leitner on
September 14, 2017. Plaintiff filed replies to responses of Defendants McMaster; Fortner and Keck;
Buscemi, Butkus, Chorey, Huntress, Lacy, Laurent, and Waring on October 27, 2017; and replies to
responses of Defendants Leitner; and Babock Center [*16] and Johnson on October 28, 2017.

PATRICIA HARRISON Page 7 of 34

2018 U.S. Dist. LEXIS 55500, *16

7. Motion to strike Plaintiff's motion for summary judgment filed by Defendants Babcock Center and
Johnson on October 27, 2017. Plaintiff filed a response in opposition on November 13, 2017, to which
these Defendants filed a reply on November 29, 2017.

PLAINTIFFS' CAUSES OF ACTION7

COUNT ONE
VIOLATION OF THE AMERICANS WITH DISABILITIES ACT
260. Plaintiffs and Class Members8 adopt and restate the allegations set forth above in this complaint.
261. It is undisputed that Plaintiffs are qualified individuals with disabilities who have physical and/or
mental impairments that substantially limit one or more of their major life activities, including, but
not limited to one of more of the following: thinking, walking, communicating, learning, working,
caring for themselves and concentrating. See 42 U.S.C. § 12102.
262. The treating professionals of the State have determined that community-based treatment is
appropriate for the Plaintiffs and Class Members; they do not oppose community placement and their
needs can be reasonably accommodated without fundamentally altering the nature of how the State
delivers services.
263. Public entities, like the SCBCB, the South Carolina General Assembly, [*17] SCDHHS,
SCDDSN, the Babcock Center and local DSN Boards are required by federal law to make reasonable
modifications in policies, practices, or procedures when the modifications are necessary to avoid
discrimination on the basis of disability, except where the public entity can demonstrate that making
the modifications would fundamentally alter the nature of the service, program, or activity. 28 CFR §
35.130(b)(7).
264. Defendants who were members of the South Carolina Budget and Control Board in 2009
violated the ADA by failing to insure that the funds paid to SCDDSN were spent appropriately for
services Plaintiffs and Class Members need, despite repeated warnings from the South Carolina
Legislative Audit Council, federal and state audits showing that SCDDSN was spending those funds
to purchase real estate to force waiver participants into WAC's to profit the State.
265. Defendants have failed to consider the State's obligations under the ADA in allocating funds
necessary to provide necessary community based services to Plaintiffs and Class Members to allow
them to receive services in the most integrated setting appropriate to their treatment needs.
266. Defendants have failed to consider their obligations [*18] to the Plaintiffs and Class Members
under the ADA by expending tens of millions of dollars unnecessarily to purchase and renovate real

7 Excluding
8 Plaintiffs

Count Eight, which has been resolved.

elected not to proceed with a class action.

PATRICIA HARRISON Page 8 of 34

2018 U.S. Dist. LEXIS 55500, *18

property used as WAC's which properties are being utilized to financially exploit persons who have
disabilities.
267. Defendants have acted to terminate the ADHC services of the Plaintiffs and Class Members and
to reduce other services needed by Medicaid waiver participants which are necessary to allow them to
live in the least restrictive setting.
268. These actions were taken without conducting a cost analysis to determine the cost of alternative
services, including, but not limited to the cost of WAC services and the real estate funded by
SCDDSN.
269. In doing so, Defendants have been indifferent to the medical, emotional and other treatment
needs of the Plaintiffs and Class Members and to the full costs of operating the WAC's owned by
local DSN Boards.
270. The treating physicians of the Plaintiffs and Class Members have determined that ADHC
services are medically necessary and the Defendants have failed to give deference to the treatment
orders of their treating physicians in violation of the mandate of the United States Supreme Court in
Olmstead v. L.C. 527 U.S. 581, 119 S. Ct. 2176, 144 L. Ed. 2d 540 (1999).
271. Under [*19] the "integration mandate" of Title II of the ADA, Defendants must administer longterm care services in a manner that provides services to individuals who have disabilities in the most
integrated setting appropriate to their needs.
272. Services provided in WAC's are not appropriate to the needs of the Plaintiffs and Class
Members.
273. The actions taken by Defendants discriminate against persons whose physicians have determined
that they require ADHC, by denying services that are appropriate to their needs.
274. The State's unjustified attempts to force these persons into WAC's place them at risk of
institutionalization, including hospitals, nursing homes and ICF/MR's and it constitutes a form of
discrimination based on disability which is prohibited by Title II, 42 U.S.C. § 12101(a)(2), (5).
275. The arbitrary determinations made by DSN Service Coordinators, who are acting on directives
from Defendant Kathi Lacy and other individual Defendants for economic gain, will force the
Plaintiffs and Class Members into inappropriate placements where their health and safety will be
endangered at greater costs to taxpayers of the State.
276. The services Plaintiffs and Class Members request are not unreasonable, given the [*20]
demands on the State's health care budget and the resources available to pay for these services and the
ADHC services Plaintiffs request cost less than placement in a hospital or an SCDDSN Regional
Center.
277. The Plaintiffs' needs can be reasonably accommodated, as has been demonstrated by their
continuous care in the community while receiving ADHC services for many years.
278. Providing the ADHC services Plaintiffs request would not place an unreasonable burden on the
State nor would it force the state to fundamentally alter the nature of its programs.
PATRICIA HARRISON Page 9 of 34

2018 U.S. Dist. LEXIS 55500, *20

279. ADHC services ordered by Plaintiffs's and Class Members' physicians can be provided without
undue burden to the state, taking into consideration its obligation to provide health care and services
with an "even hand."
280. Defendants have further violated the ADA by denying Kobe's requests for an ACD and his
choice to move to a less restrictive setting and by reducing Mark's respite services, which are all
needed for him to remain out of an institutional setting.
281. Defendants have failed to make reasonable modifications to the programs operated by SCDDSN
which are necessary for Plaintiffs to receive services in the least restrictive [*21] setting.
282. The failure to offer Plaintiffs and Class Members services, including, but not limited to ADHC
services, to allow Plaintiffs to live in integrated home and community based settings constitutes
unlawful discrimination in violation of Title II of the ADA and its implementing regulations at 28
C.F.R. § 35.130(d).
283. Defendants have failed to exercise their discretion in a non-discriminatory manner by denying
Plaintiffs necessary funds used to provide the ADHC services they require to live the least restrictive
setting.
284. The willful and intentional acts of the individual Defendants have placed the Plaintiffs and Class
members at risk and caused them to experience extreme emotional distress and fear of retaliation for
filing this lawsuit in violation of the andti-retaliation provisions of the ADA.
285. Plaintiffs request a finding that Defendants have violated the ADA and its implementing
regulations and an order requiring that Defendants pay attorney fees, expenses and costs and damages
in such amount as the Court shall determine to be just and fair.

COUNT TWO VIOLATION OF SECTION 504 OF THE REHABILITATION ACT
286. Plaintiffs adopt and restate the allegations set forth above in this complaint.
287. Section 504 of the Rehabilitation Act of [*22] 1973 provides, "no otherwise qualified individual
with a disability in the United States...shall, solely by reason of her or his disability, be excluded from
participation in, be denied the benefits of, or be subjected to discrimination under any program or
activity receiving Federal financial assistance. 29 U.S.C. § 794(a),
288. "Program or activity' includes a department, agency, special purpose district, or other
instrumentality of a State or local Government. 29 U.S.C. § 794(b)(1)(A).
289. The Medicaid Waiver programs administered by SCDDSN are "programs or activities" provided
by the State of South Carolina.
290. "Recipient" of federal financial assistance also includes any public or private agency or other
entity to which Federal financial assistance is extended directly or through another recipient. 28
C.F.R. § 41.3(d).

PATRICIA HARRISON Page 10 of 34

2018 U.S. Dist. LEXIS 55500, *22

291. SCDHHS, SCDDSN, local DSN Boards and the Babcock Center are all recipients of federal
financial assistance.
292. Regulations implementing Section 504 require a recipient of federal financial assistance to
administer its services, programs, and activities in the "most integrated setting appropriate" to the
needs of qualified individuals with disabilities. 28 C.F.R. § 41.51(d).
293. Federal Medicaid funds account for a majority (nearly 80% when this lawsuit [*23] was filed) of
the cost of the home and community based waiver programs administered by SCDDSN.
294. Defendants and their contracting agencies and organizations are recipients of Federal financial
assistance under Section 504 and its implementing regulations.
295. Plaintiffs are "qualified persons with disabilities" within the meaning of Section 504 because
they have physical and/or mental impairments that substantially limit one or more major life
activities, and they meet the essential eligibility requirements for the home and community based
waiver programs administered by SCDDSN. See 29 U.S.C. § 705(9).
296. The treating physicians of the Plaintiffs and Class Members have determined that ADHC
services are provided in the "most integrated setting appropriate" to their medical needs as qualified
individuals with disabilities. 28 C.F.R. § 41.51(d).
297. The South Carolina Budget and Control Board failed to insure that the funds allocated to
SCDDSN were spent as appropriated by the General Assembly to provide services, despite warnings
from the South Carolina Legislative Audit Council that SCDDSN was spending those funds
improperly for the purchase of real estate.
298. Defendants have threatened to terminate funds necessary for Plaintiffs and Class [*24] Members
to receive services in the most integrated setting appropriate to meet their needs in order to financially
exploit them.
299. Defendants have failed to make reasonable modifications to home and community based waiver
programs to allow Plaintiffs and Class Members to receive ADHC services and other home and
community based waiver services so that they can successfully live in the least restrictive setting
appropriate to their needs.
300. Failure to provide services in the least restrictive setting appropriate to the needs of Plaintiffs and
Class Members and forcing them to attend WAC's, where they will be financially exploited,
constitutes unlawful segregation in violation of Section 504 of the Rehabilitation Act and its
implementing regulations at 28 C.F.R. 41.51(d).
301. The individual Defendants, Buscemi, Lacy, Waring, Huntress, Chorey and Johnson have acted
willfully together and with others in intentional disregard of the federal rights of the Plaintiffs and
Class Members in willful and intentional violation of Section 504.
302. Defendants have also utilized criteria and methods of administration that subject Plaintiffs to
discrimination on the basis of disability, including risk of unnecessary institutionalization, [*25] by
(1) failing to assess properly the services and supports that would enable Plaintiffs to live in the least
PATRICIA HARRISON Page 11 of 34

2018 U.S. Dist. LEXIS 55500, *25

restrictive setting, (2) failing to ensure that Plaintiffs have access to Medicaid-covered services that
will meet their needs in the community, and (3) compelling health care providers to reduce or
eliminate recommended ADHC services, thereby violating Section 504 and its implementing
regulations.
303. Because of the willful and intentional acts of the individual Defendants, the Plaintiffs and Class
Members have experienced extreme emotional distress due to fear of loss of services which their
physicians have determined to be medically necessary and fear of harm if they are forced to attend a
WAC.
304. Class Members have been subjected to extreme emotional distress when they were forced to
attend WAC's with little to no notice or opportunity to appeal these decisions.
305. Plaintiffs have experienced fear of retaliation for filing this lawsuit and for advocating for their
rights.
306. Defendants have violated Section 504 by failing to provide Kobe with an ACD and services in an
apartment setting and they have violated Mark's right to receive respite services at the pre-January 1,
2010 level and other [*26] cost effective home and community based waiver services that allow
waiver participants to live in the least restrictive setting.
307. Plaintiffs and Class Members request a finding that Defendants have violated Section 504 and its
implementing regulations and that Defendants pay attorney fees, expenses and costs and such other
damages to the Plaintiffs and Class Members, including damages for emotional distress, in such
amount as the Court shall determine to be just and fair.
308. Plaintiffs and Class Members are entitled to reasonable legal fees, costs and expenses of this
litigation.

COUNT THREE VIOLATION OF 42 U.S.C. § 1983
309. Plaintiffs adopt and restate the allegations set forth in the paragraphs above.
310. At all relevant times herein, Plaintiffs and Class Members have had a right under the Medicaid
Act to receive ADHC.
311. Defendants Haley, Sanford, Cooper, Eckstrom, Chellis, Leatherman, Forkner, Keck, Butkus,
Laurent, Buscemi, Lacy, Waring, Chourey, Huntress, Johnson and Leitner are persons who, acting
under color of law, have violated the civil rights of the Plaintiffs and Class Members by violating
provisions of the Medicaid Act and the constitutional rights of the Plaintiffs and Class Members.
312. Defendants [*27] Butkus, Laurent, Buscemi, Lacy, Waring, Huntress, Chorey and Johnson and
others who will be identified during discovery schemed to divert funds from ADHC services to
WAC's and to deny the rights of Plaintiffs and Class Members to these and other Medicaid services
needed to live in the least restrictive setting.
313. Acting under the color of law, Defendants worked a denial of the rights and privileges of
Plaintiffs and Class Members which are secured by the United States Constitution or by Federal law
PATRICIA HARRISON Page 12 of 34

2018 U.S. Dist. LEXIS 55500, *27

and which are guaranteed by the Fourth, Fifth, and Fourteenth Amendments to the Constitution of the
United States, to wit, they have denied their right to life, liberty and the pursuit of happiness by
denying ADHC services ordered by their physicians in order to effectively force them into unsafe and
inappropriate WAC's.
314. As a result of the concerted unlawful and malicious conduct of Defendants Forkner, Buscemi,
Lacy, Waring, Chorey, Huntress and Johnson, Plaintiffs and Class Members have been deprived of
their rights to equal protection of all the laws and to due process of law, their right to property
interests in Medicaid benefits, and the due course of justice has been impeded, in violation of the
Fourth, Fifth, and Fourteenth Amendments of the Constitution of the United States and 42 U.S.C. §
1983.
315. Individual Defendants Buscemi, Lacy, [*28] Waring, Chorey, Huntress and Johnson have
neglected the needs of Plaintiffs and Class Members and they have done so with evil motives and
intents and their actions have involved reckless and callous indifference to the rights of the Plaintiffs
and other Class Members.
316. Defendants Johnson and other employees of the Babcock Center have caused Kobe to suffer
physical injury and mental anguish and their actions have resulted in unrepairable damage to his
wheelchair.
317. In order to prevent Kobe from exercising his right of free speech, Defendants have violated his
right to receive an ACD (assistive communications device) with reasonable promptness, as is required
by 42 U.S.C. § 1396a(a)(8).
318. Defendants have recklessly and callously refused to provide Kobe with the supports he would
need to live in a less restrictive setting.
319. Defendants have recklessly and callously reduced the respite services Mark needs to remain in
the home of his sister and they have threatened to terminate ADHC services of waiver participants
across the State.
320. All of the Defendants have acted with reckless or callous indifference to the federally protected
rights of Plaintiffs and Class Members, thereby placing the health and [*29] even the very lives of
Plaintiffs and Class Members at risk.
321. Plaintiffs and Class Members and their families have been subjected to fear of harm, shock, and
emotional scarring, as well as fear of reprisal and of bodily harm, which are all compensable as
emotional distress, and other damages.
322. Plaintiffs and Class Members demand judgment for the violation of their civil rights against all
the Defendants, jointly and severally, for actual, general, special, compensatory damages in an
amount to be determined by a jury and further demands judgment against all Defendants, jointly and
severally, for punitive damages in an amount to be determined by the jury, plus the costs of this
action, including attorney's fees, and such other relief deemed to be just, fair, and appropriate.

PATRICIA HARRISON Page 13 of 34

2018 U.S. Dist. LEXIS 55500, *29

323. Punitive damages are recoverable in a 42 U.S.C. § 1983 suit where defendant's conduct is
motivated by an evil motive or intent, or where it involves reckless or callous indifference to
plaintiff's federally protected rights.

COUNT FOUR VIOLATION OF 42 U.S.C. §§ 1983 and 1988 (violation of civil rights)
324. The Plaintiffs and Class Members repeat and reallege and incorporate by reference the
allegations set forth above with the same force and [*30] effect as if herein set forth.
325. At all relevant times herein, Plaintiffs and Class Members had a right under the Medicaid Act,
the ADA and Section 504 to receive ADHC services and other home and community based services
which are necessary for them to live in the least restrictive setting. 326.The Defendants are persons
who, acting under color of law, have violated the civil rights of the Plaintiffs and Class Members by
denying their rights to receive these services and attempting to force them into WAC's, where their
health and safety will be jeopardized and their life and liberty will not be protected.
327. Defendants and other persons who may be identified during discovery, have caused Plaintiffs
and Class Members to be denied services, including, but not limited to ADHC services, which they
are entitled to receive to enable them to live in the least restrictive setting.
328. Defendants have failed to assure that funding necessary to protect the health and welfare of
Plaintiffs and Class Members, as is required by the Medicaid Act and its regulations, has been spent
as allocated and intended to provide ADHC and other home and community based waiver services.
329. All of the Defendants have failed to act with reasonable [*31] promptness upon findings of the
South Carolina Legislative Audit Counsel showing that funds allocated for community based services
have been diverted instead to purchase unnecessary real estate, thus allowing DDSN to continue the
unbridled spending of taxpayer dollars to purchase more real estate instead of using available
resources in compliance with the ADA, Section 504 and the Medicaid Act to prevent hospitalization
and institutionalization and to allow waiver participants to function with the most independence
possible.
330. Defendants have violated the rights of Plaintiffs and Class Members to life and liberty in
violation of the due process requirements of the United States Constitution by attempting to force
them into WAC's for the financial benefit of state agencies, local DSN Boards and the Babcock
Center and by refusing to provide other medically necessary services, as determined by their treating
physicians.
331. Defendants have violated the free choice of providers granted to Plaintiffs and Class Members by
the Medicaid Act, instead, attempting to force them to use inappropriate services provided by the
Babcock Center, SCDDSN and its local Boards. 332.Defendants along with other persons [*32] who
may be identified during discovery, have schemed to divert funds from ADHC services to WAC's so
as to financially benefit the Babcock Center and local DSN Boards and to exploit the Plaintiffs and
Class Members in conscious disregard for their rights and privileges which are secured by the United
States Constitution or by Federal law and which are guaranteed by the Fourth, Fifth, and Fourteenth
Amendments to the Constitution of the United States.
PATRICIA HARRISON Page 14 of 34

2018 U.S. Dist. LEXIS 55500, *32

333. Defendants have failed to inform Plaintiffs and Class Members of other feasible Medicaid
services which they are entitled to receive with reasonable promptness as is required by the Medicaid
Act and its regulations.
334. Defendants have failed to establish reasonable standards for the operation of the Medicaid
waiver programs administered by SCDDSN pursuant to 42 U.S.C. § 1396a(a)(17) and other federal
laws and regulations and they have failed to require SCDDSN to promulgate regulations as required
by the South Carolina Administrative Procedures Act to establish reasonable and fair rules for the
provision of services to Plaintiffs and Class Members.
335. As a result of these practices, policies for waiver programs and services are set by Defendants
without meaningful public review or meaningful public input.
336. Defendants have violated [*33] the free choice of providers of Plaintiffs and Class Members by
failing to inform them of feasible alternatives and by obstructing their choices of providers while
attempting to maintain the monopoly of services provided by SCDDSN, its local DSN Boards and the
Babcock Center in violation of 42 U.S.C. § 1396a(a)(23).
337. Defendants have violated the equal access provisions of the Medicaid Act by failing to make
services available to waiver participants as they are available to the general public.
338. Specifically, and in addition to the violations described above, Defendants have violated Kobe's
civil rights which are enforceable under 42 U.S.C. § 1983 because they have failed to protect him
from abuse and neglect, have failed to provide him with an augmentative communications device
(ACD) and residential services in a less restrictive and more integrated setting with reasonable
promptness.
339. Kobe is unable to communicate verbally because of his profound speech impediment due to
cerebral palsy, but he would be able to communicate using augmentative communications device
(ACD) which would allow him to speak using eye control, head tracking and multiple types of
switches which can be attached to his wheelchair headrest. 340.As [*34] the federal district court
recognized in ordering the state to pay for an ACD for a Medicaid participant with disabilities similar
to Kobe's, in Fred C. v.Texas Health and Human Services Com'n: "The inability to speak can be the
single most devastating aspect of any handicap." 988 F.Supp. 1032 (W.D.Tex. 1997).
341. Defendants have failed to provide Kobe with a functional wheelchair with reasonable
promptness, in violation of 42 U.S.C. § 1396a(a)(8).
342. DHHS has failed to provide Kobe with medically necessary services and equipment with
reasonable promptness, as is required by 42 U.S.C. § 1396a(a)(8), the ADA and Section 504.
343. In Meyers v. Reagan, the Eighth Circuit, found the plaintiff to be entitled to Medicaid funding
for an ACD because the primary goal of Medicaid is to provide services to help the recipient "attain
or retain capability for independence or self-care." Id. at 243 (citing 42 U.S.C. § 1396).
344. Medicaid regulations specifically state that the benefits provided must include services
recommended "for maximum reduction of physical or mental disability and restoration of a recipient
to his best possible function level." 42 C.F.R. § 440.130(d) (1996).
PATRICIA HARRISON Page 15 of 34

2018 U.S. Dist. LEXIS 55500, *34

345. In order for Kobe to be restored to his best possible function level, it is necessary for him to be
able to communicate effectively with others. See Fred C. v. Texas Health and Human Services
Com'n, 988 F.Supp. 1032 (W.D.Tex. 1997).
346. [*35] This equipment is needed in order for Kobe to communicate with other persons in order to
be more fully integrated into the community and to communicate his needs clearly with his health
care providers.
347. These ACD's are funded by Medicaid in at least 47 states.
348. 42 U.S.C. § 1396a(a)(8) requires the State to provide Medicaid services and equipment with
reasonable promptness and Medicaid regulations require the State to establish reasonable standards,
as required by 42 U.S.C. § 1396a(a)(17), and to communicate those standards promptly to Medicaid
participants.
349. Medicaid regulations require SCDDSN and SCDHHS to establish eligibility for Medicaid
funded devices within 90 days of the request and to provide a notice of a right to a fair hearing when
such requests are denied or the device is not provided with reasonable promptness.
350. There is no other method for Kobe to communicate effectively other than using an ACD and
providing an ACD would not fundamentally alter the State's programs.
351. On January 1, 2010, Defendants eliminated speech and language therapy as a ID/RD Medicaid
waiver service based on false claims of a lack of funding, making it nearly impossible for Kobe and
other persons who need ACD's to receive the speech [*36] assessment needed to obtain an order for
the devices.
352. Termination of speech and language, physical therapy and occupational therapy has jeopardized
the health and well being of waiver participants in violation of the Medicaid Act, which requires them
to assure CMS that their health and welfare be protected.
353. Kobe will need speech therapy to learn to use the device and to communicate his needs using the
device.
354. Mark has been denied needed respite services based on DDSN's and DHHS' false claims of
inadequate funding which were sent via U.S. Mail to CMS.
355. Upon information and belief, SCDDSN has continued to bill Medicaid the same amount, or
more, for respite services, despite having shifted the costs of liability insurance, worker's comp and
unemployment to the families of waiver participants.
356. As a result of Defendants' concerted unlawful and malicious conduct, Plaintiffs and Class
Members have been deprived of their rights to equal protection of all the laws and to due process of
law, to their right to property interests in Medicaid benefits, and the due course of justice has been
impeded, in violation of the Fourth, Fifth, and Fourteenth Amendments of the Constitution of the
United States and 42 U.S.C. § 1983.
357. Plaintiffs and Class Members have been [*37] subjected to fear of harm, shock, and emotional
scarring, which are all compensable as emotional distress, and other damages.
PATRICIA HARRISON Page 16 of 34

2018 U.S. Dist. LEXIS 55500, *37

358. Defendants Butkus, Forkner, Laurent, Buscemi, Lacy, Waring, Chorey and Johnson have acted
with an evil motive or intent to deny services Plaintiffs and Class Members are entitled to receive in
order to financially benefit themselves and their organizations.
359. The Defendants have acted with reckless or callous indifference to the federally protected rights
of Plaintiffs and Class Members, causing funding allocated to provide Medicaid services to "lapse" or
to be paid to a rainy day account, thus losing hundreds of millions of matching federal dollars.
360. Wherefore, Plaintiffs and Class Members demand judgment for the violation of their civil rights
against all the Defendants, jointly and severally, for actual, general, special, compensatory damages in
the amount determined by a jury and further demands judgment against all defendants, jointly and
severally, for punitive damages in an amount to be determined by the jury, plus the costs of this
action, including attorney's fees, and such other relief deemed to be just, fair, and appropriate.
361. Plaintiffs [*38] and Class Members request punitive damages, as awarded by a jury, because
these Defendants' conduct has been motivated by an evil motive or intent, and it has involved reckless
or callous indifference to plaintiffs' federally protected rights.

COUNT FIVE VIOLATION OF 42 U.S.C. § 1985(3) (conspiracy)
362. The Plaintiffs and Class Members repeat and reallege and incorporate by reference the
allegations set forth above with the same force and effect as if herein set forth herein.
363. The individual Defendants Buscemi, Forkner, Lacy, Waring, Chorey and Johnson, together with
other unnamed persons who may be identified during discovery, have acted in their individual and
official capacities, under color
of law to participate in a conspiracy for the purpose of depriving the Plaintiffs and Class
Members, either directly or indirectly, the equal protection of the laws or of equal privileges and
immunities under the laws.
364. These Defendants committed overt acts in furtherance of the conspiracy, thereby injuring the
Plaintiffs and depriving them of services which constitute a property right, in order to deprive them of
constitutionally protected rights and privileges.
365. The conspiratorial purpose was financial [*39] and Defendants have acted in concert to deny the
civil rights of the Plaintiffs and other Class Members by attempting to prevent them from receiving
ADHC services and other waiver services they are entitled to receive in furtherance of the monopoly
maintained by the Babcock Center, SCDDSN and its local DSN Boards.
366. The first steps in the conspiracy were taken when DDSN spent millions of dollars which had
been allocated by the General Assembly to provide Medicaid waiver services to persons who have
disabilities to purchase real estate used as WAC's instead.
367. Instead of requiring the Defendants to use funds paid by the state and federal governments to
provide appropriate services, Defendants allowed SCDDSN to use these funds to continue to purchase
real estate that is unnecessary, and indeed is, in some cases, harmful to Participants and Class
Members.
PATRICIA HARRISON Page 17 of 34

2018 U.S. Dist. LEXIS 55500, *39

368. The individual Defendants named in this Court have been working in concert since 2005 to use
funds allocated for services in ways not intended by the legislature, using those funds to purchase
unnecessary real estate in furtherance of the illegal monopoly of DSN Boards (and entities like the
Babcock Center which are treated by [*40] DDSN as a local Board).
369. The individual Defendants have acted in concert to divert funds to WAC's operated by local
DSN Boards and the Babcock Center and to deny ACHC benefits to which Plaintiffs and Class
Members are entitled to receive as a result of their disabilities.
370. Actions taken by the Defendants have proximately caused injury to Plaintiffs by denying
services which they need to live in the least restrictive setting in the community.
371. Instead, Defendants have redirected state and federal funds to be used for improper purposes
without regard for the negative consequences to the intended beneficiaries.
372. Defendants, acting under color of state law, have acted in concert to deprive Plaintiffs of benefits
which they are entitled to receive under the reasonable promptness (42 U.S.C. §1396a(a)(8)), free
choice (42 U.S.C. §1396a(a)(23)); comparability (42 U.S.C. §1396a(a)(10)); reasonable standards (42
U.S.C. § 1396a(a)(17)) and equal access (42 U.S.C. §1396a(a)(30)) provisions of the Social Security
Act.
373. Plaintiffs and Class Members request damages to be determined by a jury, an injunction and
payment of legal fees, costs and expenses.

COUNT SIX VIOLATION OF SUPREMACY CLAUSE
374. The Plaintiffs and Class Members repeat and reallege and incorporate by reference the
allegations set forth above with [*41] the same force and effect as if herein set forth.
375. States are not required to participate in Medicaid waiver programs, but once they accept
Medicaid funds, states are required to comply with all federal laws, rules and regulations.
376. Defendants have violated the following provisions of the Medicaid Act, in violation of the
Supremacy Clause of the United States Constitution: reasonable promptness (42 U.S.C.
§1396a(a)(8)), free choice (42 U.S.C. § 1396a(a)(23)); comparability (42 U.S.C. § 1396a(a)(10));
reasonable standards (42 U.S.C. § 1396a(a)(17)) and equal access (42 U.S.C. §1396a(a)(30))
provisions of the Social Security Act.
377. Plaintiffs and Class Members pray for an order requiring Defendants to immediately comply
with the Medicaid Act and to pay for attorney fees, costs and expenses of this action and to pay the
Plaintiffs and Class Members such amounts as the Court shall determine to be just.

COUNT SEVEN VIOLATION OF RICO
378. Plaintiffs reallege and incorporated by reference the paragraphs contained above.

PATRICIA HARRISON Page 18 of 34

2018 U.S. Dist. LEXIS 55500, *41

379. Defendants Haley, Sanford, Butkus, Laurent, Forkner, Lacy, Waring, Chourey and Johnson,
together with other persons who will be identified during discovery, have engaged in enterprises to
operate WAC's in order to financially exploit Plaintiffs Members by paying them subminimum wages
so as to profit their agencies or themselves. [*42]
380. These Defendants, together with persons who will be identified during discovery, have diverted
Medicaid and state taxpayer funds to these "industrial centers" or WAC's which constitute an
enterprise for purposes of RICO.
381. In furtherance of this scheme, Defendants have engaged in wire fraud through the use of
telephones and email and have used the United States Mail.
382. SCDDSN has received income from WAC's and the Babcock Center and other named
defendants have received income from these enterprises, as well as funds from SCDDSN to purchase
real estate in furtherance of this scheme.
383. Upon information and belief, Defendant Lacy and others who will be identified during discovery
have retaliated against persons who have exposed the misappropriation of funds by SCDDSN and by
its officials, including retaliation against persons who were listed as witnesses in federal trials and she
has participated in schemes to remove SCDDSN Commissioners who have inquired into this
enterprise.
384. Upon information and belief, these Defendants, acting together with other persons who will be
identified during discovery, have obstructed investigations of SCDDSN, local DSN Boards and the
Babcock [*43] Center and have provided false and/or misleading information to state and federal
investigators.
385. In violation of 18 U.S.C. § 1503, Defendants Johnson and Lacy have impeded the investigations
of deaths and serious injuries occurring at WAC's or as a result of the failure to supervise persons at
WAC's.
386. In violation of 18 U.S.C. § 1512, Defendants Johnson and Lacy, together with other persons who
will be identified during discovery, have knowingly used intimidation, threatened or corruptly
persuaded other persons, or attempted to do so; or have engaged in misleading conduct toward other
persons in an attempt to influence, delay, or prevent the testimony of those persons in an official
proceeding or to cause the persons to withhold testimony, or withhold a record, document, or other
object, from an official proceeding or to alter, destroy, mutilate, or conceal an object with the intent to
impair the object's integrity or availability for use in an official proceeding.
387. Upon information and belief, in violation of U.S.C. § 1512, Defendants Johnson and Lacy have
tampered with witnesses and threatened persons who have attempted to expose this scheme.
388. Upon information and belief, in violation of U.S.C. § 1513, these Defendants [*44] have used
the United States Mail in furtherance of these schemes.
389. These Defendants have benefitted financially through increases in their salaries at taxpayer
expense, at the same time that waiver services provided to severely disabled persons were being
reduced due to "budget reductions" and contractual arrangements.
PATRICIA HARRISON Page 19 of 34

2018 U.S. Dist. LEXIS 55500, *44

390. Upon information and belief, these Defendants have invested ill gotten funds in real estate used
for the purpose of operating WAC's and have used funds which should have been spent providing
waiver services to increase salaries of SCDDSN officials.
391. Property rights (i.e. Medicaid benefits) of the Plaintiffs have been denied by Defendants by
attempting to force them to attend WAC's where they are not safe and their medical needs would not
be met.
392. Upon information and belief, these Defendants, together with other persons who will be
identified during discovery, appear to have engaged in money laundering and interference with
commerce by establishing and maintaining a monopoly of services provided by the Babcock Center,
SCDDSN and local DSN Boards while attempting to drive Helping Hands, Hope Bridge and other
private providers of ADHC services out of business. [*45]
393. Medicaid is an insurance program and these Defendants have filed false claims for
reimbursement for Medicaid services in excess of the cost of those services, including, but not limited
to paying DSN Boards and the Babcock Center millions of dollars for "vacant beds."
394. These individual Defendants have transferred or obtained taxpayer funds by false pretenses.
395. These Defendants have fraudulently converted the money they were in lawful possession of with
fraudulent intent.
396. Defendants have knowingly or willfully made false or fraudulent statements or representations in
or with reference to applications for insurance (Medicaid).
397. These Defendants have knowingly and willingly presented or caused to be presented statements
to an insurer, a reinsurer, a producer, a broker or any agent thereof, knowing that the statement
conceals or omits facts, or contains false or misleading information concerning a fact material to an
application for Medicaid reimbursement.
398. These Defendants have presented or caused to be presented statements as a part of, or in support
of, a claim for payment or other benefits (Medicaid), knowing that the statement conceals or omits
facts, or contains [*46] false or misleading information concerning facts material to that claim. 399.
These Defendants have assisted, aided, abetted, solicited and conspired with other persons to present
or cause to be presented claims to an insurer, a reinsurer, a producer, a broker or any agent thereof,
knowing that the statements concealed or omitted facts, or have provided false or misleading
information concerning facts material to an application for insurance reimbursement or other benefits
under such a policy.
400. These Defendants have acted or failed to act with the intent of defrauding or deceiving an
insurer, a reinsurer, producer, a broker or any agent thereof, to obtain insurance reimbursements under
Medicaid, which is prohibited by RICO.
401. These Defendants have acted to assist, conspire with or urge other persons to commit acts r
omissions through deceit, misrepresentation or other fraudulent means.

PATRICIA HARRISON Page 20 of 34

2018 U.S. Dist. LEXIS 55500, *46

402. These Defendants have accepted proceeding or other benefits under policies of insurance (the
ID/RD Medicaid waiver document), knowing that the proceeds or other benefits are derived from acts
or omissions.
403. These Defendants have employed persons to procure clients, patients or other persons [*47] who
obtain services or benefits under a policy of insurance (Medicaid) for the purpose of engaging in acts
or omissions which violate the rights of the Plaintiffs.
404. Upon information and belief, these Defendants have acted in concert to manipulate or othewise
effect evaluations of medical necessity in violation of the South Carolina Medical Practice Act so as
to deny payment for services which the treating physicians of the waiver participants have determined
to be medically necessary.
405. The purposes of these evaluations conducted by Kathi Lacy, Judy Johnson, Jacob Chourey and
others under their supervision and control has been to deny needed Medicaid services and to defraud
state taxpayers through the operation of WAC's, so as to financially exploit persons who have
disabilities.
406. Plaintiffs are entitled to treble damages and Defendants should be required to repay all ill gotten
gains for debts "forgiven," for real estate purchased with funds allocated to provide services to ID/RD
Medicaid waiver participants and other improper uses of federal and state funds alleged herein.
407. Plaintiffs pray for payment of legal fees, costs and expenses of this action due to
Defendants' [*48] violation of RICO. ECF No. 65, 45-69.

APPLICABLE LAW

A. Title II of the Americans With Disabilities Act ("ADA"), 42 U.S.C. §§ 12131-12165 and Rehabilitation
Act.
Title 42, United States Code, Section 12132 provides:
Subject to the provisions of this subchapter, no qualified individual with a disability shall, by reason
of such disability, be excluded from participation in or be denied the benefits of the services,
programs, or activities of a public entity, or be subjected to discrimination by any such entity.
A "public entity" means
(A) any State or local government;
(B) any department, agency, special purpose district, or other instrumentality of State or States or
local government; and
(C) the National Railroad Passenger Corporation, and any commuter authority (as defined in section
24102(4) of Title 49).
42 U.S.C. 12131(1).

PATRICIA HARRISON Page 21 of 34

2018 U.S. Dist. LEXIS 55500, *48

Similarly, 29 U.S.C. § 794 of the Rehabilitation Act provides:
No otherwise qualified individual with a disability in the United States, as defined in section 705(20)
of this title, shall, solely by reason of her or his disability, be excluded from the participation in, be
denied the benefits of, or be subjected to discrimination under any program or activity receiving
Federal financial assistance or under any program or activity conducted by any Executive agency or
by the United States Postal [*49] Service.
A "program or activity" means all of the operations of-(1)(A) a department, agency, special purpose district, or other instrumentality of a State or of a local
government; or
(B) the entity of such State or local government that distributes such assistance and each such
department or agency (and each other State or local government entity) to which the assistance is
extended, in the case of assistance to a State or local government;
(2)(A) a college, university, or other postsecondary institution, or a public system of higher education;
or
(B) a local educational agency (as defined in section 7801 of Title 20), system of career and technical
education, or other school system;
(3)(A) an entire corporation, partnership, or other private organization, or an entire sole
proprietorship—
(i) if assistance is extended to such corporation, partnership, private organization, or sole
proprietorship as a whole; or
(ii) which is principally engaged in the business of providing education,health care, housing, social
services, or parks and recreation; or
(B) the entire plant or other comparable, geographically separate facility to which Federal financial
assistance is extended, in the case of any other corporation, [*50] partnership, private organization, or
sole proprietorship; or
(4) any other entity which is established by two or more of the entities described in paragraph (1),
(2), or (3); any part of which is extended Federal financial assistance.
29 U.S.C. § 794(b).
To establish an ADA /Rehabilitation Act violation, Plaintiff must show: (1) that he has a disability; (2)
that he is otherwise qualified for the employment or benefit in question; and (3) that he was excluded from
the employment or benefit due to discrimination solely on the basis of the disability. Rogers v. Dep't of
Health and Env. Control, 985 F. Supp. 635 (D.S.C. 1997) (quoting Adamczyk v. Chief, Baltimore County
Police Dep't, 952 F. Supp. 259, 263 (D. Md. 1997)).
B. Violation of Constitutional Rights.
Title 42, United States Code, Section 1983 provides:
Every person who, under color of any statute, ordinance, regulation, custom, or usage, of any State or
Territory or the District of Columbia, subjects, or causes to be subjected, any citizen of the United
States or other person within the jurisdiction thereof to the deprivation of any rights, privileges, or
immunities secured by the Constitution and laws, shall be liable to the party injured in an action at
law, suit in equity, or other proper proceeding for redress . . . .
PATRICIA HARRISON Page 22 of 34

2018 U.S. Dist. LEXIS 55500, *50

To state a claim under 42 U.S.C. § 1983, a plaintiff must allege two essential elements: (1) that a right
secured by the Constitution or laws of the United [*51] States was violated, and (2) that the alleged
violation was committed by a person acting under the color of state law. Mills v. Greenville Cnty., 586 F.
Supp. 2d 480, 485 (D.S.C. 2008 (citing West v. Atkins, 487 U.S. 42, 48, 108 S. Ct. 2250, 101 L. Ed. 2d 40
(1988)).
To establish supervisory liability under § 1983, a plaintiff must show: (1) that the supervisor had actual or
constructive knowledge that his subordinate was engaged in conduct that posed "a pervasive and
unreasonable risk" of constitutional injury to citizens like the plaintiff; (2) that the supervisor's response to
that knowledge was so inadequate as to show "deliberate indifference to or tacit authorization of the
alleged offensive practices"; and (3) that there was an "affirmative causal link" between the supervisor's
inaction and the particular constitutional injury suffered by the plaintiff. Shaw v. Stroud, 13 F.3d 791, 799
(4th Cir. 1994) (citing cases).
C. Conspiracy To Interfere with Civil Rights.
Title 42, United States Code, Section 1985(3) provides:
If two or more persons in any State . . . conspire . . . for the purpose of depriving, either directly or
indirectly, any person or class of persons of the equal protection of the laws, or of equal privileges and
immunities under the laws; or for the purpose of preventing or hindering the constituted authorities of
any State . . . from giving or securing to all persons within such [*52] State . . . the equal protection
of the laws; in any case of conspiracy set forth in this section, if one or more persons engaged therein
do, or cause to be done, any act in furtherance of the object of such conspiracy, whereby another is
injured in his person or property, or deprived of having and exercising any right or privilege of a
citizen of the United States, the party so injured or deprived may have an action for the recovery of
damages occasioned by such injury or deprivation, against any one or more of the conspirators.
To state such a claim under 42 U.S.C. § 1985(3), a plaintiff must prove the following:
(1) a conspiracy of two or more persons, (2) who are motivated by a specific class-based, invidiously
discriminatory animus to (3) deprive the plaintiff of the equal enjoyment of rights secured by the law
to all, (4) and which results in injury to the plaintiff as (5) a consequence of an overt act committed by
the defendants in connection with the conspiracy.
A Society Without A Name v. Virginia, 655 F.3d 342, 346 (citing Simmons v. Poe, 47 F.3d 1370, 1376
(4th Cir. 1995)). Moreover, the plaintiff must show "an agreement or a meeting of the minds by the
defendants to violate the plaintiff's constitutional rights." Id. (citing Simmons, 47 F.3d at 1377).
D. Supremacy Clause
The Supremacy Clause, Art. VI, cl. 2, reads:
This Constitution, and the Laws of the [*53] United States which shall be made in Pursuance thereof;
and all Treaties made, or which shall be made, under the Authority of the United States, shall be the
supreme Law of the Land; and the Judges in every State shall be bound thereby, any Thing in the
Constitution or Laws of any State to the Contrary notwithstanding.

PATRICIA HARRISON Page 23 of 34

2018 U.S. Dist. LEXIS 55500, *53

The Supremacy Clause allows a plaintiff to seek declaratory and injunctive relief when federal law
preempts state regulation. United States v. South Carolina, 720 F.3d 518, 526 (4th Cir. 2013) (citing
cases).
E. Racketeer Influenced and Corrupt Organizations Act ("RICO"), 18 U.S.C. § 1962.
In U.S. Airline Pilots Ass'n v. Awappa, LLC, 615 F.3d 312 (4th Cir. 2010), the Fourth Circuit stated:
To state a civil RICO claim, a plaintiff must allege that the defendants engaged in, or conspired to engage
in, a "pattern of racketeering activity." 18 U.S.C. § 1962 (emphasis added). "Racketeering activity"
includes "extortion," defined as "the obtaining of property from another, with his consent, induced by
wrongful use of actual or threatened force, violence, or fear, or under color of official right." Id. §§
1951(b)(2) (defining extortion), 1961(1) (defining "racketeering activity" to include the offenses
enumerated in § 1951).
....
A "'pattern of racketeering activity' requires at least two acts of racketeering activity, one of which
occurred after the effective date of [the RICO [*54] statute] and the last of which occurred within ten
years . . . after the commission of a prior act of racketeering activity." 18 U.S.C. § 1961(5). To
demonstrate a pattern of such activity, the plaintiff must show "continuity plus relationship," i.e., "that
the racketeering predicates are related, and that they amount to or pose a threat of continued criminal
activity."
Id. at 318 (citations omitted)
"In order for a civil RICO claim to survive a Rule 12(b)(6) motion to dismiss, plaintiff must allege '(1)
conduct; (2) of an enterprise; (3) through a pattern; (4) of racketeering.'" Chambers v. King Buick GMC,
LLC, 43 F. Supp. 3d 575, 588 (D. Md. 2014) (quoting Sedima, S.P.R.L. v. Imrex Co., 473 U.S. 479, 496,
105 S. Ct. 3275, 87 L. Ed. 2d 346 (1985)). Additionally, a plaintiff must plead proximate cause, i.e., that
he was injured in his business or property "by reason of" the RICO violation. Id. at 588 (quoting Hemi
Group, LLC v. City of New York, 559 U.S. 1, 6, 130 S. Ct. 983, 175 L. Ed. 2d 943 (2010)).
F. Motions to Dismiss
To survive a motion to dismiss under Rule 12(b)(6), "a complaint must contain sufficient factual matter,
accepted as true, to 'state a claim to relief that is plausible on its face.'" Ashcroft v. Iqbal, 556 U.S. 662,
678, 129 S. Ct. 1937, 173 L. Ed. 2d 868 (2009) (quoting Bell Atlantic Corp. v. Twombly, 550 U.S. 544,
570, 127 S. Ct. 1955, 167 L. Ed. 2d 929 (2007)). A claim has facial plausibility when "the plaintiff pleads
factual content that allows the court to draw a reasonable inference that the defendant is liable for the
misconduct alleged." Id. However, a complaint that pleads facts [*55] merely consistent with the liability
does not sufficiently show the claim as plausible on its face. Id. When analyzing a matter under Rule
12(b)(6), the court should first accept as true all of the allegations contained in a complaint. "Threadbare
recitals of the elements of a cause of action, supported by mere conclusory statements, do not suffice." Id.
Second, the court must determine, drawing on its judicial experience and common sense, if a claim "states
a plausible claim for relief." Id. The plaintiff's claims must be alleged with enough specificity to nudge the
plaintiff "across the line from conceivable to plausible." Nemet Chevrolet, Ltd. v. Consumeraffairs.com,
Inc., 591 F.3d 250, 256 (4th Cir. 2009) (quoting Twombly, 550 U.S. at 570).
PATRICIA HARRISON Page 24 of 34

2018 U.S. Dist. LEXIS 55500, *55

G. Motions for Summary Judgment
Summary judgment should be granted "if the movant shows that there is no genuine dispute as to any
material fact and the movant is entitled to judgment as a matter of law." Fed R. Civ. P. 56(a). A fact is
"material" if proof of its existence or non-existence would affect the disposition of the case under the
applicable law. Anderson v. Liberty Lobby Inc., 477 U.S. 242, 248-49, 106 S. Ct. 2505, 91 L. Ed. 2d 202
(1986). A genuine question of material fact exists where, after reviewing the record as a whole, the court
finds that a reasonable jury could return a verdict for the nonmoving party. Newport News Holdings Corp.
v. Virtual City Vision, 650 F.3d 423, 434 (4th Cir. 2011).

DISCUSSION
A. Amended Motion for Summary Judgment on [*56] Remand filed by Defendants Buscemi, Laurent,
Butkus, Huntress, Lacy, Waring, and Chorey (the "DDSN Defendants")
The DDSN Defendants observe that, as to them, Kobe has shown no need for prospective injunctive relief
and has abandoned any damages claims, such that these Defendants are entitled to dismissal of the case
against them in its entirety. As to the merits of Kobe's allegations, the DDSN Defendants assert that
Counts One (ADA) and Two (Rehabilitation Act) essentially present the same contention that Kobe was
wrongfully denied ADHC services. As noted hereinabove, the Fourth Circuit has determined this
particular contention is moot because Kobe did not lose ADHC services and, further, was successful on
administrative appeal.
The DDSN Defendants assert that any non-ADA or non-Rehabilitation Act claims against these
Defendants in their official capacities are barred by the Eleventh Amendment. See Will v. Michigan Dep't
of State Police, 491 U.S. 58, 109 S. Ct. 2304, 105 L. Ed. 2d 45 (1989)). As to Kobe's § 1983 claims
against the DDSN Defendants their individual capacities (Counts Three, Four), these Defendants argue
that Kobe failed to show any specific factual allegations of wrongdoing attributable to any of the named
DDSN Defendants. Regarding Kobe's claim that he was denied a wheelchair and ACD, [*57] the DDSN
Defendants assert these claims are directed to the DHHS Defendants, Keck and Fortner. Regarding Count
Five, the DDSN Defendants assert that Kobe's claims relate to a conspiracy to deny him ADHC services,
and because such services were not denied, "obviously there could not have been a conspiracy to effect
such denial." ECF No. 399-1, 11.
Regarding Count Six, the DDSN Defendants note the dearth of factual allegations in the amended
complaint under this cause of action, which simply states:
376. Defendants have violated the following provisions of the Medicaid Act, in violation of the
Supremacy Clause of the United States Constitution: reasonable promptness (42 U.S.C. §
1396a(a)(8)); free choice (42 U.S.C. § 1396a(a)(23)); comparability (42 U.S.C. § 1396a(a)(10));
reasonable standards (42 U.S.C. § 1396a(a)(17)) and equal access (42 U.S.C. § 1396a(a)(30))
provisions of the Social Security Act.
ECF No. 65, 64.
The DDSN Defendants assert Kobe has set forth no facts showing harm to Kobe or specific acts by these
Defendants that resulted in violations of enumerated sections of the Medicaid Act and Social Security Act.
PATRICIA HARRISON Page 25 of 34

2018 U.S. Dist. LEXIS 55500, *57

Finally, regarding Count Seven, the DDSN Defendants contend that Kobe has failed to allege (1) one of
the "predicate acts" set forth in 18 U.S.C. § 1961(1); (2) how, if at all, the purported activities of the
criminal enterprise affected interstate or foreign [*58] commerce; or (3) any evidence Kobe suffered a
business or property loss.
In his response in opposition, Kobe offers a lengthy recitation of factual allegations and appears to address
only the following causes of action as to DDSN: Count Five (conspiracy to interfere with civil rights);
Count Six (Supremacy Clause),9 and Count Seven (RICO). Kobe does not dispute the DDSN Defendants'
arguments regarding Counts One, Two, Three, and Four. The court concludes Kobe has abandoned these
causes of action as to these Defendants.
Turning to Count Five (conspiracy to deny civil rights), Kobe asserts the following in his response in
opposition to the DDSN Defendants' motion for summary judgment:
Plaintiffs have alleged that they have been deprived of services and needed equipment and due
process, liberty and equal protection rights. Kobe has demonstrated that he has suffered has suffered
discrimination and [been] injured thereby as a consequence of overt acts committed by the named
Defendants in connection with the conspiracy.
ECF No. 436, 34.
Kobe's argument is based on his contention that DHHS, DDSN, and other agencies have engaged in widespread corruption, negligence, and criminal conduct over the past decade or [*59] more. In court's view,
Kobe's allegations fail to demonstrate any of the DDSN Defendants' purported mismanagement and
falsification of information, if such conduct were to be proven, was motivated by a specific class-based,
invidiously discriminatory animus to deprive Kobe of his rights.
Regarding Count Six (Supremacy Clause), Kobe states that the "future deterrence of violations is critically
important in this case, because Plaintiffs have life long disabilities and their needs will increase as they
age. Waiver participants simply cannot afford years of litigation each time they require a wheelchair, a
speech device or other medically necessary services." ECF No. 436, 31-32. The Supremacy Clause is not
the source of any federal rights, and does not create a cause of action. Armstrong v. Exceptional Child
Center, Inc., 135 S. Ct. 1378, 1383, 191 L. Ed. 2d 471 (2015). It instructs courts what to do when state and
federal law clash, but is silent regarding who may enforce federal laws in court, and in what
circumstances they may do so. Id. Moreover, there is no suggestion in the record by any party of a clash
between state and federal law. The gravamen of Kobe's complaint is that Defendants have, in varying
respects, failed to comply with the mandates in federal law in the form of the ADA, Rehabilitation
Act, [*60] and Medicaid.
Finally, regarding Count Seven (RICO), Kobe asserts that he has provided "extensive documentation of
conduct of an enterprise (the diversion of funds to DDSN work activity centers) through a pattern of
racketeering activity." ECF No. 436, 35. Kobe asserts predicate acts to include "obtaining insurance
through false pretenses, including money laundering, mail and wire fraud and intimidation of witnesses."
Id. While it is true that Kobe has made allegations of corruption, his claims are speculative in nature. The
court discerns no facts tending to show an enterprise distinct from the persons alleged to have violated 18

9 The

DDSN Defendants contend Plaintiff abandoned Count Six. The court will construe Plaintiff's discussion regarding Eleventh Amendment
immunity as responding to the DDSN Defendants' argument regarding the Supremacy Clause.

PATRICIA HARRISON Page 26 of 34

2018 U.S. Dist. LEXIS 55500, *60

U.S.C. § 1962 (c). See Palmetto State Med. Ctr. v. Operation Lifeline, 117 F.3d 142, 148 (4th Cir. 1997).
Nor has Kobe proved that each DDSN Defendant engaged in at least two acts of racketeering activity
within a ten-year period, as required by 18 U.S.C. § 1961(5).
For all these reasons, the DDSN's motion for summary judgment is granted.
B. Motion to Dismiss filed by Defendant McMaster
Defendant McMaster first asserts that Kobe fails to state a facially plausible claim under Iqbal. Defendant
McMaster asserts that the amended complaint includes no allegations against the governor in Counts 1
and 2 (ADA, Rehabilitation Act). This Defendant further observes that there are no allegations [*61] that
the governor acted with deliberate indifference to any claimed violation of Kobe's rights under the ADA
and/or Rehabilitation Act. Defendant McMaster further argues that Kobe's remaining factual premises for
the ADA and Rehabilitation Act involve the failure to provide him with an ACD and a functioning
wheelchair with reasonable promptness. Defendant McMaster notes that the duty to provide these devices
arises from the Medicaid Act, and the Fourth Circuit has held that the governor is not liable in an official
capacity for a violation of the Medicaid Act.
Defendant McMaster next contends that the governor is not a "program or activity" subject to suit under
the Rehabilitation Act, nor a "public entity" subject to suit under the ADA, and thus entitled to Eleventh
Amendment immunity in her official capacity. As encouraged by the Fourth Circuit, Defendant McMaster
discusses the application of United States v. Georgia, 546 U.S. 151, 126 S. Ct. 877, 163 L. Ed. 2d 650
(2006), to the within action. Defendant McMaster notes that Kobe must show his ADA claim
independently violates the Fourteenth Amendment before state sovereign immunity is abrogated as to the
governor. This Defendant asserts that Kobe has "failed to allege that, much less how, the Governor
violated [his] Fourteenth Amendment rights. Nor could [he] do so, [*62] because the basis for [his] Title
II claim is alleged violations of the Medicaid law and implementing regulations which [he] maintain[s]
contravene Title II's 'integration' mandate and Olmstead v. L.C., 527 U.S. 581, 119 S. Ct. 2176, 144 L. Ed.
2d 540 (1999)." ECF No. 388-1, 11. Defendant McMaster argues that violation of the Medicaid Act is not
a violation of the Fourteenth Amendment, and, absent a corresponding constitutional violation, the
governor is entitled in his official capacity to Eleventh Amendment immunity from suit. See Wessel v.
Glendening, 306 F.3d 203 (4th Cir. 2002).
Next, Defendant McMaster asserts there exists no case or controversy and, as a result, Kobe lacks
standing. Defendant McMaster relies on Spokeo, Inc. v. Robins, 136 S. Ct. 1540, 1547, 194 L. Ed. 2d 635
(2016), wherein the Court explained:
Our cases have established that the "irreducible constitutional minimum" of standing consists of three
elements. The plaintiff must have (1) suffered an injury in fact, (2) that is fairly traceable to the
challenged conduct of the defendant, and (3) that is likely to be redressed by a favorable judicial
decision. The plaintiff, as the party invoking federal jurisdiction, bears the burden of establishing
these elements. Where . . . a case is at the pleading stage, the plaintiff must "clearly . . . allege facts
demonstrating" each element.
(Citations omitted).
Defendant McMaster argues that the amended [*63] complaint does not clearly allege facts
demonstrating each element of standing with respect to the governor, and, even assuming Kobe could

PATRICIA HARRISON Page 27 of 34

2018 U.S. Dist. LEXIS 55500, *63

demonstrate the first and third elements, Kobe cannot establish that any alleged injury he suffered is fairly
traceable to the governor.
Finally, Defendant McMaster contends that legislative immunity bars the purported ADA and
Rehabilitation Act claims to the extent Kobe seeks damages from the governor for the Budget and Control
Board's 2009 vote to authorize DDSN's Commission to use excess debt service funds for purposes other
than funding Medicaid. Defendant McMaster states that state law authorizes DDSN to apply to the Budget
and Control Board for capital improvements of residential treatment centers or community facilities, and
provides that the Budget and Control Board could issue capital improvement bonds for such
improvements pursuant to S.C. Code Ann. § 44-20-1120 to - 1160. Under S.C. Code Ann. § 44-20-1170,
DDSN is required to repay its obligations on outstanding capital improvement bonds from its revenue.
Any revenues in excess of the payment due may be transferred to the local disabilities and special needs
boards for improvements at the local level. See id. § 44-20-1170(B). Thus, according to Defendant [*64]
McMaster, any decisions regarding budgetary priorities and policy positions falls within the broad sweep
of legislative immunity.
In response to Defendant McMaster's motion to dismiss, Kobe reiterates his contentions that Defendants
have engaged in misappropriation, corruption, fabrication of budgetary shortfalls, and improper diversion
of funds to DDSN. Kobe next asserts that the Governor's Office is a "public entity" within the meaning of
the ADA because an action against the governor in his official capacity is a claim against the state.
Contrary to Defendant McMaster's contention that duties to Kobe to provide him with an ACD and a
functioning wheelchair arise under the Medicaid Act, Kobe relies on 28 C.F.R. § 35.160 as providing an
independent obligation under the ADA to provide him with a speech device, speech services, and other
services in the least restrictive setting in a timely manner. Section 35.160 provides, in relevant part:
(a)(1) A public entity shall take appropriate steps to ensure that communications with applicants,
participants, members of the public, and companions with disabilities are as effective as
communications with others.
....
(b)(1) A public entity shall furnish appropriate auxiliary [*65] aids and services where necessary to
afford individuals with disabilities, including applicants, participants, companions, and members of
the public, an equal opportunity to participate in, and enjoy the benefits of, a service, program, or
activity of a public entity.
(2) The type of auxiliary aid or service necessary to ensure effective communication will vary in
accordance with the method of communication used by the individual; the nature, length, and
complexity of the communication involved; and the context in which the communication is taking
place. In determining what types of auxiliary aids and services are necessary, a public entity shall give
primary consideration to the requests of individuals with disabilities. In order to be effective, auxiliary
aids and services must be provided in accessible formats, in a timely manner, and in such a way as to
protect the privacy and independence of the individual with a disability.
Kobe also asserts that the governor is a "program or activity" within the meaning of the Rehabilitation Act
because the office accepts federal funds through the Developmental Disabilities Act to operate a program
to advocate for persons who have disabilities [*66] and require long term care.
Regarding the Fourth Circuit's invocation of United States v. Georgia, 546 U.S. 151, 126 S. Ct. 877, 163
L. Ed. 2d 650 (2006), Kobe asserts that: (1) the state has violated the ADA by refusing to provide services
PATRICIA HARRISON Page 28 of 34

2018 U.S. Dist. LEXIS 55500, *66

he needs to live outside of a congregate residential setting and to provide needed auxiliary aids, such as an
ACD and functioning wheelchair, and that he was retaliated against when reports of neglect were lodged;
(2) Defendants violated his constitutional rights by: not promptly providing an ACD or functional
wheelchair, failing to provide notices or hearings, denying him reasonably safe conditions of confinement,
retaliating against him when reports of neglect were made by persons from his ADHC facility, all of
which violated his rights to privacy and rights under the First, Fifth, and Fourteenth Amendments; and (3)
his claims under Title II of the ADA that do not violate the Fourteenth Amendment survive because the
ADA Amendments Act of 2008 indicated Congress's intent that the ADA abrogate sovereign immunity.
As to Defendant McMaster's contention that Kobe's complaint fails to state a claim upon which relief can
be granted, Kobe argues that the governor was responsible for providing regulatory oversight, policy
development, monitoring of state finances, purchasing, personnel, and real property transactions [*67]
involving state and federal funds, which funds, according to Kobe, were misused. Kobe contends that his
injuries are fairly traceable to former governors who "totally abdicated their responsibilities under the
ADA and the Rehabilitation Act and violated [Kobe's] Constitutional rights," ECF No. 404, 27, by
engaging in "schemes intended to divert funds allocated by the General Assembly to provide services in
the least restrictive setting, instead to purchase real estate used to buy and renovate more facilities to
house congregate sheltered workshops," id. at 28. Kobe suggests that the governors, including Defendant
Haley and former Governor Mark Sanford, may have been active participants in a money laundering
scheme. Id. at 33. Finally, Kobe asserts that the governor is not protected by legislative immunity because
the acts complained of were illegal and not within the scope of the governor's authority.
As a threshold matter, the court must determine whether Congress has validly abrogated Eleventh
Amendment immunity with respect to Title II of the ADA and the Rehabilitation Act. Applying Georgia,
Kobe has identified a violation of the ADA in the failure to provide him with assistive devices to which he
is entitled. Kobe [*68] has further asserted that the violation of the ADA violated his constitutional rights
to life, liberty, and property, and to equal protection. Specifically, Kobe contends that he is unable to
communicate with others without the ACD, which prevents him from access to the public services he is
entitled. Kobe also contends that his rights to reasonably safe conditions of confinement, freedom from
bodily restrains, and to training have been disregarded. The court concludes that Governor McMaster is
not entitled to sovereign immunity with respect to Kobe's claims for monetary damages.
A review of the majority of the allegations of Counts One and Two reflect Kobe's claims of
misappropriate of funds and the potential loss of ACHD services. The Fourth Circuit has affirmed the
court's finding that Kobe lost no ACHD services and prevailed on administrative review. Only paragraph
280 of Count One (ADA) and paragraph 306 of Count Two (Rehabilitation Act) mention Defendants'
failure to provide Kobe with an ACD or other assistive devices. For purposes of Defendant McMaster's
motion to dismiss, setting aside other arguments raised by the parties, the court will assume that the
governor is a public [*69] entity subject to damages under Title II of the ADA or the Rehabilitation Act.
The question becomes, then, whether the governor intentionally or with deliberate indifference failed to
provide meaningful access or reasonable accommodation to Kobe by denying him the use of an ACD. See
Adams v. Montgomery College (Rockville), 834 F. Supp. 2d 386, 393-94 (D. Md. 2011) (noting that "'the
majority of circuits that have resolved the question have held that damages may be awarded if a public
entity intentionally or with deliberate indifference fails to provide meaningful access or reasonable
accommodation to disabled persons'") (internal quotations omitted) (quoting Paulone v. City of Frederick,
787 F. Supp. 2d 360, 373-75 (D. Md. 2011)). "Defendants intentionally violate the ADA and the
PATRICIA HARRISON Page 29 of 34

2018 U.S. Dist. LEXIS 55500, *69

Rehabilitation Act by demonstrating deliberate indifference when they '[have] notice of the potential risk
of their decision, and clearly [refuse] the accommodation knowingly.'" Id. at 394 (quoting Proctor v.
Prince George's Hosp. Ctr., 32 F. Supp. 2d 820, 829 D. Md. 1998)). A defendant need not show
discriminatory animus to recover damages under Title II of the ADA or § 504 of the Rehabilitation Act.
Id. (citing Paulone, 787 F. Supp. 2d at 373-74). Rather, compensatory damages are available for failure to
accommodate a plaintiff if a defendant "'acted knowingly, voluntarily, and deliberately,'" even if the
violations resulted from mere "'thoughtlessness and indifference' [*70] rather than because of any intent
to deny [a p]laintiff's rights." Id. (quoting Proctor, 32 F. Supp. 2d at 828).
In this case, Kobe contends that Governors Sanford and Haley were notified of his need for the
equipment, but abdicated their obligations under the ADA and Rehabilitation Act to remedy the alleged
violations. The court concludes that at least some of Kobe's allegations nudge the complaint across the
line from conceivable to plausible with respect to the narrow issue of whether the governor is liable for
damages under the ADA and Rehabilitation Act for the failure to provide Kobe with the assistive devices
he requires. Defendant McMaster's Rule 12(b)(6) motion is denied.
C. Motion to Dismiss and for Summary Judgment filed by Defendant Leitner
Defendant Leitner asserts that she is entitled to summary judgment as to Kobe's claim under Count Three
(42 U.S.C. § 1983), the only count in which she is named. See ECF No. 65, ¶ 311. Defendant Leitner
notes that the only factual allegations in the amended complaint alleges that on January 5, 2011, she, as
Director of the Richland Lexington Disabilities Board, sent a letter to Kobe alerting him that a review of
ADHC services was forthcoming. Defendant Leitner states that, as discussed above, Kobe [*71] was
never denied ADHC services, and there are no other factual allegations of wrongdoing with respect to her
that she violated Kobe's constitutional rights. Defendant Leitner also argues that she was not involved in
the DHHS denials of Kobe's applications for an ACD. According to Defendant Leitner, it was through the
Richland Lexington Disabilities Board that an ACD was borrowed for Kobe through the University of
South Carolina Assistive Technology Program in 2013, and also through the Richland Lexington
Disabilities Board that Kobe's case manager recently procured an ACD for Kobe's permanent use through
the South Carolina Vocational Rehabilitation Department. Defendant Leitner contends there is no genuine
issue of material fact that she did not deprive Kobe of his constitutional or statutory rights.
In response, Kobe asserts, without competent evidence, that Defendant Leitner: (1) has failed to explain
why Kobe's requests to move to a less restrictive environment were not transmitted to DDSN; (2) "made a
conscious decision to inform Judy Johnson that [Kobe] intended to move from the Babcock Center, when
she was asked not to share that information until the placement had been arranged. [*72] Then, she
colluded with Johnson in an attempt to enlist [Kobe's] mother to prevent him from moving from a group
home where he had been abused and neglected"; (3) failed to timely provide Kobe with written notices
containing all of the information required by 42 C.F.R. § 431.210, likely because of "collusion with
DDSN and DHHS Defendants to attempt to moot [Kobe's] lawsuit (by obtaining a 'loaner' device)." ECF
No. 435-36. Kobe's "unsubstantiated allegations and bald assertions" are not adequate to defeat summary
judgment. See Evans v. Tech. Application & Serv. Co., 80 F.3d 954, 960 (4th Cir. 1996).
Defendant Leitner's motion for summary judgment is granted.
D. Motion for Summary Judgment filed by Defendants Keck and Forkner (the "DHHS Defendants")

PATRICIA HARRISON Page 30 of 34

2018 U.S. Dist. LEXIS 55500, *72

Kobe alleges that the DHHS Defendants failed to provide Kobe with an ACD and wheelchair. Kobe's
allegations arise under the ADA and the Rehabilitation Act (Counts One, Two, 2), 42 U.S.C. § 1983
(Counts Three, Four), conspiracy (Count Five), and RICO (Count Six).10
The DHHS Defendants first contend that Kobe cannot show he was excluded from possessing an ACD on
the basis of his disability. These Defendants contend that Kobe's request was reviewed and it was
determined that an ACD with pre-recorded messages, as opposed to the requested ACD that
synthesized [*73] speech, would provide him with adequate speech support. According to the DHHS
Defendants, Kobe chose to proceed in this court rather than the administrative appeal process regarding
the DHHS Defendants' decision. The DHHS Defendants argue that the evidence shows only a difference
of opinion as to the type of ACD that would be appropriate for his condition. The DHHS Defendants
further contend this issue is moot because the ACD Kobe desired now has been approved and provided to
him.
Regarding Kobe's wheelchair, the DHHS Defendants state that no request for a wheelchair was made to
DHHS to be approved or denied. These Defendants inform the court, however, that Kobe submitted a
request for a wheelchair on July 24, 2013, which was approved by DHHS on August 2, 2013. The
wheelchair has been provided to Kobe. The DHHS Defendants assert that this issue also is moot.
As to Kobe's § 1983, § 1985, and RICO causes of action, the DHHS Defendants assert that the amended
complaint is devoid of any factual allegations regarding actions or omissions by them aside from
conclusory statements of wrongdoing, and, further, that any claims revolved around Kobe's contentions
that Defendants attempted to deprive him of his right [*74] to participate in ADHC services. These
Defendants also assert that Kobe cannot maintain a cause of action under the Supremacy Clause.
Kobe's specific response in opposition to the DHHS Defendant's motion for summary judgment is that, if
there were a difference of professional opinions regarding the type of ACD Kobe needed, DHHS should
have sent a notice containing all information required by 42 C.F.R. § 431.206 to Kobe, and not just to the
case manager and provider. Section 431.206 provides:
(b) The agency must, at the time specified in paragraph (c) of this section, inform every applicant or
beneficiary in writing (1) Of his or her right to a fair hearing and right to request an expedited fair hearing;
(2) Of the method by which he may obtain a hearing;
(3) That he may represent himself or use legal counsel, a relative, a friend, or other spokesman; and
(4) Of the time frames in which the agency must take final administrative action, in accordance with §
431.244(f).
The court discerns no requirement that notice be provided directly to an applicant or beneficiary. Kobe
was represented by counsel who advocated on his behalf to obtain the preferred ACD. Kobe fails to state
how delivering a copy of any notice to him personally creates an issue of fact that should [*75] be
submitted to a jury. The DHHS Defendants' motion for summary judgment is granted as to Counts One
(ADA), Two (Rehabilitation Act), and Counts Three and Four (§ 1983).
10 The

amended complaint also contains allegations that Kobe was denied ADHC services, in violation of his constitutional rights. Kobe's
allegations regarding ADHC services are moot, for the reasons set forth hereinabove.

PATRICIA HARRISON Page 31 of 34

2018 U.S. Dist. LEXIS 55500, *75

Kobe includes the DHHS Defendants in his argument regarding the DDSN Defendants as to Counts Five
(conspiracy), Count Six (Supremacy Clause), and Count Seven (RICO). For the reasons set forth
hereinabove in Section A, the DHHS Defendants' motion for summary judgment is granted as to these
claims.
The court is mindful that the Fourth Circuit found "pattern of allegedly unreasonable delays and improper
denials" with respect to Kobe's wheelchair and ACD entitlement, and that the DHHS Defendants need to
show "that after this litigation has concluded, [Kobe] will not once again find himself without the
equipment he needs and without any ability to obtain it without significant delay." The DDHS Defendants
represent to the court that an ACD acceptable to Kobe as well as a wheelchair have been provided to him
on a permanent basis. Kobe contends that these Defendants continue to ignore the requirements of 42
U.S.C. § 1396a(a)(8) and have not provided him with services to be provided in a non-congregate setting;
for speech services, including a swallow study, and for a bed [*76] that will allow him to raise the
elevation of his head to prevent aspiration. According to the DDHS Defendants, these new claims lack
factual basis in the record. Moreover, according to the DDHS Defendants, Kobe's request for a hospital
bed was submitted for authorization on August 6, 2013, approved by these Defendants on August 12,
2013, and paid for by Medicaid on August 23, 2013. The court declines to consider Kobe's newly asserted
allegations at this stage of the proceedings.
E. Motion for summary judgment filed by Defendants Babcock Center and Judy Johnson (the "Babcock
Defendants")
The Babcock Defendants first argue that Kobe cannot establish they violated the ADA (Count One). The
Babcock Defendants state that the only claims involving them revolve around participation in the ADHC
program, which issue is moot. Regarding the Rehabilitation Act (Count Two), these Defendants contend
that Kobe fails to assert any specific actions taken by Johnson, in her individual capacity as she is named,
to support his claim that Johnson personally discriminated against him based on his disability.
Regarding Kobe's § 1983 causes of action (Counts 3, 4), the Babcock Defendants assert that the Babcock
Center [*77] is not a governmental entity acting under color of state law. In support of their assertion,
these Defendants attach to their motion for summary judgment a copy of their business filing with the
South Carolina Secretary of State. As to conspiracy to interfere with civil rights (Count Five), the
Supremacy Clause (Count Six), and violations of RICO (Count Seven), the Babcock Defendants make
generally the same arguments as the DDSN Defendants and the DHHS Defendants.
In his response in opposition, Kobe relies on his recitation of mismanagement and investigation into the
Babcock Center, and intimates that the Babcock Defendants possessed a financial incentive to limit
expenditures for assistive technology and equipment. The court finds that Kobe's argument fails to
establish discrimination on the basis of disability. Kobe also disputes the Defendants' contention that the
Babcock Center is not a governmental entity. Although there exist situations when a private organization
may be treated as a public entity, see, e.g., Brentwood Academy v. Tenn. Secondary Sch. Athletic Ass'n,
531 U.S. 288, 121 S. Ct. 924, 148 L. Ed. 2d 807 (2001), Kobe does not engage in the analysis.
The Babcock Defendant's motion for summary judgment is granted as to Counts One (ADA), Two
(Rehabilitation Act), and Counts Three and Four (§ 1983).
Kobe [*78] includes the Babcock Defendants in his argument regarding the DDSN Defendants and
DHHS Defendants as to Count Five (conspiracy), Count Six (Supremacy Clause), and Count Seven
PATRICIA HARRISON Page 32 of 34

2018 U.S. Dist. LEXIS 55500, *78

(RICO). For the reasons set forth hereinabove in Sections A and D, the Babcock Defendants' motion for
summary judgment is granted as to these claims.
F. Motion to Strike Kobe's Response in Opposition to Motions for Summary Judgment
The Babcock Defendants contend that Kobe's omnibus response in opposition to Defendants' motions for
summary judgment (excluding Defendant McMaster's motion to dismiss) should be stricken as
unresponsive and relying on matters outside the record. The Babcock Defendants also assert that Kobe is
attempting to relitigate matters in contravention of the Fourth Circuit's opinion. The court, having
addressed the motions for summary judgment, denies the motion to strike as moot.
G. Plaintiffs' Motion for Partial Summary Judgment
Plaintiffs posit the following issues: (1) Defendants are in violation of the feasible alternatives,
comparability and reasonable promptness requirements of the Medicaid Act that are enforceable under §
1983; (2) Defendants are in violation of the integration mandate of the Americans with Disabilities [*79]
Act.
To the extent Plaintiffs raise arguments in tandem with their responses in opposition to Defendants'
various motions for summary judgment (excluding Defendant McMaster's motion to dismiss), the motion
for partial summary judgment is denied for the reasons set forth hereinabove.
To the extent Plaintiffs raise new claims not asserted in the amended complaint, the motion for partial
summary judgment is denied without prejudice to allow him to raise his allegations in a new action.
To the extent Plaintiffs raise arguments barred by the mandate rule, the motion for partial summary
judgment is denied.
To the extent Plaintiffs assert damages claims against Defendants (excluding Defendant McMaster), the
motion for partial summary judgment is denied for the reasons set forth in the Fourth Circuit's opinion.
To the extent Plaintiffs seek injunctive relief for events occurring after the filing of the amended
complaint, his motion for partial summary judgment is denied without prejudice to allow him to see
injunctive relief in a new action.

CONCLUSION
For the reasons stated, the motion for summary judgment of the DDSN Defendants (ECF Nos. 376, 399),
Defendant Leitner (ECF No. 400), the DHHS Defendants [*80] (ECF No. 402), and the Babcock Center
Defendants (ECF No. 403) are granted. The motion to dismiss filed by Defendant McMaster (ECF Nos.
379, 388) is denied. Plaintiff's motion for partial summary judgment (ECF No. 411) is denied as set forth
above. The Babcock Center Defendants' motion to strike (ECF No. 453) is denied as moot. To the extent
not inconsistent with this order, the court restates its conclusions as contained in its September 30, 2014
order.
IT IS SO ORDERED.
/s/ Margaret B. Seymour

PATRICIA HARRISON Page 33 of 34

2018 U.S. Dist. LEXIS 55500, *80

Senior United States District Judge
Columbia, South Carolina
March 30, 2018
End of Document

PATRICIA HARRISON Page 34 of 34

APPENDIX D

Kobe v. McMaster
Supreme Court of the United States
June 19, 2017, Decided
No. 16-8701.
Reporter
2017 U.S. LEXIS 3941 *; 137 S. Ct. 2270; 198 L. Ed. 2d 705; 85 U.S.L.W. 3587; 2017 WL 1365709

Kobe, Petitioner v. Henry McMaster, Governor of South Carolina, et al.

Prior History: Kobe v. Haley, 666 Fed. Appx. 281, 2016 U.S. App. LEXIS 22283 (4th Cir. S.C., Dec. 15,
2016)

Judges: [*1] Roberts, Kennedy, Thomas, Ginsburg, Breyer, Alito, Sotomayor, Kagan, Gorsuch.

Opinion
Petition for writ of certiorari to the United States Court of Appeals for the Fourth Circuit denied.
End of Document

PATRICIA HARRISON

APPENDIX E

Kobe v. Haley
United States Court of Appeals for the Fourth Circuit
September 22, 2016, Argued; December 15, 2016, Decided
No. 15-1419
Reporter
666 Fed. Appx. 281 *; 2016 U.S. App. LEXIS 22283 **; 2016 WL 7240174

KOBE; MARK, Plaintiffs - Appellants, and JOHN, Plaintiff, v. NIKKI HALEY, in her official capacity
as Governor and Chairman of the South Carolina Budget and Control Board; CHRISTIAN SOURA, in his
capacity as the Director of the South Carolina Department of Health and Human Services: ANTHONY
KECK, in his capacity as the former Director of the South Carolina Department of Health and Human
Services; BEVERLY BUSCEMI, in her official capacity as Director of the South Carolina Department of
Disabilities and Special Needs; RICHARD HUNTRESS, in his capacity as Commissioner of the South
Carolina Department of Disabilities and Special Needs; KATHI LACY; THOMAS P. WARING; JACOB
CHOREY, in their capacities as employees of the South Carolina Department of Disabilities and Special
Needs; MARY LEITNER, in her capacity as the Director of the Richland Lexington Disabilities and
Special Needs Board; JUDY JOHNSON, in her capacity as the Director of the Babcock Center; DANIEL
COOPER; CONVERSE A. CHELLIS, III, HUGH LEATHERMAN; RICHARD ECKSTROM; CURTIS
LOFTIS; BRIAN WHITE, in their capacities as former members of the South Carolina Budget and
Control Board; EMMA FORKNER, in her capacity as the former Director of the South Carolina
Department of Health and Human Services; EUGENE A. LAURENT, former Interim Director of the
South Carolina Department of Disabilities and Special Needs; STANLEY BUTKUS, former Director of
the South Carolina Department of Disabilities and Special Needs; UNNAMED ACTORS ASSOCIATED
WITH THE BABCOCK CENTER; THE BABCOCK CENTER, Defendants - Appellees, and CYNTHIA
MANN, Deputy Administrator and Director of the Center for Medicaid, CHIP, and Survey &
Certification, CMS; ELEANOR KITZMAN, in her official capacity as the Executive Director of the State
Budget and Control Board; MCCONNELL F. GLENN, in his official capacity as the President Pro
Tempore of the South Carolina Senate; ROBERT W. HARRELL, JR., in his official capacity as the
Speaker of the South Carolina House of Representatives; MARK SANFORD, in his capacity as a former
member of the South Carolina Budget and Control Board, Defendants.

Notice: PLEASE REFER TO FEDERAL RULES OF APPELLATE PROCEDURE RULE 32.1
GOVERNING THE CITATION TO UNPUBLISHED OPINIONS.

PATRICIA HARRISON

666 Fed. Appx. 281, *281; 2016 U.S. App. LEXIS 22283, **22283

Subsequent History: US Supreme Court certiorari denied by Kobe v. McMaster, 137 S. Ct. 2270, 198 L.
Ed. 2d 705, 2017 U.S. LEXIS 3941, 2017 WL 1365709 (U.S., June 19, 2017)
Summary judgment granted by, Motion denied by, Partial summary judgment denied by, Motion denied
by, As moot Kobe v. McMaster, 2018 U.S. Dist. LEXIS 55500 (D.S.C., Mar. 30, 2018)

Prior History: [**1] Appeal from the United States District Court for the District of South Carolina, at
Columbia. Margaret B. (3:11-cv-01146-MBS). Seymour, Senior District Judge.

Kobe v. Haley, 2013 U.S. Dist. LEXIS 113193 (D.S.C., Aug. 12, 2013)
Kobe v. Haley, 2012 U.S. Dist. LEXIS 112425 (D.S.C., Aug. 10, 2012)

Disposition: AFFIRMED IN PART, VACATED IN PART, AND REMANDED.

Counsel: ARGUED: Patricia L. Harrison, PATRICIA LOGAN HARRISON LAW OFFICE, Columbia,
South Carolina, for Appellants.
Damon C. Wlodarczyk, RILEY, POPE & LANEY, LLC, Columbia, South Carolina; Vance J. Bettis,
GIGNILLIAT, SAVITZ & BETTIS, Columbia, South Carolina, for Appellees.
ON BRIEF: William H. Davidson, II, Kenneth P. Woodington, DAVIDSON & LINDEMANN, P.A.,
Columbia, South Carolina, for Appellees Buscemi, Butkus, Chorey, Huntress, Lacy, Laurent & Waring.
Patrick J. Frawley, DAVIS FRAWLEY, LLC, Lexington, South Carolina, for Appellee Leitner.
Joel W. Collins, Jr., Christian Stegmaier, Meghan Hazelwood Hall, COLLINS & LACY, P.C., Columbia,
South Carolina, for Appellees Babcock Center, Unnamed Actors Associated with the Babcock Center &
Johnson.
Robin L. Jackson, SENN LEGAL, LLC, Charleston, South Carolina, for Appellees Chellis & Cooper.
Leslie A. Cotter, Jr., Sheila M. Bias, RICHARDSON, PLOWDEN & ROBINSON, P.A., Columbia, South
Carolina, for Appellees Leatherman & Eckstrom.

PATRICIA HARRISON Page 2 of 22

666 Fed. Appx. 281, *281; 2016 U.S. App. LEXIS 22283, **1

Judges: Before TRAXLER, DIAZ, [**2] and THACKER, Circuit Judges.

Opinion
[*283] PER CURIAM:
"Kobe" and "Mark" ("Appellants")1 appeal district court orders dismissing certain defendants and then
granting summary judgment to others in an action primarily pertaining to the administration of a South
Carolina Medicaid waiver program. Because we conclude that the district court erred in determining that
no justiciable issues remain in this case, we vacate the grant of summary judgment against Appellants on
Counts One through Seven. We also vacate the dismissal of Counts One and Two against Governor Nikki
Haley in her official capacity. Otherwise, we affirm.
I.
The Medicaid program, 42 U.S.C.A. §§ 1396, 1396a-v, established as part of the Social Security Act in
1965, "is a cooperative federal-state public assistance program that makes federal funds available to
[*284] states electing to furnish medical services to certain impoverished individuals." Mowbray v.
Kozlowski, 914 F.2d 593, 595 (4th Cir. 1990); see also Harris v. McRae, 448 U.S. 297, 301, 100 S. Ct.
2671, 65 L. Ed. 2d 784 (1980). The state agency responsible for administering and supervising Medicaid
in South Carolina is the South Carolina Department of Health and Human Services ("DHHS"). See Doe v.
Kidd, 501 F.3d 348, 351 (4th Cir. 2007). DHHS, in turn, contracts with the South Carolina Department of
Disabilities and Special Needs ("DDSN") to operate South Carolina's treatment and training [**3]
programs for people with intellectual and related disabilities. DDSN is a seven-member commission that
is appointed by the Governor with the advice and consent of the Senate. DDSN contracts with local
Disabilities and Special Needs Boards ("DSN Boards"), which contract with private entities to provide
Medicaid services.
The Richland Lexington Disabilities and Special Needs Board ("Rich/Lex") is "the administrative,
planning, coordinating, and service delivery body" for DDSN services that are provided in South
Carolina's Richland and Lexington Counties. S.C. Code § 44-20-385. It is funded by DDSN and follows
DHHS's and DDSN's policies and procedures.
At issue in this case is the Medicaid waiver program created by 42 U.S.C. § 1396n(c), which allows states
to waive the requirement that aid recipients must live in an institution to receive particular Medicaid
services. This case concerns home and community-based services that South Carolina provides through a
Medicaid waiver program for eligible persons with disabilities so that they may live in the community and
avoid institutionalization (the "ID/RD waiver").2 As is relevant in this case, among the several types of

1 Appellants

are using pseudonyms to protect themselves from possible retaliation.

2 "ID/RD"

stands for "intellectual disabilities/related disabilities." Although the ID/RD waiver was previously known as the Mentally
Retarded/Related Disabilities waiver, see Stogsdill v. South Carolina Dep't of Health and Human Servs., 410 S.C. 273, 763 S.E.2d 638, 639
n.1 (S.C. Ct. App. 2014), the South Carolina General Assembly amended various South Carolina code sections to replace the former terms

PATRICIA HARRISON Page 3 of 22

666 Fed. Appx. 281, *284; 2016 U.S. App. LEXIS 22283, **3

services provided through the ID/RD waiver are Adult Day Health [**4] Care services ("ADHC"), respite
care, and equipment and assistive technology. ADHC provides individuals with medical or therapeutic
care as well as social and recreational events and meals. Respite care is "[s]ervice[] provided to
individuals unable to care for themselves [that is] furnished on a short-term basis because of the absence
or need for relief of those persons normally providing the care." J.A. 2894.
Administration of the ID/RD waiver services generally involves a service coordinator for each recipient,
typically at the county level. The service coordinator's role is to evaluate the individual's condition and
needs, including information from that person's doctors and other medical professionals, and to work with
the individual's family members in order to develop a plan of care. Service coordinators may approve
some services themselves, but as to other services, they only make a recommendation to DDSN, which
decides whether to approve them. See generally 42 C.F.R. § 440.169.
Appellants contend that for many years, DDSN has failed to spend monies appropriated by the General
Assembly for the services the appropriations were intended to fund. Appellants maintain that the problem
has been compounded [**5] because the failure to spend the appropriated funds [*285] caused them to
miss out on the federal matching funds that spending the funds would have generated.
In late 2009, several events occurred that Appellants point to as causing a reduction of services provided
under the ID/RD waiver, purportedly for budgetary reasons.3 After the General Assembly adjourned in
2009, DDSN announced that the Centers for Medicare and Medicaid Services ("CMS") had approved
requested changes to the ID/RD Waiver, effective January 1, 2010. The changes included the elimination
of physical therapy, occupational therapy, and speech and language services "since they [we]re covered
under regular Medicaid." J.A. 2607. Also, respite hours were limited to 68 hours per month unless one of
three specific conditions were present, in which case, the client could receive up to 240 hours per month
upon DDSN approval.4
Appellants contend that although government officials represented that the waiver changes were
motivated by budget concerns, in fact the changes increased costs significantly. They further maintain that
notwithstanding the claims of budgetary restraints, DHHS actually had more funding than it even needed
to avoid reducing the services it had previously been providing.

"mental retardation" and "mentally retarded" with the terms "intellectual disability" and "person with intellectual disability." See 2011 S.C.
Act No. 47, § 13 (eff. June 7, 2011).
3 Because

we are reviewing orders granting motions to dismiss and motions for summary judgment, we describe the facts in the light most
favorable to Appellants. For purposes of this appeal, there is no material difference in the facts we consider regarding the different motions.
4 The

three conditions were as follows:
1. Caregiver has been hospitalized or is receiving medical treatment causing the caregiver to be away from home for lengthy periods
during the day for which respite takes the place of the caregiver to protect the health, safety, and welfare of the waiver participant.
2. The waiver participant is medically complex or severely [**6] disabled to the extent that the caregiver must provide him /her
constant hands on/direct care and supervision for which the caregiver is not paid for 16 hour[s] of a 24-hour day.
....
3. If support center services are unavailable to a participant age 12 to exiting high school and the primary caregiver works fulltime
during the summer months of June, July, and August.

J.A. 2608.

PATRICIA HARRISON Page 4 of 22

666 Fed. Appx. 281, *285; 2016 U.S. App. LEXIS 22283, **6

The waiver amendments were not the only cause of reductions in DDSN's expenditures on ID/RD waiver
services. In December 2010, DDSN inst ructed the four local service coordinators in Richland and
Lexington Counties to complete new assessments for ADHC service recipients in light of the requirement
that ADHC services are available only if the participants either have a medically complex condition or
require extensive assistance with functional activities or tasks [**7] (the "medically complex/extensive
assistance requirement").5 Rich/Lex, in turn, in formed affected consumers of the impending
reassessments.6
Appellants allege that the effort to reduce expenditures on ID/RD waiver services was part of a plan to
force them to attend Work Activity Centers ("WACs") operated by local DSN Boards. A WAC is "[a]
work shop having an identifiable program designed to provide therapeutic [*286] activities for workers
with intellectual disability whose physical or mental impairment is so severe as to interfere with normal
productive capacity." S.C. Code Regs. 88-405(K). Appellants contend that having more service recipients
attend WACs financially benefited DDSN as well as local DSN Boards. They emphasize that the profits
generated by WACs are paid to DDSN and may be spent at DDSN's discretion without oversight by its
governing board or the General Assembly. Meanwhile, Appellants maintain that individuals working in
WACs are paid less than minimum wage, their medical needs may not be properly attended to, and they
are at risk for abuse and neglect. Appellants additionally allege that forcing ADHC recipients to attend a
WAC set to open soon in Columbia, South Carolina, was the true motivation behind [**8] DDSN's
attempt to terminate the ADHC services of many disabled persons in Richland and Lexington Counties.
Also at issue in this case are expenditures of DDSN funds approved by the South Carolina Budget and
Control Board ("BCB"). Composed of the Governor, State Treasurer, Comptroller General, Chairman of
the Senate Finance Committee, and Chairman of the House Ways and Means Committee, the BCB, at the
time of the events at issue in this case, acted as "an executive body dealing primarily with the fiscal affairs
of the State government." State ex rel. McLeod v. Edwards, 269 S.C. 75, 236 S.E.2d 406, 406-407 (S.C.
197 7). However, the BCB was abolished effective July 1, 2015. See South Carolina Restructuring Act of
2014, S.C. Act No. 121 (S. 22) (2014).
In late 2009, DDSN requested and received BCB approval for the transfer of nearly $6 million from an
excess funds account containing $7.8 million. From the requested funds, $2.6 million was to purchase
buildings to be used as WACS for two DSN boards and the Babcock Center;7 $3,244,738 was to be used
for a statewide accounting system; and $100,000 was for the improvement of DDSN's Medicaid billing
system. Appellants contend the transfer of these funds, which the General Assembly had intended would
be spent on ID/RD waiver [**9] services, essentially gave the BCB control over the $3,244,738. Further,
Appellants maintain that by not spending the funds on services, DDSN missed the opportunity to receive
matching funds from the federal government.

5 Appellees

contend that this step was prompted when DDSN officials noticed in late 2010 and early 2011 that service coordinators in several
counties were approving ADHC services for a greater proportion of individuals than were generally being approved in other counties.
6 Also,

in December 2010, DDSN requested reevaluation of the medical justification for provision of assistive technology and specialized
medical equipment for particular consumers whose costs were particularly high.
7 The

"Babcock Center is a private, non-profit corporation based in Columbia that provides housing and other services for people with autism,
[intellectual disabilities], head or spinal injuries, or related disabilities." Madison ex rel. Bryant v. Babcock Ctr., Inc., 371 S.C. 123, 638
S.E.2d 650, 654 (S.C. 2006).

PATRICIA HARRISON Page 5 of 22

666 Fed. Appx. 281, *286; 2016 U.S. App. LEXIS 22283, **9

Kobe
Kobe has been disabled since birth due to severe cerebral palsy. He is intelligent but cannot walk, nor can
he speak in a way that others can understand him. His arms and legs are strapped to his wheelchair with
Velcro to keep him from hurting himself due to his spasticity. At the time this suit was filed in 2011, he
was 39 years old and he lived in a community training home at the Babcock Center. Kobe's physician has
determined that he needs ADHC services, and Kobe has attended the Hope Bridge Adult Day Care
program for many years.
In December 2010, after the aforementioned decision by DDSN to have Rich/Lex's service coordinators
reassess the eligibility of persons using ADHC services, Kobe's service coordinator determined that he no
longer satisfied the medically complex/extensive assistance requirement and [*287] thus was no longer
eligible to continue to receive ADHC services. Kobe appealed the decision to the DDSN Director. He
continued to receive ADHC during the pendency [**10] of his appeal.
Kobe also maintains that the government has not consistently provided him with a functioning wheelchair.
In early 2008 his then-current wheelchair was causing him to develop painful ulcers on his buttocks. He
asserts that although a wheelchair was inserted into his plan of care in January 2008, he did not actually
receive the wheelchair he needed until April 2009. Then shortly thereafter, his new wheelchair was
damaged and the headrest needed to be replaced. As a result, he spent weeks in bed while his wheelchair
was not functional and he was unable to attend Hope Bridge.
Kobe was injured and his wheelchair further damaged on December 28, 2010, when Kobe was dropped
from a van as he was being transported between Hope Bridge and the Babcock Center. His broken wheel
chair prevented him from attending Hope Bridge from December 28, 2010, until January 18, 2011. Even
after his return, the wheelchair remained damaged and malfunctioned in ways that sometimes left him "in
bed for days." J.A. 3656.
Kobe's efforts to obtain the equipment he needs to communicate also have often been unsuccessful. Since
2009, Kobe has been requesting help in improving his reading skills, but he has [**11] not been provided
adult education classes, because he did not have a device to help him communicate. An investigation by
the Lieutenant Governor's Office in the summer of 2010 into a report by Hope Bridge staff that Kobe was
being neglected at the Babcock Center revealed that Kobe needed an augmentative communications
device ("ACD") in order to communicate his needs to the staff. And the Lieutenant Governor's Office
notified DDSN of this need in October 2010.8 Kobe's doctors ordered speech evaluations on December 7,
2010, and on January 13, 2011, and he received an evaluation in March 2011 from the Palmetto Health
Rehab Center. He tried a number of different speech devices and experienced great success with the
"Tobii C12 with eye Control," which allowed him to synthesize speech with eye movements. Such a
device would enable him to communicate with staff so as to receive proper care and make his own
appointments.

Mark

8 Kobe

identified several specific health problems that he has suffered as a result of not being able to communicate properly.

PATRICIA HARRISON Page 6 of 22

666 Fed. Appx. 281, *287; 2016 U.S. App. LEXIS 22283, **11

Mark has Down Syndrome and, although he is an adult, he functions at the level of a two-year-old. Since
his father died, he has lived with his adult sister in her home and requires constant supervision.
Like Kobe, Mark receives ADHC services and he attends Hope Bridge. Also [**12] like Kobe, Mark was
notified in 2011, following Rich/Lex's reassessments, that he no longer was eligible for ADHC services,
although his services continued during the pendency of the appellate process. Mark appealed the
eligibility decision to the DDSN Director, but the Director upheld the decision. He therefore appealed that
decision to DHHS.
Important to Mark's sister's continued ability to care for him in her home is Mark's entitlement to respite
care. Mark is concerned that if his sister were to become ill and require hospitalization for several weeks,
rendering her unable to care for him, the new caps would prevent him from [*288] receiving the number
of respite care hours he would need and could require him to enter an institution to receive the care he
would need.

Lawsuit
Appellants brought this action in May 2011 in federal district court, and filed an amended complaint in
October 2011.9 Appellants' amended complaint alleges many overlapping causes of action primarily
asserting, under various theories, that they were deprived of services they were entitled to receive in a
timely fashion.10 These services included ADHC for both Appellants, Kobe's wheelchair and ACD and
physical, occupation, [**13] and speech and language therapy, and Mark's respite hours. Several claims
challenge the BCB's alleged failure in 2009 "to insure that the funds paid to [DDSN] were spent
appropriately for services Plaintiffs . . . need, despite repeated warnings from the South Carolina
Legislative Audit Council, federal and state audits showing that [DDSN] was spending those funds to
purchase real estate to force waiver participants into WAC's to profit the State." J.A. 220, see J.A. 225,
228, 231.
The amended complaint asserts causes of action for violation of the Americans with Disabilities Act of
1990 ("ADA"), see 42 U.S.C. §§ 12101 et seq. (Count One); violation of Section 504 of the Rehabilitation
Act of 1973, see 29 U.S.C. § 794 (Count Two); violation of 42 U.S.C. § 1983 (Count Three); violation of
42 U.S.C. § 1983 and 1988 (Count Four);11 commission of a conspiracy in violation of 42 U.S.C. 1985(3)
(Count Five); violation of the Supremacy Clause (Count Six); and violation of the Racketeer Influenced
and Corrupt Organizations Act ("RICO"), see 18 U.S.C. §§ 1503, 1512, 1513 (Count Seven). Kobe also
asserted state law claims for negligence, intentional infliction of emotional distress, and assault and

9 Originally

there was a third plaintiff, who was eventually voluntarily dismissed from the suit.

10 Among

other theories, Appellants alleged that Appellees have failed to give deference to the treating orders of their physicians; endangered
their right to receive services in the most integrated setting appropriate, and failed to establish reasonable standards and promulgate
regulations for operating the waiver program.
11 Counts

Three and Four included allegations of violations of Appellants' rights under the Fourth, Fifth, and Fourteenth Amendments to the
United States Constitution, as well as the Medicaid Act, see 42 U.S.C. § 1396 et seq.

PATRICIA HARRISON Page 7 of 22

666 Fed. Appx. 281, *288; 2016 U.S. App. LEXIS 22283, **13

battery against the Babcock Center and other Appellees in regard to his care during the time he lived there
(Count Eight).12
[*289] As is relevant here, [**14] the amended complaint requests that the district court:
- "Issue an order of protection prohibiting [DDSN] and its agents and employees from retaliating
against the Plaintiffs or their families."
- "Assume jurisdiction over this action and maintain continuing jurisdiction until the Defendants are
in full compliance with every order of [the district court.]"
- "Issue an injunctive order declaring that Defendants' policies, practices, acts and omissions, as set
forth above, violate Plaintiff[s'] rights under the ADA and Section 504 of the Rehabilitation Act and
the Medicaid Act."
- "[Issue] an order prohibiting the Defendants from reducing ADHC services and requiring
Defendants to provide such additional services as shall be medically necessary, as shall be determined
by [Plaintiffs'] treating physicians, so as to allow Plaintiffs . . . to live in the most integrated settings
possible . . . ."
- "So long as the cost of these services is less than the cost of ICF/MR services, [issue] . . . an order
requiring Defendants to provide Medicaid waiver services as shall be determined by the treating
physicians to be necessary absent review and an order from the [district court] during this
litigation." [**15]
- "[Disgorge from] Defendants and their associated enterprises or organizations . . . ill gotten gains."
J.A. 244-45. The amended complaint also requests actual and punitive damages and attorneys' fees and
costs.13

Events Subsequent to the Filing of this Lawsuit
In May 2011, Kobe moved out of the Babcock Center to a congregate group home operated by United
Cerebral Palsy, a private provider. However, Kobe has stated that he "want[s] to live in [his] own
12 The

amended complaint named numerous state officials and others as defendants (collectively, "Appellees"). The defendants can be divided
into several categories. There are DHHS Directors — Emma Forkner and Anthony Keck ("the DHHS Appellees"); DDSN Directors and
other DDSN officials — Beverly Buscemi, Eugene Laurent, Stanley Butkus, Kathi Lacy, Richard Huntress, Thomas Waring and Jacob
Chorey ("the D DSN Appellees"); the Director of Rich/Lex — Mary Leitner; the Director of the Babcock Center, Judy Johnson, as well as
other unnamed actors associated with the Babcock Center (collectively, "the Babcock Center Appellees"); and the Governor and other
members of the BCB (the "BCB Members").
The BCB Members included Governor Haley, who assumed office in January 2011 as Governor of South Carolina and Chairman of the BCB;
former Governor Mark Sanford, who preceded Governor Haley as Governor and BCB Chairman; former State Representative Daniel Cooper,
who served as a BCB member by virtue of his service as Chairman of the Ways and Means Committee of the South Carolina House of
Representatives until January 2011; former State Treasurer Converse Chellis, who served as a BCB member by virtue of his position as State
Treasurer until January 2011; State Senator Hugh Leatherman, who served as a BCB member by virtue of his position as Chairman of the
Finance Committee of the South Carolina Senate until the BCB was abolished in 2014; and State Treasurer Curtis Loftis and Representative
Brian White, who succeeded Chellis and Cooper, respectively, and both of whom served as BCB Members until the BCB was abolished in
2014.
Governor Haley, Loftis, and White were sued solely in their official capacities, while the other Appellees were sued in both their individual
and official capacities.
13 The

amended complaint contains class action allegations in the body of the complaint. However, Appellants sought no class certification
and have conceded that this action is not being brought on behalf of others.

PATRICIA HARRISON Page 8 of 22

666 Fed. Appx. 281, *289; 2016 U.S. App. LEXIS 22283, **15

apartment in the community instead of living in a home with three other people who have disabilities."
J.A. 3655.
Kobe's troubles obtaining and maintaining a working wheelchair continued after filing this suit. Kobe's
plan of care as of May 12, 2011, included the need for a new wheelchair or a repair of the one he had been
using. Weeks passed, however, and he did not receive a new one.
Kobe's struggles to obtain the Tobii ACD continued as well. As of June 7, 2011, his plan of care included
the Tobii C12 ACD. Nevertheless, once more than a year had passed after Kobe's speech evaluation, Kobe
was told that he would need a new evaluation because the first one was not sufficiently recent.
Kobe received another evaluation, during which he tried several [**16] ACDs that did not work for him
due to his spasticity. The evaluator again determined that he needed the Tobii device. Kobe's treating
physician signed an order requesting the device, certifying it as medically necessary, and Kobe requested
it from DHHS. DHHS initially [*290] denied his request on August 23, 2011, on the basis that Kobe had
not provided adequate documentation of medical need. As of the filing of the amended complaint in
October 2011, Kobe still had not received the device he had requested.
As for Kobe's pending appeal of his service coordinator's decision that he no longer qualified for ADHC
services, on May 11, 2011 — the same day Appellants filed their original complaint — DDSN's Director
reversed the service coordinator's decision, determining that Kobe indeed did satisfy the then-existing
requirements. As the result of this reversal, Kobe's ADHC services never lapsed.
Despite obtaining a reversal of the decision that he was no longer eligible for ADHC, Kobe appealed to
DHHS. in his appeal, Kobe complained that he had not received written notice of the intent to reduce or
eliminate his services. He also complained that DHHS had failed to provide him "with speech and
language [**17] services, physical therapy, occupational therapy, adult companion services and with an
appropriate communications device or to notify him of all feasible alternatives under the [ID/RD]
Medicaid waiver." J.A. 2533. The appeal was resolved in mid-October 2011 according to the following
terms provided in an August 9, 2012, consent order:
1. The Parties agree that [Kobe] meets criteria for and is appropriate for [ADHC]. Waiver participants
are evaluated yearly under 42 CFR §441.302(c)(2).
2. As an [ID/RD] Waiver Participant, [Kobe] will be allowed to continue to receive ADHC offered by
the [ID/RD] Waiver, provided by the qualified provider of his choice.
J.A. 2458.
Mark's appeal to DHHS regarding his ADHC eligibility was also resolved in mid-October 2011 by
agreement. An August 2012 consent order memorializing the agreement contained language identical to
that of Kobe's and thus established that Mark satisfied the medically complex/extensive assistance
requirement. Like Kobe's ADHC services, Mark's never lapsed.
Shortly after resolving Appellants' administrative appeals, DHHS eliminated the medically
complex/extensive assistance requirement that had been the basis for Appellants' service coordinators'
initial decisions [**18] ("the 2011 Policy Change").

PATRICIA HARRISON Page 9 of 22

666 Fed. Appx. 281, *290; 2016 U.S. App. LEXIS 22283, **18

Motions to Dismiss and for Summary Judgment
As the present lawsuit continued, Governor Haley, Loftis, White, Cooper, and Chellis filed motions to
dismiss the claims against them, arguing they were entitled to dismissal for a variety of reasons. See Fed.
R. Civ. P. 12(b)(1), (6). They all maintained they were entitled to dismissal on the basis of Eleventh
Amendment immunity of all claims asserted against them in their official capacities.
In their memoranda opposing dismissal of these defendants on the basis of Eleventh Amendment
immunity, Appellants relied primarily on the Ex Parte Young exception to Eleventh Amendment
immunity. See Ex parte Young, 209 U.S. 123, 28 S. Ct. 441, 52 L. Ed. 714 (1908). They asserted that as to
Loftis, White, Cooper, and Chellis, Appellants were seeking prospective relief only. See J.A. 781
("Plaintiffs . . . seek only prospective relief against Defendants Loftis and White."); J.A. 1086 ("All of the
relief requested by the Plaintiffs as to Defendant Cooper is prospective."); J.A. 1115 ("Only prospective
relief, and attorneys fees, are requested from [Chellis].").
Considering the various motions, the district court dismissed all claims against Haley, Cooper, Loftis,
Chellis, and White. [*291] Regarding the claims asserted against them in their official capacities, the
district court [**19] concluded that these defendants were entitled to Eleventh Amendment immunity as a
matter of law. The court ruled that the Ex Parte Young exception did not apply to requests for redress for
violations that occurred wholly in the past, including those relating to the BCB's involvement in the use of
funds from the excess fund to purchase real estate. Regarding prospective relief for ongoing violations,
the court concluded that none of these defendants had the requisite special connection to the
administration of the state's Medicaid program such that an injunction against them would provide
Appellants any effective redress. And to the extent the defendants were sued in their individual capacities,
the court ruled that there could be no prospective relief; the court reasoned that even should an injunction
be entered against them, they did not occupy any positions through which they could remedy Appellants'
claimed injuries. The court also ruled that they were entitled to legislative immunity.
Leatherman and Eckstrom subsequently filed a motion to dismiss or for summary judgment, advancing
arguments similar to those of the other BCB Members. Appellants opposed the motion, but, as they had
regarding Loftis, [**20] White, Cooper, and Chellis, they abandoned any claims for retrospective relief
against these defendants. See J.A. 2240 ("[T]he only relief [Appellants] request from [Leatherman and
Eckstrom] is injunctive relief."). The district court granted the motion, ruling that Leatherman and
Eckstrom were entitled to Eleventh Amendment immunity because the Ex Parte Young exception did not
apply since Appellants could not obtain any prospective injunctive relief against Leatherman and
Eckstrom and because Appellants alleged no ongoing violation of the law. The court also ruled
Leatherman and Eckstrom were entitled to legislative immunity to the extent they were sued in their
individual capacities.
The case then proceeded against the remaining defendants. After discovery had been completed,
Appellants and the remaining defendants filed cross-motions for summary judgment.14 As is relevant to
this appeal, several of the defendants maintained that the claims in this suit were no longer justiciable. The
DDSN Appellees, in particular, contended that several events mooted Appellants' claims. They argued
14 The

parties had once previously filed cross-motion s for summary judgment. The district court denied those motions without prejudice so as
to allow Defendants to engage in discovery regarding certain witnesses that Plain tiffs had only recently identified.

PATRICIA HARRISON Page 10 of 22

666 Fed. Appx. 281, *291; 2016 U.S. App. LEXIS 22283, **20

that the 2011 Policy Change mooted any issue about Appellants' entitlement to prospective relief
protecting their right to receive [**21] ADHC. The DDSN Appellees also argued that the reversal by
their Director of the determination that Kobe was not eligible for ADHC, at a time when the Director was
not even aware of the existence of the lawsuit, mooted any claim regarding the service coordinator's
original decision. The Babcock Center Appellees also argued that Appellants failed to forecast evidence
of proper damages to meet RICO's standing requirements.
In support of their motion for partial summary judgment, Appellants contended they were entitled to
summary judgment on several individual issues relating to the merits of their claims. And, in opposition to
the remaining Appellees' summary judgment motions, Appellants maintained, as is pertinent here, that the
"voluntary cessation" exception to the mootness doctrine prevented the 2011 Policy Change from mooting
the claims concerning their ADHC eligibility, Kobe's equipment needs, [*292] and the provision of inhome services to Mark.

Additional Developments Regarding Kobe's Attempts to Obtain an ACD
DHHS formally denied Kobe's request for the Tobii device on November 14, 2011. DHHS's response
stated that the reason for the denial was that Kobe was not involved in educational [**22] endeavors but
instead needed to communicate only in order to express health and well-being needs, comfort and
discomfort, and to conduct normal speech.15 On that basis, DHHS decided that an ACD with pre-recorded
messages, as opposed to an ACD that synthesized speech, would be adequate for him. Rather than engage
in what they expected would be a lengthy administrative appeal process, Appellants decided to litigate
Kobe's claims regarding his entitlement to the ACD in the current lawsuit.
Nearly two years after DHHS had denied his request, in the summer of 2013, Rich/Lex was "able to
secure a Tobii unit for 'Kobe' through the University of South Carolina Assistive Technology Exchange
Program" (the "USC Program"). J.A. 2558. There is no dispute that the "Tobii C-15 Eye Gaze unit" the
USC Program provided "allows [Kobe] to communicate by shifting his eye gaze to letters on a board" and
thus is sufficient to meet Kobe's needs. J.A. 2558. However, as of January 2, 2014, the unit was not
attached to Kobe's damaged wheelchair. Kobe therefore could not effectively use the device when he left
his home. By the time of the September 23, 2014, summary judgment hearing, Kobe had finally received
a [**23] new wheelchair, but the ACD had not yet been attached.
Kobe describes the ACD that the USC Program has allowed him to use as a "loaner," and he States that "it
does not belong to [him] and [he is] afraid that they will take it back once this lawsuit is over." Appellants'
brief at 25 (internal quotation marks omitted); J.A. 3654. However, Rich/Lex's representative stated in a
January 2014 affidavit that "[t]he arrangement with the USC Program is that 'Kobe' can keep the . . .
device so long as he continues to use it." J.A. 2558. The representative added in a later affidavit that the
USC Program director had stated that "the device was Kobe's as long as he uses it" and if Kobe "ever
stops using it — which is unlikely — [the USC Program] would probably like it back so someone else
would be able to benefit from it; but there is no express agreement or contract to that effect, and the
device is not 'on loan' to Kobe." J.A. 4440.

15 Appellants

express frustration with DHHS's position in light of their allegation that Kobe had been denied educational opportunities
because he did not have a speech device.

PATRICIA HARRISON Page 11 of 22

666 Fed. Appx. 281, *292; 2016 U.S. App. LEXIS 22283, **23

Considering the cross-motions for summary judgment from the remaining parties, the district court16
granted summary judgment against Appellants on all claims (except for Count Eight, asserting state law
claims against the Babcock Center Appellees), and denied Appellants' [**24] motion.17 The district
court's decision was based on a combination of three grounds relating to justiciability: (1) that Kobe's
entitlement to a wheelchair was mooted when he received a functioning chair during this case, (2) that
Mark's claim to [*293] additional respite care hours was not ripe because the possibility that the new
caps would cause him to be institutionalized was only speculative, and (3) that Appellants lacked standing
to seek injunctive relief from the "allege[d] systemic failures within the DHHS and DDSN systems" and
the alleged "mishandling of funds and exploitation" because they did not show a particular cognizable
injury or an immediate threat of injury from that alleged conduct, J.A. 4432. the district court, noting that
"Kobe's ACD device was not installed on his wheelchair at the time of the hearing and thus [was] not
accessible to him[,] . . . order[ed] that the ACD device be properly affixed to Kobe's wheelchair no later
than ten (10) days from the date of en try of th[e] order." J.A. 4433 (emphasis omitted). The device has
since been installed.
Appellants subsequently filed a motion to alter or amend, challenging the grant of summary judgment on
a variety of grounds. See Fed. R. Civ. P. 59 (e). As is relevant [**25] here, they contended that the
district Court ignored much of the factual predicate supporting several of their claims and failed to explain
its decision to dismiss several other claims. They specifically emphasized the court's failure to address
their claims that Appellees failed to provide Kobe a wheelchair and ACD with reasonable promptness.
Regarding justiciability, Appellants argued that the district court failed to recognize that they were among
the intended beneficiaries of the DHHS funds used to purchase real estate. They contended that their
challenges to illegal policies were ripe because the administrative decisions at issue had already been
finalized.
Before the court ruled on that motion, the parties settled Count 8, regarding injuries Kobe allegedly
suffered while living at the Babcock Center, and the claim was dismissed by a consent order.
The court later denied Appellants' Rule 59(e) motion. Regarding a contention by Appellants that the court
had not addressed Kobe's claim that he was entitled to be placed in a Supervised Living Program ("SLP")
apartment,18 the district court concluded that such a claim was not ripe because "[t]here is no evidence
regarding if or when [any request made by [**26] Kobe to Rich/Lex] was forwarded to [DDSN], or
whether DDSN has rendered an unfavorable administrative decision or failed to respond to Kobe's
request." J.A. 4495.
II.
Appellants first argue that the district court erred in granting summary judgment against the thenremaining defendants on justiciability grounds on Counts One through Seven.19 Appellees, on the other
hand, maintain that the district court properly ruled that no live controversy remains in this case.
16 The

case had been reassigned to a different district judge in July 2014.

17 The

district court also dismissed former Governor Sanford since there was no evidence that he was ever served with copies of the summons
and complaint. See Fed. R. Civ. P. 4(m).
18 An
19 At

SLP would be a less-restrictive setting than the one Kobe currently lives in.
the summary judgment hearing, Appellants abandoned any damages claims against the remaining defendants.

PATRICIA HARRISON Page 12 of 22

666 Fed. Appx. 281, *293; 2016 U.S. App. LEXIS 22283, **26

Appellees argue that because no justiciable issues remain, we need not even address the Appellants'
arguments regarding the dismissal of the BCB Members from the case. We therefore begin our analysis
with these justiciability questions. See Bender v. Williamsport Area Sch. Dist., 475 U.S. 534, 541, 106 S.
Ct. 1326, 89 L. Ed. 2d 501 (1986) ("[E]very federal appellate court has a special obligation to satisfy itself
not only of its own jurisdiction, but also that of the lower courts in a cause under re view." (internal
quotation marks omitted)).
[*294] We review de novo a district court's ruling concerning subject-matter jurisdiction. See Simmons
v. United Mortg. & Loan Inv., LLC, 634 F.3d 754, 762 (4th Cir. 2011). "We review a district court's
decision to grant summary judgment de novo, applying the same legal standards as the district court, and
viewing all facts and reasonable inferences therefrom in the light [**27] most favorable to the nonmoving
party." T-Mobile Ne., LLC v. City Council of Newport News, 674 F.3d 380, 384-85 (4th Cir. 2012)
(internal quotation marks omitted). Summary judgment is appropriate "if the movant shows that there is
no genuine dispute as to any material fact and the movant is entitled to judgment as a matter of law." Fed.
R. Civ. P. 56(a).
In order for the federal Courts to have jurisdiction, plaintiffs must possess standing under Article III, § 2
of the Constitution. See David v. Alphin, 704 F.3d 327, 333 (4th Cir. 2013). Article III standing, in turn,
has three "irreducible minimum requirements":
(1) an injury in fact (i.e., a 'concrete and particularized' invasion of a 'legally protected interest');
(2) causation (i.e., a 'fairly ... trace[able]' connection between the alleged injury in fact and the alleged
conduct of the defendant); and
(3) redressability (i.e., it is 'likely' and not merely 'speculative' that the plaintiff's injury will be
remedied by the relief plaintiff seeks in bringing suit).
Pender v. Bank of Am. Corp., 788 F.3d 354, 365 (4th Cir. 2015) (quoting Sprint Commc'ns Co., L.P. v.
APCC Serv., Inc., 554 U.S. 269, 273-74, 128 S. Ct. 2531, 171 L. Ed. 2d 424 (2008)). Regarding the injuryin-fact prong, "[a]n allegation of future injury may suffice if the threatened injury is certainly impending,
or there is a substantial risk that the harm will occur." Susan B. Anthony List v. Driehaus, 134 S. Ct. 2334,
2341, 189 L. Ed. 2d 246 (2014) (internal quotation marks omitted).
"To qualify as a case fit for federal-court adjudication, an actual controversy must be extant at all stages of
review, not merely at the time [**28] the complaint is filed." Arizonans for Official English v. Arizona,
520 U.S. 43, 67, 117 S. Ct. 1055, 137 L. Ed. 2d 170 (1997) (internal quotation marks omitted).
Accordingly, a case is moot "when the issues presented are no longer 'live' or the parties lack a legally
cognizable interest in the outcome." Chafin v. Chafin, 568 U.S. 165, 133 S. Ct. 1017, 1023, 185 L. Ed. 2d
1 (2013) (some internal quotation marks omitted).
Another "Article III threshold question" is whether a "dispute is ripe for adjudication." Lansdowne on the
Potomac Homeowners Ass'n, Inc. v. OpenBand at Lansdowne, LLC, 713 F.3d 187, 198 (4th Cir. 2013).
"A claim should be dismissed as unripe if the plaintiff has not yet suffered injury and any future impact
remains wholly speculative." Doe v. Virginia Dep't of State Police, 713 F.3d 745, 758 (4th Cir. 2013)
(internal quotation marks omitted). "The basic rationale of the ripeness doctrine is to prevent the courts,
through avoidance of premature adjudication, from entangling themselves in abstract disagreements over
PATRICIA HARRISON Page 13 of 22

666 Fed. Appx. 281, *294; 2016 U.S. App. LEXIS 22283, **28

administrative policies, and also to protect the agencies from judicial interference until an administrative
decision has been formalized and its effects felt in a concrete way by the challenging parties." Pacific Gas
& Elec. Co. v. State Energy Res. Conserv. & Dev. Comm'n, 461 U.S. 190, 200, 103 S. Ct. 1713, 75 L. Ed.
2d 752 (1983) (internal quotation marks omitted). When determining ripeness, we traditionally
consider"(1) the fitness of the issues for judicial decision and (2) the hardship to the parties of withholding
court consideration." Cooksey v. Futrell, [*295] 721 F.3d 226, 240 (4th Cir. 2013) (internal quotation
marks omitted). "A case is fit for adjudication when the action in controversy [**29] is final and not
dependent on future uncertainties "; conversely, a claim is not ripe when "it rests upon contingent future
events that may not occur as anticipated, or indeed may not occur at all."20 Scoggins v. Lee's Crossing
Homeowners Ass'n, 718 F.3d 262, 270 (4th Cir. 2013) (internal quotation marks omitted). The hardship
prong, on the other hand, "is measured by the immediacy of the threat and the burden imposed on the
plaintiffs." Miller v. Brown, 462 F.3d 312, 319 (4th Cir. 2006) (alterations and internal quotation marks
omitted).
Regarding the district court's conclusion that events during the pendency of this case have put an end to
any live controversy, Appellants contend that the record, viewed in the light most favorable to them,
demonstrates that:
Appellees have not yet voluntarily ceased the conduct of failing to provide services with reasonable
promptness, failing to establish reasonable standards, failing to provide services in the amount,
duration and scope necessary to meet Plaintiffs['] needs in order [for them to be able] to remain in the
least restrictive setting.
Appellants' brief at 44. They also contend that the caps affecting the amount of respite care Mark can
receive have not been eliminated. They argue that even to the extent that Appellees have voluntarily
ceased some of the complained-of [**30] conduct by confirming their eligibility for ADHC or providing
them with requested services and equipment, exceptions to the mootness doctrine apply. And they
maintain that the district court failed to explain how its conclusions regarding justiciability justified
granting summary judgment on their various claims.
We will address these seriatim, beginning with the issues relating to Appellants' eligibility to receive
ADHC, and then moving to those pertaining to Kobe's requests for particular equipment and services.
Then, finally, we will address the district court's implicit conclusion that the justiciability issues warranted
granting summary judgment against Appellants on each of the first seven counts.21

20 A

fit case would ideally present "purely legal" issues. See Miller v. Brown, 462 F.3d 312, 319 (4th Cir. 2006).

21 In

their initial brief, Appellants do not challenge the district court's ruling that their challenge to the respite-hours caps was not ripe because
they had not shown that Mark had in fact been affected by the caps or that there was any nonspeculative possibility that he would be affected
in the future. For the first time, in their reply brief, Appellants offer a cursory challenge to that conclusion, suggesting that if his
circumstances were to change such that his sister became physically incapacitated or otherwise unable to care for him for an extended period,
then the caps could prevent him from receiving the respite care he would need and could even result in his institutionalization. Even if the
issue were properly before us, Appellants have done nothing to demonstrate that the prospect of such a change in circumstances was anything
more than speculative. Nor have they identified any immediate hardship Mark would suffer from being unable to resolve the legality of the
new limits in this suit. We conclude therefore that they have failed to satisfy their burden of showing that their challenges to the new respitehour limitations are ripe. See Miller, 462 F.3d at 319 ("The burden of proving ripeness falls on the party bringing suit.").
Appellants offer no challenge to the district court's ruling that their claim that Kobe is entitled to be provided with an SLP is unripe. Nor do
they challenge the ruling that Appellants' claim demanding payment for the speech pathologist who evaluated Kobe and provided him with
speech services fell outside the scope of their complaint. We therefore do not address those issues.

PATRICIA HARRISON Page 14 of 22

666 Fed. Appx. 281, *296; 2016 U.S. App. LEXIS 22283, **30

[*296] We start with Appellants' argument that their claims remain justiciable to the extent they concern
the termination of their eligibility to receive ADHC services. Appellants contend that despite the fact that
they prevailed during the administrative appeal process regarding termination of their AD HC services,
the claims relating to those services continue to pre sent a live controversy and should not be dismissed as
moot.22
"It is well settled that [the] defendant's voluntary cessation [**31] of a challenged practice does not
deprive a federal court of its power to determine the legality of the practice" unless it is "absolutely clear
that the allegedly wrongful behavior could not reasonably be expected to recur." Friends of the Earth, Inc.
v. Laidlaw Envtl. Servs., Inc., 528 U.S. 167, 189, 120 S. Ct. 693, 145 L. Ed. 2d 610 (2000) (internal
quotation marks omitted) ; see Knox v. Service Emps. Int'l Union, Local 1000, 567 U.S. 298, 132 S. Ct.
2277, 2287, 183 L. Ed. 2d 281 (2012) ("The voluntary cessation of challenged conduct does not ordinarily
render a case moot because a dismissal for mootness would permit a resumption of the challenged conduct
as soon as the case is dismissed."). Without that rule, "courts would be compelled to leave the defendant
free to return to his old ways." City of Mesquite v. Aladdin's Castle, Inc., 455 U.S. 283, 289 n.10, 102 S.
Ct. 1070, 71 L. Ed. 2d 152 (1982) (alterations and internal quotation marks omitted). The party asserting
mootness bears "[t]he 'heavy burden of persua[ding]' the court that the challenged conduct cannot
reasonably be expected to start up again." Wall v. Wade, 741 F.3d 492, 497 (4th Cir. 2014) (quoting
Laidlaw, 528 U.S. at 189).
Additionally, "[a] case that would otherwise be moot is not so if the underlying dispute is 'capable of
repetition, yet evading review.'" Stop Reckless Economic Instability Caused by Democrats v. FEC, 814
F.3d 221, 229 (4th Cir. 2016) (quoting Southern Pac. Term. Co. v. ICC, 219 U.S. 498, 515, 31 S. Ct. 279,
55 L. Ed. 310 (1911)). The Supreme Court has explained
that in the absence of a class action, the "capable of repetition, yet evading review" doctrine [is]
limited to the situation where two elements combined: (1) the challenged action was in its duration
too short to be fully litigated [**32] prior to its cessation or expiration, and (2) there was a reasonable
expectation that the same complaining party would be subjected to the same action again.
Weinstein v. Bradford, 423 U.S. 147, 149, 96 S. Ct. 347, 46 L. Ed. 2d 350 (1975) (per curiam).
Appellants argue, essentially, that Appellees' reversal of their service coordinators' decisions that they
were no longer eligible for ADHC services was a voluntary cessation of Appellees' challenged conduct.
Appellants maintain that Appellees have not met their "heavy burden" of showing that, if Appellants'
claims are dismissed, Appellees would not simply reverse course a gain after this litigation regarding
Appellants' eligibility for ADHC. See Pashby v. Delia, 709 F.3d 307, 316 (4th Cir. 2013). We disagree.
Assuming that when this suit was initiated Appellants had standing to challenge their service coordinator's
initial decision that they were no longer eligible to receive ADHC, the claims regarding their eligibility
became moot once Appellants obtained a reversal of the decision through the administrative [*297]
appeal process without ever having their ADHC discontinued. The reversals were "not . . . voluntary
cessation[s] within the meaning of that doctrine, but w[ere] instead the result of [Appellants'] successful

22 Appellants

argue that at this stage they are entitled to an award of attorneys' fees regarding claims in which Appellees have voluntarily
ceased their allegedly wrongful conduct. However, Appellants do not identify any ruling by the district court addressing the fee issue, and we
decline to address the attorneys'-fee issue in the first instance.

PATRICIA HARRISON Page 15 of 22

666 Fed. Appx. 281, *297; 2016 U.S. App. LEXIS 22283, **32

administrative appeal[s]." Oregon Nat. Res. Council, Inc. v. Grossarth, 979 F.2d 1377, 1379 (9th Cir.
1992) (holding that action challenging United States Forest [**33] Service's approval of a timber sale
became moot when challenged sale was halted as a result of an administrative appeal). Cf. ACLU of Mass.
v. U.S. Conference of Catholic Bishops, 705 F.3d 44, 55 (1st Cir. 2013) ("The voluntary cessation
doctrine does not apply when the voluntary cessation of the challenged activity occurs because of reasons
unrelated to the litigation." (internal quotation marks omitted)); Sze v. INS, 153 F.3d 1005, 1008 (9th Cir.
1998) (similar).
Appellants' argument that their challenges regarding their ADHC eligibility fit within the capable-ofrepetition exception fail as well. Appellants offer no argument as to why such claims would inherently be
too short in duration to be able to be fully litigated, and we know of no reason that they would be. See
Weinstein, 423 U.S. at 149. We therefore conclude that the district court correctly determined that
Appellants' challenges regarding their eligibility for ADHC services are moot.
We reach the opposite conclusion, however, concerning Appellants' claims regarding Appellees' responses
to Kobe's needs for particular equipment and technology. Appellants allege, under various legal theories,
that Appellees wrongfully failed to promptly provide Kobe with the equipment he needed, particularly a
functioning wheelchair and the ACD he requested. Appellants argue that even if Appellees' [**34]
conduct during this case has satisfied Kobe's needs for the time being, neither Appellees nor the district
court offer any suggestion as to how Appellees have carried the heavy burden of showing that the
complained-of pattern of allegedly unreasonable delays and improper denials will not resume after this
case is completed. In fact, Appellees have not even made that showing with regard to the specific items
that are the subject of Kobe's claims.
Kobe's future prospects with regard to the ACD seem especially uncertain. DHHS denied his request for
the ACD his doctor ordered, and while the USC Program, apparently at Rich/Lex's request, has now
voluntarily allowed Kobe to use a satisfactory ACD, there is no indication that DHHS has ever altered its
decision that Kobe is not legally entitled to such a device. If, after this case is completed, the USC
Program requests return of the ACD or if Kobe needs it adjusted, repaired, or replaced, he could well be
met with the same sort of allegedly improper delays and denials that he claims repeatedly occurred before
he decided to press his claims in court.23 Cf. Pashby, 709 F.3d at 316 (holding that state agency's
"voluntar[y] reinstate[ment]" of benefits after agency had previously announced that [**35] recipients no
longer met the eligibility requirements for those benefits did not moot suit challenging the termination of
the benefits when agency "remain[ed] free to reassess the [recipients'] needs and cancel their [benefits] at
any time"). And Kobe certainly has reason to be concerned in light of the many problems he has had
obtaining reasonably prompt responses from Appellees regarding his allegedly often-nonfunctional
wheelchair, the condition of which is also [*298] critical to his quality of life. In sum, Appellees have
not met their "heavy burden" of showing that after this litigation has concluded, Kobe will not once again
find himself without the equipment he needs and without any ability to obtain it without significant delay.
We therefore conclude that to the extent Appellants challenge Appellees' response to Kobe's need for
equipment, his challenges are not mooted by Appellees' temporary satisfaction of his needs during the
pendency of this lawsuit. Accordingly, we vacate the district court's order granting summary judgment

23 In

fact, it was only by virtue of an order of the district court in this case that Appellees even attached the device to Kobe's wheelchair so that
it would be accessible to him outside of his house.

PATRICIA HARRISON Page 16 of 22

666 Fed. Appx. 281, *298; 2016 U.S. App. LEXIS 22283, **35

against Appellants on justiciability grounds, and remand for further proceedings consistent with this
opinion.
In addition to arguing that this case presented a live [**36] controversy, Appellants contend that the
district court erred in failing to explain its decision not to address the merits of several of their claims.
Indeed, the district court did not explain in any detail how its conclusions regarding justiciability justified
granting summary judgment on each of Appellants' first seven claims. Because we hold that this case in
fact continues to present justiciable issues, we vacate the grant of summary judgment against Appellants
on Counts One through Seven and remand to the district court for further consideration of the viability of
each of Appellants' claims against each of the Appellees. To the extent that the district court concludes on
remand that any particular Appellees are entitled to prevail as a matter of law on any particular claims, the
court should fully explain its analysis.24
III.
We now turn to Appellants' argument that the district court erred in dismissing the official-capacity claims
against several of the BCB Members — Governor Haley, Leatherman, Eckstrom, Chellis, and Cooper —
on the basis of Eleventh Amendment immunity.25
The Eleventh Amendment to the United States Constitution provides: "The Judicial power of the United
States shall not be construed to extend to any suit in law or equity, commenced [**37] or prosecuted
against one of the United States by Citizens of another State, or by Citizens or Subjects of any Foreign
State." Eleventh Amendment immunity protects unwilling states from suit in federal court. See Will v.
Michigandep't of State Police, 491 U.S. 58, 70, 109 S. Ct. 2304, 105 L. Ed. 2d 45 (1989); Edelman v.
Jordan, 415 U.S. 651, 662-63, 94 S. Ct. 1347, 39 L. Ed. 2d 662 (1974).26 "State officers acting in their
official capacity are also entitled to Eleventh Amendment protection, because 'a suit against a state official
in his or her official capacity is not a suit against the official but rather is a suit against the official's
office.'" Lytle v. Griffith, 240 F.3d 404, 408 (4th Cir. 2001) (quoting Will, 491 U.S. at 71).
The Supreme Court, however, delineated an exception to the application of the Eleventh Amendment in Ex
parte Young. That exception "permits a federal court to issue prospective, injunctive relief against a state
officer to prevent ongoing violations of federal law, on the rationale that [*299] such a suit is not a suit
against the state for purposes of the Eleventh Amendment." McBurney v. Cuccinelli, 616 F.3d 393, 399
(4th Cir. 2010). "Ex parte Young requires a 'special relation' between the state officer sued and the
challenged [provision] to avoid the Eleventh Amendment's bar." Waste Mgmt. Holdings, Inc. v. Gilmore,
252 F.3d 316, 331 (4th Cir. 2001) (quoting Ex Parte Young, 209 U.S. at 157); see also DeBauche v.
Trani, 191 F.3d 499, 505 (4th Cir. 1999) (explaining that the Ex Parte Young exception "applies only
when there is an ongoing violation of federal law that can be cured by prospective relief"). This
requirement "protects a state's Eleventh Amendment immunity while, at the same time, ensuring that, in
the event [**38] a plaintiff sues a state official in his individual capacity to enjoin unconstitutional action,

24 We

express no view on any issue not addressed in this opinion, whether related to justiciability or otherwise.

25 Appellants

do not appeal the dismissal of Loftis, White, or Sanford.

26 Although

the language of the Eleventh Amendment does not explicitly apply to suits brought against a state by one of its own citizens, the
Amendment has been construed to bar such suits. See Equity in Athletics, Inc. v. Department of Educ., 639 F.3d 91, 107 n. 12 (4th Cir. 2011).

PATRICIA HARRISON Page 17 of 22

666 Fed. Appx. 281, *299; 2016 U.S. App. LEXIS 22283, **38

any federal injunction will be effective with respect to the underlying claim." McBurney, 616 F.3d at 399
(alteration and internal quotation marks omitted).
Here, the district court concluded that none of the prospective relief Appellants sought from the BCB
Members fit within the Ex Parte Young exception because these defendants had no "control or
enforcement rights over any agency regarding the Plaintiffs' ADHC or other Medicaid services" and thus
that "impos[ing] a prospective injunction on [Loftis and White] would have no effect whatsoever." J.A.
1136; see J.A. 1134 ("[T]o impose a prospective injunction on Governor Haley to cure any alleged
Medicaid violations would have no effect."); J.A. 1136 ("Plaintiffs would not be able to obtain any
prospective injunctive relief from Defendant Cooper in his official capacity as he is no longer a member
of the [BCB] and would have no authority to provide such relief."); J.A. 1140 ("Defendant Chellis is not
involved in any ongoing constitutional deprivations and could not provide Plaintiffs, should they prevail,
with the prospective injunctive relief they seek."); J.A. 2372 ("Plaintiffs [**39] would not be able to
obtain any prospective injunctive relief from [Leatherman and Eckstrom] in their official capacities as
they would not have any control or enforcement rights over any agency regarding the Plaintiffs' ADHC or
other Medicaid services."). Appellants offer no specific challenge to the district court's conclusions
regarding Leatherman, Eckstrom, Chellis, and Cooper. And, especially in light of the fact that the BCB is
now abolished, with its responsibilities having been transferred to the Governor, there would be no basis
to challenge the court's conclusion regarding these Appellees.
However, Appellants do challenge the district court's analysis concerning Governor Haley. In arguing that
Governor Haley bears the necessary relationship to the ongoing violations they allege, they note that
Appellees "have refused to restore service levels of waiver participants to the pre-2010 level, . . . refused
to pay for Kobe's speech services, refused to acknowledge Kobe's right under the Medicaid Act and ADA
to a speech device and have refused to provide funding for Kobe to live outside of a congregate setting."
Appellants' brief at 35. What Appellants fail to appreciate, however, [**40] is that Governor Haley is not
an official with responsibility for these decisions, nor does she have the authority to change them. South
Carolina has designated DHHS to administer and supervise Medicaid. See S.C. Code § 44-6-30; see also
42 C.F.R. § 431.10 (providing that each state's Medicaid plan must designate a single state agency to
administer the Medicaid plan). And DHHS "may not delegate, to other than its own officials, the authority
to supervise the plan or to develop or issue policies, rules, and regulations on program matters." 42 C.F.R.
§ 431.10(e). Although Governor Haley appoints DHHS's Director, [*300] see S.C. Code § 44-6-10, she
has no direct authority to administer South Carolina's Medicaid plans; rather, she is limited to reviewing
and commenting on proposed plans, see 42 C.F.R. § 430.12(b).
In arguing that injunctive relief against Governor Haley could nevertheless remedy the ongoing violations
that they allege, Appellants argue that Governor Haley "is the single most influential individual in the
State with the power to influence the General Assembly to establish a budget and to promulgate
regulations to bring DDSN and DHHS into compliance." Appellants' brief at 36. But the fact that a
governor, by virtue of her office, may have political influence over those who are [**41] responsible for
ongoing violations and have the authority to end them does not give the governor the "special relation"
needed to make her a proper defendant under Ex Parte Young. Cf. Waste Mgmt. Holdings, 252 F.3d at
331 ("The fact that [a governor] has publicly endorsed and defended the challenged statutes does not alter
our analysis [holding that the governor lacks the special relation required under Ex Parte Young to be
sued regarding the statutes].). Rather, a more direct connection is required. The district court therefore

PATRICIA HARRISON Page 18 of 22

666 Fed. Appx. 281, *300; 2016 U.S. App. LEXIS 22283, **41

properly ruled that Appellants' claims against Governor Haley did not fit within the Ex Parte Young
exception.
Appellants next assert that regardless of whether their claims fit with in Ex Parte Young, Governor Haley,
Leatherman, Eckstrom, Chellis, and Cooper were not entitled to be dismissed regarding Counts One and
Two on Eleventh Amendment grounds. Concerning Count One, Appellants contend that Congress validly
abrogated South Carolina's Eleventh Amendment immunity as to claims alleging violations of Title II of
the ADA. As for Count Two, Appellants argue that South Carolina waived its Eleventh Amendment
immunity by accepting federal financial assistance for its Medicaid program. We address these arguments
in turn.27
In their initial [**42] brief to us, Appellants argued that the district court erred in dismissing Count One
as against these Appellees on Eleventh Amendment immunity grounds, maintaining that Congress validly
abrogated the States' Eleventh Amendment immunity for claims alleging a violation of Title II of the ADA.
Appellants relied on our decision in Constantine v. Rectors, George Mason Univ., 411 F.3d 474, 486 (4th
Cir. 2005), holding that "the accommodation requirement of Title II, as it applies to cases involving the
administration of higher education programs, represents a congruent and proportional response to a
history and pattern of unconstitutional [*301] disability discrimination by States and non state
government entities." See also id. at 484-90. They also drew support from the Supreme court's decision in
Tennessee v. Lane, 541 U.S. 509, 533-34, 124 S. Ct. 1978, 158 L. Ed. 2d 820 (2004), which held that
"Title II, as it applies to the class of cases implicating the fundamental right of access to the courts,
constitutes a valid exercise of Congress' § 5 authority to enforce the guarantees of the Fourth
Amendment."
In their initial brief, Appellees denied that Constantine and Lane conclusively demonstrated that Congress
validly abrogated the States' immunity for the type of claim at issue here. See Appellees' Brief at 36
(Constantine "holds only that Title II of the ADA validly abrogated Eleventh Amendment immunity 'as it
applies to public higher [**43] education.'") (quoting Constantine, 411 F.3d at 490)). Notwithstanding
their argument that Constantine and Lane did not conclusively resolve the abrogation issue, Appellees
offered no argument that Congress had not in fact validly abrogated the States' Eleventh Amendment
immunity.
Additionally, in their initial briefs to us, neither party discussed or even cited the Supreme court's decision
in United States v. Georgia, 546 U.S. 151, 126 S. Ct. 877, 163 L. Ed. 2d 650 (2006). In Georgia, the
Supreme Court noted that in prior decisions the Court had been split regarding whether Congress had the
power under § 5 of the Fourteenth Amendment to abrogate states' sovereign immunity for conduct that did
not actually violate the Constitution. See id. at 158-59. The Georgia Court specifically held that "insofar

27 Although

Appellants opposed dismissal of these Appellees Eleventh Amendment immunity grounds, it does not appear that they specifically
argued that Congress validly abrogated the States' immunity with regard to the ADA claim or that South Carolina waived immunity to
Rehabilitation Act claims by virtue of accepting Medicaid funds. Rather, Appellants focused their Eleventh Amendment arguments on the
application of the Ex Parte Young exception. Nevertheless, Appellees do not assert that Plaintiffs have waived these arguments by failing to
raise them earlier. See Kamen v. Kemper Fin. Servs., Inc., 500 U.S. 90, 99, 111 S. Ct. 1711, 114 L. Ed. 2d 152 (1991) ("When an issue or
claim is properly before the court, the court is not limited to the particular legal theories advanced by the parties, but rather retains the
independent power to identify and apply the proper construction of governing law.") ; Dan Ryan Bldrs., Inc. v. Crystal Ridge Dev., Inc., 783
F.3d 976, 980 (4th Cir. 2015) ("[T]he Supreme Court has long recognized that a court may consider an issue antecedent to and ultimately
dispositive of the dispute before it, even an issue the parties fail to identify and brief." (alteration and internal quotation marks omitted)).

PATRICIA HARRISON Page 19 of 22

666 Fed. Appx. 281, *301; 2016 U.S. App. LEXIS 22283, **43

as Title II creates a private cause of action for damages against the States for conduct that actually violates
the Fourteenth Amendment, Title II validly abrogates state sovereign immunity." Id. at 159. To give
guidance to lower courts determining whether the Eleventh Amendment bars an ADA Title II claim, the
Supreme Court provided a three-part test:
[D]etermine . . . on a claim-by-claim basis, (1) which aspects of the state's alleged conduct violated
Title II; (2) to what extent such misconduct also violated the Fourteenth Amendment; and (3) insofar
as such misconduct violated Title II but did not violate the Fourteenth Amendment, whether
Congress's [**44] purported abrogation of sovereign immunity as to that class of conduct is
nevertheless valid.
Id.; see Babcock v. Michigan, 812 F.3d 531, 534-35 (6th Cir. 2016); see also Lyng v. Nw. Indian
Cemetery Protective Ass'n, 485 U.S. 439, 445, 108 S. Ct. 1319, 99 L. Ed. 2d 534 (1988) (It is a
"fundamental and longstanding principle of judicial restraint . . . that courts avoid reaching constitutional
questions in advance of the necessity of deciding them."); Lors v. Dean, 746 F.3d 857, 864 (8th Cir.
2014) (noting that "the constitutional question of whether Title V of the ADA was a valid abrogation of
sovereign immunity may be avoided altogether if the district court correctly determined that the [ADA]
claim fails on the merits").28 Because neither the parties nor the district court had addressed Georgia in
their briefs, we requested that the parties file supplemental briefs explaining the impact of Georgia on the
present case.
In their supplemental brief, Appellants suggest that in light of the district court's [*302] failure to apply
the Georgia framework, "their claims for injunctive relief and damages should be reassessed by the
district court, with instructions to apply the test set forth in Georgia, except for those claims which [the
Fourth Circuit] may elect to grant summary judgment in favor of the plaintiffs." Appellants' Supp. Brief at
15. Appellees, in their supplemental brief, do not deny [**45] that the Georgia framework governs the
analysis of the abrogation issue to the extent that Appellants assert a claim for money damages. Nor do
they explain how that analysis should apply to the facts of this case. They contend that Georgia cannot
affect the outcome of this appeal because none of the claims here are justiciable — an argument we have
now rejected — and because any ADA liability would be duplicative of liability under the Rehabilitation
Act to the extent that Eleventh Amendment immunity is not available.
In light of the existence of the unresolved issue of whether Congress has validly abrogated the States'
Eleventh Amendment immunity for Title II claims of the type asserted here, we hold that dismissing Count
One on Eleventh Amendment grounds, without utilizing the Georgia framework, was premature.
Particularly since Appellees have not yet made any argument regarding how the Georgia framework
would apply to the facts before us, we decline to apply Georgia in the first instance.
Appellees also argue that regardless of whether Congress validly abrogated South Carolina's Eleventh
Amendment immunity regarding the type of claim asserted in Count One, we should affirm the dismissal
of the BCB Members in light of the fact that no effective prospective [**46] relief was available as
against these Appellees — as we have already discussed — and because Appellants have abandoned any
claims for damages asserted against these Appellees.

28 Although

Eleventh Amendment immunity is designed "to protect the State from being subject to suit at all[,] the Georgia protocol may
require the State to defend litigation before obtaining a ruling on immunity." Buchanan v. Maine, 469 F.3d 158, 172 n.8 (1st Cir. 2006).

PATRICIA HARRISON Page 20 of 22

666 Fed. Appx. 281, *302; 2016 U.S. App. LEXIS 22283, **46

We agree that Appellants abandoned any claim for damages in regard to their claims against Leatherman,
Eckstrom, Chellis, and Cooper when they submitted memoranda to the district court explicitly
representing that they were not seeking damages from them. See J.A. 1086 ("All of the relief requested by
the Plaintiffs as to Defendant Cooper is prospective."); J.A. 1115 ("Only prospective relief, and attorneys
fees, are requested from [Chellis]."); J.A. 2240 ("[T]he only relief [Appellants] request from [Leatherm an
and Eckstrom] is injunctive relief."). We therefore affirm the dismissal of Counts One and Two against
these Appellees — the individual-capacity claims as well as the official-capacity claims — on this basis.
We do not agree, however, that Appellants have abandoned their claims for money damages against
Governor Haley (in her official capacity). In her memoranda to the district court supporting her motion to
dismiss, Governor Haley suggested that Appellants were seeking money damages in their claims
against [**47] her. See J.A. 290 ("If a plaintiff seeks only retrospective relief (such as monetary
damages), then Ex Parte Young is not an available means of bringing suit against the state official."). It is
true that Appellants' primary response was that the prospective relief fit within the Ex Parte Young
requirements. But unlike they did with regard to the other BCB Members, Appellants did not specifically
deny Governor Haley's contention that they sought retrospective relief as well. Indeed, they argued that
Governor Haley could be liable for the past actions of others, suggesting that at least part of the relief they
were claiming was retrospective. See, e.g., J.A. 387 ("Plaintiffs have presented evidence that Haley and
her predecessor, Mark Sanford, had actual [*303] or, at least constructive, knowledge of the violations
alleged in the amended complaint."). On reply, Appellees argued that Appellants had "failed to present
any opposition" to the argument that they did not seek injunctive relief against Governor Haley except
with regard to Count Six. J.A. 717.
In further support of their abandonment proposition, Appellees point to a statement by Appellants'
counsel, made to the district court on September [**48] 23, 2014, that Appellants' lawsuit was not
requesting damages other than against the Babcock Center. As Appellants point out, however, this
statement was made well after Governor Haley — and the other BCB Members — had been dismissed.
And at oral argument before us Appellants' counsel denied that her statement was intended to encompass
the claims asserted against the BCB Members. In our view, counsel's ambiguous statement made at the
summary-judgment hearing is simply not clear enough to constitute an abandonment of Appellants'
damage claims asserted against Governor Haley in her official capacity. See Doe v. Kidd, 501 F.3d 348,
354 (4th Cir. 2007) ("Federal law is well-settled that waiver is the voluntary and intentional
relinquishment of a known right, and courts have been disinclined lightly to presume that valuable rights
have been conceded in the absence of clear evidence to the contrary." (alteration and internal quotation
marks omitted)). Cf. Santos v. Frederick Cty. Bd. Of Comm'rs, 725 F.3d 451, 463 (4th Cir. 2013) (holding
that counsel's ambiguous statement during argument on summary judgment motion did not constitute
waiver); Feikema v. Texaco, Inc., 16 F.3d 1408, 1417 (4th Cir. 1994) (holding no waiver of claim for
damages when, although "[t]he principal aim" of the arguments opposing the motion to dismiss were
directed at "whether they could obtain injunctive [**49] relief," the record was ambiguous regarding
whether they intended to continue to pursue a damages claim). We thus decline to affirm the dismissal of
Count One as against the Governor in her official capacity on this basis but rather vacate the dismissal of
that count against the Governor.
Regarding Count Two, Appellants maintain that states waive Eleventh Amendment immunity against suit
under § 504 of the Rehabilitation Act by accepting federal financial assistance, as South Carolina did here
with regard to Medicaid. See Constantine, 411 F.3d at 490-96. For their part, Appellees do not dispute
PATRICIA HARRISON Page 21 of 22

666 Fed. Appx. 281, *303; 2016 U.S. App. LEXIS 22283, **49

that South Carolina has waived any Eleventh Amendment immunity regarding Count Two, but they argue
that the district court properly ruled that the BCB Members were not named as defendants in Count Two.
See Appellees' brief at 36-37 ("States do waive their Eleventh Amendment immunity under the
Rehabilitation Act by accepting funds, see Constantine, 411 F.3d at 490-96, but Plaintiffs' Rehabilitation
Act claim is not asserted against any of the BCB Members."). We do not read the district court opinions as
reaching that conclusion, however. It is true that in the parts of the district court's opinions describing the
different counts in the complaint, the district court did not identify the BCB Members as
defendants. [**50] Later in its opinions, though, the court appeared to recognize that Count Two named
the BCB Members. See J.A. 1135 (noting that those "who were members of the [BCB]" were named as
defendants in Count Two); J.A. 2371 (noting that Leatherman and Eckstrom were named as defendants in
Count Two). In any event, review of the amended complaint shows that the BCB Members were among
the defendants as to Count Two. See J.A. 225 (allegation in Count Two of amended complaint that BCB
"failed to insure that the funds allocated to [DDSN] [*304] were spent as appropriated by the General
Assembly to provide services, despite warnings from the South Carolina Legislative Audit Council that
[DDSN] was spending those funds improperly for the purchase of real estate"). We therefore vacate the
dismissal of Governor Haley as a defendant regarding Count Two.
IV.
In sum, for the foregoing reasons, we vacate the district court order granting summary judgment against
Appellants on Counts One through Seven on justiciability grounds, and remand for further proceedings
consistent with this opinion. We also vacate the district court order to the extent that it dismisses Counts
One and Two against Governor Haley on the basis [**51] of Eleventh Amendment immunity. However,
we affirm the dismissal of the official- and individual-capacity claims against Leatherman, Eckstrom,
Chellis, and Cooper.
AFFIRMED IN PART, VACATED IN PART, AND REMANDED
End of Document

PATRICIA HARRISON Page 22 of 22

APPENDIX F

Kobe v. Haley
United States District Court for the District of South Carolina, Greenville Division
August 12, 2013, Decided; August 12, 2013, Filed
C/A No. 3:11-1146-TMC
Reporter
2013 U.S. Dist. LEXIS 113206 *; 2013 WL 4067921

Kobe, Mark, and John, Plaintiffs, v. Nikki Haley, in her capacity as Governor and Chairman of the South
Carolina Budget and Control Board; Daniel Cooper, Converse Chellis and Mark Sanford, in their
capacities as former members of the South Carolina Budget and Control Board; Hugh Leatherman and
Richard Eckstrom, in their capacities as members of the South Carolina Budget and Control Board; Curtis
Loftis and Brian White, as members of the South Carolina Budget and Control Board, Anthony Keck, in
his capacity as the Director of the South Carolina Department of Health and Human Services, Emma
Forkner, in her capacity as the former Director of the South Carolina Department of Health and Human
Services, Beverly Buscemi in her capacity as Director of the South Carolina Department of Disabilities
and Special Needs, Eugene A. Laurent, former Interim Director of the South Carolina Department of
Disabilities and Special Needs; Stanley Butkus, former Director of the South Carolina Department of
Disabilities and Special Needs; Richard Huntress, in his capacity as Commissioner of the South Carolina
Department of Disabilities and Special Needs; Kathi Lacy, Thomas P. Waring and Jacob Chorey, in their
capacities as employees of the South Carolina Department of Disabilities and Special Needs, Mary
Leitner, in her capacity as the Director of the Richland Lexington Disabilities and Special Needs Board;
the Babcock Center, Judy Johnson, in her capacity as the Director of the Babcock Center and other
Unnamed Actors Associated with the Babcock Center, Defendants.

Prior History: Kobe v. Haley, 2012 U.S. Dist. LEXIS 112425 (D.S.C., Aug. 10, 2012)

Counsel: [*1] For Kobe, Mark, Plaintiffs: Patricia L Harrison, LEAD ATTORNEY, Patricia Logan
Harrison Law Office, Columbia, SC.
For Anthony Keck, in his capacity as the Director of the South Carolina Department of Health and Human
Services, Emma Forkner, in her capacity as the former Director of the South Carolina Department of
Health and Human Services, Defendant: Damon C Wlodarczyk, Nikole Deanna Haltiwanter, Roy F
Laney, Riley Pope and Laney, Columbia, SC.
For Beverly Buscemi, in her official capacity as Director of the South Carolina Department of Disabilities
and Special Needs, Richard Huntress, in his capacity as Commissioner of the South Carolina Department
PATRICIA HARRISON

2013 U.S. Dist. LEXIS 113206, *1

of Disabilities and Special Needs, Kathi Lacy, in their capacities as employees of the South Carolina
Department of Disabilities and Special Needs, Thomas P Waring, in their capacities as employees of the
South Carolina Department of Disabilities and Special Needs, Jacob Chorey, in their capacities as
employees of the South Carolina Department of Disabilities and Special Needs, Eugene A Laurent, former
Interim Director of the South Carolina Department of Disabilities and Special Needs, Stanley Butkus,
former Director of the South Carolina [*2] Department of Disabilities and Special Needs, Defendants:
Kenneth Paul Woodington, LEAD ATTORNEY, Davidson Morrison and Lindemann, Columbia, SC;
David Allan DeMasters, William Henry Davidson, II, Davidson and Lindemann, Columbia, SC.
For Mary Leitner, in her capacity as the Director of the Richland Lexington Disabilities and Special
Needs Board, Defendant: Patrick John Frawley, LEAD ATTORNEY, Nicholson Davis Frawley Anderson
and Ayer, Lexington, SC; Erica M Parker, Davis Frawley Anderson McCauley Ayer Fisher and Smith,
Lexington, SC.
For Judy Johnson, in her capacity as the Director of the Babcock Center, Unnamed Actors Associated
with the Babcock Center, Babcock Center, The, Defendants: Christian Stegmaier, LEAD ATTORNEY,
Joel Wyman Collins, Jr, Collins and Lacy, Columbia, SC.

Judges: Timothy M. Cain, United States District Judge.

Opinion by: Timothy M. Cain

Opinion

OPINION & ORDER
In their Amended Complaint, Plaintiffs seek actual and punitive damages, and declaratory and injunctive
relief for violations of Title II of the Americans with Disabilities Act ("ADA"), 42 U.S.C. § 12132;
Section 504 of the Rehabilitation Act of 1973 ("Section 504"); the Medicaid Act; and 42 U.S.C. §§ 1983
and 1985. (ECF No. 65 - Am. Compl. [*3] at 3). This matter is before the court on several summary
judgment motions (ECF Nos. 146, 147, 151, 152, and 155), Defendants' Joint Motion to Exclude
Witnesses and Strike Exhibits to Plaintiffs' Motion for Summary Judgment (ECF No. 173), and
Defendants' Joint Motion to Strike Certain Exhibits to Plaintiff's Memoranda in Opposition to Defendants'
Summary Judgement Motions (ECF No. 190). The court denies Defendants' Joint Motions to Exclude
Witnesses and Strike Exhibits (ECF Nos. 173 and 190) and the pending summary judgment motions (ECF
Nos. 146, 147, 151, 152, and 155) are denied without prejudice.

PATRICIA HARRISON Page 2 of 11

2013 U.S. Dist. LEXIS 113206, *3

Discussion
On December 28, 2012, Plaintiffs filed a partial summary judgment motion and attached thirty-six
exhibits. (ECF No. 155). In their motions to strike exhibits and exclude witnesses, Defendants seek to
exclude certain witnesses and strike thirty-one of these exhibits on the ground that Plaintiffs failed to
disclose certain fact and expert witnesses and produce documents in their discovery responses. 1
Additionally, Defendants seek to exclude the unsworn statement of Plaintiff Kobe, which Plaintiffs
attached as an exhibit to Plaintiffs' Memoranda in Opposition to Defendants' Summary [*4] Judgment
Motions. (ECF Nos. 179-2, 180-2, and 181-2).

1. Motion to Strike Exhibits (ECF No. 173)
a) Exhibits tied to alleged expert witnesses
Pursuant to the Amended Scheduling Order and a subsequent extension (ECF Nos. 133 and 139), by
October 12, 2012, Plaintiffs were to "file and serve a document identifying by full name, address, and
telephone number each person whom Plaintiff(s) expects to call as an expert at trial and certifying that a
written report prepared and signed by the expert including all information" as required by Fed.R.Civ.P.
26(a)(2). Plaintiffs were also "to file and serve affidavits of records custodian witnesses proposed to be
presented by affidavit [*5] at trial no later than November 16, 2012." (ECF No. 133). Plaintiffs did not
identify any expert witnesses or file and serve any affidavits of records custodian witnesses by the
appropriate deadlines. Plaintiffs identified sixty fact witnesses, including six witnesses Defendants
contend should have been designated as expert witnesses pursuant to Fed.R.Civ.P. 26(a)(2).
Rule 26(a)(2)(B) provides that an expert witness must be identified and provide a written report if he or
she "is one retained or specially employed to provide expert testimony in the case or one whose duties as
the party's employee regularly involve giving expert testimony." Fed.R.Civ.P. 26(a)(2)(B). In 2010, Rule
26 was amended to add subsection (C), which states:
(C) Witnesses Who Do Not Provide a Written Report. Unless otherwise stipulated or ordered by the
court, if the witness is not required to provide a written report, this disclosure must state:
(I) the subject matter on which the witness is expected to present evidence under Federal Rule of
Evidence 702, 703, or 705; and (ii) a summary of the facts and opinions to which the witness is
expected to testify.
Fed.R.Civ.P. 26(a)(2)(C). According to the Advisory Committee [*6] Notes, this amendment was
enacted to "resolve[ ] a tension that has sometimes prompted courts to require reports under Rule
26(a)(2)(B) even from witnesses exempted from the report requirement." Fed.R.Civ.P. 26 advisory
committee's notes. "Frequent examples include physicians or other health care professionals and
employees of a party who do not regularly provide expert testimony." Id.
1 Defendants

additionally seek to have stricken an exhibit to Plaintiff's Memorandum Opposing Defendants DDSN Summary Judgment
Motion (ECF No. 181-3) on the same grounds. (ECF No. 190 at 2). This exhibit contains the records of the Office of the State Long Term
Care Ombudsman Program relating to one of the Plaintiffs, which includes reports prepared by Carol Niederhauser and Tonya Bradford.
(ECF No. 181-3). As to this specific exhibit, Defendants incorporated their arguments from their Motion to Exclude. (ECF No. 173).

PATRICIA HARRISON Page 3 of 11

2013 U.S. Dist. LEXIS 113206, *6

The six witnesses Defendants contend should have been identified as expert witnesses are: Heather
Gardner, June Maranville, Sarah Scarborough, Dr. Johan Hernandez, Sandra Ray, and Lee Mole. In their
Responses to Defendant Buscemi's First Set of Interrogatories, Plaintiffs listed these witnesses as fact
witnesses and provided the following summaries:
1) Heather Gardner "will testify about Kobe's condition and his need for an adaptive communications
device, her qualifications as a speech pathologist and the requirements for determination of the medical
necessity of a synthesized speech device." (ECF No. 173-4 at 3).
2) June Maranville, a speech pathologist, "is expected to testify about Kobe's need for a speech device."
(ECF No. 173-4 at 3).
3) Sarah Scarborough "is expected to testify about the speech evaluation [*7] of Kobe conducted in 2002
and his inability to effectively utilize the less sophisticated device provided due to physical limitations."
(ECF No. 173-4 at 21).
4) Dr. Johan Hernandez
is expected to testify about medical treatment provided to Kobe and report of seizures after falling
from van in wheelchair and hitting his head. He is also expected to testify about Kobe's need for adult
day health care services and other matters related to his condition. He is also expected to testify about
one or more other individuals who have been injured in Babcock Center residential or day programs.
(ECF No. 173-4 at 22).
5) Sandra Ray
is expected to testify about matters related to risk management and the barriers to competition
inherent in DDSN's prospective payment system to the Babcock Center and local DSN boards. She is
expected to testify about matters related to the LAC audit of SCDDSN and retaliation against persons
who criticize DDSN. She is expected to testify about medical necessity and service coordination in
South Carolina. Ms. Ray is expected to testify about the need for adaptive speech devices and to
provide services in the least restrictive to comply with the ADA and Section 504. Ms. [*8] Ray is
expected to testify about risk management as it relates to decubitus ulcers.
(ECF No. 173-4 at 4).
6) Lee Mole "is expected to testify about Kobe's condition and his need for a speech device and new
wheelchair. He is also expected to testify about the least restrictive setting that would allow Kobe to
interact more frequently with non-disabled persons." (ECF No. 173-4 at 7-8).
Defendants contend that these witnesses are to testify as to medical observations, diagnoses, and
treatments, as well as legal opinions as to compliance with federal regulations. In response, Plaintiffs
contends these witnesses were not retained or specifically employed to provide expert testimony, and
therefore are not required to provide expert reports pursuant to Rule 26(a)(2)(B). However, Plaintiffs'
argument that these witnesses were not retained or employed to give expert testimony is not determinative
of whether disclosure and reports are required under Rule 26.
A fact witness is a witness whose testimony is in the form of an opinion and must be: "(a) rationally based
on the witness's perception; (b) helpful to clearly understanding the witness's testimony or to determining
PATRICIA HARRISON Page 4 of 11

2013 U.S. Dist. LEXIS 113206, *8

a fact in issue; and (c) [*9] not based on scientific, technical, or other specialized knowledge within the
scope of Rule 702." Fed.R.Evid. 701. 2
As noted above, the Advisory Committee Notes to Rule 26 (a)(2)(C) state that it "include[s] physicians or
other health care professionals and employees of a party who do not regularly provide expert testimony.
Parties must identify such witnesses under Rule 26(a)(2)(A) and provide the disclosure required under
Rule 26(a)(2)(C)." After the 2010 Amendments, [*10] courts have continued to "adhere to traditional
tests for determining when a Treating Physician is considered to be a full-blown expert and when he is
considered to be more akin to a percipient witness with professional expertise." Kondragunta v. Ace
Doran Hauling & Rigging Co., No. 1:11-cv-01094-JEC, 2013 U.S. Dist. LEXIS 39143, 2013 WL
1189493, at *10 (N.D. Ga. Mar.21, 2013). In Kondragunta, the court engaged in an in-depth analysis of
post-amendment case law and held:
[I]f a physician's opinion regarding causation or any other matter was formed and based on
observations made during the course of treatment, then no Subsection B report is required, albeit the
Subsection C report discussed above will be required. If, however, the physician's opinion was based
on facts gathered outside the course of treatment, or if the physician's testimony will involve the use
of hypotheticals, then a full subsection B report will be required.
Id. 2013 U.S. Dist. LEXIS 39143, [WL] at * 12 (internal citations omitted). See Thomas v. Consolidated
Rail Corp., 169 F.R.D. 1, 2 (D. Mass. 1996) ("Many courts, however, have recognized the unfairness of
permitting a party to employ a physician who treated an injured party to provide testimony beyond simply
the care of the [*11] plaintiff to classic expert opinion regarding causation and prognosis."); Brown v.
Best Foods, 169 F.R.D. 385, 388 (N.D. Ala.1996) ("To the extent the treating physician testifies only as to
care and treatment of his/her patient, the physician is not considered a specially retained expert [for whom
Rule 26(a)(2)(B) disclosures are required].").
Applying the traditional test, the court finds that these six witnesses do not appear to be experts requiring
a Rule 26(a)(2)(B) written report. In reviewing the summaries of these witnesses' anticipated testimony,
the court notes that these witnesses are not testifying only as to their care and treatment of Plaintiffs; they
are also providing what appears to be some expert testimony under Rules 702 and 703. Therefore, the
court concludes that these witnesses are "hybrid witnesses." See, e.g., Wake v. Nat'l R.&R. Passenger
Corp., 2013 U.S. Dist. LEXIS 43392, 2013 WL 1316431 (D. Md. 2013). "To the extent that a witness's
opinion is based on facts learned or observations made 'in the normal course of duty,' the witness is a

2 Rule

702 provides:

A witness who is qualified as an expert by knowledge, skill, experience, training, or education may testify in the form of an opinion or
otherwise if:
(a) the expert's scientific, technical, or other specialized knowledge will help the trier of fact to understand the evidence or to determine
a fact in issue;
(b) the testimony is based on sufficient facts or data;
(c) the testimony is the product of reliable principles and methods; and
(d) the expert has reliably applied the principles and methods to the facts of the case.
Fed.R.Evid. 702. Rule 703 provides, in pertinet part: "An expert may base an opinion on facts or data in the case that the expert has been
made aware of or personally observed." Fed.R.Evid. 703.

PATRICIA HARRISON Page 5 of 11

2013 U.S. Dist. LEXIS 113206, *11

hybrid witness (i.e., a hybrid of an expert and a fact witness) and need not submit an expert report" under
Rule 26(a)(2)(B). Vigilant Ins. Co. V. McKenney's, Inc., 2011 U.S. Dist. LEXIS 62342, 2011 WL 2415004,
* 4 (D.S.C. 2011). [*12] However, hybrid witnesses are subject to Rule 26(a)(2)(C) requirements and
"must submit a report regarding any opinions formed specifically in anticipation of the litigation, or
otherwise outside the normal course of a duty." Id. Therefore, these witnesses must be identified as such
witnesses under Rule 26(a)(2)(A), and provide the disclosure required under Rule 26(a)(2)(C). 3
Complying with Rule 26 is " 'not merely an aspiration' as 'the expert witness discovery rules are designed
to allow both sides in a case to prepare their cases adequately and to prevent surprise.'" Bray & Gillespie
Mgmt. LLC v. Lexington Ins. Co., No. 6:07 -cv-222-Orl-35KRS, 2009 U.S. Dist. LEXIS 36246, 2009 WL
1043974, at *3 (M.D. Fla. Apr.17, 2009) (quoting Reese v. Herbert, 527 F.3d 1253, 1266 (11th Cir.
2008)). Generally, "[i]f a party fails to provide information or identify a witness as required by Rule 26(a)
[*13] or (e), the party is not allowed to use that information or witness to supply evidence on a motion, at
a hearing, or at trial." Fed.R.Civ.P. 37(c). 4 Despite a failure to disclose the identity of a witness, a party
may "[e]scape from the [Rule 37] sanction" if it shows "that the failure to disclose is substantially justified
or harmless." Fed.R.Civ.P. 37(c)(1). In determining whether nondisclosure of a witness is substantially
justified or harmless, courts should consider:
(1) the surprise to the party against whom the witness was to have testified; (2) the ability of the party
to cure that surprise; (3) the extent to which allowing the testimony would disrupt the trial; (4) the
importance of the evidence; and (5) the nondisclosing party's explanation for its failure to disclose the
evidence.
Southern States Rack & Fixture v. Sherwin-Williams Co., 318 F.3d 592, 597 (4th Cir. 2003)).
Here, these factors weigh against excluding these witnesses. While Plaintiffs did not identify [*14] or file
the required disclosures, Defendants were aware of these six witnesses and the Plaintiffs can cure their
failure to comply with Rule 26(a)(2)(C). Further, in regard to the second factor, as no trial date has been
set, it is not at such a late date that it would be impossible to cure any prejudice before trial. See, e.g.,
Richardson v. Korson, 905 F. Supp. 2d 193, 2012 WL 5907379, at *7 (D.D.C. 2012) ("Where there is
sufficient time to provide the prejudiced party with an opportunity to cure the prejudice of the untimely
report, a court may permit submission of the report."). In regard to the third factor, the evidence is clearly
very important to Plaintiffs' case. As to the last factor, Plaintiffs clearly misunderstand the requirements of
Rule 26(a)(2)(C), and while such a misinterpretation does not excuse the nondisclosure, it is a reasonable

3 The

disclosures required by Rule 26(a)(2) (C) for expert witnesses not filing reports include "the subject matter on which the witness is
expected to present evidence under Federal Rule of Evidence 702, 703, or 705" and "a summary of the facts and opinions to which the
witness is expected to testify." Fed.R.Civ.P. 26(a)(2)(C).
4 Additionally,

"the court may issue any just orders, including those authorized by Rule 37(b)(2)(A)(ii)-(vii), if a party or its attorney . . . fails
to obey a scheduling or other pretrial order." Fed.R.Civ.P. 16(f)(1).

PATRICIA HARRISON Page 6 of 11

2013 U.S. Dist. LEXIS 113206, *14

explanation.
witnesses.

5

Further, the court notes again that these witnesses were disclosed - albeit only as fact

Most courts in similar situations have permitted the non-compliant party an opportunity to provide the
required report and the moving party an opportunity to depose the witness. See Kondragunta .v Ace Doran
Hauling & Rigging Co., 2013 U.S. Dist. LEXIS 39143, 2013 WL 1189493, *8 (N.D. Ga. 2013)(citing
cases). Accordingly, as to the six individuals listed above, Plaintiffs are to provide and file the proper
reports required pursuant to Rule 26(a)(2)(C) within thirty days. Plaintiffs are required to summarize the
facts to which the witnesses are expected to testify. 6 Thereafter, Defendants will have forty-five days to
depose these witnesses. If Plaintiffs fail to cure this deficiency, Plaintiffs will not be allowed to use these
six witnesses "to supply evidence on a motion, at a hearing, or at a trial."
Furthermore, the court reiterates that based upon the summaries of these six witnesses' testimony provided
to Defendants and the arguments presented on this motion, the court has concluded these witnesses are
hybrid witnesses, and, therefore, these treating medical providers may only base their opinions on
information learned during the actual treatment of Plaintiffs. See Ace American Ins. Co. v. McDonald's
Corp., 2012 U.S. Dist. LEXIS 89726, 2012 WL 2523883, *5 n.1 (D. Md. 2012)(unreported). If Plaintiffs
intend to use any medical provider's opinion which is based on facts gathered [*17] outside the course of
treatment or involves the use of hypotheticals, a full Rule 26 (a)(2)(B) report will be required whether the
experts are paid or not. See Kondragunta, 2013 U.S. Dist. LEXIS 39143, 2013 WL 1189493, * 12. 7
In light of this ruling reopening discovery on a limited basis, the pending motions for summary judgement
(ECF Nos. 146, 147, 151, 152, and 155) are premature and are denied without prejudice. The parties shall
submit an amended scheduling order in compliance with this order.

b. Other exhibits

5 Some

court have held that "counsel's misinterpretation of the rule's requirements does not substantially justify Plaintiff's failure to comply."
Anderson v. Bristol, Inc., 936 F. Supp. 2d 1039, 2013 U.S. Dist. LEXIS 48708, 2013 WL 1339372, *15 (S.D. Iowa 2013)(noting the
[*15] amendment had taken effect a year and a half before Plaintiff filed expert disclosures and by that time there were a number of court
decisions on the amendment). Here, the amendment had been in effect for almost two years by the time Plaintiffs filed their disclosures on
November 25, 2012.
6 Plaintiffs'

argument that Defendants had access to Plaintiffs' medical records and could simply review the records (ECF No. 194 [*16] at 2,
5-6, 10, 14) is not sufficient to comply with Rule 26(a)(2)(C)'s requirements. Flonnes v. Prop. & Cas. Ins. Co. of Hartford, 2013 U.S. Dist.
LEXIS 74018, 2013 WL 2285224 (D. Nev. 2013) (holding that simply producing medical records is not sufficient to satisfy the requirements
of Rule 26(a)(2)(C)); Kondragunta, 2013 U.S. Dist. LEXIS 39143, 2013 WL 1189493 ("The reader of plaintiff's disclosure has no idea what
opinion the doctor will offer or on what facts the doctor will base that opinion. Further, the fact that plaintiff provided all his medical records
to the defendants does not mean that plaintiff has fulfilled the 'summary of the facts and opinions' prong of Rule 26(a)(2)(C).").
7 In

response to one of the pending summary judgment motions, Plaintiffs state that their "decision to rely upon the fact witnesses identified in
their interrogatories (many of whom are experts in their fields), rather than paying large sums to experts who have no independent knowledge
of the needs of the Plaintiffs in the complaint does not warrant dismissal under Rule 41(b)." (ECF No. 158 at 5). The court is concerned that
some of the testimony from these six witnesses may involve expert testimony. For example, Plaintiffs stated: Ray "is expected to testify about
the need for adaptive speech devices and to provide services in the least restrictive to comply with the ADA and Section 504. Ms. Ray is
expected to testify about risk management as it relates to decubitus ulcers." (ECF No. 173-4 at 4). If Plaintiffs intend to use Ray to testify
about her opinion, which is based upon facts gathered outside the course of Plaintiffs' treatment, she would be considered an expert witness
and Plaintiffs [*18] must comply with Rule 26 (a)(2)(B).

PATRICIA HARRISON Page 7 of 11

2013 U.S. Dist. LEXIS 113206, *18

Attached to their memorandum in support of their summary judgment motion, Plaintiffs filed thirty-six
exhibits. (ECF No. 155). Defendants seek to exclude all of the exhibits, except Exhibits 9, 32, 34, 35, and
36, based upon Plaintiffs' failure to identify witnesses whose statements are contained in these exhibits
and Plaintiffs' failure to produce these documents. Plaintiffs respond that all of their exhibits are hearsay
exceptions. Although the pending summary judgment motions are denied without prejudice mooting this
motion, the court addresses some of the parties' arguments in order to provide some direction to the
parties.
The parties have briefed two entirely different issues. Defendants contend that Plaintiffs' exhibits are
inadmissible because the individuals who created the information were not identified as witnesses and the
documents were not produced [*19] in response to Defendants' Request for Production of Documents.
(ECF Nos. 173 at 4; 199 at 4). Plaintiffs do not directly respond to this argument and instead relay how
the exhibits are admissible. 8 Even were the court to find Plaintiffs complied with Rule 26 or that the
failure of Plaintiffs to comply with Fed.R.Civ.P. 26(a) was substantially justified or harmless, Plaintiffs'
arguments regarding the admissibility of some of the exhibits are insufficient.
A party is precluded from using depositions, declarations, or documents in support of their Summary
Judgment Motion and in Opposition to Defendants' Motions for Summary Judgment that were not
properly disclosed or identified in discovery or that do not conform with the requirements of Fed.R.Civ.P.
56(c) [*20] to defeat summary judgment. Bailey v. Fairfax County, 2011 U.S. Dist. LEXIS 95281, 2011
WL 3793329 (E.D. Va. 2011). Moreover, Rule 56(c)(1) mandates that a party asserting that a fact is
genuinely disputed must support that assertion by "citing to particular parts of materials in the record,
including depositions, documents, electronically stored information, affidavits or declarations, stipulations
(including those made for purposes of the motion only), admissions, interrogatory answers, or other
materials." Fed.R.Civ.P. 56(c).
Until recently, unauthenticated documents were precluded from consideration at the summary judgment
stage. See, e.g., Orsi v. Kirkwood, 999 F.2d 86, 92 (4th Cir. 1993) (unsworn, unauthenticated documents
cannot be considered on a motion for summary judgment). However, the 2010 amendments to Rule
56(c)(2), "'eliminated the unequivocal requirement that documents submitted in support of a summary
judgment motion must be authenticated.'" Brown v. Siemens Healthcare Diagnostics, Inc., 2012 U.S. Dist.
LEXIS 106569, 2012 WL 3136457, at *6 (D. Md. July 31, 2012) (quoting Akers v. Beal Bank, 845
F.Supp.2d 238, 243 (D.D.C. 2012)). Instead of a clear bright-line rule that all documents must be
authenticated at the summary judgment [*21] stage, Rule 56(c)(2) now prescribes a "multi-step process
by which a proponent may submit evidence, subject to objection by the opponent and an opportunity for
the proponent to either authenticate the document or propose a method to doing so at trial." ForeWord
Magazine, Inc. v. OverDrive, Inc., No. 10-cv-1144, 2011 U.S. Dist. LEXIS 125373, 2011 WL 5169384, at
*2 (W.D. Mich. Oct. 31, 2011). Importantly, "the objection [now] contemplated by the amended Rule is
not that the material 'has not' been submitted in admissible form, but that it 'cannot' be." Ridgell v. Astrue,
No. DKC 10-3280, 2012 U.S. Dist. LEXIS 28141, 2012 WL 707008, at *9 (D. Md. Mar. 2, 2012) (quoting
Foreword Magazine, 2011 U.S. Dist. LEXIS 125373, 2011 WL 5169384, at *2).

8 Plaintiffs

seems to argue that these documents fall outside the scope of Rule 26 because the documents were not in their possession, custody,
or control. (ECF No. 199 at 5)("nearly all of these records come from Defendants' own files."). In reply, Defendants do not address this
argument, but rather concentrate on whether these documents should be excluded because they were created by individuals not disclosed as
witnesses. (ECF No. 199).

PATRICIA HARRISON Page 8 of 11

2013 U.S. Dist. LEXIS 113206, *21

If an objection is made to an exhibit, the proponent of the exhibit has two options. One possibility is
to correct the problem leading to the objection. . . . In the alternative, the proponent can explain how
the contents of the exhibit will be submitted at trial so that the information is admissible.
Mitchell, 842 F. Supp. 2d 1316, 2012 WL 310824, at *3.
In arguing that the exhibits are admissible, Plaintiffs contend that the exhibits are admissible as hearsay
exceptions. For example, Plaintiffs state that some of the exhibits (Exhibits 1, 3, 4, 5, 6, 7, 9, [*22] 10,
11, 12, 13, 14, 15, 16, and 17) are medical records regularly kept in the ordinary course of business, and
therefore admissible under Fed.R.Evid 803 (4) and (6). (ECF No. 194 at 17). 9 However, Plaintiffs' mere
assertion that the records are regularly kept in the ordinary course of business would not render the
documents admissible at trial. Plaintiffs fail to assert that each of the conditions of Rule 803(6) is met and
fail to state which of their witnesses would certify or testify to the conditions. See Fed.R.Evid. 803(6).
Further, as to some of Plaintiffs' exhibits (Exhibits 18, 19, and 20), there is nothing to demonstrate that the
writings are what they claim to be nor has a proper witness been identified who might testify as to these
documents. See Fed.R.Evid. 901. Moreover, these documents are not self-authenticating. See Fed.R.Evid.
902.
Plaintiffs contend that Exhibit 8 qualifies as a "learned treatise." (ECF No. 194 at 18). However, such
evidence is admissible only if "the statement is called to the attention of an expert [*23] witness on crossexamination or relied on by the expert on direct examination" and the publication is established as a
reliable authority by the expert's admission or testimony, by another expert's testimony, or by judicial
notice." Fed.R.Evid. 803(18). Simply, saying it is a learned treatise does not establish how it is admissible.
Moreover, Plaintiffs have not identified any expert witnesses through which this treatise could be
admitted. See Mugavero v. Arms Acres, Inc., 2009 U.S. Dist. LEXIS 56214, 2009 WL 1904548, *7
(S.D.N.Y. 2009)(holding "Rule 803(18) contemplates the admission of statements in treatises only through
the testimony of an expert witness."). Further, the court notes that such a treatise "may be read into
evidence but not received as an exhibit." Fed.R.Evid. 803(18).
Exhibits 18, 24, 25, 26, and 27 "contain emails sent to, copied to or received from counsel for Defendants'
attorneys. (ECF No. 194 at18). Plaintiffs contend these emails are admissible under Fed. R.Evid.
801(d)(2)(D) "because they were made by Defendants' agents or employees on matters within the scope of
that relationship." (ECF No. 194 at 18-19). However, reviewing these emails, it appears they were sent
during negotiations about [*24] the claims involved in this action and would not be admissible pursuant
to Fed.R.Evid. 408.

2. Motion to Strike Plaintiff's Unsworn Statement (ECF No. 190)
Defendants also filed a motion to Strike Plaintiff's Unsworn Statement. (ECF No. 190). Although the
pending summary judgment motions are denied without prejudice mooting this motion, the court also
briefly addresses this motion to provide some direction to the parties.

9 Plaintiffs

also contend Exhibits 29 and 30 are business records, but again has not stated though which of her witness these exhibits would be

admitted.

PATRICIA HARRISON Page 9 of 11

2013 U.S. Dist. LEXIS 113206, *24

As noted above, Plaintiffs attached a statement from Plaintiff Kobe as an exhibit to their Memoranda in
Opposition to Defendants' Summary Judgment Motions. (ECF Nos. 179-2, 180-2, and 181-2). The
statement consists of thirty-one paragraphs and concludes with the date and Kobe's signature. (ECF No.
179-2 at 4, 180-2 at 4, and 181-2 at 4). The statement also contains Laura M. Cole's signature under a
declaration that she "went to the home of Kobe and personally witnessed him putting his mark on this
statement." Id. Additionally, Plaintiffs' attorney, Patricia L. Harrison, signed the statement in what appears
to be her capacity as a notary public under the following statement:
I met with Kobe today and reviewed this statement with him and a staff member. Although he has
[*25] trouble communicating, staff had helped him make a statement and he indicated that it is true.
Laura M. Cole personally delivered this statement to Kobe and swore before me that she witnessed
him sign it.
Id.
Defendants contends that Plaintiff Kobe's declaration should be stricken as it is not a properly notarized
affidavit nor does it not comply with § 1746. In response, Plaintiffs argues that Defendants are on a quest
to derail their lawsuit with "technical nitpicking." (ECF No. 201 -Pls.' Response to Mot. to Strike at 2).
Plaintiffs also attached a second notarized statement signed by Plaintiff Kobe in an effort to cure any
defects with the original statement. (ECF No. 201- 1).
The amended statement begins with, "Now comes Kobe, who swears and affirms under penalty of perjury
that: . . ." (ECF No. 201-1 at 1). And ends with the following sentence: "I have reviewed this statement
and it is true to the best of my knowledge and information and I understand that there are penalties for
providing false information to the court." Id. at 3. Further, John N. Harrison, presumably a notary, signed
the statement as it having been sworn to him on February 19, 2013. 10 Id.
In regard to summary judgment motions, the court can consider "pleadings, depositions, answers to
interrogatories, and admissions on file, together with affidavits, if any," that a reasonable jury would be
unable to reach a verdict for the non-moving party. See Celotex Corp. v. Catrett, 477 U.S. 317, 106 S. Ct.
2548, 91 L. Ed. 2d 265 (1986).
An affidavit or declaration used to support or oppose a motion must be made on personal knowledge,
set out facts that would be admissible in evidence, and show that the affiant [*27] or declarant is
competent to testify on the matters stated.
Fed.R.Civ.P. 56(c)(4). Pursuant to 28 U.S.C. § 1746:
Wherever, under any law of the United States or under any rule, regulation, order, or requirement
made pursuant to law, any matter is required or permitted to be supported, evidenced, established, or

10 There

is no notation [*26] as to John Harrison's title or the expiration of his commission. S.C. Code Ann. § 26-1-60 provides, in pertinent
part that:
Each notary public shall have a seal of office, which shall be affixed to his instruments of publications and to his protestations. He shall
indicate below his signature the date of expiration of his commission. But the absence of such seal or date prior to and after May 30,
1968 shall not render his acts invalid if his official title be affixed thereto.
(emphasis added). Without Harrison's official title, the court questions whether the notarization is valid. However, in light of the court's
determination that the affidavit substantially complies with §1746, this issue need not be addressed.

PATRICIA HARRISON Page 10 of 11

2013 U.S. Dist. LEXIS 113206, *26

proved by the sworn declaration, verification, certificate, statement, oath, or affidavit, in writing of the
person making the same (other than a deposition, or an oath of office, or an oath required to be taken
before a specified official other than a notary public), such matter may, with like force and effect, be
supported, evidenced, established, or proved by the unsworn declaration, certificate, verification, or
statement, in writing of such person which is subscribed by him, as true under penalty of perjury, and
dated, in substantially the following form:
...
(2) If executed within the United States, its territories, possessions, or commonwealths: "I declare (or
certify, verify, or state) under penalty of perjury that the foregoing is true and correct. Executed on
(date).
(Signature)".
28 U.S.C. § 1746.
Kobe's revised affidavit substantially complies with the requirements of [*28] § 1746. See Smith v.
Psychiatric Solutions, Inc., 2009 U.S. Dist. LEXIS 27608, 2009 WL 903624, at *5 (N.D.Fla. Mar. 31,
2009) (stating that the language, "true and accurate to the best of my knowledge and belief," complies
with § 1746, "[s]o long as the declaration contains the phrase 'under penalty of perjury' and states that the
document is true"). As the amended affidavit substantially complies with § 1746, the court does not see
any basis for striking it. 11

Conclusion
Based on the foregoing, Defendants' Motions to Strike (ECF Nos. 173 and 190) are DENIED. However,
as to the six hybrid witnesses, Plaintiffs are to provide and file the proper reports required pursuant to
Rule 26(a)(2)(C) within thirty days. Thereafter, Defendants shall have forty-five days to depose these
witnesses. Based on this ruling, the pending Motions for Summary Judgment (ECF Nos. 146, 147, 151,
152, and 155) are premature and are DENIED [*29] without prejudice. The parties shall submit an
amended scheduling order in compliance with this order by August 26 2013.
IT IS SO ORDERED.
/s/ Timothy M. Cain
United States District Judge
Anderson, South Carolina
August 12, 2013
End of Document

11 However,

the court stresses that "[a]dherence to rules is not an optional exercise in nitpickiness. Rules help cases proceed in an orderly
fashion and ensure procedural fairness." United States Commodity Futures Trading Com'n v. Lake Shore Asset Management Ltd., 540
F.Supp.2d 994 , 1016-17 (N.D. Ill. 2008).

PATRICIA HARRISON Page 11 of 11

APPENDIX G

Kobe v. Haley
United States District Court for the District of South Carolina, Greenville Division
August 10, 2012, Decided; August 10, 2012, Filed
C/A No. 3:11-1146-TMC
Reporter
2012 U.S. Dist. LEXIS 112425 *; 2012 WL 3269221

Kobe, Mark, and John, Plaintiffs, v. Nikki Haley, in her capacity as Governor and Chairman of the South
Carolina Budget and Control Board; Daniel Cooper, Converse Chellis and Mark Sanford, in their
capacities as former members of the South Carolina Budget and Control Board; Hugh Leatherman and
Richard Eckstrom, in their capacities as members of the South Carolina Budget and Control Board; Curtis
Loftis and Brian White, as members of the South Carolina Budget and Control Board, Anthony Keck, in
his capacity as the Director of the South Carolina Department of Health and Human Services, Emma
Forkner, in her capacity as the former Director of the South Carolina Department of Health and Human
Services, Beverly Buscemi in her capacity as Director of the South Carolina Department of Disabilities
and Special Needs, Eugene A. Laurent, former Interim Director of the South Carolina Department of
Disabilities and Special Needs; Stanley Butkus, former Director of the South Carolina Department of
Disabilities and Special Needs; Richard Huntress, in his capacity as Commissioner of the South Carolina
Department of Disabilities and Special Needs; Kathi Lacy, Thomas P. Waring and Jacob Chorey, in their
capacities as employees of the South Carolina Department of Disabilities and Special Needs, Mary
Leitner, in her capacity as the Director of the Richland Lexington Disabilities and Special Needs Board;
the Babcock Center, Judy Johnson, in her capacity as the Director of the Babcock Center and other
Unnamed Actors Associated with the Babcock Center, Defendants.

Subsequent History: Related proceeding at Jimmy v. Buscemi, 2013 U.S. Dist. LEXIS 31541 (D.S.C.,
Mar. 7, 2013)
Summary judgment granted by, Dismissed by, in part Kobe v. Haley, 2013 U.S. Dist. LEXIS 113193
(D.S.C., Aug. 12, 2013)
Motion to strike denied by, Summary judgment denied by, Without prejudice Kobe v. Haley, 2013 U.S.
Dist. LEXIS 113206 (D.S.C., Aug. 12, 2013)
Summary judgment granted by, Summary judgment denied by, in part, Motion denied by, As moot Kobe
v. Haley, 2014 U.S. Dist. LEXIS 139172 (D.S.C., Sept. 30, 2014)
Motion denied by, Request denied by, As moot Kobe v. Haley, 2015 U.S. Dist. LEXIS 198274 (D.S.C.,
May 7, 2015)

PATRICIA HARRISON

2012 U.S. Dist. LEXIS 112425, *112425

Affirmed in part and vacated in part by Kobe v. Haley, 666 Fed. Appx. 281, 2016 U.S. App. LEXIS 22283,
2016 WL 7240174 (4th Cir. S.C., Dec. 15, 2016)

Counsel: [*1] For Kobe, Mark, John, Plaintiffs: Patricia L Harrison, LEAD ATTORNEY, Patricia Logan
Harrison Law Office, Columbia, SC.
For Nikki Haley, in her official capacity as Governor and Chairman of the South Carolina Budget and
Control Board, Defendant: Vance J Bettis, LEAD ATTORNEY, Gignilliat Savitz and Bettis LLP,
Columbia, SC; Shahin Vafai, Gignilliat Savitz and Bettis, Columbia, SC.
For Anthony Keck, in his capacity as the Director of the South Carolina Department of Health and Human
Services, Defendant: Damon C Wlodarczyk, Nikole H Boland, Roy F Laney, Riley Pope and Laney,
Columbia, SC.
For Beverly Buscemi, in her official capacity as Director of the South Carolina Department of Disabilities
and Special Needs, Richard Huntress, in his capacity as Commissioner of the South Carolina Department
of Disabilities and Special Needs, Kathi Lacy, in their capacities as employees of the South Carolina
Department of Disabilities and Special Needs, Thomas P Waring, in their capacities as employees of the
South Carolina Department of Disabilities and Special Needs, Jacob Chorey, in their capacities as
employees of the South Carolina Department of Disabilities and Special Needs, Eugene A Laurent, former
[*2] Interim Director of the South Carolina Department of Disabilities and Special Needs, Stanley
Butkus, former Director of the South Carolina Department of Disabilities and Special Needs, Defendants:
Kenneth Paul Woodington, LEAD ATTORNEY, Davidson Morrison and Lindemann, Columbia, SC;
William Henry Davidson, II, Davidson and Lindemann, Columbia, SC.
For Mary Leitner, in her capacity as the Director of the Richland Lexington Disabilities and Special
Needs Board, Defendant: Patrick John Frawley, LEAD ATTORNEY, Nicholson Davis Frawley Anderson
and Ayer, Lexington, SC; Erica M Parker, Davis Frawley Anderson McCauley Ayer Fisher and Smith,
Lexington, SC.
For Judy Johnson, in her capacity as the Director of the Babcock Center, Unnamed Actors Associated
with the Babcock Center, Babcock Center, The, Defendants: Christian Stegmaier, LEAD ATTORNEY,
Joel Wyman Collins, Jr, Collins and Lacy, Columbia, SC.
For Daniel Cooper, Converse Chellis, in their capacities as former members of the South Carolina Budget
and Control Board, Defendants: Robin Lilley Jackson, Sandra Jane Senn, LEAD ATTORNEYS, Senn
Legal, Charleston, SC.
For Hugh Leatherman, in their capacities as members of the South Carolina Budget [*3] and Control
Board, Richard Eckstrom, in their capacities as members of the South Carolina Budget and Control Board,
Defendants: Leslie Arlen Cotter, Jr, LEAD ATTORNEY, Richardson Plowden and Robinson, Columbia,
PATRICIA HARRISON Page 2 of 12

2012 U.S. Dist. LEXIS 112425, *3

SC.
For Curtis Loftis, as members of the South Carolina Budget and Control Board, Brian White, as members
of the South Carolina Budget and Control Board, Defendants: Shahin Vafai, LEAD ATTORNEY,
Gignilliat Savitz and Bettis, Columbia, SC; Vance J Bettis, Gignilliat Savitz and Bettis LLP, Columbia,
SC.
For Emma Forkner, in her capacity as the former Director of the South Carolina Department of Health and
Human Services, Defendant: Damon C Wlodarczyk, LEAD ATTORNEY, Nikole H Boland, Roy F
Laney, Riley Pope and Laney, Columbia, SC.

Judges: Timothy M. Cain, United States District Judge.

Opinion by: Timothy M. Cain

Opinion

ORDER
In their Amended Complaint, Plaintiffs seek actual and punitive damages, and declaratory and injunctive
relief for violations of Title II of the Americans with Disabilities Act ("ADA"), 42 U.S.C. § 12132;
Section 504 of the Rehabilitation Act of 1973 ("Section 504"); the Medicaid Act; 1 and 42 U.S.C. §§ 1983
and 1985. (Dkt. # 65 - Am. Compl. at 3). 2 This matter is before the court on four [*4] separate motions to
dismiss filed by Defendants Nikki Haley (Dkt. # 73), Curtis Loftis and Brian White (Dkt. # 99), Daniel
Cooper (Dkt. # 123), and Converse Chellis (Dkt. # 125). Plaintiffs have filed responses opposing the
motions and Defendants have filed replies. These motions are now ripe for ruling.

I. Background/Procedural History
Plaintiffs in this action are three individuals who have varying degrees of mental and/or physical
disabilities. 3 Because of their disabilities, Plaintiffs receive Adult Day Health Care Services ("ADHC")

1 Title

XIX of the Social Security Act, 42 U.S.C. §§ 1396-1396v, is known as the Medicaid Act.

2 Plaintiffs

numbered the paragraphs 1-45 on the first seven pages of the Amended Complaint and then on page eight started back at one.
Also, in their prayer for relief, the paragraph numbers start over beginning with one on page seventy of the Amended Complaint. Therefore,
to avoid confusion, the court has referred to the pages of the Amended Complaint, rather than the numbered paragraphs.

PATRICIA HARRISON Page 3 of 12

2012 U.S. Dist. LEXIS 112425, *4

and other home and community based services. (Am. Compl. at 2). These services are provided to
Plaintiffs through a Medicaid waiver program for persons with disabilities, the [*5] Mental
Retardation/Related Disabilities ("MR/RD waiver"). Id. 4 The South Carolina Department of Health and
Human Services ("SCDHHS") contracts with the South Carolina Department of Disabilities and Special
Needs ("SCDDSN") to operate the MR/RD waiver program and SCDSSN contracts with local Disabilities
and Special Needs ("DSN") Boards. 5 The local DSN Boards in turn contract with private entities to
actually provide the ADHC services. The majority of SCDDSN's funding comes through SCDHHS from
Medicaid.
Plaintiffs allege that SCDDSN, in violation of state and federal law, notified Plaintiffs of its termination or
intent to terminate their ADHC services in an effort to force Plaintiffs to attend Work Activity Centers
("WAC") operated by local DSN Boards for the financial gain of SCDDSN and the local DSN Boards.
Specifically, Plaintiffs allege that in 2009 after announcing reductions in MR/RD waiver services due to a
budget deficit at SCDDSN, the South Carolina Budget and Control Board ("SCBCB") voted in September
2009 to transfer $2.8 million from a $7 million "reserve" account to [*7] "three agencies it treated as local
DSN Boards" to purchase WACs in exchange for Defendant Eugene Laurent's agreement to transfer $3.2
from this fund for the SCBCB to spend on a statewide computer project. (Am. Compl. at 23). 6 Plaintiffs
also allege the SCBCB voted to spend $7.8 million from the "excess funds" held by SCDSSN to purchase
real estate knowing that on January 1, 2010, services would be reduced due to "false claims of 'budget
deficits.'" (Am. Compl. at 24).
In addition to actual and punitive damages, Plaintiffs seek declaratory and injunctive relief finding
Defendants have violated the ADA, Section 504 of the Rehabilitation Act, and the Medicaid Act, and
prohibiting the Defendants from reducing ADHC services. (Am. Compl. at 70, 71). Further, Plaintiffs
seek an order "requiring Defendants to provide such additional services as shall be medically necessary,
as shall be determined by their treating physicians, so as to allow Plaintiff and Class Members to live in
the most integrated settings possible in order to prevent regression and to allow them to function with the
most independence possible." Id. Finally, Plaintiffs [*8] seek an "order requiring Defendants to provide
Medicaid waiver services as shall be determined by the treating physicians to be necessary absent review .
. . " as long as the cost of theses services is less than cost of the ICF/MR services. (Am. Compl. at 71).

II. Standard of Review7

3 Plaintiffs

state they are bringing this action as a class action pursuant to Rule 23, Fed. R. Civ. P. (Am. Compl. 2, 8-10). However, this action
has not been declared a class action and, at this time, there has been no motion filed seeking to certify this action as such.
4 The

court notes that 2011 South Carolina Laws Act No. 47, § 13 (eff. June 7, 2011), amends various South Carolina code sections such that
the terms "intellectual disability" and "person with intellectual disability" are to replace and have the same meanings as the former terms
"mental retardation"' and "mentally retarded." However, federal laws and regulations still use the nomenclature "mental retardation." The
court [*6] will use the MR/RD terminology which was in effect at the time this case was filed and is used by the parties in their pleadings
and memoranda.
5 The

SCDDSN provides services to individuals with head and spinal cord injuries and those with developmental disabilities, such as mental
retardation and autism. S.C. Code Ann. § 44-21-10. SCDDSN is led by a director appointed by the South Carolina Commission on
Disabilities and Special Needs ("Commission"). S.C. Code Ann. §§ 44-20-220 and 44-20-230. The Commission is an advisory board
consisting of seven members appointed by the Governor. S.C. Code Ann. § 44-20-225.
6 At

that time, Laurent was the Interim Director of the SCDDSN.

PATRICIA HARRISON Page 4 of 12

2012 U.S. Dist. LEXIS 112425, *6

A motion made pursuant to Rule 12(b)(1) of the Federal Rules of Civil Procedure challenges the court's
jurisdiction over the subject matter of the plaintiff's complaint. When the court's subject matter
jurisdiction is challenged, the plaintiff bears the burden of proof. Richmond, F. & P. R. Co. v. United
States, 945 F.2d 765, 768 (4th Cir.1991). [*9] When ruling on a 12(b)(1) motion, the Court considers the
pleadings, and it may also consider evidence outside of the pleadings without necessarily converting the
motion to one for summary judgment. Evans v. B.F. Perkins Co., a Div. of Standex Intern. Corp., 166
F.3d 642, 647 (4th Cir. 1999) (citing Richmond, F. & P. R. Co., 945 F.2d at 768). The moving party will
prevail as a matter of law if material jurisdictional issues are not in dispute. Id.
The purpose of a motion to dismiss pursuant to Rule 12(b)(6) of the Federal Rules of Civil Procedure is to
test the sufficiency of the Plaintiff's Complaint. Edwards v. City of Goldsboro, 178 F.3d 231, 243 (4th
Cir. 1999). In evaluating a motion to dismiss under Rule 12(b) (6), the "court accepts all well-pled facts as
true and construes these facts in the light most favorable to the plaintiff . . . ." Nemet Chevrolet, Ltd. v.
Consumeraffairs.com, Inc., 591 F.3d 250, 255 (4th Cir. 2009) (citations omitted). The court, however,
need not accept as true "legal conclusions, elements of a cause of action, and bare assertions devoid of
further factual enhancement." Id. The complaint must contain sufficient well-pled facts to "state [*10] a
claim to relief that is plausible on its face." Bell Atl. Corp. v. Twombly, 550 U.S. 544, 555, 127 S. Ct.
1955, 167 L. Ed. 2d 929 (2007). There must be "more than an unadorned, the-defendant-unlawfullyharmed-me accusation." Ashcroft v. Iqbal, 556 U.S. 662, 129 S. Ct. 1937, 173 L. Ed. 2d 868 (2009) (citing
Twombly, 550 U.S. at 555). "A claim has facial plausibility when the plaintiff pleads factual content that
allows the court to draw the reasonable inference that the defendant is liable for the misconduct alleged."
Twombly, 550 U.S. at 556.

III. Discussion
In their Amended Complaint, Plaintiffs allege eight causes of action: 1) Violations of the ADA against
Defendants who were members of the SCBCB in 2009 (Am. Compl. 45-50); 2) Violations of Section 504
against individual Defendants Buscemi, Lacy, Waring, Huntress, Chorey, and Johnson (Am. Compl. 5053); 3) Violations of 42 U.S.C. § 1983 against individual Defendants Haley, Sanford, Cooper, Eckstrom,
Chellis, Leatherman, Forkner, Keck, Butkus, Laurent, Buscemi, Lacy, Waring, Chorney, Huntress,
Johnson, and Leitner (Am. Compl. 53-56); 4) Violations of 42 U.S.C. §§1983 and 1988 against all
Defendants (Am. Compl. 56-62); 8 5) Violations of 42 U.S.C. § 1983 (Conspiracy) against Defendants
Buscemi, Forkner, [*11] Lacy, Waring, Chorey, and Johnson (Am. Compl. 62-64); 6) Violation of the
Supremacy Clause against all Defendants (Am. Compl. 64); 7) Violation of RICO against Defendants
Haley, Sanford, Butkus, Laurent, Forkner, Lacy, Waring, Chorey, and Johnson (Am. Compl. 64-69); and
8) Neglect, Deliberate Indifference, Assault and Battery, and Intentional Infliction of Emotional Distress

7 Defendants

have filed these motions pursuant to Rule 12(b)(1) and 12(b)(6), Fed. R. Civ. P. The Fourth Circuit has not resolved which of
these rules applies to a motion to dismiss based on Eleventh Amendment immunity. See Andrews v. Daw, 201 F.3d 521, 525 n. 2 (4th Cir.
2000) (holding cases are unclear as to whether a dismissal on Eleventh Amendment immunity grounds is a dismissal for failure to state a
claim under Rule 12(b)(6) or a dismissal for lack of subject matter jurisdiction under Rule 12(b)(1)). However, the court would reach the
same conclusion under either rule.
8 Under

this cause of action, Plaintiffs also specifically allege Defendants Butkus, Forkner, Laurent, Buscemi, Lacy, Waring, Chorey, and
Johnson "have acted with an evil motive or intent to deny services to Plaintiffs." (Am. Compl. at 61).

PATRICIA HARRISON Page 5 of 12

2012 U.S. Dist. LEXIS 112425, *11

against Defendants Babcock Center, Johnson, and the agents and employees of the Babcock Center in
regard to the care of only Plaintiff Kobe (Am. Compl. 69-70).
Reviewing the allegations of the Amended Complaint, only Defendants Curtis Loftis and Brian White are
being sued solely in their official capacities. (Am. Compl. at 5). The remaining individual Defendants,
Mark Sanford, Hugh Leatherman, Daniel Cooper, Richard Eckstrom, Converse Chellis, Anthony Keck,
Emma Forkner, Beverly Buscemi, Stanley Butkus, Eugene Laurent, Richard Huntress, Kathi Lacy,
Thomas P. Waring, Judy Johnson, [*12] Jacob Chorey, and Mary Leitner are specifically being sued in
both their individual and official capacities. (Am. Compl. 5-8). 9 While there are no specific allegations in
the Amended Complaint as to the capacity in which Defendant Haley is being sued, Plaintiffs state in their
memorandum that Governor Haley is being sued only in her official capacity. (Dkt. # 81 - Pls.' Mem.
Opp. Mot. to Dismiss at 4). The court will address each motion in turn.

1. Defendant Haley's Motion to Dismiss10
As noted above, Defendant Haley is being sued solely in her official capacity as Governor of South
Carolina and Chairman of the SCBCB. Governor Haley has filed a motion to dismiss on the ground that
Plaintiffs' claims against her are barred by the Eleventh Amendment. Plaintiffs contend that Governor
Haley is not entitled to Eleventh Amendment immunity because she has supervisory responsibility over
DHHS and DDSN and she is responsible for the acts of former Governor Mark Sanford. (Dkt. # 81-Pls.'
Mem. Opp. Mot. to Dismiss at 7). For the reasons discussed below, the court grants Governor Haley's
Motion to Dismiss.
The Eleventh Amendment bars suits against a State in federal court. 11 Additionally, the Eleventh
Amendment "does not permit judgments against state officers declaring that they violated federal law in
the past." Puerto Rico Aqueduct & Sewer Auth. v. Metcalf & Eddy, Inc., 506 U.S. 139, 146, 113 S. Ct.
684, 121 L. Ed. 2d 605 (1993). [*14] However, Eleventh Amendment immunity is not absolute. See Port
Authority Trans-Hudson Corp. v. Feeney, 495 U.S. 299, 304, 110 S. Ct. 1868, 109 L. Ed. 2d 264 (1990).
In Ex parte Young, 209 U.S. 123, 28 S. Ct. 441, 52 L. Ed. 714 (1908), the Supreme Court recognized a
narrow exception for claims brought against individual state officers acting in their official capacities if
the complaint alleges an ongoing violation of federal law and the plaintiff seeks prospective relief.
9 The

court notes that the caption of the Amended Complaint is somewhat misleading as it lists most of the Defendants as being sued in their
capacities as members of the SCBCB. It does not state any of the Defendants are being sued in their individual capacities.
10 The

court notes Plaintiffs argue that the court should not dismiss Plaintiffs' claims pending a decision by the Supreme Court in Douglas v.
Independent Living Centers, U.S. , 132 S.Ct. 1204, 182 L.Ed.2d 101 (2012). (Dkt. # 81 - Pls.' Mem. Opp. Mot. to Dismiss at 19-20). That
case was decided on February 22, 2012, and thus the request to postpone a resolution of the instant motion is now moot. Moreover, Douglas
is wholly inapplicable. In [*13] Douglas the Supreme Court remanded the action to the Ninth Circuit to address whether a plaintiff may
bring a Supremacy Clause challenge where the allegedly non-compliant state law has been approved by CMS. The action before this Court
does not challenge a state statute, let alone one that has been approved by CMS.
11 The

Eleventh Amendment provides:

The Judicial power of the United States shall not be construed to extend to any suit in law or equity, commenced or prosecuted against
one of the United States by Citizens of another State, or by Citizens or Subjects of any Foreign State.
U.S. Const. amend. XI.

PATRICIA HARRISON Page 6 of 12

2012 U.S. Dist. LEXIS 112425, *13

Verizon Md. Inc. v. Pub. Serv. Comm'n of Md., 535 U.S. 635, 645, 122 S. Ct. 1753, 152 L. Ed. 2d 871
(2002). The Ex parte Young exception creates a fiction by allowing a person to enjoin future state action
by suing a state official for prospective injunctive relief rather than the state itself. The Ex parte Young
exception "applies only when there is an ongoing violation of federal law that can be cured by prospective
relief. It does not apply when the alleged violation of federal law occurred entirely in the past." Debauche
v. Trani, 191 F.3d 499, 505 (4th Cir. 1999).
Ex [*15] parte Young requires a "special relation" between the state officer sued and the challenged
statute to avoid the Eleventh Amendment's bar. Ex parte Young, 209 U.S. at 157, 28 S.Ct. 441.
"General authority to enforce the laws of the state is not sufficient to make government officials the
proper parties to litigation challenging the law." Children's Healthcare is a Legal Duty, Inc. v. Deters,
92 F.3d 1412, 1416 (6th Cir.1996) (internal quotation marks omitted). Thus, "[t]he mere fact that a
governor is under a general duty to enforce state laws does not make him a proper defendant in every
action attacking the constitutionality of a state statute." Shell Oil Co. v. Noel, 608 F.2d 208, 211 (1st
Cir.1979).
Waste Mgmt. Holdings, Inc. v. Gilmore, 252 F.3d 316, 331 (4th Cir. 2001). As long as the state official
"has some connection with the enforcement of the act," that official is an "appropriate defendant." Shell
Oil v. Noel, 608 F.2d 208, 211 (1st Cir.1979). "It is a question of federal jurisdictional law whether the
connection is sufficiently intimate to meet the requirements of Ex parte Young." Id.
Here, Governor Haley contends that the Ex parte Young exception does not apply for two [*16] reasons:
(1) she has no connection with the challenged acts; and (2) Plaintiffs are seeking retrospective, not
prospective, relief in their claims against her. Plaintiffs argue Governor Haley is liable due to her
supervisory responsibility over the SCDHHS and SCDDSN and her enforcement authority as governor to
appoint and remove the Director of DHHS and members of the SCDDSN Commission. Further, Plaintiffs
contend that Governor Haley's name is on the SCDHHS letterhead, the SCDHSS is part of her cabinet,
Governor Haley personally sought out and hired the SCDHHS's director, and Governor Haley has stated
in the media that she is working closely with the director to provide as much healthcare for South
Carolinians for as little as possible. (Id. at 12-13). Finally, Plaintiffs argue that Governor Haley joined
thirty-one other governors in writing to the President for Medicaid reform which Plaintiffs contend calls
for elimination of "'excessive constraints' which Congress enacted to protect Plaintiffs and providers in
exchange for federal funding." (Dkt. # 81 - Pls.' Mem. at 13 and Ex. 16 and 17). 12
While Defendant Haley as the Governor of South Carolina has the power to appoint and general
supervisory authority, neither appointment power nor general supervisory power over persons responsible

12 Plaintiffs

also cite to numerous other cases in support of their argument that Haley is [*17] not entitled to Eleventh Amendment immunity,
including Kimble v. Solomon, 599 F.2d 599 (4th Cir. 1979), and Wilder v. Virginia Hosp. Ass'n, 496 U.S. 498, 110 S. Ct. 2510, 110 L. Ed. 2d
455 (1990). However, these cases are inapplicable here. In Kimble, in the context of Eleventh Amendment immunity, the court addressed
whether the relief being sought was prospective or retrospective. In Wilder, the Supreme Court held only that state officials could be sued
under § 1983 for violations of the Medicaid Act. See Fla. Ass'n of Rehabilitation Facilities, Inc. v. State of Fla. Dept. of Health &
Rehabilitative Servcs., 225 F.3d 1208, 1226 n. 13 (11th Cir. 2000) (holding the Court in Wilder did not address any Eleventh Amendment
issue and only addressed the question of whether the Boren Amendment is enforceable in an action by health care providers under § 1983).
Governor Haley is not disputing that there exists a private cause of action under § 1983 against state officials for violations of the Medicaid
Act nor is she arguing that a governor cannot be sued for such violations for prospective relief. Rather, she contends that she does not have
the requisite connections to the alleged actions in this case to apply the Ex [*18] parte Young exception to Eleventh Amendment immunity.
(Def.'s Reply Mem. 4).

PATRICIA HARRISON Page 7 of 12

2012 U.S. Dist. LEXIS 112425, *18

for enforcing a challenged provision will subject an official to suit. 13 Waste Mgmt. Holdings, 252 F.3d at
331 (holding an official's general authority to enforce the laws of a state is not sufficient to make a
government official a proper party in an action challenging a law). See also Kuck v. Danaher, 822 F.
Supp. 2d 109 (D. Conn. 2011)(citing Kelly v. Burks, 414 F.Supp.2d 681, 686 (E.D. Ky. 2006); D.G. ex rel.
Stricklin v. Henry, 591 F. Supp. 2d 1186, 1189 (N.D. Okla. 2008) (holding despite governor's power to
make appointments to the entity that acted unconstitutionally, the governor is not responsible for actually
administering the foster case system); LensCrafters, Inc. v. Sundquist, 184 F. Supp. 2d 753, 757-59
(M.D.Tenn. 2002) (finding Eleventh Amendment bars suit against governor when only nexus between
governor and challenged action by board was governor's power to make appointments to board); Sweat v.
Hull, 200 F. Supp. 2d 1162, 1175-76 (D. Ariz. 2001) [*19] (dismissing claim against Governor who
signed allegedly unconstitutional bill into law and appointed the cabinet official responsible for enforcing
that law).
Furthermore, the remaining factors which Plaintiffs contend provide a nexus are also insufficient. A
governor's name on the letterhead of an agency is really nothing more than a formality or
acknowledgment of the structure of the state's government. Furthermore, Governor Haley's general
policies or opinions on budgetary or political matters also do not provide a sufficient nexus. Waste Mgmt.
Holdings, 252 F.3d at 331 ("The fact that [governor] has publicly endorsed and defended the challenged
statutes does not alter our analysis.").
Plaintiffs also contend Governor Haley is responsible for "the [*20] personal acts of [former] Governor
Sanford" in an alleged conspiracy to terminate Plaintiffs' ADHC in order to benefit a Lexington County
corporation. (Pls.' Mem. Opp. Mot to Dismiss at 3, 4). Plaintiffs allege that former Governor Sanford as
chairman of the SCBCB was involved in a scheme to divert funds from an excess fund account to
purchase three workshops which caused the State to lose more that $10 million in matching Medicaid
funds. (Dkt. # 81- Pls.' Mem. Opp. Motion to Dismiss at 7). 14
The United States Supreme Court has established that the Ex parte Young exception only applies to
prospective injunctive relief. Puerto Rico Aqueduct & Sewer Authority v. Metcalf & Eddy, Inc., 506 U.S.
139, 146, 113 S. Ct. 684, 121 L. Ed. 2d 605 (1993). Retrospective relief, on the other hand, is barred by
the Eleventh Amendment. Green v. Mansour, 474 U.S. 64, 68, 106 S. Ct. 423, 88 L. Ed. 2d 371 (1985).
Likewise, a declaratory judgment against state officials declaring that [*21] they violated federal law in
the past constitutes retrospective relief, and is barred by the Eleventh Amendment. Id. at 67. Governor
Haley is entitled to Eleventh Amendment immunity for Plaintiffs' claims based upon former Governor's
Sanford's prior acts for which Plaintiffs are seeking only retrospective relief.
Moreover, as a practical matter, to impose a prospective injunction on Governor Haley to cure any alleged
Medicaid violations would have no effect. The hearing and notice requirements set forth in 42 C.F.R. §

13 Plaintiffs

cite to several cases discussing when supervisory liability may be imposed for constitutional injuries: Shaw v. Stroud, 13 F.3d 791
(4th Cir. 1994), and Slakan v. Porter, 737 F.2d 368 (4th Cir. 1984). (Pls.' Mem. at 8). These cases and others discussing supervisory liability
in the context of a § 1983 action are simply not applicable to the specific issue raised in this motion to dismiss based upon Eleventh
Amendment immunity.
14 The

Ex Parte Young exception does not apply to actions against state officials seeking to compel compliance with state law. Antrican v.
Odom, 290 F.3d 178 (4th Cir. 002). Accordingly, if Plaintiffs are seeking a declaration that Defendants violated any state law, they are unable
to do so.

PATRICIA HARRISON Page 8 of 12

2012 U.S. Dist. LEXIS 112425, *21

431 are placed upon the state Medicaid agency and not the governor. Each state's Medicaid plan must
specify a single state agency designated to administer the Medicaid plan, and this agency cannot delegate
its authority to exercise discretion in the administration or supervision of the plan. 42 C.F.R. § 431.10(a)
and (e). In South Carolina, the South Carolina Department of Health and Human Services ("SCDHHS") is
the state agency designated to administer and supervise the Medicaid plan. S.C. Code Ann. § 44-6-30(1).
Further, while 42 C.F.R. § 430.12 provides the governor is to review and comment on a state's Medicaid
plan, this does not create any enforcement rights in the [*22] governor and as Plaintiffs allege in their
Amended Complaint, "SCDDSN is responsible, under contract with SCDHHS, for the day-to-day
operations of the Medicaid waiver programs in the State . . . " (Am. Compl. at 5-6). Accordingly,
Defendant Haley's Motion to Dismiss is granted and she is dismissed from this action. 15

2. Defendants Loftis and White's Motion to Dismiss
Similarly, to Defendant Haley, in their Motion to Dismiss, Defendants Loftis and White contend, inter
alia, that as members of the SCBCB, they have no special relation to the acts challenged by Plaintiffs and
therefore they are entitled to Eleventh Amendment immunity. (Dkt. # 99). Plaintiffs name these two
Defendants as successors of former SCBCB members Defendants Converse Chellis and Daniel Cooper.
(Am. Compl. at 5).
As noted above, in Count One, Plaintiffs allege Defendants who were members of the SCBCB violated
the ADA by failing to insure that SCDDSN funds were spent appropriately for services provided to
Plaintiffs. [*23] (Am. Compl. at 46). In Count Two, Plaintiffs allege these Defendants have violated
Section 504 by failing to insure that the funds allocated to the SCDDSN were spent appropriately. (Am.
Compl. at 51). In Counts Three and Four, Plaintiffs allege claims pursuant to 42 U.S.C. § 1983 for
violations of the ADA, Medicaid, and the Section 504 for diverting funds from SCDDSN. (Am. Compl. at
56-57). 16 Plaintiffs' claims against these two individual Defendants revolve around the SCBCB's vote in
2009 to allow SCDSSN to purchase real estate with funds from an excess account. It is undisputed that
Defendants Loftis and White were not members of the SCBCB when these alleged acts occurred and are
being sued only in their official capacities as successors to the former SCBCB members.
As noted above, the Ex parte Young exception only applies to prospective injunctive relief and a
declaratory judgment against state officials declaring that they violated federal law in the past
[*24] constitutes retrospective relief, and is barred by the Eleventh Amendment. Defendants Loftis and
White are entitled to Eleventh Amendment immunity for Plaintiffs' claims based upon the actions of
former members of SCBCB for which Plaintiffs are seeking only retrospective relief. Furthermore, as for
any prospective relief, as discussed in regard to Governor Haley, these Defendants as members of the
SCBCB do not have any control or enforcement rights over any agency regarding the Plaintiffs' ADHC or
other Medicaid services. Therefore, to impose a prospective injunction on these two Defendants would
have no effect whatsoever. Accordingly, Defendants Loftis and White's Motion to Dismiss is granted and
these Defendants are dismissed from this action.

15 Because

the court concludes that Governor Haley is entitled to Eleventh Amendment immunity and should be dismissed, the court declines
to address the other grounds Defendant Haley raises for dismissal.
16 The

court notes that in Count Three while Plaintiffs list various individual Defendants and make allegations against them, none of the
allegations in Count Three specifically refer to these two Defendants. (Am. Compl. at 53-56).

PATRICIA HARRISON Page 9 of 12

2012 U.S. Dist. LEXIS 112425, *24

3. Defendant Cooper's Motion to Dismiss
As noted above, Defendant Cooper is sued in both his individual and official capacities. Plaintiffs' claims
against Defendant Cooper involve allegations regarding his past conduct when he was a member of the
SCBCB. In his motion to dismiss, Defendant Cooper contends, inter alai, that he is entitled to legislative
and Eleventh Amendment immunity. Plaintiffs contend that they are not suing Cooper in his legislative
[*25] capacity. Plaintiffs also contend that because the unauthorized actions of the individual SCBCB
members were not within the sphere of legitimate legislative activities, Cooper is not entitled to legislative
immunity. (Pls.' Mem. Opp. Mot. to Dismiss 2, 7). Plaintiffs specifically state that "[a]ll of the relief
requested by the Plaintiffs as to Defendant Cooper is prospective" (Dkt. # 124 - Pls.' Mem. Opp. Mot. to
Dismiss at 12),
As to Plaintiffs' claims against Cooper in his official capacity, the Eleventh Amendment bars these claims.
As stated above, the Ex parte Young exception to Eleventh Amendment immunity only applies to
prospective injunctive relief. Plaintiffs would not be able to obtain any prospective injunctive relief from
Defendant Cooper in his official capacity as he is no longer a member of the SCBCB and would have no
authority to provide such relief. Kuck, 822 F.Supp.2d 109, 148. 17 Furthermore, Plaintiffs also cannot
obtain prospective injunctive relief from Cooper in his individual capacity as he would not have the
authority to provide such relief in his individual capacity. See DeLoreto v. Ment, 944 F.Supp. 1023, 1031
(D.Conn.1996) (finding that "injunctive relief [*26] of reinstatement could only be awarded against
Defendants in their official capacities. Clearly, in their individual capacities they have no authority to
reinstate Plaintiffs."); see also Smith v. Plati, 56 F.Supp.2d 1195, 1203 (D.Colo.1999) (dismissing claims
against state official in his individual capacity because the relief plaintiff requested could only be obtained
against the defendant in his official capacity). All of Plaintiffs' claims against Cooper should be dismissed
as Cooper would have absolutely no role to play in regard to providing Plaintiffs with any prospective
injunctive relief. 18 Accordingly, Cooper's motion to dismiss is granted.
As an additional ground for dismissal, the court finds Cooper is entitled to legislative immunity for all of
Plaintiffs' claims against him in his individual capacity. In Bogan v. Scott-Harris, 523 U.S. 44, 53-54, 118
S. Ct. 966, 140 L. Ed. 2d 79 (1998), the Supreme Court held that city council members were entitled to
absolute immunity from § 1983 liability for "actions taken in the sphere of legitimate legislative activity."
The Court found that the council's action in eliminating certain services was legislative in substance
because their action "reflected a discretionary, policymaking decision implicating the budgetary priorities
of the city and the services the city provides to its constituents." Id. at 55-56. This absolute legislative
immunity does not apply only to legislators. Id. at 55. The Supreme Court acknowledged that executive
branch officials are entitled to legislative immunity when they perform legislative functions such as
making discretionary policy decisions that implicate budgetary priorities and the provision of public
services. Id. at 55-56. 19 "Whether an act is legislative turns on the [*28] nature of the act, rather than on

17 Moreover,

as discussed herein, a current member of the SCBCB would not have any control or enforcement rights over any agency
regarding the Plaintiffs' ADHC or other Medicaid services.
18 Additionally,

as to allegations regarding members of the SCBCB, Plaintiffs do not allege ongoing violations of the law, a failure which is
fatal to their request for injunctive relief. See Merryfield v. Jordan, 431 Fed. Appx. 743, 746 (10th Cir. 2011) (noting that a plaintiff may seek
prospective injunctive relieve against state officials in federal court [*27] only when he alleges ongoing violations of federal law, and not
where he merely alleges prior violations).

PATRICIA HARRISON Page 10 of 12

2012 U.S. Dist. LEXIS 112425, *27

the motive or intent of the official performing it." Bogan, 523 U.S. at 54. Legislative immunity only
extends to defendants sued in their individual capacities. Doe v. Pittsylvania County, Va., 842 F.Supp.2d
906 (W.D.Va. 2012).
Recently, the Fourth Circuit Court of Appeals addressed legislative immunity in Kensington Volunteer
Fire Dep't, Inc. v. Montgomery Cty., 684 F.3d 462, 470 (4th Cir. 2012). In Kennsington, local volunteer
fire and rescue departments and several former administrative employees sued the county, county council,
and county officials contending that funding for the administrative personnel in the departments was
eliminated in retaliation for the departments' opposition to legislation which would have enacted an
ambulance fee. The Fourth Circuit Court of Appeals noted that legislative acts are ones which generally
bear the marks of public decisionmaking by observing formal legislative procedures. The court held that,
despite allegations [*29] of an improper retaliatory motive, the county officials were entitled to
legislative immunity for enacting a facially valid budget which eliminated the funding for the
administrative support positions. Id. Further, the court emphasized that while the county reduced the
departments' budgets, it was the departments which decided how to address the shortfall and terminated
the individual administrative personnel. Id. at 469, 472.
Here, the acts of the SCBCB are "ones which generally bear the marks of public decisionmaking by
observing formal legislative procedures." The SCBCB had the authority to take the action which it did 20
and reviewing the minutes of the SCBCB meeting, the process appears facially to have been proper. 21
The minutes from the meeting show that proper notice was provided of the meeting pursuant to S.C. Code
Ann. § 30-4-80, the meeting was an open meeting, and the funds were expended pursuant to S.C. Code
Ann. § 44-20-1170 with the approval of the DSSN Board. 22 Further, it was the DSSN Boards which have
reduced or attempted to reduce the services provided to Plaintiffs. Based on the foregoing, the court
concludes that, Defendant Cooper is entitled to legislative immunity. [*30] Here, voting to approve
SCDDSN's purchase of real estate with excess debt service funds was clearly a facially valid legislative

19 Legislative

immunity applies to claims for declaratory and injunctive relief, as well as claims for damages. Supreme Court of Virginia v.
Consumers Union of the U.S., Inc., 446 U.S. 719, 732-33, 100 S. Ct. 1967, 64 L. Ed. 2d 641 (1980).
20 Plaintiffs

themselves allege in their complaint that the SCBCB is responsible for "purchasing, personnel and real property transactions
involving state and federal funds." (Am. Compl. at 4).
21 Typically

on a motion to dismiss, a court cannot consider documents that are not expressly incorporated into the complaint, but there are
exceptions for "official public records, documents central to plaintiff's claim, and documents sufficiently referred to in the complaint so long
as the authenticity of these documents is not disputed." See Witthohn v. Fed. Ins. Co., 164 Fed. Appx. 395, 396, 2006 WL 228621, at *1 (4th
Cir. 2006) (unpublished). Here, the court considers the minutes of the SCBCB meeting as it is central to plaintiffs' claims. Furthermore, both
Plaintiffs and one of the Defendants have attached the minutes as an exhibit to their memoranda (Dkt. # 81- Pls.' Mem. Opp. Mot. to Dismiss
Ex. 8; 126 - Def. Cooper's Reply Mem. [*31] Ex. A) and its authenticity has not been questioned.
22 Section

44-20-1170 (B) provides:

If the accumulation of revenues of the commission in the special fund exceeds the payment due or to become due during the then
current fiscal year and an additional sum equal to the maximum annual debt service requirement of the obligations for a succeeding
fiscal year, the State Budget and Control Board may permit the commission to withdraw the excess and apply it to improvements that
have received the approval of the board or to transfer the excess out of the special fund for contract awards to local disabilities and
special needs boards for needed improvements at the local level and for nonrecurring prevention, assistive technology, and quality
initiatives at the regional centers and local boards.

PATRICIA HARRISON Page 11 of 12

2012 U.S. Dist. LEXIS 112425, *31

action. Accordingly, based on the foregoing, Defendant Cooper's Motion to Dismiss is granted and he is
dismissed from this action. 23

4. Defendant Chellis' Motion to Dismiss
As stated above, Defendant Chellis is being sued in both his individual and official capacities. Plaintiffs
state that they are suing Chellis for only prospective [*32] relief and attorney's fees. (Dkt. # 127 - Pls.'
Mem. Opp. Mot. to Dismiss at 4). 24 In his Motion to Dismiss, Defendant Chellis, a former South Carolina
State Treasurer and former member of the SCBCB, contends, inter alia, that Plaintiffs' claims against him
are barred by legislative and Eleventh Amendment immunity. For the same reasons as Defendant Cooper,
the court finds that Defendant Chellis is entitled to legislative and Eleventh Amendment immunity and
likewise the court notes that even if it could award Plaintiffs prospective injunctive relief against this
Defendant, such injunctive relief would be ineffective. Defendant Chellis is not involved in any ongoing
constitutional deprivations and could not provide Plaintiffs, should they prevail, with the prospective
injunctive relief they seek. The undisputed fact is that, as a former SCBCB member, he would have
absolutely no role to play in regard to providing Plaintiffs with any prospective relief. Accordingly,
Defendant Chellis' Motion to Dismiss is granted and he is dismissed from this action. 25

IV. Conclusion
Based on the foregoing, Defendants' Motions to Dismiss (Dkt. # 75, 99, 123, and 125) are GRANTED
and Defendants Haley, Loftis, White, Cooper, and Chellis are dismissed from this action.
IT IS SO ORDERED.
/s/ Timothy M. Cain
United States District Judge
Greenville, South Carolina
August 10, 2012
End of Document

23 Because

the court concludes that Defendant Cooper is entitled to legislative and Eleventh Amendment immunity and should be dismissed,
the court declines to address the other grounds he raises for dismissal.
24 Plaintiffs

in their response, citing to their response to Defendant Loftis and White's Motion to Dismiss, state that they alleged that
[*33] "Chellis failed to assure that appropriations of money and the application thereof appeared on the Treasury books." (Dkt. # 127 - Pls.'
Mem. Opp. Mot. to Dismiss at 3). While Plaintiffs may have raised this allegation in their memorandum, they did not make any such
allegations in their Amended Complaint. In fact, in their Amended Complaint, Plaintiffs allege only that they are suing Chellis for actions
taken as a member of the SCBCB. (Am. Compl. 5, 23-24, 46, ). While Chellis was a member of the SCBCB because he was the State
Treasurer, there are no separate allegations regarding Chellis and his duties as State Treasurer.
25 Because

the court concludes that Defendant Chellis is entitled to legislative and Eleventh Amendment immunity and should be dismissed,
the court declines to address the other grounds he raises for dismissal.

PATRICIA HARRISON Page 12 of 12

APPENDIX H

Kobe v. Buscemi
United States Court of Appeals for the Fourth Circuit
August 10, 2020, Filed
No. 18-2505
Reporter
2020 U.S. App. LEXIS 25276 *

KOBE, Plaintiff - Appellant; MARK, JOHN, Plaintiffs v. BEVERLY BUSCEMI, in her official capacity
as Director of the South Carolina Department of Disabilities and Special Needs; KATHI LACY, in her
capacities as employee of the South Carolina Department of Disabilities and Special Needs; THOMAS P.
WARING, in his capacity as employee of the South Carolina Department of Disabilities and Special
Needs; JACOB CHOREY, in his capacity as employee of the South Carolina Department of Disabilities
and Special Needs; MARY LEITNER, in her capacity as the Director of the Richland Lexington
Disabilities and Special Needs Board; JUDY JOHNSON, in her capacity as the Director of the Babcock
Center; THE BABCOCK CENTER; ANTHONY KECK, in his capacity as the former Director of the
South Carolina Department of Health and Human Services; EMMA FORKNER, in her capacity as the
former Director of the South Carolina Department of Health and Human Services; JOSHUA BAKER, in
his capacity as the Director of the South Carolina Department of Health and Human Services; EUGENE
A. LAURENT, former Interim Director of the South Carolina Department of Disabilities and Special
Needs; STANLEY BUTKUS, former Director of the South Carolina Department of Disabilities and
Special Needs; RICHARD HUNTRESS, in his capacity as Commissioner of the South Carolina
Department of Disabilities and Special Needs, Defendants - Appellees and CYNTHIA MANN, Deputy
Administrator and Director of the Center for Medicaid, CHIP, and Survey & Certification, CMS; NIKKI
HALEY, in her official capacity as Governor and Chairman of the South Carolina Budget and Control
Board; ELEANOR KITZMAN, in her official capacity as the Executive Director of the State Budget and
Control Board; GLENN F. MCCONNELL, in his official capacity as the President Pro Tempore of the
South Carolina Senate; ROBERT W. HARRELL, JR., in his official capacity as the Speaker of the South
Carolina House of Representatives; DANIEL COOPER; CONVERSE CHELLIS, in his capacity as
former member of the South Carolina Budget and Control Board; MARK SANFORD, in his capacity as
former members of the South Carolina Budget and Control Board; HUGH LEATHERMAN, in his
capacity as members of the South Carolina Budget and Control Board; RICHARD ECKSTROM, in his
capacity as members of the South Carolina Budget and Control Board; CURTIS LOFTIS, as member of
the South Carolina Budget and Control Board; BRIAN WHITE, as member of the South Carolina Budget
and Control Board; HENRY MCMASTER, in his official capacity as Governor and Chairman of the
South Carolina Budget and Control Board; UNNAMED ACTORS ASSOCIATED WITH THE
BABCOCK CENTER, Defendants

Prior History: [*1] 3:11-cv-01146-MBS.
PATRICIA HARRISON

2020 U.S. App. LEXIS 25276, *1

Kobe v. Buscemi, 2020 U.S. App. LEXIS 21627 (4th Cir. S.C., July 13, 2020)

Counsel: For Kobe, Plaintiff - Appellant: Patricia L. Harrison, Patricia Logan Harrison Attorney at Law,
Cleveland, SC.
For BEVERLY BUSCEMI, in her official capacity as Director of the South Carolina Department of
Disabilities and Special Needs, KATHI LACY, in her capacities as employees of the South Carolina
Department of Disabilities and Special Needs, THOMAS P. WARING, in their capacities as employees of
the South Carolina Department of Disabilities and Special Needs, JACOB CHOREY, in his capacity as
employee of the South Carolina Department of Disabilities and Special Needs, EUGENE A. LAURENT,
former Interim Director of the South Carolina Department of Disabilities and Special Needs, STANLEY
BUTKUS, former Director of the South Carolina Department of Disabilities and Special Needs,
RICHARD HUNTRESS, in his capacity as Commissioner of the South Carolina Department of
Disabilities and Special Needs, Defendant - Appellee: William Henry Davidson II, Kenneth Paul
Woodington, Davidson, Wren & Plyler, PA, Columbia, SC.
For MARY LEITNER, in her capacity as the Director of the Richland Lexington Disabilities and Special
Needs Board, Defendant - Appellee: Patrick John Frawley, Kenneth [*2] Paul Woodington, Davis
Frawley, Llc, Lexington, SC.
For JUDY JOHNSON, in her capacity as the Director of the Babcock Center, Babcock Center, Defendant
- Appellee: Joel Wyman Collins Jr., Meghan Hazelwood Hall, Esq., Christian Stegmaier, Esq., Collins &
Lacy, PC, Columbia, SC.
For ANTHONY KECK, in his capacity as the former Director of the South Carolina Department of
Health and Human Services, EMMA FORKNER, in her capacity as the former Director of the South
Carolina Department of Health and Human Services, JOSHUA BAKER, in his capacity as the Director of
the South Carolina Department of Health and Human Services, Defendant - Appellee: Damon C.
Wlodarczyk, Esq., Riley, Pope & Laney, Llc, Columbia, SC.
For Unnamed Actors Associated With The Babcock Center, Defendant: Joel Wyman Collins Jr., Meghan
Hazelwood Hall, Esq., Collins & Lacy, PC, Columbia, SC.

Opinion
ORDER
The court denies the petition for rehearing and rehearing en banc. No judge requested a poll under Fed. R.
App. P. 35 on the petition for rehearing en banc.
PATRICIA HARRISON Page 2 of 3

2020 U.S. App. LEXIS 25276, *2

Entered at the direction of the panel: Judge Diaz, Judge Thacker, and Senior Judge Traxler.
For the Court
End of Document

PATRICIA HARRISON Page 3 of 3

APPENDIX I

APPENDIX I
CONSTITUTION, STATUTES AND REGULATIONS
United States Constitution Fourteenth Amendment
Sec. 1. [Citizens of the United States.] All persons born or naturalized in the United States, and
subject to the jurisdiction thereof, are citizens of the United States and of the State wherein they
reside. No State shall make or enforce any law which shall abridge the privileges or immunities
of citizens of the United States; nor shall any State deprive any person of life, liberty, or
property, without due process of law; nor deny to any person within its jurisdiction the equal
protection of the laws.
United States Code of Laws
Rehabilitation Act
29 U.S.C. § 794. Nondiscrimination under Federal grants and programs
(a) Promulgation of rules and regulations. No otherwise qualified individual with a disability in
the United States, as defined in section 7(20) [29 USCS § 705(20)], shall, solely by reason of her
or his disability, be excluded from the participation in, be denied the benefits of, or be subjected
to discrimination under any program or activity receiving Federal financial assistance or under
any program or activity conducted by any Executive agency or by the United States Postal
Service. The head of each such agency shall promulgate such regulations as may be necessary to
carry out the amendments to this section made by the Rehabilitation, Comprehensive Services,
and Developmental Disabilities Act of 1978. Copies of any proposed regulation shall be
submitted to appropriate authorizing committees of the Congress, and such regulation may take
effect no earlier than the thirtieth day after the date on which such regulation is so submitted to

1

such committees.
29 U.S.C. § 794a. Remedies and attorney fees
(a)(1) The remedies, procedures, and rights set forth in section 717 of the Civil Rights Act of
1964 (42 U.S.C. 2000e-16), including the application of sections 706(f) through 706(k) (42
U.S.C. 2000e-5 (f) through (k)) (and the application of section 706(e)(3) (42 U.S.C.
2000e-5(e)(3)) to claims of discrimination in compensation), shall be available, with respect to
any complaint under section 501 of this Act [29 USCS § 791], to any employee or applicant for
employment aggrieved by the final disposition of such complaint, or by the failure to take final
action on such complaint. In fashioning an equitable or affirmative action remedy under such
section, a court may take into account the reasonableness of the cost of any necessary work place
accommodation, and the availability of alternatives therefor or other appropriate relief in order to
achieve an equitable and appropriate remedy.
(2) The remedies, procedures, and rights set forth in title VI of the Civil Rights Act of 1964 (42
U.S.C. 2000d et seq.) (and in subsection (e)(3) of section 706 of such Act (42 U.S.C. 2000e-5),
applied to claims of discrimination in compensation) shall be available to any person aggrieved
by any act or failure to act by any recipient of Federal assistance or Federal provider of such
assistance under section 504 of this Act [29 USCS § 794].
(b) In any action or proceeding to enforce or charge a violation of a provision of this title [29
USCS §§ 790 et seq.], the court, in its discretion, may allow the prevailing party, other than the
United States, a reasonable attorney’s fee as part of the costs.
Medicaid Act
42 U.S.C. 1396a(a)

2

(a) Contents. A State plan for medical assistance must—
(1) provide that it shall be in effect in all political subdivisions of the State, and, if administered
by them, be mandatory upon them;...
(3) provide for granting an opportunity for a fair hearing before the State agency to any
individual whose claim for medical assistance under the plan is denied or is not acted upon with
reasonable promptness;...
(5) either provide for the establishment or designation of a single State agency to administer or to
supervise the administration of the plan; or provide for the establishment or designation of a
single State agency to administer or to supervise the administration of the plan...
(8) provide that all individuals wishing to make application for medical assistance under the plan
shall have opportunity to do so, and that such assistance shall be furnished with reasonable
promptness to all eligible individuals;
(19) provide such safeguards as may be necessary to assure that eligibility for care and services
under the plan will be determined, and such care and services will be provided, in a manner
consistent with simplicity of administration and the best interests of the recipients;...
42 U.S.C. 1396n(c)
Waiver respecting medical assistance requirement in State plan; scope, etc.; “habilitation
services” defined; imposition of certain regulatory limits prohibited; computation of expenditures
for certain disabled patients; coordinated services; substitution of participants.
(1) The Secretary may by waiver provide that a State plan approved under this title [42 USCS §§
1396 et seq.] may include as “medical assistance” under such plan payment for part or all of the
cost of home or community-based services (other than room and board) approved by the

3

Secretary which are provided pursuant to a written plan of care to individuals with respect to
whom there has been a determination that but for the provision of such services the individuals
would require the level of care provided in a hospital or a nursing facility or intermediate care
facility for the mentally retarded the cost of which could be reimbursed under the State plan. For
purposes of this subsection, the term “room and board” shall not include an amount established
under a method determined by the State to reflect the portion of costs of rent and food
attributable to an unrelated personal caregiver who is residing in the same household with an
individual who, but for the assistance of such caregiver, would require admission to a hospital,
nursing facility, or intermediate care facility for the mentally retarded.
(2) A waiver shall not be granted under this subsection unless the State provides assurances
satisfactory to the Secretary that—
(A) necessary safeguards (including adequate standards for provider participation) have been
taken to protect the health and welfare of individuals provided services under the waiver and to
assure financial accountability for funds expended with respect to such services;
42 U.S.C. 1983
Civil action for deprivation of rights
Every person who, under color of any statute, ordinance, regulation, custom, or usage, of any
State or Territory or the District of Columbia, subjects, or causes to be subjected, any citizen of
the United States or other person within the jurisdiction thereof to the deprivation of any rights,
privileges, or immunities secured by the Constitution and laws, shall be liable to the party injured
in an action at law, suit in equity, or other proper proceeding for redress, except that in any
action brought against a judicial officer for an act or omission taken in such officer’s judicial

4

capacity, injunctive relief shall not be granted unless a declaratory decree was violated or
declaratory relief was unavailable...
42 U.S.C. 1985(3) Depriving persons of rights or privileges
If two or more persons in any State or Territory conspire, or go in disguise on the highway or on
the premises of another, for the purpose of depriving, either directly or indirectly, any person or
class of persons of the equal protection of the laws, or of equal privileges and immunities under
the laws, or for the purpose of preventing or hindering the constituted authorities of any State or
Territory from giving or securing to all persons within such State or Territory the equal
protection of the laws;... in any case of conspiracy set forth in this section, if one or more persons
engaged therein do, or cause to be done, any act in furtherance of the object of such conspiracy,
whereby another is injured in his person or property, or deprived of having and exercising any
right or privilege of a citizen of the United States, the party so injured or deprived may have an
action for the recovery of damages, occasioned by such injury or deprivation, against any one or
more of the conspirators.
Americans with Disabilities Act
42 U.S.C. § 12101. Findings and purpose
(a) Findings. The Congress finds that—
(1) physical or mental disabilities in no way diminish a person’s right to fully participate in all
aspects of society, yet many people with physical or mental disabilities have been precluded
from doing so because of discrimination; others who have a record of a disability or are regarded
as having a disability also have been subjected to discrimination;
(2) historically, society has tended to isolate and segregate individuals with disabilities, and,

5

despite some improvements, such forms of discrimination against individuals with disabilities
continue to be a serious and pervasive social problem;
(3) discrimination against individuals with disabilities persists in such critical areas as
employment, housing, public accommodations, education, transportation, communication,
recreation, institutionalization, health services, voting, and access to public services;
(4) unlike individuals who have experienced discrimination on the basis of race, color, sex,
national origin, religion, or age, individuals who have experienced discrimination on the basis of
disability have often had no legal recourse to redress such discrimination;
(5) individuals with disabilities continually encounter various forms of discrimination, including
outright intentional exclusion, the discriminatory effects of architectural, transportation, and
communication barriers, overprotective rules and policies, failure to make modifications to
existing facilities and practices, exclusionary qualification standards and criteria, segregation,
and relegation to lesser services, programs, activities, benefits, jobs, or other opportunities;
(6) census data, national polls, and other studies have documented that people with disabilities,
as a group, occupy an inferior status in our society, and are severely disadvantaged socially,
vocationally, economically, and educationally;
(7) the Nation’s proper goals regarding individuals with disabilities are to assure equality of
opportunity, full participation, independent living, and economic self-sufficiency for such
individuals; and
(8) the continuing existence of unfair and unnecessary discrimination and prejudice denies
people with disabilities the opportunity to compete on an equal basis and to pursue those
opportunities for which our free society is justifiably famous, and costs the United States billions

6

of dollars in unnecessary expenses resulting from dependency and nonproductivity.
(b) Purpose. It is the purpose of this Act—
(1) to provide a clear and comprehensive national mandate for the elimination of discrimination
against individuals with disabilities;
(2) to provide clear, strong, consistent, enforceable standards addressing discrimination against
individuals with disabilities;
(3) to ensure that the Federal Government plays a central role in enforcing the standards
established in this Act on behalf of individuals with disabilities; and
(4) to invoke the sweep of congressional authority, including the power to enforce the fourteenth
amendment and to regulate commerce, in order to address the major areas of discrimination
faced day-to-day by people with disabilities.
42 U.S.C. § 12102. Definition of disability
As used in this Act:
(1) Disability. The term “disability” means, with respect to an individual—
(A) a physical or mental impairment that substantially limits one or more major life activities of
such individual;
(B) a record of such an impairment; or
(C) being regarded as having such an impairment (as described in paragraph (3)).
(2) Major life activities.
(A) In general. For purposes of paragraph (1), major life activities include, but are not limited to,
caring for oneself, performing manual tasks, seeing, hearing, eating, sleeping, walking, standing,
lifting, bending, speaking, breathing, learning, reading, concentrating, thinking, communicating,

7

and working.
(B) Major bodily functions. For purposes of paragraph (1), a major life activity also includes the
operation of a major bodily function, including but not limited to, functions of the immune
system, normal cell growth, digestive, bowel, bladder, neurological, brain, respiratory,
circulatory, endocrine, and reproductive functions.
(3) Regarded as having such an impairment. For purposes of paragraph (1)(C):
(A) An individual meets the requirement of “being regarded as having such an impairment” if
the individual establishes that he or she has been subjected to an action prohibited under this Act
because of an actual or perceived physical or mental impairment whether or not the impairment
limits or is perceived to limit a major life activity.
(B) Paragraph (1)(C) shall not apply to impairments that are transitory and minor. A transitory
impairment is an impairment with an actual or expected duration of 6 months or less.
(4) Rules of construction regarding the definition of disability. The definition of “disability” in
paragraph (1) shall be construed in accordance with the following:
(A) The definition of disability in this Act shall be construed in favor of broad coverage of
individuals under this Act, to the maximum extent permitted by the terms of this Act.
(B) The term “substantially limits” shall be interpreted consistently with the findings and
purposes of the ADA Amendments Act of 2008.
(C) An impairment that substantially limits one major life activity need not limit other major life
activities in order to be considered a disability.
(D) An impairment that is episodic or in remission is a disability if it would substantially limit a
major life activity when active....

8

(2) State. The term “State” means each of the several States, the District of Columbia, the
Commonwealth of Puerto Rico, Guam, American Samoa, the Virgin Islands of the United States,
the Trust Territory of the Pacific Islands, and the Commonwealth of the Northern Mariana
Islands.
42 U.S.C. § 12131. Definition
As used in this title:
(1) Public entity. The term “public entity” means—
(A) any State or local government;
(B) any department, agency, special purpose district, or other instrumentality of a State or States
or local government; and
(C) the National Railroad Passenger Corporation, and any commuter authority (as defined in
section 103(8) of the Rail Passenger Service Act [49 USCS § 24102(4)].
(2) Qualified individual with a disability. The term “qualified individual with a disability” means
an individual with a disability who, with or without reasonable modifications to rules, policies,
or practices, the removal of architectural, communication, or transportation barriers, or the
provision of auxiliary aids and services, meets the essential eligibility requirements for the
receipt of services or the participation in programs or activities provided by a public entity.
42 U.S.C. § 12132. Discrimination
Subject to the provisions of this title, no qualified individual with a disability shall, by reason of
such disability, be excluded from participation in or be denied the benefits of the services,
programs, or activities of a public entity, or be subjected to discrimination by any such entity.
42 U.S.C. § 12133. Enforcement

9

The remedies, procedures, and rights set forth in section 505 of the Rehabilitation Act of 1973
(29 U.S.C. 794a) shall be the remedies, procedures, and rights this title provides to any person
alleging discrimination on the basis of disability in violation of section 202 [42 USCS § 12132].
42 U.S.C. § 12134. Regulations
(a) In general. Not later than 1 year after the date of enactment of this Act [enacted July 26,
1990], the Attorney General shall promulgate regulations in an accessible format that implement
this subtitle. Such regulations shall not include any matter within the scope of the authority of the
Secretary of Transportation under section 223, 229, or 244 [42 USCS § 12143, 12149, or 12164].
(b) Relationship to other regulations. Except for “program accessibility, existing facilities”, and
“communications”, regulations under subsection (a) shall be consistent with this Act and with the
coordination regulations under part 41 of title 28, Code of Federal Regulations (as promulgated
by the Department of Health, Education, and Welfare on January 13, 1978), applicable to
recipients of Federal financial assistance under section 504 of the Rehabilitation Act of 1973 (29
U.S.C. 794). With respect to “program accessibility, existing facilities”, and “communications”,
such regulations shall be consistent with regulations and analysis as in part 39 of title 28 of the
Code of Federal Regulations, applicable to federally conducted activities under such section 504.
(c) Standards. Regulations under subsection (a) shall include standards applicable to facilities
and vehicles covered by this subtitle, other than facilities, stations, rail passenger cars, and
vehicles covered by subtitle B. Such standards shall be consistent with the minimum guidelines
and requirements issued by the Architectural and Transportation Barriers Compliance Board in
accordance with section 504(a) of this Act [42 USCS § 12204(a)].
Federal Regulations

10

Americans with Disabilities Act
28 C.F.R. § 35.130 General prohibitions against discrimination
(a) No qualified individual with a disability shall, on the basis of disability, be excluded from
participation in or be denied the benefits of the services, programs, or activities of a public entity,
or be subjected to discrimination by any public entity.
(b)
(1) A public entity, in providing any aid, benefit, or service, may not, directly or through
contractual, licensing, or other arrangements, on the basis of disability —
(i) Deny a qualified individual with a disability the opportunity to participate in or benefit from
the aid, benefit, or service;
(ii) Afford a qualified individual with a disability an opportunity to participate in or benefit from
the aid, benefit, or service that is not equal to that afforded others;
(iii) Provide a qualified individual with a disability with an aid, benefit, or service that is not as
effective in affording equal opportunity to obtain the same result, to gain the same benefit, or to
reach the same level of achievement as that provided to others;
(iv) Provide different or separate aids, benefits, or services to individuals with disabilities or to
any class of individuals with disabilities than is provided to others unless such action is
necessary to provide qualified individuals with disabilities with aids, benefits, or services that are
as effective as those provided to others;
(v) Aid or perpetuate discrimination against a qualified individual with a disability by providing
significant assistance to an agency, organization, or person that discriminates on the basis of
disability in providing any aid, benefit, or service to beneficiaries of the public entity’s program;

11

(vi) Deny a qualified individual with a disability the opportunity to participate as a member of
planning or advisory boards;
(vii) Otherwise limit a qualified individual with a disability in the enjoyment of any right,
privilege, advantage, or opportunity enjoyed by others receiving the aid, benefit, or service.
(2) A public entity may not deny a qualified individual with a disability the opportunity to
participate in services, programs, or activities that are not separate or different, despite the
existence of permissibly separate or different programs or activities.
(3) A public entity may not, directly or through contractual or other arrangements, utilize criteria
or methods of administration:
(i) That have the effect of subjecting qualified individuals with disabilities to discrimination on
the basis of disability;
(ii) That have the purpose or effect of defeating or substantially impairing accomplishment of the
objectives of the public entity’s program with respect to individuals with disabilities; or
(iii) That perpetuate the discrimination of another public entity if both public entities are subject
to common administrative control or are agencies of the same State.
(4) A public entity may not, in determining the site or location of a facility, make selections —
(i) That have the effect of excluding individuals with disabilities from, denying them the benefits
of, or otherwise subjecting them to discrimination; or
(ii) That have the purpose or effect of defeating or substantially impairing the accomplishment of
the objectives of the service, program, or activity with respect to individuals with disabilities.
(5) A public entity, in the selection of procurement contractors, may not use criteria that subject
qualified individuals with disabilities to discrimination on the basis of disability.

12

(6) A public entity may not administer a licensing or certification program in a manner that
subjects qualified individuals with disabilities to discrimination on the basis of disability, nor
may a public entity establish requirements for the programs or activities of licensees or certified
entities that subject qualified individuals with disabilities to discrimination on the basis of
disability. The programs or activities of entities that are licensed or certified by a public entity
are not, themselves, covered by this part.
(7)
(i) A public entity shall make reasonable modifications in policies, practices, or procedures when
the modifications are necessary to avoid discrimination on the basis of disability, unless the
public entity can demonstrate that making the modifications would fundamentally alter the
nature of the service, program, or activity.
(ii) A public entity is not required to provide a reasonable modification to an individual who
meets the definition of “disability” solely under the “regarded as” prong of the definition of
“disability” at § 35.108(a)(1)(iii).
(8) A public entity shall not impose or apply eligibility criteria that screen out or tend to screen
out an individual with a disability or any class of individuals with disabilities from fully and
equally enjoying any service, program, or activity, unless such criteria can be shown to be
necessary for the provision of the service, program, or activity being offered.
(c) Nothing in this part prohibits a public entity from providing benefits, services, or advantages
to individuals with disabilities, or to a particular class of individuals with disabilities beyond
those required by this part.
(d) A public entity shall administer services, programs, and activities in the most integrated

13

setting appropriate to the needs of qualified individuals with disabilities.
(e)
(1) Nothing in this part shall be construed to require an individual with a disability to accept an
accommodation, aid, service, opportunity, or benefit provided under the ADA or this part which
such individual chooses not to accept.
(2) Nothing in the Act or this part authorizes the representative or guardian of an individual with
a disability to decline food, water, medical treatment, or medical services for that individual.
(f) A public entity may not place a surcharge on a particular individual with a disability or any
group of individuals with disabilities to cover the costs of measures, such as the provision of
auxiliary aids or program accessibility, that are required to provide that individual or group with
the nondiscriminatory treatment required by the Act or this part.
(g) A public entity shall not exclude or otherwise deny equal services, programs, or activities to
an individual or entity because of the known disability of an individual with whom the individual
or entity is known to have a relationship or association.
(h) A public entity may impose legitimate safety requirements necessary for the safe operation of
its services, programs, or activities. However, the public entity must ensure that its safety
requirements are based on actual risks, not on mere speculation, stereotypes, or generalizations
about individuals with disabilities.
(i) Nothing in this part shall provide the basis for a claim that an individual without a disability
was subject to discrimination because of a lack of disability, including a claim that an individual
with a disability was granted a reasonable modification that was denied to an individual without
a disability.

14

Medicaid Act Regulations
42 C.F.R. § 431.10 Single State agency
(a) Basis, purpose, and definitions.
(1) This section implements section 1902(a)(4) and (5) of the Act.
(2) For purposes of this part—
Appeals decision means a decision made by a hearing officer adjudicating a fair hearing under
subpart E of this part....
Medicaid agency is the single State agency for the Medicaid program.
(b) Designation and certification. A State plan must—
(1) Specify a single State agency established or designated to administer or supervise the
administration of the plan; and
(2) Include a certification by the State Attorney General, citing the legal authority for the single
State agency to—
(i) Administer or supervise the administration of the plan; and
(ii) Make rules and regulations that it follows in administering the plan or that are binding upon
local agencies that administer the plan.
(3) The single State agency is responsible for determining eligibility for all individuals applying
for or receiving benefits in accordance with regulations in part 435 of this chapter and for fair
hearings filed in accordance with subpart E of this part.
(c) Delegations. (1) Subject to the requirement in paragraph (c)(2) of this section, the Medicaid
agency—
(i)(A) May, in the approved state plan, delegate authority to determine eligibility for all or a

15

defined subset of individuals to—
(1) The single State agency for the financial assistance program under title IV-A (in the 50 States
or the District of Columbia), or under title I or XVI (AABD), in Guam, Puerto Rico, or the
Virgin Islands;
(2) The Federal agency administering the supplemental security income program under title XVI
of the Act; or ...
(2) The Medicaid agency may delegate authority to make eligibility determinations or to conduct
fair hearings under this section only to a government agency which maintains personnel
standards on a merit basis.
(3) The Medicaid agency—
(i) Must ensure that any agency to which eligibility determinations or appeals decisions are
delegated—
(A) Complies with all relevant Federal and State law, regulations and policies, including, but not
limited to, those related to the eligibility criteria applied by the agency under part 435 of this
chapter; prohibitions against conflicts of interest and improper incentives; and safeguarding
confidentiality, including regulations set forth at subpart F of this part.
(B) Informs applicants and beneficiaries how they can directly contact and obtain information
from the agency; and
(ii) Must exercise appropriate oversight over the eligibility determinations and appeals decisions
made by such agencies to ensure compliance with paragraphs (c)(2) and (c)(3)(i) of this section
and institute corrective action as needed, including, but not limited to, rescission of the authority
delegated under this section....

16

(d) Agreement with Federal, State or local entities making eligibility determinations or appeals
decisions. The plan must provide for written agreements between the Medicaid agency and the
Exchange or any other State or local agency that has been delegated authority under paragraph
(c)(1)(i) of this section to determine Medicaid eligibility and for written agreements between the
agency and the Exchange or Exchange appeals entity that has been delegated authority to
conduct Medicaid fair hearings under paragraph (c)(1)(ii) of this section. Such agreements must
be available to the Secretary upon request and must include provisions for:
(1) The relationships and respective responsibilities of the parties, including but not limited to
the respective responsibilities to effectuate the fair hearing rules in subpart E of this part;
(2) Quality control and oversight by the Medicaid agency, including any reporting requirements
needed to facilitate such control and oversight;
(3) Assurances that the entity to which authority to determine eligibility or conduct fair hearings
will comply with the provisions set forth in paragraph (c)(3) of this section.
(4) For appeals, procedures to ensure that individuals have notice and a full opportunity to have
their fair hearing conducted by either the Exchange or Exchange appeals entity or the Medicaid
agency.
(e) Authority of the single State agency. The Medicaid agency may not delegate, to other than its
own officials, the authority to supervise the plan or to develop or issue policies, rules, and
regulations on program matters.
42 C.F.R. § 431.205 Provision of hearing system
(a) The Medicaid agency must be responsible for maintaining a hearing system that meets the
requirements of this subpart.

17

(b) The State's hearing system must provide for (1) A hearing before (i) The Medicaid agency; or
(ii) For the denial of eligibility for individuals whose income eligibility is determined based on
the applicable modified adjusted gross income standard described in§ 435.911(c) of this chapter,
the Exchange or Exchange appeals entity to which authority to conduct fair hearings has been
delegated under § 431.10(c)(1)(ii), provided that individuals who have requested a fair hearing
are given the choice to have their fair hearing conducted instead by the Medicaid agency; at state
option the Exchange or Exchange appeals entity decision may be subject to review by the
Medicaid agency in accordance with § 431.10(c)(3)(iii); or
(2) An evidentiary hearing at the local level, with a right of appeal to the Medicaid agency.
(c) The agency may offer local hearings in some political subdivisions and not in others.
(d) The hearing system must meet the due process standards set forth in Goldberg v. Kelly, 397
U.S. 254 (1970), and any additional standards specified in this subpart.
(e) The hearing system must be accessible to persons who are limited English proficient and
persons who have disabilities, consistent with § 435.905(b) of this chapter.
(f) The hearing system must comply with the United States Constitution, the Social Security Act,
title VI of the Civil Rights Act of 1964, section 504 of the Rehabilitation Act of 1973, the
Americans with Disabilities Act of 1990, the Age Discrimination Act of 1975, and section 1557
of the Affordable Care Act and implementing regulations.
§ 431.206 Informing applicants and beneficiaries
(a) The agency must issue and publicize its hearing procedures.

18

(b) The agency must, at the time specified in paragraph (c) of this section, inform every applicant
or beneficiary in writing (1) Of his or her right to a fair hearing and right to request an expedited fair hearing;
(2) Of the method by which he may obtain a hearing;
(3) That he may represent himself or use legal counsel, a relative, a friend, or other spokesman;
and
(4) Of the time frames in which the agency must take final administrative action, in accordance
with § 431.244(f).
(c) The agency must provide the information required in paragraph (b) of this section (1) At the time that the individual applies for Medicaid;
(2) At the time the agency denies an individual's claim for eligibility, benefits or services; or
denies a request for exemption from mandatory enrollment in an Alternative Benefit Plan; or
takes other action, as defined at § 431.201; or whenever a hearing is otherwise required in
accordance with § 431.220(a);
§ 431.210 Content of notice
A notice required under § 431.206 (c)(2), (c)(3), or (c)(4) of this subpart must contain (a) A statement of what action the agency, skilled nursing facility, or nursing facility intends to
take and the effective date of such action;
(b) A clear statement of the specific reasons supporting the intended action;
(c) The specific regulations that support, or the change in Federal or State law that requires, the
action;
(d) An explanation of -

19

(1) The individual's right to request a local evidentiary hearing if one is available, or a State
agency hearing; or
(2) In cases of an action based on a change in law, the circumstances under which a hearing will
be granted; and
(e) An explanation of the circumstances under which Medicaid is continued if a hearing is
requested.
42 C.F.R. § 431.220 When a hearing is required
(a) The State agency must grant an opportunity for a hearing to the following:
(1) Any individual who requests it because he or she believes the agency has taken an action
erroneously, denied his or her claim for eligibility or for covered benefits or services, or issued a
determination of an individual's liability, or has not acted upon the claim with reasonable
promptness including, if applicable (i) An initial or subsequent decision regarding eligibility;
(ii) A determination of the amount of medical expenses that an individual must incur in order to
establish eligibility in accordance with § 435.121(e)(4) or § 435.831 of this chapter; or
(iii) A determination of the amount of premiums and cost sharing charges under subpart A of
part 447 of this chapter;
(iv) A change in the amount or type of benefits or services; or
42 C.F.R. § 431.244 Hearing decisions
(a) Hearing recommendations or decisions must be based exclusively on evidence introduced at
the hearing....
(f) The agency must take final administrative action as follows:

20

(1) Ordinarily, within 90 days from:
(i) The date the enrollee filed an MCO, PIHP, or PAHP appeal, not including the number of days
the enrollee took to subsequently file for a State fair hearing; or
(ii) For all other fair hearings, the date the agency receives a request for a fair hearing in
accordance with § 431.221(a)(1).
(2) As expeditiously as the enrollee’s health condition requires, but no later than 3 working days
after the agency receives, from the MCO, PIHP, or PAHP, the case file and information for any
appeal of a denial of a service that, as indicated by the MCO, PIHP, or PAHP—
(i) Meets the criteria for expedited resolution as set forth in 438.410(a) of this chapter, but was
not resolved within the timeframe for expedited resolution; or
(ii) Was resolved within the timeframe for expedited resolution, but reached a decision wholly or
partially adverse to the enrollee.
(3) In the case of individuals granted an expedited fair hearing in accordance with §
431.224(a)—
(i) For a claim related to eligibility described in § 431.220(a)(1), or any claim described in §
431.220(a)(2) (relating to a nursing facility) or § 431.220(a)(3) (related to preadmission and
annual resident review), as expeditiously as possible and, effective no later than the date
described in § 435.1200(i) of this chapter, no later than 7 working days after the agency receives
a request for expedited fair hearing; or
(ii) For a claim related to services or benefits described in § 431.220(a)(1) as expeditiously as
possible and, effective no later than the date described in § 435.1200(i) of this chapter, within the
time frame in paragraph (f)(2) of this section.

21

(iii) For a claim related to services or benefits described in § 431.220(a)(4), (5) or (6), in
accordance with the time frame in paragraph (f)(2) of this section.
(4)
(i) The agency must take final administrative action on a fair hearing request within the time
limits set forth in this paragraph except in unusual circumstances when—
(A) The agency cannot reach a decision because the appellant requests a delay or fails to take a
required action; or
(B) There is an administrative or other emergency beyond the agency’s control.
(ii) The agency must document the reasons for any delay in the appellant’s record.
(g) The public must have access to all agency hearing decisions, subject to the requirements of
subpart F of this part for safeguarding of information.
42 C.F.R. § 440.169 Case management services
(a) Case management services means services furnished to assist individuals, eligible under the
State plan who reside in a community setting or are transitioning to a community setting, in
gaining access to needed medical, social, educational, and other services, in accordance with §
441.18 of this chapter.
(b) Targeted case management services means case management services furnished without
regard to the requirements of § 431.50(b) of this chapter (related to statewide provision of
services) and § 440.240 (related to comparability). Targeted case management services may be
offered to individuals in any defined location of the State or to individuals within targeted groups
specified in the State plan.
(c) [Reserved]

22

(d) The assistance that case managers provide in assisting eligible individuals obtain services
includes (1) Comprehensive assessment and periodic reassessment of individual needs, to determine the
need for any medical, educational, social, or other services. These assessment activities include
the following:
(i) Taking client history.
(ii) Identifying the needs of the individual, and completing related documentation.
(iii) Gathering information from other sources, such as family members, medical providers,
social workers, and educators (if necessary) to form a complete assessment of the eligible
individual.
(2) Development (and periodic revision) of a specific care plan based on the information
collected through the assessment, that includes the following:
(i) Specifies the goals and actions to address the medical, social, educational, and other services
needed by the eligible individual.
(ii) Includes activities such as ensuring the active participation of the eligible individual and
working with the individual (or the individual's authorized health care decision maker) and
others to develop those goals.
(iii) Identifies a course of action to respond to the assessed needs of the eligible individual.
(3) Referral and related activities (such as scheduling appointments for the individual) to help the
eligible individual obtain needed services, including activities that help link the individual with
medical, social, and educational providers or other programs and services that are capable of
providing needed services to address identified needs and achieve goals specified in the care

23

plan.
(4) Monitoring and follow-up activities, including activities and contacts that are necessary to
ensure that the care plan is effectively implemented and adequately addresses the needs of the
eligible individual and which may be with the individual, family members, service providers, or
other entities or individuals and conducted as frequently as necessary, and including at least one
annual monitoring, to help determine whether the following conditions are met:
(i) Services are being furnished in accordance with the individual's care plan.
(ii) Services in the care plan are adequate.
(iii) There are changes in the needs or status of the eligible individual. Monitoring and follow-up
activities include making necessary adjustments in the care plan and service arrangements with
providers.
(e) Case management may include contacts with non-eligible individuals that are directly related
to the identification of the eligible individual's needs and care, for the purposes of helping the
eligible individual access services, identifying needs and supports to assist the eligible individual
in obtaining services, providing case managers with useful feedback, and alerting case managers
to changes in the eligible individual's needs.
42 C.F.R. § 441.18 Case management services
(a) If a State plan provides for case management services (including targeted case management
services), as defined in § 440.169 of this chapter, the State must meet the following
requirements:
(1) Allow individuals the free choice of any qualified Medicaid provider within the specified
geographic area identified in the plan when obtaining case management services, in accordance

24

with § 431.51 of this chapter, except as specified in paragraph (b) of this section.
(2) Not use case management (including targeted case management) services to restrict an
individual's access to other services under the plan.
(3) Not compel an individual to receive case management services, condition receipt of case
management (or targeted case management) services on the receipt of other Medicaid services,
or condition receipt of other Medicaid services on receipt of case management (or targeted case
management) services.
(4) Indicate in the plan that case management services provided in accordance with section
1915(g) of the Act will not duplicate payments made to public agencies or private entities under
the State plan and other program authorities;
(5) [Reserved]
(6) Prohibit providers of case management services from exercising the agency's authority to
authorize or deny the provision of other services under the plan.
(7) Require providers to maintain case records that document for all individuals receiving case
management as follows:
(i) The name of the individual.
(ii) The dates of the case management services.
(iii) The name of the provider agency (if relevant) and the person providing the case
management service.
(iv) The nature, content, units of the case management services received and whether goals
specified in the care plan have been achieved.
(v) Whether the individual has declined services in the care plan.

25

(vi) The need for, and occurrences of, coordination with other case managers.
(vii) A timeline for obtaining needed services.
(viii) A timeline for reevaluation of the plan.
(8) Include a separate plan amendment for each group receiving case management services that
includes the following:
(i) Defines the group (and any subgroups within the group) eligible to receive the case
management services.
(ii) Identifies the geographic area to be served.
(iii) Describes the case management services furnished, including the types of monitoring.
(iv) Specifies the frequency of assessments and monitoring and provides a justification for those
frequencies.
(v) Specifies provider qualifications that are reasonably related to the population being served
...
42 C.F.R. § 441.301 Contents of request for a waiver
(a) A request for a waiver under this section must consist of the following:
(1) The assurances required by § 441.302 and the supporting documentation required by §
441.303....
(b) If the agency furnishes home and community-based services, as defined in § 440.180 of this
subchapter, under a waiver granted under this subpart, the waiver request must (1) Provide that the services are furnished (i) Under a written person-centered service plan (also called plan of care) that is based on a
person-centered approach and is subject to approval by the Medicaid agency.

26

(ii) Only to beneficiaries who are not inpatients of a hospital, NF, or ICF/IID; and
(iii) Only to beneficiaries who the agency determines would, in the absence of these services,
require the Medicaid covered level of care provided in (A) A hospital (as defined in § 440.10 of this chapter);
(B) A NF (as defined in section 1919(a) of the Act); or
(C) An ICF/IID (as defined in § 440.150 of this chapter);
(2) Describe the qualifications of the individual or individuals who will be responsible for
developing the individual plan of care;
(3) Describe the group or groups of individuals to whom the services will be offered;
(4) Describe the services to be furnished so that each service is separately defined. Multiple
services that are generally considered to be separate services may not be consolidated under a
single definition. Commonly accepted terms must be used to describe the service and definitions
may not be open ended in scope. CMS will, however, allow combined service definitions
(bundling) when this will permit more efficient delivery of services and not compromise either a
beneficiary's access to or free choice of providers.
(5) Provide that the documentation requirements regarding individual evaluation, specified in §
441.303(c), will be met; and
(6) Be limited to one or more of the following target groups or any subgroup thereof that the
State may define:
(i) Aged or disabled, or both.
(ii) Individuals with Intellectual or Developmental Disabilities, or both.
(iii) Mentally ill.

27

(c) A waiver request under this subpart must include the following (1) Person-centered planning process. The individual will lead the person-centered planning
process where possible. The individual's representative should have a participatory role, as
needed and as defined by the individual, unless State law confers decision-making authority to
the legal representative. All references to individuals include the role of the individual's
representative. In addition to being led by the individual receiving services and supports, the
person-centered planning process.
(i) Includes people chosen by the individual.
(ii) Provides necessary information and support to ensure that the individual directs the process
to the maximum extent possible, and is enabled to make informed choices and decisions.
(iii) Is timely and occurs at times and locations of convenience to the individual.
(iv) Reflects cultural considerations of the individual and is conducted by providing information
in plain language and in a manner that is accessible to individuals with disabilities and persons
who are limited English proficient, consistent with § 435.905(b) of this chapter.
(v) Includes strategies for solving conflict or disagreement within the process, including clear
conflict-of-interest guidelines for all planning participants.
(vi) Providers of HCBS for the individual, or those who have an interest in or are employed by a
provider of HCBS for the individual must not provide case management or develop the
person-centered service plan, except when the State demonstrates that the only willing and
qualified entity to provide case management and/or develop person-centered service plans in a
geographic area also provides HCBS. In these cases, the State must devise conflict of interest
protections including separation of entity and provider functions within provider entities, which

28

must be approved by CMS. Individuals must be provided with a clear and accessible alternative
dispute resolution process.
(vii) Offers informed choices to the individual regarding the services and supports they receive
and from whom.
(viii) Includes a method for the individual to request updates to the plan as needed.
(ix) Records the alternative home and community-based settings that were considered by the
individual.
(2) The Person-Centered Service Plan. The person-centered service plan must reflect the services
and supports that are important for the individual to meet the needs identified through an
assessment of functional need, as well as what is important to the individual with regard to
preferences for the delivery of such services and supports. Commensurate with the level of need
of the individual, and the scope of services and supports available under the State's 1915(c)
HCBS waiver, the written plan must:
(i) Reflect that the setting in which the individual resides is chosen by the individual. The
State must ensure that the setting chosen by the individual is integrated in, and supports
full access of individuals receiving Medicaid HCBS to the greater community, including
opportunities to seek employment and work in competitive integrated settings, engage in
community life, control personal resources, and receive services in the community to the
same degree of access as individuals not receiving Medicaid HCBS.
(ii) Reflect the individual's strengths and preferences.
(iii) Reflect clinical and support needs as identified through an assessment of functional need.
(iv) Include individually identified goals and desired outcomes.

29

(v) Reflect the services and supports (paid and unpaid) that will assist the individual to achieve
identified goals, and the providers of those services and supports, including natural supports.
Natural supports are unpaid supports that are provided voluntarily to the individual in lieu of
1915(c) HCBS waiver services and supports.
(vi) Reflect risk factors and measures in place to minimize them, including individualized
back-up plans and strategies when needed.
(vii) Be understandable to the individual receiving services and supports, and the individuals
important in supporting him or her. At a minimum, for the written plan to be understandable, it
must be written in plain language and in a manner that is accessible to individuals with
disabilities and persons who are limited English proficient, consistent with § 435.905(b) of this
chapter.
(viii) Identify the individual and/or entity responsible for monitoring the plan.
(ix) Be finalized and agreed to, with the informed consent of the individual in writing, and signed
by all individuals and providers responsible for its implementation.
(x) Be distributed to the individual and other people involved in the plan.
(xi) Include those services, the purpose or control of which the individual elects to self-direct.
(xii) Prevent the provision of unnecessary or inappropriate services and supports.
(xiii) Document that any modification of the additional conditions, under paragraph (c)(4)(vi)(A)
through (D) of this section, must be supported by a specific assessed need and justified in the
person-centered service plan. The following requirements must be documented in the
person-centered service plan:
(A) Identify a specific and individualized assessed need.

30

(B) Document the positive interventions and supports used prior to any modifications to the
person-centered service plan.
(C) Document less intrusive methods of meeting the need that have been tried but did not work.
(D) Include a clear description of the condition that is directly proportionate to the specific
assessed need.
(E) Include a regular collection and review of data to measure the ongoing effectiveness of the
modification.
(F) Include established time limits for periodic reviews to determine if the modification is still
necessary or can be terminated.
(G) Include informed consent of the individual.
(H) Include an assurance that interventions and supports will cause no harm to the individual.
(3) Review of the Person-Centered Service Plan. The person-centered service plan must be
reviewed, and revised upon reassessment of functional need as required by § 441.365(e), at least
every 12 months, when the individual's circumstances or needs change significantly, or at the
request of the individual.
(4) Home and Community-Based Settings. Home and community-based settings must have all of
the following qualities, and such other qualities as the Secretary determines to be appropriate,
based on the needs of the individual as indicated in their person-centered service plan:
(i) The setting is integrated in and supports full access of individuals receiving Medicaid HCBS
to the greater community, including opportunities to seek employment and work in competitive
integrated settings, engage in community life, control personal resources, and receive services in
the community, to the same degree of access as individuals not receiving Medicaid HCBS.

31

(ii) The setting is selected by the individual from among setting options including non-disability
specific settings and an option for a private unit in a residential setting. The setting options are
identified and documented in the person-centered service plan and are based on the individual's
needs, preferences, and, for residential settings, resources available for room and board.
(iii) Ensures an individual's rights of privacy, dignity and respect, and freedom from coercion
and restraint.
(iv) Optimizes, but does not regiment, individual initiative, autonomy, and independence in
making life choices, including but not limited to, daily activities, physical environment, and with
whom to interact.
(v) Facilitates individual choice regarding services and supports, and who provides them.
(vi) In a provider-owned or controlled residential setting, in addition to the qualities at §
441.301(c)(4)(i) through (v), the following additional conditions must be met:
(A) The unit or dwelling is a specific physical place that can be owned, rented, or occupied under
a legally enforceable agreement by the individual receiving services, and the individual has, at a
minimum, the same responsibilities and protections from eviction that tenants have under the
landlord/tenant law of the State, county, city, or other designated entity. For settings in which
landlord tenant laws do not apply, the State must ensure that a lease, residency agreement or
other form of written agreement will be in place for each HCBS participant, and that the
document provides protections that address eviction processes and appeals comparable to those
provided under the jurisdiction's landlord tenant law.
(B) Each individual has privacy in their sleeping or living unit:
(1) Units have entrance doors lockable by the individual, with only appropriate staff having keys

32

to doors.
(2) Individuals sharing units have a choice of roommates in that setting.
(3) Individuals have the freedom to furnish and decorate their sleeping or living units within the
lease or other agreement.
(C) Individuals have the freedom and support to control their own schedules and activities, and
have access to food at any time.
(D) Individuals are able to have visitors of their choosing at any time.
(E) The setting is physically accessible to the individual.
(F) Any modification of the additional conditions, under § 441.301(c)(4)(vi)(A) through (D),
must be supported by a specific assessed need and justified in the person-centered service plan.
The following requirements must be documented in the person-centered service plan:
(1) Identify a specific and individualized assessed need.
(2) Document the positive interventions and supports used prior to any modifications to the
person-centered service plan.
(3) Document less intrusive methods of meeting the need that have been tried but did not work.
(4) Include a clear description of the condition that is directly proportionate to the specific
assessed need.
(5) Include regular collection and review of data to measure the ongoing effectiveness of the
modification.
(6) Include established time limits for periodic reviews to determine if the modification is still
necessary or can be terminated.
(7) Include the informed consent of the individual.

33

(8) Include an assurance that interventions and supports will cause no harm to the individual.
(5) Settings that are not Home and Community-Based. Home and community-based settings do
not include the following:
(i) A nursing facility;
(ii) An institution for mental diseases;
(iii) An intermediate care facility for individuals with intellectual disabilities;
(iv) A hospital; or
(v) Any other locations that have qualities of an institutional setting, as determined by the
Secretary. Any setting that is located in a building that is also a publicly or privately operated
facility that provides inpatient institutional treatment, or in a building on the grounds of, or
immediately adjacent to, a public institution, or any other setting that has the effect of isolating
individuals receiving Medicaid HCBS from the broader community of individuals not receiving
Medicaid HCBS will be presumed to be a setting that has the qualities of an institution unless the
Secretary determines through heightened scrutiny, based on information presented by the State
or other parties, that the setting does not have the qualities of an institution and that the setting
does have the qualities of home and community-based settings.

34

